<html>
<title> - NEXT STEPS IN IRAQ</title>
<body><pre>[Senate Hearing 107-798]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-798
 
                           NEXT STEPS IN IRAQ
=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        SEPTEMBER 25 AND 26, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                           U.S. GOVERNMENT PRINTING OFFICE
83-463                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                     Wednesday, September 25, 2002

                                                                   Page

Holbrooke, Hon. Richard C., former U.S. Ambassador to the United 
  Nations, counselor, Council on Foreign Relations, New York, NY.     3
    Prepared statement...........................................     9
Letter to President Bush from Senators Biden and Lugar regarding 
  Iraq, dated September 10, 2002.................................    16
McFarlane, Hon. Robert C., former National Security Advisor, 
  chairman, Energy & Communications Solutions, Washington, DC....    12
    Prepared statement...........................................    14
USA Today/CNN/Gallup Poll, September 23, 2002--Questions on 
  Invading Iraq..................................................    30

                      Thursday, September 26, 2002

Albright, Hon. Madeleine K., former Secretary of State, chairman, 
  National Democratic Institute, Washington, DC..................    52
    Prepared statement...........................................    56
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................   109
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................   110
``In Iraq's Arsenal: Nature's Deadliest Poison,'' article by 
  Steve Sternberg, USA Today, September 26, 2002.................    87
Kissinger, Hon. Henry A., former Secretary of State, CEO, 
  Kissinger Associates, Inc., New York, NY.......................    58
    Prepared statement...........................................    61
Letter to Particia A. McNerney, Republican staff director, from 
  Ryan C. Crocker, Deputy Assistant Secretary of State for Near 
  Eastern Affairs, dated May 29, 2002............................    74
Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................   111
    Prepared statement...........................................   118
    Response to additional question for the record from Senator 
      Biden......................................................   158

                                 (iii)

  


                           NEXT STEPS IN IRAQ

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Wellstone, 
Boxer, Bill Nelson, Rockefeller, Helms, Lugar, Hagel, Chafee, 
and Brownback.
    The Chairman. The hearing will come to order, please. Good 
afternoon. In late July and early August, this committee held 2 
days of hearings on U.S. policy toward Iraq, and our purpose 
was to begin a national discussion of that policy and to raise 
some of the difficult questions surrounding any consideration 
of the next step. We heard from a broad range of expert 
witnesses, and in the weeks since prominent Americans with 
decades of experience in foreign policy and national security 
policy have spoken out, and so has the Bush administration in 
public statements, in hearings before the Congress, and 
President Bush's powerful speech in the United Nations General 
Assembly.
    As a result, I believe there is an emerging bipartisan 
consensus on the basic principles for moving forward on Iraq, 
and rather than give this entire statement that I have, let me 
suggest that I am of the view, and speaking for myself, that no 
matter how well conducted, foreign policy cannot be sustained 
without the informed consent of the American people.
    I personally am looking forward to the President shortly 
going to the Nation, as he went to the United Nations, and 
making the case for what he wishes to do relative to Iraq. He 
made a compelling case in the United Nations as to why Iraq has 
violated the United Nations' own rules, principles, and 
sanctions, but that is not sufficient, in my view, nor do I 
believe the President believes it is sufficient to convince the 
American people as to what we must do.
    It is one thing to lay out the threat. But we need a clear, 
unequivocal statement of what the U.S. objective is in Iraq. Is 
it weapons of mass destruction? Is it regime change? Is it 
return of Bahraini prisoners? What is it? Why has--and I 
believe I am inclined to believe it has, but why has the policy 
of containing Saddam failed? What is the urgency? What are the 
regional considerations? What should we be prepared for? What 
is likely to occur in the mind of the President, and what 
about--Senator Lugar and I sent an extensive letter to the 
President prior to his speech before the United Nations asking 
him to consider, which I am positive he will, what other 
commitments are we talking about?
    What about the day after? What responsibility, if any, do 
we have? What is the President's vision for what Iraq will look 
like after Saddam is gone? Are we committing the American 
people to a sustained commitment to Iraq until there is 
stability in Iraq?
    I realize no one can predict exactly how long that would 
take, but what is the commitment we are making? What are we 
about to do?
    And so there are many questions to be answered. I think 
they all have answers, and I am, for one, anxious to hear the 
President lay out in some explicit detail what it is he is 
going to be asking of the American people, and I, for one, 
believe that, as I have said before, if Saddam Hussein is 
around 5 years from now, we have a serious problem.
    The question is, again, what are we asking the American 
people? What are we about to commit them to, and what latitude 
and authority does the President need to meet those 
commitments?
    With that, let me yield, and I might add, tomorrow we are 
going to be hearing from former Secretaries of State as well as 
the Secretary of State. Unfortunately, two of our witnesses had 
to cancel. I sincerely thank Mr. McFarlane for responding on 
such very short notice to be able to be here today, but we will 
continue this process of trying to discern what it is that we 
are about to sign on to and, as I said, I know of no policy 
that can be sustained unless you tell the American people, 
front end, what it is that we are going to expect of them. And 
I think they are up to anything, anything we ask of them if we 
are straight with them and tell them what the potential price 
may be in order to enhance our security, and we clearly would 
be more secure without Saddam Hussein in possession of weapons 
of mass destruction.
    I would yield to my friend Senator Helms, and I think I am 
right, Mr. Chairman, that this is your first hearing. You have 
been here for a markup, but your first hearing since you had to 
take a little sojourn and get yourself back in shape again, and 
we are delighted to see you back.
    Senator Helms. I am running 60 miles an hour now.
    The Chairman. That is about 20 miles an hour faster than I 
run, and about 40 miles slower than you usually run, and I have 
no doubt you will be up to 100 in no time.
    Senator Helms. If you will believe what I just said, you 
will believe anything.
    Of course, we welcome Richard Holbrooke and Mr. McFarlane. 
We have met with them many times, and they have been many times 
helpful. The focus of the hearing today, as Joe has said, will 
be the role of the United Nations in addressing the threats 
posed by the Iraqi regime of Saddam Hussein and, Mr. Chairman, 
I recall when we took our committee to the United Nations for 
hearings when Ambassador Holbrooke was serving in New York, we 
had a discussion about Secretary General Kofi Annan's assertion 
that the United Nations charter was the sole source of 
legitimacy in the use of force, and during that hearing you and 
I forcefully agreed that this was not the view of the U.S. 
Senate.
    While the President is attempting to ascertain a political 
recitation at the United Nations and support from a coalition 
of the willing, there is no debate that the United States 
retains the authority to use force to protect the national 
security interest of the United States, and with that, I am 
going to conclude, and await answers and the testimony of our 
two distinguished witnesses.
    The Chairman. Our first panel today is Ambassador Richard 
C. Holbrooke, who served as the United States Permanent 
Representative to the United Nations from 1999 to 2001. Before 
joining the U.N. mission, he was vice chairman of Credite 
Suisse First Boston from 1996 to 1999. He also served as 
Assistant Secretary of State for European and Canadian Affairs 
from 1994 to 1996, and was the Ambassador to Germany from 1993 
to 1994, and is currently a counselor for the Council on 
Foreign Relations, and vice chairman of a leading private 
equity firm.
    We also have Hon. Robert McFarlane. It is good to have you 
back.
    Mr. McFarlane was National Security Advisor from 1983 to 
1985. He also served as Deputy National Security Advisor from 
1982 to 1983, and counselor at the State Department from 1981 
to 1982. He is currently chairman of Energy and Communications 
Solutions, an infrastructure development firm.
    I welcome you both, and we regret that Mr. Pickering and 
Ambassador Kirkpatrick were unable at the last moment to be 
able to appear, and we thank both the witnesses for being here.
    The floor is yours, Mr. Ambassador.

STATEMENT OF HON. RICHARD C. HOLBROOKE, FORMER U.S. AMBASSADOR 
TO THE UNITED NATIONS, COUNSELOR, COUNCIL ON FOREIGN RELATIONS, 
                          NEW YORK, NY

    Ambassador Holbrooke. Thank you, Mr. Chairman, members of 
this distinguished committee. It is a great honor to appear 
before you again today at the start of hearings of such 
historic importance, and to join you, Mr. Chairman, in 
especially welcoming Senator Helms back here again.
    The last time I testified before this committee, he sat 
where you did, and you were very gracious in your support of 
me, and I welcome the confidence and support all of you who are 
here today have given me.
    In my opening remarks, I shall discuss three key issues, 
first, the process which is finally underway in both the 
Congress and the United Nations Security Council after what I 
believe was a costly and unnecessary delay; second, the goal of 
American policy in regard to Iraq, that is, regime change, 
which I support; and third, the draft resolution before you 
today, to which I would suggest four specific changes before 
passage.
    In regard to the first matter, let me say that the process 
does, indeed, matter, and the prolonged reluctance of the 
administration to consult adequately with either the Congress 
or the Security Council was a costly, self-inflicted mistake. 
During the long and confused summer, an impression of disarray 
was left with the world, and during that same period those who 
opposed any action against Saddam and those who simply 
disagreed with the tactics being followed coalesced into a 
large, almost inadvertent opposition. It was only when the 
President and the administration, however reluctantly, pledged 
to send a resolution to the Hill that the problem here began to 
resolve itself, but the problem is far from over.
    If the administration refuses to consider responsible and 
serious changes to the resolution that comes out of Congress, 
it would again needlessly weaken the unity necessary for 
success. Congress always has a role in such issues, and it must 
be a coequal branch in deliberations over the draft before you. 
Senator Helms, I even knew that before you told it to me, 
because I learned it in high school, but it was one of your 
main lessons in your trips to New York, and I just want to 
repeat it.
    The other matter was equally serious, the all-too-visible 
contempt for the United Nations, and even some of our closest 
friends, was a major impediment to the very sort of collective 
action that is most likely to succeed.
    The President's well-crafted and well-delivered speech to 
the General Assembly in New York, followed by Secretary 
Powell's intense negotiations with Security Council members, 
has significantly improved the situation. I know that some 
Members of this body have strong views on the proper sequencing 
of these two tracks, specifically that congressional action 
should follow a new Security Council resolution, as was the 
case in 1990-1991.
    My own view on this is that it would be better in this case 
if the Congress did act first. This would help Secretary Powell 
in obtaining the best possible resolution at the Security 
Council by sending a signal of national unity to the Security 
Council's members, especially those countries most critical to 
Security Council resolution. Russia and France of course come 
to mind.
    However, I would add that sequencing is not an absolutely 
critical issue. It can work in either direction. The exact 
wording of your resolution that is before you today, which I 
will turn to in a moment, is, however, extremely important. 
While it is absolutely necessary for the United States to make 
a clear, good faith effort to achieve a new Security Council 
resolution, I do not believe it is absolutely essential to 
achieve it. Highly desirable, yes. Absolutely essential, no.
    Saddam's clear violation of existing Security Council 
resolutions does provide an existing legal basis for action, 
but as former Secretary of State James Baker has written, from 
a political and practical point of view, it would greatly 
enhance America's position if we received another clear, 
renewed mandate, and that is what Secretary Powell is currently 
seeking.
    In fact, twice in the last decade, in Bosnia in 1995 and 
especially in Kosovo in 1999, the Clinton administration took 
military action without Security Council approval, and that was 
because the Russians had indicated to us that they would veto. 
To be sure, we did have unanimous NATO support in both cases, 
something that is far less likely today, especially in light of 
recent events in Germany.
    The Clinton administration's actions in Bosnia, which were 
supported by many members of this committee, most notably 
Chairman Biden, who had urged action years before it took 
place, did not even receive support from the House, yet 
President Clinton acted in accordance with his constitutional 
authority. As you proceed, I hope we should keep in mind and 
not ignore such recent history.
    Having said that, I wish to make clear that in my view the 
dismissive attitude shown by some members of the administration 
toward the U.N. over the last 20 months was not only 
unnecessary, but it weakened us internationally for no reason 
at all, especially when we belatedly sought international 
support.
    I speak of this issue before a committee whose leadership 
on this issue is unparalleled and before a chairman who, along 
with his predecessor, Senator Helms, wrote an important page in 
the history of United States-United Nations relations. I will 
always be deeply grateful for the support, advice, and 
encouragement that I received from every member of the 
committee who is here today and many others as we face the 
effort to reform the financial structure of the U.N. in 
accordance with the Helms-Biden legislation.
    With regular visits to New York from most of this 
committee, including a decisive one from Senator Biden in 
December of 2000, we were able to persuade all 190 nations of 
the United Nations to approve the most fundamental overhaul of 
the U.N. financial structure in almost 30 years, a reform that 
included a 15-percent reduction of U.S. dues to the U.N. Yet 
despite the best efforts of Senator Biden, Senator Helms, and 
many of you, all of you on this committee, in fact, the 
Congress has still failed to release the remaining $244 million 
due in the third round of the Helms-Biden effort to pay down 
the arrears.
    I mention this issue, which may seem diversionary to why we 
are here today, for a reason. In order to lead, in order to 
assemble international coalitions of the willing for action, as 
President George Herbert Walker Bush did in 1991, groundwork 
must be laid internationally through efforts like the 
collaborative Helms-Biden reform effort at the U.N. Without the 
success of that effort, the administration would be facing 
today arrears of such magnitude that Secretary Powell's efforts 
and the national interest in gaining Security Council approval 
would be severely weakened, yet some people still do not see 
that the United Nations, with all its flaws, is still 
indispensable, and that it serves our national interests far 
more often than it weakens them. This is especially true if the 
United States, instead of ignoring or undermining the United 
Nations, works to strengthen it through strong leadership.
    Let me now turn to the question of America's national 
security goals in this unfolding drama. The last 
administration, of which I was part, supported regime change as 
a legitimate policy goal. This was a change from the position 
of the first Bush administration, and one I fully supported. I 
would point out that after Kosovo and the indictment of 
Slobodan Milosevic by the International War Crimes Tribunal, we 
adopted a similar goal regarding Milosevic and carried out a 
policy of isolation, covert assistance, overt assistance to his 
opponents and, with the decisive involvement of the Serbian 
people, ultimately succeeded.
    Now, in my view, Saddam is even more dangerous than 
Milosevic, given his continuing quest for weapons of mass 
destruction. Left alone, he will only seek to become stronger. 
Senator Biden said in his opening remarks, if Saddam is around 
5 years from now, we have a serious problem. I certainly agree 
with that, and I think we would all agree that we already have 
a problem. It just gets more serious if we delay dealing with 
it.
    Hence, I accept the argument that once the goal of regime 
change is established, the United States should work to achieve 
it. Having agreed that regime change is desirable, even 
necessary, does not, however, go to the question of means. If 
events take a fortunate turn, the people themselves might rise 
up and remove a dictator after massive international pressure 
and isolation. Although this has happened in the last 17 years 
in one form or another in such diverse places as the 
Philippines, Romania, and Yugoslavia, we all understand it is 
virtually inconceivable in Iraq.
    There is perhaps a somewhat higher chance that an 
individual, acting alone, or a small group of people with 
direct access to Saddam, might take action to eliminate a 
tyrant whose behavior threatens their own survival. This is, in 
fact, the situation today in Iraq. The entire Iraqi military 
surely must recognize that it will be destroyed, and probably 
quickly, if events follow their present course to its logical 
conclusion.
    Yet even as we hope for such an outcome, we cannot base 
policy on it. That would be substituting prayer for policy, and 
that is not a good approach to a serious foreign policy issue 
like the one before you today. Still, it is tempting to 
entertain the hope before we move on to more realistic and more 
difficult scenarios.
    This brings us back to the use of force to achieve our 
goals. If all else fails, collective action against Saddam is, 
in my view, justified by the situation and the record of the 
last decade. While we talk of airtight inspections, weapons 
inspections, no notice anywhere, any time, and disarmament, we 
must recognize that once launched on a course for either of 
those goals the chances for a military conflict go up 
dramatically, because Saddam is unlikely to fully comply, so we 
should not deceive ourselves on this point, Mr. Chairman. We 
are talking today about a very possible war and, once started, 
that war will have as its objective, whether stated or not, a 
change of regime in Baghdad.
    It is highly unfortunate that some advocates of regime 
change have talked in terms of, ``going it alone,'' or the need 
to, ``act unilaterally,'' or proclaim an alleged new doctrine 
of preemptive war. In fact, the United States will not be alone 
in such a campaign, as Secretary Rumsfeld has stated in the 
last week. In addition to the British, whose Prime Minister, 
Tony Blair, deserves enormous praise for his staunch and 
eloquent support of the United States, and especially for his 
extraordinary presentation yesterday in the House of Commons, 
which goes much farther than anything issued here in this 
country so far in justifying the stand that both of us have 
taken, I believe that Turkey, the indispensable NATO ally, will 
be supportive, as well as several other key nations that will 
find ways to assist the campaign without compromising their own 
domestic situation.
    I also believe that the odds favor a successful outcome 
against Iraq and, as Senator John Kerry has written recently, 
probably rather quickly. The deterioration of the Iraqi 
military since 1991, and the vast improvement in the American 
military, which I have seen first-hand over the last four 
decades, suggests that success should be readily achievable. 
However, in the fog of war, terrible things can happen. There 
is a real danger that we should not ignore, which we cannot 
ignore, that what starts as a war against Iraq, especially if 
protracted, could metastasize into wider conflict between Arabs 
and Israel.
    It is, in my view, irresponsible for people, some of them 
closely allied to the administration and purporting to speak 
for it, to talk of the war as a ``cake walk'' or a quick trip 
to Baghdad. They may be right, and, like all Americans, I hope 
this will be the case if war comes, but such language, Mr. 
Chairman, such language demeans and insults the risks that 
brave young American men and women will face and are already 
facing in Afghanistan and the Balkans, and the casualties that 
will inevitably take place, even under the best of 
circumstances.
    I defer, of course, to several members of this committee 
whose courage under fire in Vietnam is a matter of record, but 
as a veteran of 3\1/2\ years as a State Department civilian 
working alongside the military in the Mekong Delta and in 
Saigon, as an eye witness to war and its horrors on two other 
continents, I must stress the obvious, war is truly hell. There 
is nothing noble or heroic about its consequences. Even though 
it can bring out the best in people, it can also bring out the 
worst. If war comes, let us go forward with a sober 
appreciation of its horrors, its waste, its costs.
    Let me turn now, finally, to the draft resolution itself. I 
note that in transmitting it to the Congress, the White House 
invited a full and frank discussion over the draft wording. As 
Chairman Biden already noted earlier this week, it is just a 
draft. The last time such a draft came up right after September 
11, changes were made in a bipartisan spirit. I believe the 
current draft proposal from the administration would, indeed, 
need to benefit from the same action by you and your 
colleagues, although I hope that it will be as rapid as 
possible.
    Let me offer four initial specific suggestions for 
improvement of the draft before you, and I think there may be 
many others, but I would like to offer you four. First, and 
most important, I believe the authority requested in the final 
sentence, section 2, is too broad, specifically in regard to 
the third phrase, which would authorize the President to use 
all means to ``restore international peace and security in the 
region.''
    This phrase, which I believe is taken out of context from 
paragraph 34 of U.N. Security Council Resolution 687 of 1991, 
has a different meaning in the draft resolution before you than 
it had in Security Council Resolution 687. It is far too broad. 
It amounts to virtual blank check authority. Resolution 687 
clearly referred only to the preceding paragraphs of that 
specific Security Council resolution.
    The region referred to in Security Council Resolution 687 
meant Kuwait and Iraq and, Mr. Chairman, I checked this with 
Ambassador Pickering when he realized he could not be here 
today. He was the Ambassador in New York at the time it was 
passed. He was absolutely clear that that phrase in Resolution 
687 meant only Iraq and Kuwait, and I would like to offer that 
to you as you deliberate.
    In the draft before you, however, the phrase could mean 
anything at all, and I strongly endorse the concerns addressed 
by Senator Feingold and some of his colleagues. The phrase 
should simply be removed. Refining it, which is an option, is 
simply too cumbersome and unnecessary. The final resolution 
should, in my view, focus clearly on Iraq, nothing else.
    My second suggestion, Mr. Chairman, is that the resolution 
contain a statement of strong support for the efforts of the 
President, the Secretary of State, and their colleagues to seek 
and achieve a satisfactory Security Council resolution. For 
some reason, the draft does not emphasize the effort at the 
Security Council, which I know is of great concern to all of 
us. This would emphasize the importance of the Security Council 
and show our unity to those nations now wavering over this 
issue.
    Third, I would suggest that you add a reporting clause 
requiring the administration to inform and consult Congress on 
a very timely basis, perhaps as frequently as every month, in 
writing, and even more frequently in closed and highly 
confidential meetings, as they proceed. The administration 
should not be left with the ability to say that if this 
resolution passes, they have discharged their obligation to 
consult and inform Congress, as President Johnson did after the 
Gulf of Tonkin resolution in August 1964.
    I remember this vividly, because I was in Vietnam when that 
passed, and quite frankly, and it is critical to your 
deliberations, none of us in Vietnam understood what the Gulf 
of Tonkin resolution meant. It was used for a purpose not 
intended by the people who voted for it, and it is very 
important that that not happen here.
    Fourth, I would strongly urge you to add a section 
concerning the importance of post-conflict reconstruction in 
Iraq as part of a broad new policy toward the region. Since the 
story of Afghanistan is not entirely satisfactory on this 
point, to put it mildly, and since some people are already 
suggesting that reconstruction can be done either by other 
countries, or simply through the Iraqis using their own oil 
revenues, it is important to make clear that you do not 
consider the job over simply if Saddam is replaced by somebody 
else.
    A successor might be almost as bad, or bad in a different 
way. Chaos could follow. The materiel for weapons of mass 
destruction could fall into the wrong hands. We do not want to 
see Iraq become a safe haven for other forms of terrorists, as 
happened in Afghanistan after the United States so 
unfortunately turned its back on that country in 1989. That 
mistake in Afghanistan, second only, in my opinion, to letting 
Saddam survive in 1991, created the conditions that led to 
Osama bin Laden and the al-Qaeda network setting up shop in 
Afghanistan.
    I would recommend, Mr. Chairman, therefore, that you add to 
this resolution language making clear that the post-Saddam 
structure in Iraq is of continuing concern to the United 
States, not only what happens in Baghdad, but also in the south 
and in the Kurdish north. These groups must not be betrayed and 
slaughtered again. The time to make that clear is now, before 
anything begins on the battlefield.
    Mr. Chairman, that concludes my opening statement. I thank 
you for the opportunity to be here, and look forward to 
entering into a dialog with you and your colleagues on this 
momentous occasion.
    [The prepared statement of Ambassador Holbrooke follows:]

 Prepared Statement of Hon. Richard C. Holbrooke, Former Ambassador to 
                           the United Nations

    Mr. Chairman, members of this distinguished Committee:
    It is a great honor to appear before you again today, at the start 
of hearings of such historic importance. In my opening remarks I shall 
discuss three key issues--first, the process which is finally underway 
in both the Congress and the United Nations Security Council, after a 
costly and unnecessary delay; second, the goal of American policy in 
regard to Iraq--that is, regime change--which I support; and third, the 
draft resolution before you today, to which I would suggest at least 
four specific changes before passage.
    In regard to the first matter, let me say that process does indeed 
matter, and the prolonged reluctance of the Administration to consult 
adequately with either the Congress or the United Nations Security 
Council was a costly self-inflicted mistake. During the long and 
confused summer, an impression of disarray was left with the world, and 
during that same period, those who opposed any action against Saddam 
and those who simply disagreed with the tactics being followed 
coalesced into a large, almost inadvertent opposition. It was only when 
the President and his team, however reluctantly, pledged to send a 
resolution to the Hill that the problem began to resolve itself and the 
problem is far from over. If the Administration refuses to consider 
changes from Congress it will--again--needlessly weaken the utility 
necessary for success. Congress always has a role in such issues, and 
it must be a co-equal branch in the deliberations over the draft before 
you. The other matter was equally serious: the all-too visible contempt 
for the United Nations and even some of our closest friends was a major 
impediment to the very sort of collective action that is most likely to 
succeed. The President's well-crafted and well-delivered speech to the 
General Assembly, followed by Secretary Powell's intense negotiations 
with Security Council members, has significantly improved the 
situation.
    I know that some members of this body have strong views on the 
proper sequencing of these two tracks--specifically, that Congressional 
action should follow a new Security Council resolution, as was the case 
in 1990-91. My own view on this is that it would be better in this case 
if the Congress acted first; this would help Secretary Powell in 
obtaining the best possible resolution by sending a signal of national 
unity to the members of the Security Council--especially those 
countries most critical to the resolution. Russia and France come to 
mind. However, I would add that sequencing is not an absolutely 
critical issue--it could work in either direction. The exact wording of 
your resolution, which I will turn to in a moment, is, however, very 
important.
    While it is absolutely necessary for the United States to make a 
clear good faith effort to achieve a new Security Council resolution, I 
do not believe it is absolutely essential to achieve it. Highly 
desireable--yes. Absolutely essential--no. Saddam's clear violation of 
existing Security Council resolutions does provide an existing legal 
basis for action. But, as former Secretary of State James Baker has 
written, from a political and practical point of view it would greatly 
enhance our position if we received another clear renewed mandate--and 
that is what Secretary Powell is currently seeking.
    In fact, twice in the last decade, in Bosnia in 1995 and especially 
in Kosovo in 1999, the Clinton Administration took military action 
without specific Security Council approval. To be sure, we did have 
unanimous NATO support in both cases, something that is less likely 
today in light of recent events in Germany. The Clinton 
Administration's actions in Bosnia, which were supported by many 
members of this Committee, most notably Chairman Biden--who had urged 
action years before it took place--did not even receive full support 
from the House, yet President Clinton acted in accordance with his 
Constitutional authority. We should not ignore such recent history as 
we proceed.
    Having said that, I wish to make clear that the dismissive attitude 
shown by some members of this Administration toward the United Nations 
over the last twenty months was not only unnecessary, it weakened us 
internationally for no reason at all, especially when we belatedly 
sought international support. I speak of this issue before a Committee 
whose leadership on this issue is unparalleled, and before a Chairman 
who, along with his predecessor, Senator Helms, wrote an important page 
in the history of U.S.-U.N. relations. I will always be deeply grateful 
for the support, advice and encouragement that I received from every 
member of this committee as we faced the effort to reform the financial 
structure of the UN in accordance with the Helms-Biden legislation. 
With regular visits to New York from most of this committee, including 
a decisive one from Senator Biden in December 2000, we were able to 
persuade all 190 member states of the UN to approve the most 
fundamental overhaul of the UN financial structure in almost thirty 
years, a reform that included a fifteen percent reduction in U.S. dues 
to the UN. Yet despite the best efforts of Senator Biden, Senator 
Helms, and many of you, the Congress has still failed to release the 
remaining $244 million due in the third round of the effort to pay down 
our arrears.
    I mention this issue for a reason: in order to lead, in order to 
assemble international coalitions for action--as President George H.W. 
Bush did in 1991--groundwork must be laid through efforts like the 
collaborative Helms-Biden reform effort. Without the success of that 
effort, we would now be facing an arrears of such magnitude that 
Secretary Powell's efforts would be weakened. Yet some still do not see 
that the United Nations, with all its flaws, is still indispensable, 
and serves our national interests far more often than it weakens them. 
This is especially true if the United States, instead of ignoring the 
UN, works to strengthen it through strong leadership.
    Let me now turn to the question of America's national security 
goals in this unfolding drama. The last Administration supported regime 
change as a legitimate policy goal. This was a change from the position 
of the first Bush Administration, and one that I fully supported. I 
would point out that, after Kosovo and the indictment of Slobodan 
Milosevic by the International War Crimes Tribunal, we adopted a 
similar goal regarding Milosevic, and carried out a policy of 
isolation, covert and overt assistance to his opponents, and--with the 
decisive involvement of the Serbian people--succeeded. Saddam is even 
more dangerous than Milosevic, given his continuing quest for weapons 
of mass destruction. Left alone, he will only seek to become stronger, 
and thus a greater threat to the region and beyond. Hence, I accept the 
argument that once the goal of regime change is established, the United 
States should work to achieve it.
    Having agreed that regime change is desirable--even necessary--does 
not, however, go to the question of means. If events take a fortunate 
turn, the people themselves may rise up and remove a dictator after 
massive international pressure and isolation. Although in the last 
seventeen years this has happened, in one form or another, in such 
diverse places as the Philippines, Romania, and Yugoslavia, we all 
understand that it is virtually inconceivable in Iraq. There is perhaps 
a somewhat higher chance that an individual acting alone, or a small 
group of people with direct access, might take action to eliminate a 
tyrant whose behavior threatens their own survival. This is, in fact, 
the situation today in Iraq: the entire Iraqi military surely must 
recognize that it will be destroyed--and probably quickly--if events 
follow their present course to its logical conclusion. Yet even as we 
hope for such an outcome, we cannot base policy on it; that would be 
substituting prayer for policy, never a good approach to a serious 
venture. Still, it is tempting to entertain the hope, before moving on 
to more realistic--and more difficult--scenarios.
    This brings us back to the use of force to achieve our goals. If 
all else fails, collective action against Saddam is, in my view, 
justified by the situation and the record of the last decade. While we 
talk of airtight weapons inspection--no notice, anywhere, anytime--and 
disarmament, we must recognize that once launched on a course for 
either of those objectives, the chances for a military conflict go up 
dramatically, since Saddam is unlikely to comply fully. So we should 
not deceive ourselves on this point: we are talking today about a very 
possible war. And once started, that war will have as its objective, 
whether stated or not, a change of regime in Baghdad.
    It is highly unfortunate that some advocates of regime change have 
talked in terms of ``going it alone'' or the need to act 
``unilaterally'' or proclaimed an alleged new doctrine of pre-emptive 
war. In fact, the United States will not be alone in such a campaign, 
as Secretary of Defense Rumsfeld stated last week. In addition to the 
British, whose Prime Minister, Tony Blair, deserves enormous praise for 
his staunch and eloquent support of the United States, I believe that 
Turkey, the indispensable NATO ally, will be supportive, as well as 
several other key nations that will find ways to assist a campaign 
without compromising their own domestic situation.
    I also believe that the odds favor a successful outcome against 
Iraq, and, as Senator John Kerry has written, probably rather quickly. 
The deterioration of the Iraqi military since 1991, and the vast 
improvement in the American military, which I have seen first hand over 
the last several decades, suggests that success should be readily 
achievable. However, in the fog of war terrible things can happen. 
There is a real danger, which we should not ignore, that what starts as 
a war against Iraq, especially if protracted, could metastasize into a 
wider conflict between Arabs and Israel. It is irresponsible for 
people, some of them closely allied to the Administration and 
purporting to speak for it, who talk of the war as a ``cakewalk'' or a 
quick rush to Baghdad. They may be right, and like all Americans I hope 
this will be the case if war comes. But such language demeans and 
insults the risks that brave young American men and women will face, 
and are already facing in Afghanistan and the Balkans, and the 
casualties that will inevitably take place even under the best of 
circumstances. I defer, of course, to several members of this Committee 
whose courage under fire in Vietnam is a matter of record. But, as a 
veteran of three years as a State Department civilian working alongside 
the American military in Vietnam, and a eyewitness to war and its 
horrors on two other continents, I must stress the obvious: war is 
truly hell. There is nothing noble or heroic about its consequences, 
even though it can bring out the best in people; it can also bring out 
the worst. If war comes, let us go forward with a sober appreciation of 
its honors, its waste, its costs.
    Let me turn now, finally, to the draft resolution itself I note 
that in transmitting it to the Congress, the White House invited a full 
and frank discussion over the draft wording. As Chairman Biden noted 
already, it is just a draft. The last time such a draft came up, right 
after September 11, changes were made in a bipartisan spirit. I believe 
that the current draft proposal from the Administration could benefit 
from the same action, although I hope--and I urge--that it be as rapid 
as possible.
    Let me offer at least four specific suggestions for improvement:

  <bullet> first, and most important, I believe that the authority 
        requested in the final sentence (Section 2) is too broad, 
        specifically in regard to the third phrase, which would 
        authorize the President to use all means to ``restore 
        international peace and security in the region.'' This phrase, 
        which I believe is taken out of context from paragraph 34 of UN 
        Security Council Resolution 687 (1991), has a different meaning 
        in this draft resolution than it had in 687. It is far too 
        broad--amounting to a virtual ``blank check'' authority. 
        Resolution 687 referred, clearly, only to the preceding 
        paragraphs of the Security Council resolution; the region 
        referred to in 687 meant Kuwait and Iraq. In the draft before 
        you, it could mean anything, and I strongly endorse the 
        concerns expressed by Senator Feingold and some of his 
        colleagues. This phrase should simply be removed; refining it, 
        which is an option, is simply too cumbersome and unnecessary. 
        Your resolution should focus clearly on Iraq--nothing else.

  <bullet> second, I believe the resolution should contain a statement 
        of strong support for the efforts of the president, the 
        Secretary of State, and their colleagues to achieve a 
        satisfactory Security Council resolution. This would emphasize 
        the importance of the Security Council and show our unity to 
        the nations now wavering over this issue.

  <bullet> third, I would suggest that you add a reporting clause, 
        requiring the Administration to inform and consult the Congress 
        on a very timely basis, perhaps as frequently as every month, 
        in writing, and even more frequently in closed and highly 
        confidential meetings, as they proceed. The Administration 
        should not be left with the ability to say that if this 
        resolution passes, they have discharged their obligation to 
        consult and inform Congress, as President Johnson did after the 
        Gulf of Tonkin resolution in August 1964.

  <bullet> fourth, I would strongly urge you to add a section 
        concerning the importance of post-conflict reconstruction in 
        Iraq as part of a broad new policy towards the region. Since 
        the story of Afghanistan is not entirely satisfactory on this 
        point--to put it mildly--and since some people are already 
        suggesting that reconstruction can be done either by other 
        countries or simply through the Iraqis using their own oil 
        revenues, it is important to make clear that the job is not 
        over simply if Saddam is replaced by someone else. A successor 
        might be almost as bad, or bad in a different way. Chaos could 
        follow. The material for Weapons of Mass Destruction could fall 
        into the wrong hands. We do not want to see Iraq become a safe 
        haven for other forms of terrorists, as happened in Afghanistan 
        after the United States turned its back on the country in 1989. 
        That mistake--second only, in my opinion, to letting Saddam 
        survive in 1991--created the conditions that led to Osama bin 
        Laden and the Al-qaeda network setting up shop in Afghanistan.
    I would recommend, therefore, that you add to this resolution 
language making clear that the post-Saddam structure in Iraq is of 
continuing concern to the United States, not only in Baghdad but also 
in the south and in the Kurdish north. These groups must not be 
betrayed and slaughtered again. The time to make that clear is now--
before anything begins on the battlefield.
    Mr. Chairman, that concludes my opening statement. I look forward 
to entering into a dialogue with you on this momentous occasion.

    The Chairman. Thank you very much for being here. Mr. 
McFarlane, thank you for being here. It is good to have you 
back before the committee.

STATEMENT OF HON. ROBERT C. McFARLANE, FORMER NATIONAL SECURITY 
     ADVISOR, CHAIRMAN, ENERGY & COMMUNICATIONS SOLUTIONS, 
                         WASHINGTON, DC

    Mr. McFarlane. Thank you, Mr. Chairman. I am deeply honored 
to be invited to participate in your deliberations on the 
decision to go or not to go to war, deeply honored always to be 
party to the deliberations of this great body. My father served 
in the other body, but I have had the honor of serving at the 
Armed Services Committee under the leadership of Chairman 
Stennis, Senator Goldwater, Senator Jackson, giants of this 
body.
    I come today as one who was deployed in the Gulf of Tonkin 
in 1964, and shortly thereafter commanded a unit of the first 
landing of American forces in Vietnam. That landing occurred 
under Presidential authority, endorsed by the U.S. Senate. The 
events leading up to our engagement there, specifically the 
fraud that was perpetrated on this body and on the American 
people, profoundly affected American attitudes toward launching 
war and, since that day, and in the ensuing decades, the 
mistrust stemming from our ill-conceived entry into that 
conflict has resulted in sustained serious introspection 
concerning why and how we decide to go to war.
    We live in a world, not to say a community of nation states 
that coexist, compete, covet, and conspire to survive and 
prosper. Through centuries of struggle, we have conceived 
doctrines, defenses, dogmas designed to settle disputes among 
states peacefully: concepts like mediation, arbitration, arms 
control, collective security have all been tried and have often 
succeeded in reducing tensions and settling disagreements.
    To be fair, even the failures of one or another of these 
frameworks have been useful, for they have added to our 
knowledge of what works and what does not work and, thus, they 
move us closer to building an international system that can be 
effective in settling disputes peacefully. But we are not there 
yet. Disputes and violence among nation states seem to be 
inevitable for as long as the lust for power and hubris remain 
unchecked by institutions and popular governments, and that is 
what brings us here today.
    Today and for the past generation we have faced a threat 
from Saddam Hussein that has proven resistant to all of the 
bodies, the systems, the frameworks, the creations of 
architecture and statecraft that we have devised. The threat is 
posed by weapons of mass destruction in the hand of a 
monomaniacal despot bent upon regional domination, with all 
that such domination would imply for nations throughout the 
world.
    Today, in Iraq, there are chemical and biological weapons 
and systems to deliver them on the shelf that could be used to 
kill tens if not hundreds of thousands of people in the region 
and beyond. History tells us that Saddam Hussein also has the 
will to use these weapons, and has done so. In short, we face a 
man with the means and the willingness to attack his neighbors 
and us.
    Through the years, through trial and error in the use of 
these several efforts at dispute resolution that I have 
described, we have begun to distill a few rules about going to 
war, and we have begun to establish a few of them in custom and 
practice, although not in law. The one that is most shared 
among nations is the notion that force ought not to be used 
except as a last resort, and before resorting to it, states 
should exhaust all of the nonviolent alternatives.
    For the past 6 weeks, that is what President Bush has been 
doing. Together with allies, he has presented the factual 
record of Saddam Hussein's successful drive to attain chemical 
and biological weapons and the means to deliver them. He has 
made the case for action to deal with this clear and present 
threat to the peace as called for in the United Nations 
charter.
    Within weeks, the coming weeks, he will have made the case 
at the United Nations, made the case with the U.S. allies, 
before the U.S. Congress, and I believe before the American 
people, for taking action to constrain once and for all the 
ruthless ambitions of Saddam Hussein.
    I agree with Ambassador Holbrooke that to move forward in 
this action does not require a new U.N. resolution. Indeed, to 
insist on yet another one in the face of the violations and 
persistent abuse that we have seen in the past 10 years is to 
devalue the importance of a U.N. resolution.
    In calling for action, I recognize that some have called 
launching a war today against Iraq preemption. I disagree. 
Preemption implies precipitous action taken without warning 
against an evident threat without affording the threatening 
country an opportunity to cure the grievance. This is surely 
not the case with Saddam Hussein. For 20 years he has been 
afforded the opportunity to demonstrate a change in the 
aggressive behavior expressed in his invasion of Iran and of 
Kuwait, his repressive brutality against his own people, and 
his obvious ambition for regional hegemony.
    Clearly, however, a launching of a war in Iraq will 
establish a precedent that we cannot want to see emulated by 
others, without fulfillment of accepted principles. I am 
confident that the President and his administration are focused 
on that very issue, and that the relevant criteria to justify a 
preemptive attack will be enunciated in the days ahead.
    They will include in my judgment, among others, 
transgressions such as we are seeing in Iraq in recent history, 
a history of aggression against neighbors, unchecked power 
within Iraq, and the possession and the will, the military 
means to inflict mass casualties, the ability and readiness to 
use them on short notice.
    It is a measure of moral strength in our society that we 
place a very heavy burden of proof on our government before it 
launches a war, but this forbearance does come at a price, a 
price measured in the growing risk of attack by Iraq as we 
continue to explore alternative means. It is never easy to 
judge how much lost time and risk is prudent. Our modern 
tendency to hold out hope beyond all reasonable expectations 
was born in an era when the threatened action would not have 
been catastrophic. Today, however, the price of error is much, 
much higher, measured in horrendous loss.
    Mr. Chairman, in light of this history of aggression and 
brutality, of willful violation of United Nations resolutions 
and obstruction of its inspectors, with evidence of an extant 
and growing arsenal of mass destruction systems and a 
willingness to use them, and having used all alternative means 
at hand to avoid conflict, we must now act. To do so is not to 
preempt. Far from it. It is to do our duty. It is to vindicate 
the trust of generations before us to act with prudence and 
deliberation to defend our values, our people, and our way of 
life.
    What specifically should we do? The President should 
shortly complete the deliberate process of consultation with 
the Senate and the House, he should complete his consultations 
and efforts to engender support and cooperation among allies, 
and he should continue to work with the United Nations to 
engender its support and understanding.
    We should then stage our forces in the countries that 
Ambassador Holbrooke just mentioned, and gulf states that I 
believe will be ready to provide all the staging we need, and 
then we should move deliberately to seize and hold Baghdad and, 
as necessary, to neutralize the Republican Guards and organize 
Iraqi forces to destroy the systems of mass destruction and to 
be prepared to undertake the long building process to establish 
the institutions of government worthy of the name and the 
renewal of the Iraqi economy.
    I join with Ambassador Holbrooke in lamenting the betrayal 
the United States inflicted on Afghanistan 12 years ago, and of 
the awful price we payed for that betrayal to a country that 
achieved historic victory for us in the cold war. To have left 
it in ruins with 1,000 dead, 3 million refugees, infrastructure 
destroyed, and not to have even cared enough to leave people on 
the ground to determine if some day we might become threatened 
once again ourselves, represents a betrayal of historic 
proportion and ignorance begging credulity.
    I appreciate the opportunity, Mr. Chairman, to join you 
today, and look forward to your questions.
    [The prepared statement of Mr. McFarlane follows:]

    Prepared Statement of Hon. Robert C. McFarlane, Former National 
                            Security Advisor

    Mr. Chairman, I appreciate the opportunity to testify before the 
committee today.
    I come as one who was deployed in the Gulf of Tonkin in the summer 
of 1964 and soon after commanded a unit in the first landing of U.S. 
forces in Vietnam under presidential authority endorsed by the United 
States Senate. The events leading up to our engagement there--
specifically the fraud that was perpetrated on this body and our 
people--profoundly affected American attitudes toward launching war 
since that day. In the ensuing decades the mistrust stemming from our 
ill-conceived entry into Vietnam has resulted in sustained, serious 
introspection concerning why and how we decide to go to war
    We live in a world--not to say a community--of nation states that 
coexist, compete, covet and conspire to survive and prosper. Through 
centuries of struggle we have conceived doctrines, defenses and dogma 
designed to settle disputes among states peacefully. Such concepts as 
mediation, arbitration, arms control, and collective security have been 
tried and often have succeeded in settling disagreements. And to be 
fair, even the failures of one or another of these mechanisms have been 
useful for they have added to our knowledge of what works and what 
doesn't and thus lead us closer to a system that is truly capable of 
keeping the peace. But we aren't there yet. Disputes and violence among 
states seem to remain inevitable for as long as lust for power and 
hubris remain unchecked by institutions and popular governance. And 
that's what brings us here today.
    Today and for the past generation we have faced a threat from 
Saddam Hussein that has proven resistant to all of the bodies, systems 
and architecture of statecraft we have devised. This threat is posed by 
weapons of mass destruction in the hands of a monomaniacal despot bent 
upon regional domination with all that such domination would imply for 
nations throughout the world. Today in Iraq there are chemical and 
biological weapons and systems to deliver them on the shelf that if 
used could kill tens--if not hundreds--of thousands of innocent people. 
And history tells us that Saddam Hussein also has the will to use these 
awful weapons. In short, we face a man with the means and the proven 
willingness to attack his neighbors and us.
    Through the years through trial and error in the use of the several 
efforts at dispute resolution I've described, we have begun to distill 
a few rules about going to war and to try to establish them in 
customary practice if not law. We must recognize, however, that while 
these rules may nurture more civil practice among nation states they 
don't solve the problem. The one that is most shared among nations 
throughout the world is the notion that force ought to be a last resort 
and before resorting to it states should exhaust the nonviolent 
alternatives. For the past six weeks that is what President Bush has 
been doing. Together with allies he has presented the factual record of 
Saddam Hussein's successful drive to attain chemical and biological 
weapons and the means to deliver them. He has made the case for action 
to deal, with this clear and present threat to the peace as called for 
in the UN charter. Within weeks he will have made the case at the UN, 
with allies, and before the U.S. Congress for taking action to 
constrain once and for all the ruthless ambitions of Saddam Hussein.
    Some have called this preemption. I disagree. For preemption 
implies precipitous action taken without warning against an evident 
threat without affording the threatening country an opportunity to cure 
the grievance. This is surely not the case with Saddam Hussein. For 
twenty years he has been afforded the opportunity to demonstrate a 
change in the aggressive behavior expressed in his invasion of 
neighboring Iran and Kuwait, his repressive brutality against his own 
people and his obvious ambition for regional hegemony.
    Clearly our launching of an attack on Iraq will establish a 
precedent that we cannot want to see emulated by others without 
fulfillment of accepted principles. I am confident that the 
Administration is focused on that issue and the relevant criteria today 
and that they will be enunciated in the days ahead. They will include 
inter alia transgressions such as we see in Iraq today--a history of 
aggression, unchecked power, and military means with the capacity to 
inflict mass casualties.
    It is a sign of moral strength in a society that it places a heavy 
burden of proof on its government before approving the initiation of 
war. This forbearance comes at a price measured in the growing risk of 
attack as we explore alternative means of resolution. It is never easy 
to judge how much lost time and increased risk is prudent. Our modern 
tendency to hold out hope beyond all reasonable expectations was born 
in an era when the threatened action would not be catastrophic. Today, 
however, the price of error is much higher--measured in horrendous 
loss.
    Mr. Chairman, in light of this history of aggression and brutality, 
of willful violation of United Nations resolutions and obstruction of 
its inspectors, with evidence of an extant and growing arsenal of mass 
destruction systems and a willingness to use them, and having used all 
alternative means at hand to avoid conflict, we must now act To do so 
is not to preempt--far from it. It is to do our duty, it is to 
vindicate the trust of generations before us to act with prudence and 
deliberation to defend our values, our people and our way of life.

    The Chairman. I thank you very much, Mr. McFarlane. After 
consulting with Senator Helms, we have a pretty full house 
here, we will go on the first round for 7 minutes if that is OK 
with my colleagues, and let me thank you, Mr. McFarlane, for 
your statement. Particularly I was impressed with your opening 
comments, which I think mirrored all of our concern. That is, 
if we go to war now, we had better, unlike in 1964, know what 
we are about to do.
    Senator Lugar and I--and I hope he will not mind my making 
the letter public we wrote to the President of the United 
States on September 10, the day before he made his historic 
speech at the United Nations, suggesting a number of things.
    We were not being presumptuous. We were being hopefully 
helpful here, and one of the things we suggested in that two-
page letter was that, ``The American people must know the 
military, financial, and human capital the United States would 
be prepared to commit to help realize that vision. The Iraqi 
people and their neighbors must be confident that chaos will 
not follow Saddam Hussein. Moreover, you would help assuage 
international concerns that the current unsettled situation in 
Afghanistan may be replicated in Iraq, with far greater 
strategic consequences.''
    [The letter referred to follows:]

                                      United States Senate,
                                Washington, DC, September 10, 2002.

The President
The White House

    Dear Mr. President:

    Thank you for meeting with us last week to begin a dialogue on 
Iraq. We very much appreciate the spirit of the meeting and your desire 
to engage Congress, the American people and the international community 
in this critical discussion. We were pleased to learn that you intend 
to seek authorization from Congress prior to any use of force by the 
United States Armed Forces to ensure Iraq's disarmament.
    Mr. President, we share your conviction that the combination of 
Saddam Hussein and weapons of mass destruction poses a significant 
threat to Iraq's people, its region and the world. Simply put, either 
these weapons must be dislodged from Iraq, or Saddam Hussein must be 
dislodged from power.
    Last month, the Senate Foreign Relations Committee began hearings 
on Iraq and heard from a broad range of expert witnesses. In the weeks 
since, prominent Americans with decades of experience in foreign and 
national security policy have expressed their views. In the weeks to 
come, we look forward to hearing from the intelligence community and 
policy officials of your Administration in hearings before Congress and 
from you in the case you make to the American people and the 
international community.
    Mr. President, based on what we have heard to date, there is not 
yet a consensus on many critical questions. For example, what is the 
likelihood that Iraq would use its weapons of mass destruction against 
us, to deter us or to supply terrorists? What are Iraq's links to 
terrorist groups, including those responsible for the attacks of 
September 11, 2001? Can Iraq be disarmed without the use of force? 
Would attacking Iraq precipitate the very thing we are trying to 
prevent: the use of weapons of mass destruction against us or countries 
such as Israel? Can we shift substantial resources to the Iraqi theater 
without compromising the war on terrorism in many other areas? What 
would be our obligations to a post-Saddam Iraq militarily and 
economically? It will be impossible to answer these questions with 
certainty in advance; however, they must be part of the calculus you 
make in weighing the various courses of action.
    Despite these uncertainties, in our judgement there are several 
principles that already enjoy broad bipartisan agreement and that would 
maximize the opportunities for success while minimizing the risks as we 
move forward on Iraq. We urge you to embrace them.
    First, the United States should pursue a policy that has. broad 
international support. Such support is desirable for both substantive 
and political reasons. Our allies around the world and our friends in 
the region have important, and possibly even necessary contributions to 
make to the effort to disarm Iraq. We may need their support for any 
initiatives we take at the United Nations. Should we pursue military 
action, we will want them with us and, at a minimum, require basing and 
overflight rights from several countries. If, in the course of 
disarming Iraq, we end Saddam Hussein's regime, a massive rebuilding 
effort will be required that the United States will not want to 
shoulder alone. We also depend on the active and continued cooperation 
of many allies in the unfinished war against terrorism. In short, 
building international support for our Iraq policy must be a priority.
    Second, we should make it clear that Iraq is the world's concern, 
not just our own. For more than a decade, Saddam Hussein has flaunted 
the will of the international community, breaking solemn obligations to 
disarm. These obligations were made not to the United States, but to 
the United Nations. In your speech to the General Assembly this week, 
we urge you to seek a new Security Council mandate requiting Iraq to 
accept an unconditional weapons inspections regime that gives 
inspectors the power to go anywhere, anytime. It could set a deadline 
for Iraqi compliance and make clear that any failure by Iraq to comply 
will result in the mandate's enforcement. Although we recognize that it 
will require difficult diplomacy, we believe your Administration can 
succeed in gaining international support--much as President George H. 
W. Bush did before the Gulf War. Such a mandate would have the merit of 
putting the focus where it belongs: on Iraq's dangerous and illegal 
weapons programs.
    Third, we must be candid with the American people that Iraq 
represents a long term commitment by the United States. We urge you to 
formulate and express a vision for a democratic, unified, post-Saddam 
Iraq, living in peace with its neighbors. The American people must know 
the military, financial and human capital the United States would be 
prepared to commit to help realize that vision. The Iraqi people and 
their neighbors must be confident that chaos will not follow Saddam 
Hussein. Moreover, you would help assuage international concerns that 
the current unsettled situation in Afghanistan may be replicated in 
Iraq, with far greater strategic consequences.
    Mr. President, we thank you for beginning the process of 
consultation on Iraq. We stand ready to work closely with you on this 
grave and important issue.
            Sincerely,
                            Joseph R. Biden, Jr., Chairman.

                                          Richard G. Lugar.

    The Chairman. The reason I mention that is the mention of 
Afghanistan. And I am going to move to you, if I may, in my 
short time here, Ambassador Holbrooke, and ask you two 
questions and, as usual, we are old friends and we both are 
fairly direct. It is a pointed question.
    Would you, were you sitting here, vote for the resolution 
as submitted to the U.S. Senate in draft form by the 
administration if that were the only option you had? Vote for 
that resolution or vote no on that resolution?
    Ambassador Holbrooke. You mean no chance to amend it?
    The Chairman. No chance, because quite frankly, although I 
am not in the negotiation, that appears to be where we are at 
this moment.
    Senator Kerry. You can answer it without electoral 
consequence.
    Ambassador Holbrooke. I appreciate that.
    First of all, I had understood from your remarks on 
television, in fact, that it was a draft resolution, that it 
was not an up or down vote.
    The Chairman. It was not intended to be, as I understood 
it, but things sometimes have unintended consequences the way 
things flow and, as I understand it--I may be mistaken, 
although I have not been in the room--there is a relatively 
good chance that there will be no change in the resolution, 
although that is not a settled point yet, but regardless of 
whether it is or not, we may be faced--possibly we may be faced 
with having to vote on that resolution, that draft resolution 
unchanged.
    Do you think, were you sitting here, would you support that 
resolution? And that is your only vote, you vote yes for it or 
you vote no on it.
    Ambassador Holbrooke. I understand your question. I was not 
prepared for it, because I am not aware that that procedure is 
justified by the circumstances. I have come here today, as you 
know, in an effort to support the administration and recommend 
a show of unity in a very difficult moment.
    I think that the politicization of the issue and the denial 
to the Congress of a chance to put its own point of view 
forward in the normal manner would be extraordinary, and it 
would be very ill-considered for this reason. It would divide 
the Congress when what the administration and the President 
need most is a show of unity, and I am not sure how I would 
vote at this point if that was the only choice, because I think 
it would be a choice so deleterious to the national interest.
    The Chairman. I happen to agree with you. I think that it 
would be a gigantic mistake, as I indicated to the President 
when he asked. The last thing the President needs is like that 
old joke, ``the board voted 5 to 4 for your speedy recovery.'' 
That is not what is needed here.
    Let me ask you a second question, then. You indicated it is 
in the national interest to get Security Council approval for 
the use of force. Why is it in the national interest? It seems 
self-evident that it is. Why do you say it is so clearly in the 
national interest?
    Ambassador Holbrooke. It is in the interest, but it is 
important but not essential. I want to underscore that. 
President Clinton and the previous administration took military 
action in the Balkans twice without Security Council 
resolutions and, unlike the current situation, where there are 
at least a dozen resolutions already on the books being 
violated, so you do have a basis for action without a new 
resolution. There were none in regard to Milosevic.
    Now, why, therefore, do I think it would be important? And 
here Secretary Baker has written about this quite eloquently in 
the New York Times, because the circumstances we are now 
contemplating are somewhat new. It is a new situation. We are 
on the edge of war, and when you go into an undertaking as 
serious as this, it is very important to have support.
    Now, in that regard, Mr. Chairman, let me make a point 
which I know that no committee in the Congress is more familiar 
with than yours, because around this very table a rather 
historic photo was taken 2 years ago which I have on my wall, 
and I know you do, where you and Senator Helms accompanied by 
Senator Warner and Senator Levin, and many of the people here 
today, posed with all 15 members of the Security Council, a 
photograph never taken before and not replicated since.
    The fact is that the United Nations Security Council, while 
it is not in a position to declare itself the only authority 
that can legitimize the use of force, and here I agree with 
Senator Helms' opening comment, is nonetheless the body in the 
world, the only body in the world that has the stature and 
authority that makes a difference.
    Let us take two specific examples, Saudi Arabia and Turkey. 
Both countries would love to see Saddam removed. Both countries 
for different reasons will be in a much stronger position to 
assist the United States, if the venture must begin, if there 
is Security Council approval. That is true for Kuwait, Bahrain, 
Qatar, France, and all our other allies in NATO.
    The Chairman. My time is about up. How long are we going to 
have to stay if we go?
    Ambassador Holbrooke. I cannot answer that question.
    The Chairman. Give me your estimates.
    Ambassador Holbrooke. Mr. Chairman, we discussed this in 
regard to other areas. I do not believe in exit strategies. I 
believe in defining the mission, not setting deadlines, and 
then getting the job done, and what Bud McFarlane and I are 
both saying, if you undertake a venture and you are the world's 
leading country, you just have to damn well see it through. We 
have troops in Korea 49 years later. We have troops in Bosnia 7 
years later. We had troops in the Sinai for a quarter century. 
We can afford this if it is in our national interest, and I 
would never guess a question like that. I do not think we 
should put a time limit on it.
    The Chairman. My time is up. Is it fair to say you are 
saying we would have to stay, whether it is a day or 20 years, 
we would have to stay as long as it took to secure and 
stabilize that nation?
    Ambassador Holbrooke. I think that is fair to say. If we 
undertake this venture, we cannot walk away from it like we did 
from Afghanistan or Iraq in 1991.
    The Chairman. Senator Helms.
    Senator Helms. Mr. Ambassador, the United Nations has 
passed, I believe, 16 resolutions pertaining to Iraqi conduct. 
Is that about right?
    Ambassador Holbrooke. Yes, sir.
    Senator Helms. With the exception of very limited air and 
cruise missile strikes, as well as increasingly loosened 
sanctions, there has been no serious effort to compel Iraqi 
compliance, has there?
    Ambassador Holbrooke. The Iraqis have defied the 
resolutions and the inspectors withdrew 3 years ago, and since 
then it has been a stalemate. There have, however, been very 
strong efforts to enforce the sanctions and the economic 
limits. The Iraqis cheat, but there is not any question that 
these have had an effect.
    Senator Helms. What do you think is the threshold beyond 
which a failure to enforce these resolutions undermines the 
United Nations' credibility and at the same time endangers U.S. 
national security?
    Ambassador Holbrooke. I think that if Iraq defies the 
resolutions they have weakened the importance of the Security 
Council, and they have defied them in the past.
    Now, not all the 16 resolutions involve weapons of mass 
destruction. Some involve prisoners of war from Kuwait and so 
on, so those are the second tier. No one should think we should 
go to war with Iraq because they are still withholding 
information on Kuwaiti POWs, but the core resolutions, and 
there are probably at least 10 of those, are quite serious and 
fundamental.
    Senator Helms. I had a friend who called me from Raleigh 
the other day and he said, ``how many resolutions has the 
United Nations already done,'' and I said, I think it is 16, 
but I stand to be corrected.
    Ambassador Holbrooke. It is 16, but you will notice that in 
the resolution the administration sent to you they only listed 
11, so they dropped 5 resolutions as being below the threshold 
that rises to this seriousness.
    Senator Helms. Well, back to my question. Why do we even 
need an additional resolution?
    Ambassador Holbrooke. Well, as I said, Mr. Chairman--excuse 
me, Senator Helms, but I will always think of you as the 
chairman. As I said in my opening statement, it is highly 
desirable, but not essential, because the basis for collective 
action exists already. I know that is a very difficult answer 
for some of my friends on this committee, but it is my deepest 
considered opinion, and I want to put it in four words, 
desirable but not necessary.
    Senator Helms. I think maybe it ought to be mentioned here 
sometime, I know the chairman knows it and other Senators 
probably do too, that it is my understanding that negotiations 
are, indeed, going on between House and Senate bipartisan 
leadership with the White House, and I think that is of some 
interest in connection with the questions we are asking and you 
are answering. Do you agree, Mr. Ambassador, that the United 
States' national security interests are better protected 
through the use of these so-called coalitions of the willing?
    Ambassador Holbrooke. Yes. You know, in practical terms--
and my colleague, who served in the military, on the witness 
stand with me can attest to this. In practical terms, the going 
alone option is rhetoric. The military cannot get there without 
the support of some of the countries in the area and coalitions 
of the willing are always better than so-called unilateralism, 
and no matter how good our logistical lift, our intelligence, 
our communications, we are always better off and probably more 
than better off.
    It is essential to have the support of, at a minimum, the 
Turks for logistical reasons, somebody in the gulf for the 
same, and intelligence. Going into who is up to the Secretaries 
of State and Defense. That is very sensitive and British 
political support has been extraordinarily valuable. So I think 
the answer to your question is clearly yes, and that is why we 
should not even think about so-called unilateralism. It is a 
kind of a macho phrase that may sound good in a talk radio 
show, but it is not a meaningful phrase to military planners.
    Senator Helms. Let me turn to Colonel McFarlane, and by the 
way, I join Joe in welcoming you to the committee. It is good 
to see you again.
    Mr. McFarlane, Saddam Hussein has a track record of 
manipulating United Nations inspection demands as a way of 
buying time. Even now, he is repeating his antics of 1998, 
claiming to accept inspections while he is throwing up 
roadblocks to their success and dispersing his weapons 
programs.
    Now, assuming that many of the permanent members of the 
Security Council believe that we need to go through this 
charade with Saddam, do you think we ought to put a date on the 
U.N. resolution as an ultimatum?
    Mr. McFarlane. Senator Helms, I believe that we should not 
seek another resolution for the reasons that you have 
enumerated already. If 16 of them in the past have been 
violated and rejected, what promise is there, what prospect 
that yet another one is going to result in a different 
behavior? But I think we need to present that record to stress 
that renewed inspections hold little promise of better results, 
to point out that the existing ones authorize inspectors to go 
back, but not to delude ourselves and to engage in the delaying 
tactics that are inevitable if we go down this road.
    Senator Helms. By the way, before I use all my time, for 
the information of the committee, I believe most of us know 
this, the conference report on the State authorization bill 
that releases the final $244 million and should pass the Senate 
this afternoon or tomorrow without any glitches, this will 
fully implement the Helms-Biden U.N. reform bill. I think that 
ought to be made a matter of record.
    Ambassador Holbrooke. That is very good news, Senator.
    Senator Helms. I yield back the balance of my time.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. Let me also add 
how good it is to see the ranking member back here again at the 
hearing.
    I would like to thank the ranking member and the chairman 
for convening these hearings on Iraq, which promise to be 
excellent follow-ons to the hearings this committee held in 
July and August. I attended all or part of the five panels of 
those hearings, and I am glad I did. In August, I then traveled 
around my home State of Wisconsin listening extensively to my 
constituents' views on Iraq. I actually held 21 town meetings, 
and for the first time ever, in addition to health care, 
concerns on foreign policy and, in particular, Iraq, led the 
list of concerns.
    I attended numerous briefings and read countless reports 
from a variety of sources. I tried to listen carefully to the 
administration, and have read quite closely the proposed 
resolution authorizing the use of force that the administration 
sent to Congress last week.
    Mr. Chairman, after all of this, I still do not have 
answers to some fundamental questions. I remain extremely 
troubled by the administration's shifting justifications for 
going to war in Iraq. I remain skeptical about the need to take 
unilateral action now, and to accept all of the associated 
costs of that decision. I remain unconvinced that the 
administration has thought through the potential cost and 
challenges of post-conflict reconstruction in Iraq, or even 
thought through how to address the issue of weapons of mass 
destruction once an engagement begins, and I am surprised and 
disappointed that, after months of heated rhetoric, the 
administration could not yet manage a more thoughtful and 
focused proposal than the language we received last week.
    Mr. Chairman, I also remain deeply concerned about Iraq's 
weapons of mass destruction program. I reject the assertion 
that disagreeing with the administration means resigning 
ourselves to doing nothing. I would like to work with my 
colleagues and with the administration to address this threat 
in a focused and serious way that serves our national interest, 
including our interest in continuing to work with other 
countries around the world to fight terrorism.
    In the end, the use of force may well be required, but to 
date what the administration is proposing does not make the 
grade. The message is confused, the vision hazy, the assurances 
facile. We are making decisions that could send young Americans 
to war, decisions that could have far-reaching consequences for 
the global campaign against terrorism and for America's role in 
the world in the 21st century. I think it is reasonable to 
demand policy that makes sense.
    Perhaps this hearing can help point the way to such policy. 
Our witnesses today are distinguished and thoughtful, and 
committed to working in the best interests of the country, and 
it has always been a great pleasure to work with my friend 
Ambassador Holbrooke and, of course, to see him here today.
    Mr. Chairman, in terms of questions, let me begin by asking 
Ambassador Holbrooke, what would you say are the historical 
precedents for a major U.S. military operation in response to 
this type of threat?
    Ambassador Holbrooke. By that you mean an action before a 
military action was taken against us?
    Senator Feingold. And on the type of concern with regard to 
the type of threats that Iraq raises.
    Ambassador Holbrooke. Immediately, off the top of my head, 
I cannot think of any, Senator Feingold. On the question of 
preemptive war, there are plenty of preemptive wars in history. 
The Six-Day War in 1967, the Israeli attack on the Iraqi 
nuclear reactor in 1981, widely condemned at the time. In 
retrospect, it looks like a visionary action.
    We all know the lessons of history, that Hitler should have 
been taken on in 1936 preemptively. Hitler himself admitted he 
would have been doomed if we had done it. You can argue the 
Spanish-American War was a preemptive war, without any 
provocation at all, since the Maine was not blown up by the 
Spanish, according to the Hyman Rickover investigation of it in 
1975.
    Having said that, I feel intensely uncomfortable with the 
assertion of a new doctrine for preventive war, or preemptive 
war. I just do not see the necessity of it, and with the 
greatest respect for the people who did it, and in the effort 
to support their goal in Iraq, I believe that by asserting a 
universal right instead of focusing on Iraq the administration 
has weakened the dialog we are having here today, and I would 
urge you to discuss this tomorrow with your most senior 
witness, because no President ever would have renounced the 
right to strike first if we were endangered.
    This was a long doctrinal battle during the cold war which 
Senator Biden, Senator Hagel, Senator Lugar and others 
participated in. No President would have denied it, but to 
assert it as a universal right at a moment when we are trying 
to build a specific coalition on a specific threat actually 
worked against its goal.
    Senator Feingold. I appreciate that answer, but the more 
recent ones seem to be cases that involved cases of actual 
prevention, and having read what the administration is talking 
about in terms of their doctrine of preemption, to me in some 
ways it sounds more like prevention, which of course has to be 
a core element of any foreign policy. Every day we should use a 
range of foreign policy tools to prevent threats from emerging. 
But announcing that we will unilaterally use our military might 
to eliminate those who may threaten us in the future, 
announcing that we basically just are going to play by our own 
rules, which it almost appears we make up as we go along, may 
not be conducive to building a strong coalition against 
terrorism or to combating the anti-American propaganda that 
passes for news in so much of the world. I am wondering what 
you would say about the distinction between prevention and 
preemption.
    Ambassador Holbrooke. By the way, in the list of preemptive 
actions I forgot to add the moment when we wrestled mighty 
Grenada to its knees.
    I think the issue you raise is incredibly important, and to 
assert a new doctrine and to get mixed up here on this issue is 
not, to my mind, valuable in the debate that we are having. And 
I am sorry to see that it was introduced earlier this year in a 
speech at a time when we should have been focused on the 
specific threat. And I do not know why it was done, and it does 
not help us internationally, and I think it confuses Americans.
    We will respond to any threat, and any President will act 
preemptively when he or she has to, but why declare a doctrine 
which is unnecessary? It always was there, as those of you who 
participated in the debate over ``no first use'' will remember. 
This committee held many hearings on the issue.
    The funny thing, Senator Feingold, is if you take away the 
rhetoric and the controversy, I do not think it amounted to 
much, but it was presented in such a dramatic way that it has 
muddied the discussion which we are having here today.
    Senator Feingold. Thank you very much.
    The Chairman. I could not agree with that statement more.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I want to use a portion of my 
time to just discuss two or three issues. The first one is one 
that you raised, and I think is very important, and that is, 
how is the resolution going to be formulated, who will debate 
it, and what have you.
    Let me respectfully make a suggestion that the chairman 
work with the leadership of the Senate, Senator Daschle and 
others, to gain jurisdiction for this committee for 1 week with 
regard to this resolution. This will not delay, as I 
understand, the work of the Senate in terms of the bills that 
are now on the floor, but it would firmly establish the 
jurisdiction of the committee and give Members an opportunity 
to participate, and I will support that with Senator Lott.
    I would say to the chairman that there was a small meeting 
this morning involving Senator Lott. I attended the meeting, 
Senator McCain was there, and Senator Santorum, and in essence 
I made some suggestions to him that he did not indicate that he 
would accept them, but he was going to discuss them with 
members of the administration.
    The Chairman. Without taking out of your time, let me 
respond, because this is so important. I share the Senator's 
view. I did not formally make the request. I raised that as the 
appropriate way to proceed.
    I was informed that either the combination of the 
administration, or the administration and the joint leadership 
concluded that no one should be in on the negotiations other 
than the Speaker of the House, the majority leader and the 
minority leader in the House and the majority leader and 
minority leader in the Senate and their staffs. I think that is 
a mistake. I suspect it is a growing sentiment in my caucus, I 
may be wrong, that it should go through this procedure. It 
would not be unduly delayed, I happen to agree with you. I 
cannot guarantee the outcome.
    Senator Lugar. The second suggestion follows from the 
letter you read that the two of us wrote to the President, and 
I want to spell out again the importance, I think, not only of 
the President speaking to this, to the American people, but of 
all of us of trying to think through the cost of the war and 
the peace.
    Now, people are making tries at this. Larry Lindsey, the 
chairman of the Council on Economic Advisors, suggests $100 
billion. Some have upped that figure. The implications of this 
with regard to all of our budgeting, all of our priorities for 
several years, are very substantial. This does not deny the 
need to go to war if that is required, but it does require the 
American people have some idea in advance of priorities that 
have been set, and I think this really has to be spelled out.
    Third, there is a pledge to avert chaos in Iraq and in a 
post-war situation that is implied, at least in the draft of 
the resolution. However, I have been trying to query the 
administration as to whether in the planning there is an idea 
of how many troops are going to be involved and for how long. I 
am informed there has been some discussion of that, and I am 
glad that is the case, but I think probably publicly there 
needs to be more.
    Afghanistan has been mentioned by our witnesses today. This 
is not a good example of averting chaos after a war. In the 
case of Iraq, we know that you have a 17 percent Sunni minority 
that is in control and a 60 percent Shiite majority that could 
very well commit atrocities against their former oppressors. 
Are we going to take the responsibility of policing Iraq, and 
the answer probably is yes, if we are to avoid total chaos. But 
that is something that really has to be discussed.
    The fourth thing that must be determined is our plan for 
finally getting our hands on the weapons of mass destruction in 
the midst of all of this police activity, expenditure, and war. 
That is not clear at all, where these dual purpose sheds are 
that deal with chemical and biological weapons.
    Some thoughts have been that perhaps when we get there we 
may be able to interrogate scientists who have been involved in 
this and that they will lead us to these sites. Our main focus 
must be to eliminate the weapons of mass destruction. How 
ironic, having fought a war and trying to maintain order we 
still would not know where the weapons were or whether they had 
been destroyed. We must hear from someone about how we will do 
this.
    Now, finally, Mr. Chairman, you have been most tolerant 
about my editorializing about weapons of mass destruction in 
Russia, but it is relevant. We are asked, how do we know 
whether Saddam might, in fact, develop something in the next 
year? The answer always is, he might get the fissile material 
from somewhere else. Where? Someone has suggested recently 
Africa. Well, a better bet is Russia.
    Now, we have been talking about this in the committee with 
some productive results. The chairman and I visited with the 
President, Dr. Rice, and the Vice President in June about this 
specific issue. Unknown to the President, various regulations 
were run up by the Congress that were not waived by the 
administration this year had led to a stoppage of the Nunn-
Lugar program in Russia.
    The President was startled by this, instructed Dr. Rice to 
move ahead, she has, she has written a very good letter which I 
used on the Senate floor to get an amendment to give the 
President waiver authority so we might start destroying the 
40,000 metric tons of chemical weapons in Russia. That is now 
in the Defense appropriations conference. It has not yet 
happened. Nothing is happening at Shchuchya. The 40,000 metric 
tons are still sitting there, hopefully not for the Iraqis or 
for somebody else, but nevertheless, they are all still there.
    So I plea in public for the House conferees to let it go. 
Let the President have the waiver authority. Ditto in the 
Defense authorization committee. The Senate has provided the 
President with permanent waiver authority to destroy weapons of 
mass destruction. The House conferees have not acceded to that 
wish. That is tied up as of this moment.
    Still the President asked and we offered legislation in 
this committee to let the so-called Nunn-Lugar act operate 
outside the former Soviet Union in places like Pakistan, or 
Afghanistan, or wherever threats might show up. The House 
conferees have said no. They do not want it outside of Russia. 
This is incomprehensible, given the debate we are having today 
about Iraq, and this is why I take the time of this committee 
in this very public way, to plead with the House conferees in 
these two situations, Defense authorization and Defense 
appropriations we must give the President of the United States 
at this crisis time waiver authority so he can proceed to 
destroy the weapons of mass destruction, or even find them, 
wherever they may be outside of Russia, and I think this is 
relevant to the hearing.
    I thank the witnesses for offering suggestions on the 
resolution, and I would say with regard to the final sentence 
that you mentioned, Ambassador Holbrooke, I made that point 
this morning. It is not good language, and I have shared that 
with Senator Biden's staff, and so perhaps we can make some 
improvement there.
    I thought the reporting requirement was an interesting 
idea, and I am not sure how that works in, but I am sure 
craftsmen can probably find some way, and likewise, the post-
conflict construction of Iraq, I have made already quite a to-
do about. I think that is important, otherwise, there will be 
chaos.
    But I just appreciate both of you coming. Your testimony 
has been very, very thoughtful. It comes from great experience. 
You are friends of the committee and friends of us. I thank 
you.
    The Chairman. With the indulgence of the committee, I think 
it is appropriate to make two points at this time, not in terms 
of questions. I think part of what is going on here as it 
relates to Iraq is that there is a desire to demonstrate, and I 
am prepared to demonstrate it, support for the President's 
initiative at the United Nations and support for separating 
Saddam from his weapons, or from power, or both.
    That is going simultaneously with an effort yet to be 
articulated to me as to exactly what the administration is 
seeking at the U.N. Now, maybe my colleagues know. No one has 
told me, chairman of the Foreign Relations Committee, 
specifically what is being sought by Secretary Powell at the 
United Nations.
    To make the point of Mr. McFarlane, he said there needs to 
be a criteria enunciated in the days ahead as the basis for our 
action. The irony is, we are being asked to vote on a 
declaration of war before that criteria is set, for make no 
mistake, although I am only an adjunct professor of 
constitutional law, this area I know. A resolution authorizing 
the use of force has the same exact force as a declaration of 
war, and so in a sense there is some confusion. As my grandpop 
might have said, I am not sure the horse can carry the sleigh, 
or we are putting the cart before the horse, to keep this 
stupid metaphor going.
    The notion here is, I am convinced the President is well-
intended here. Senator Lugar may recall, in the necessary 
absence of Senator Helms, at a White House congressional 
leadership meeting just 2 weeks ago, the President turned to me 
as he did others and said, ``Mr. Chairman, what do you think?'' 
I said, Mr. President, I will be with you as long as--and I 
laid out two things, and the ending thing was, Mr. President, 
you tell the people of America forthrightly that we will have 
to stay, that American forces will be in place for some period 
of time, and that the cost will be significant, and he looked 
at me, and he said, ``I will,'' so I am confident he will do 
it.
    I am just uneasy about the way we are going about this now, 
because we may end up right where Bud McFarlane does not want 
us to end up, and anybody from the Gulf of Tonkin days on and 
the Vietnam generation does not want us to end up, and that is 
a mixed message to the American people about what we are 
committing them to.
    I am sorry for that editorial interjection, but in part to 
try to explain to the people who may be listening to this why 
there is some confusion. There is not here an unwillingness to 
cooperate with the President. There is a desire to cooperate, 
but I think we have to get the lines a little clearer.
    I yield to my friend from California, Senator Boxer.
    Senator Boxer. Thank you, Senator Biden, Senator Helms. 
Thank you for this hearing.
    I just want to say, Senator Lugar, there is no more 
important time for Nunn-Lugar than now, and anything that I can 
do to help you, I stand ready to do that.
    Mr. Chairman, as a Member of Congress for 20 years I want 
to put my questions into some perspective and put my values out 
there as a United States Senator, and as a mother and a 
grandmother.
    Mr. Chairman, I voted to go to war twice in recent years, 
once--and you had tremendous leadership on this--to stop a 
genocide under Milosevic, with a Democratic President, and 
after 9/11 to give this President the power to respond in any 
way necessary to conduct a war against these terrorists. Having 
said that, I want to say two things about how I view war.
    One, I view war as a last resort, not as a first resort, 
and second, I believe that any President who is asking us to go 
to war lay out a path for peace or a way to avoid war, and I 
have to say in this particular circumstance, at this point, I 
do not sense that this President used this war as a last resort 
because he has not really laid out a path for peace. I have 
served with four Presidents now, and I have not seen this 
before but I do see it now.
    And with that, I want to ask some questions and make a 
couple more comments. Mr. Ambassador, when you opened your 
testimony you said, ``the prolonged reluctance of this 
administration to consult adequately with either the Congress 
or the United Nations Security Council was a costly, self-
inflicted mistake. During a long and confused summer, an 
impression of disarray was left with the world . . .''.
    Well, I want to say something here that is not easy to say, 
but I do not think that was a mistake. I think that was a plan, 
and all you have to do is see the comments of Andrew Card, who 
said, we do not roll out a new product during the summer, and I 
ask unanimous consent to place into the record the exact words 
of Andrew Card on that point.
    [The information referred to follows:]

    The following is from an article in the New York Times, of 
September 14, 2002, entitled ``Never Forget What?'' by Frank Rich.

          Candor is so little prized in Washington that you want to 
        shake the hand of anyone who dares commit it. So cheers to 
        Andrew Card, the president's chief of staff, for telling the 
        Times's Elisabeth Bumiller the real reason that his boss 
        withheld his full-frontal move on Saddam Hussein until 
        September. ``From a marketing point of view, you don't 
        introduce new products in August.''

    Senator Boxer. I do not think it was any kind of mistake. I 
think it was a plan to make this political. That is very 
distressing. These issues are too important. A man like Saddam 
Hussein having these weapons of mass destruction is too 
important to politicize.
    Chairman Biden opened up the hearing and he said, if Saddam 
is around in 5 years we have got a serious problem. Now, I 
would like to ask both of you this question. Chairman Biden is 
saying that today. Why didn't the first Bush administration 
feel that if Saddam was around 5 years later from 1991 it would 
be a severe problem? Why did they not move toward regime 
change?
    Ambassador Holbrooke. I think you should address that to 
the Secretary of State, who was chairman of the Joint Chiefs at 
the time but may have some insight. I would simply say that 
whatever the rationale at the time, they said they could not do 
it because it was not in the Security Council resolution. I 
find that a very strange explanation for the specific manner in 
which the war was terminated after a nice round 100-hour mark. 
They argued that they would have to go to Baghdad to do it. I 
do not believe that was necessarily so, but you have to ask 
them that question, Senator Boxer.
    I have said before, and I must say it today, I believe it 
was the single greatest mistake in American foreign policy 
since the end of the Vietnam war, and that is why we are here 
today.
    There is one last point. The entire intelligence community 
told the President, President Bush, senior, that Saddam would 
not survive anyway, and that was, of course, historically 
wrong.
    Senator Boxer. He has been around since 1968 as the strong 
man of that country.
    Ambassador Holbrooke. And that goes to the Ba'athist 
structure of the country, but I would have to defer to people 
who were there in the administration 12 years, or 11 years ago 
at this time.
    Senator Boxer. Mr. McFarlane, would you care to try that 
answer? In other words, the chairman said here if Saddam is 
around in 5 years, his exact words were, ``we have a serious 
problem.'' Why didn't President Bush feel the same way in 1991?
    Mr. McFarlane. Senator Boxer, I think that being in the 
other body at the time you were a witness to the very, very 
intense arguments in the Senate about the resolution of support 
for going to war in 1991. It was a very, very intense argument 
which the Senate very narrowly, by one vote, endorsed the 
President's action. I think the Senate was acting in its 
traditional mode of care, perhaps looking back to the Gulf of 
Tonkin resolution in which an open-ended authority was abused, 
and consequently endorsed the limited action of rejecting or 
expelling from Kuwait and restoring the territorial integrity 
of Kuwait as the extent of authority.
    Senator Boxer. I get your point. You are saying the 
resolution was limited. I would just make the point that the 
big debate in the Senate actually, and in the House where I 
was, was whether there ought to be 60 more days of sanctions 
before force, but I do not have time to get into it, and I 
appreciate your answer.
    Let me get into a couple of other questions. I see the 
yellow light is on. Mr. Ambassador, in your editorial that you 
wrote, which I thought was very strong, on August 27, you said, 
``a campaign against Saddam Hussein cannot be waged without 
allies,'' and in the resolution that was sent up there is no 
reference to doing this with allies whatsoever, and I want to 
ask you two questions, then I will yield.
    My understanding is that some in Tony Blair's cabinet 
backed the use of force for Britian to be involved if there was 
another U.N. resolution, and through that resolution the use of 
force. That is my understanding of what Britain did. Do you 
feel, am I accurate on that point?
    Ambassador Holbrooke. I do not know.
    Senator Boxer. And then second, do you think we could 
strengthen the resolution if we talked about working with our 
allies, because the one thing I know from my people back home, 
they do not want us to do this alone. The blood, the treasure, 
it all--and I think they want to see that we have allies with 
us, and yet there is no mention, and you did not mention it as 
you picked over the resolution.
    Ambassador Holbrooke. I share your point. I suggested four 
changes in the resolution, one deletion, three additions. What 
you are essentially proposing is a fifth, an addition which 
stresses the importance of allies. There is a very revealing 
poll in yesterday's USA Today, whereby an overwhelming majority 
of the American public would be willing to see U.S. troops in 
an effort to deal with Saddam if we had allies, if the Congress 
approved and if the Security Council supported it.
    The more amazing thing was that, given the same option U.S. 
troops in Iraq absent congressional support, absent allies and 
absent the Security Council, there was a swing of 30 to 40 
points. I have never seen such a swing on an issue like this, 
and this would reinforce your point, Senator Boxer.
    The Chairman. Would you say that again?
    Ambassador Holbrooke. Yesterday's USA Today has a very 
revealing poll in which by margins of something like 68 to 30--
do not hold me to the exact numbers, Mr. Chairman--the American 
public said they would support an attack on Iraq with American 
ground troops if there was congressional support.
    A second question, if there is U.N. Security Council 
action, the same margin, if there are allies, the same margin, 
slight differences, and then the poll asked, would you support 
it without the Congress, 35 to 60 no. Would you support it 
without the U.N. approval, the same margin, no, without allies, 
the same margin, no.
    In other words, what Senator Boxer is saying is reinforced 
by, I think, the good common sense of the American public. They 
want to get rid of Saddam, as everyone on this committee does. 
They do not want to go it alone. The only nuanced difference 
between us, Senator, which you and I discussed privately, is 
whether a new Security Council resolution is required or not, 
and I am bound by my previous comments on that and by my 
experience, but I think that we cannot go it alone, and that is 
why I wrote that article, and if you and your colleagues add an 
additional Therefore clause concerning the need for allies, I 
think it would help the administration, but I cannot speak for 
them.
    Senator Boxer. Mr. Chairman, can I indulge you for 30 
seconds more?
    The Chairman. Sure.
    Senator Boxer. In your first op ed piece you said, 
``existing Security Council resolutions will not be enough.'' 
In your second one, you changed, but I agree with your first 
one, and let me just close by saying this. I agree with where 
the American people are today. Now, they may change. I agree 
with where the American people are today, and the difference 
between us, I say, Mr. Ambassador, is this:
    I would want to put working with our allies, working with 
the United Nations not in a Whereas clause, but in the actual 
Resolved clause, because sticking something in a Whereas clause 
does not mean anything, but if it is in the Resolved clause 
that we will do this through the United Nations, we will do 
this with our allies, we will not do it alone is a strong 
difference between where I am coming from, where the American 
people are coming from, which is right there, and where this 
administration is coming from with a blank check, which I could 
never support, and I appreciate the comments of both of you 
here today.
    The Chairman. For the record, since it was referenced, with 
the indulgence of my colleague from Nebraska, the question in 
the USA Today poll, ``some people say they would support 
invading Iraq with U.S. ground troops only if certain 
conditions were true. For each of the following conditions, 
please say if you favor or oppose invading . . .''.
    How about if the United Nations supported invading? And 79 
percent would favor.
    How about if the United States opposed invading? Only 37 
percent would favor.
    Senator Boxer. The United Nations, or United States?
    The Chairman. I am sorry. Would you oppose or favor if the 
United Nations supported invading Iraq? And 79 percent said we 
would support invading if the U.N. supported invading.
    When asked if the U.N. opposed invading, only 37 percent 
said they would favor it, and so it is overwhelming clear, at 
least----
    Ambassador Holbrooke. Mr. Chairman, you might add, because 
I was trying to remember the same question on Congress and our 
allies----
    The Chairman. It says if Congress supports, 69 percent in 
favor, if Congress opposes, only 37 percent favor, other 
countries participating in invading Iraq, 79 percent would 
favor, the United States invading alone, only 38 would favor.
    Ambassador Holbrooke. That is a very sophisticated set of 
answers, Senator Boxer.
    The Chairman. I would ask unanimous consent that this be 
put in the record.
    [The poll from USA Today follows:]

                  USA Today/CNN/Gallup Poll, 9/23/2002

    12. Question. Some people say they would support invading Iraq with 
U.S. ground troops only if certain conditions were true. For each of 
the following conditions, please say if you would favor or oppose 
invading Iraq with U.S. ground troops if it were true. How about if--

 
------------------------------------------------------------------------
                                                                   No
                                              Favor    Oppose    Opinion
------------------------------------------------------------------------
A. The United Nations supported invading
 Iraq
  National Adults (Sept 20-22 2002).......       79        19         2
 
B. The United Nations opposed invading
 Iraq
  National Adults (Sept 20-22 2002).......       37        58         5
 
C. Congress supported invading Iraq
  National Adults (Sept 20-22 2002).......       69        28         3
 
D. Congress opposed invading Iraq
  National Adults (Sept 20-22 2002).......       37        59         4
 
E. Other countries participated in
 invading Iraq
  National Adults (Sept 20-22 2002).......       79        18         3
 
F. The United States had to invade Iraq
 alone
  National Adults (Sept 20-22 2002).......       38        59         3
------------------------------------------------------------------------


    Ambassador Holbrooke. There is a 30 to 40 percent swing 
against unilateralism, is the way I would interpret those 
answers.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and gentlemen, 
thank you for coming before us today, because your experience 
and talent and insight is very important to this debate, and 
you each have presented I think important points, and I would 
like to delve into a couple in a moment, but before I do, I 
want to go on record, Mr. Chairman, in support of every 
utterance of my wise, learned colleague from Indiana's 
statement. I think Senator Lugar makes, as he always does makes 
eminent good sense. I would strongly support his suggestion to 
you that whatever is the appropriate responsible approach, ask 
that this committee be part of this deliberation.
    I have not been around very long, Mr. Chairman, but I am a 
bit astounded when I read in one of the publications this 
morning that the chairman of the House International Relations 
Committee, when asked what his role has been in working with 
the administration on this resolution to maybe take this Nation 
to war, his comment was something to the effect that Tom Lantos 
the, of course, Democrat ranking member of that committee, Tom 
and I are pressing our nose up against the window looking in.
    There is something that does not quite fit with that kind 
of response. I do not know if your nose is up against the 
window, but the fact is, this is about as serious an issues as 
the Congress will ever debate. My question to you, Mr. 
Chairman, and maybe you could give us some sense of this, what 
was the procedure in 1991 when that resolution was passed? Did 
this committee have a role, or was it bypassed like this 
committee is being bypassed today?
    The Chairman. And again, this is not against the Senator's 
time for questions. When I go back and refresh my recollection, 
exactly what the sequence was, but there were three important 
points.
    One, initially Kuwait was invaded in August. The President 
asserted he did not need congressional authority, and his 
Attorney General, who is actually a good friend and has helped 
me teach a couple of my classes, asserted that the war clause 
only was put there for the Congress to be able to declare war 
if the President did not, and that was literally asserted by 
the White House.
    And then I, along with several others, probably Senator 
Lugar, I do not recall, insisted that that issue be litigated 
before the committee, of the requirement, and we had 
constitutional scholar after scholar come and testify in open 
hearing saying the President must submit a resolution seeking 
approval.
    We solicited that resolution, and then President Bush did 
what I thought, quite frankly, was a very wise thing, and that 
is, he said, I do not want you to vote on this in the midst of 
congressional elections. He said, this should be put over until 
the congressional elections are over, even though it was more 
urgent then, in that there was a country invaded and occupied, 
and we had 250,000 troops amassing on the ground. He still 
said, I guess because of his experience as a combat veteran he 
still said, we should not vote now.
    And then we came back--we came back in January and voted 
after the election, and I cannot say to my friend with 
certainty whether or not the resolution of the President 
ultimately submitted in that interim period was once again 
before the committee or not. I do not recall. Maybe my friend 
from Indiana does.
    But the point is, there was considerable debate, because we 
did not vote in a highly charged electoral circumstance, but 
that was the sequencing.
    Senator Hagel. Mr. Chairman, I appreciate that, and it may 
well be that we go back and examine that record as to how it 
was done in 1990 and 1991, especially in light of the fact that 
we are a few weeks away from an election, and this deserves the 
kind of thoughtful time and debate that I think the American 
public deserve and, quite frankly, the world deserves.
    I am also astounded that those who know most about those 
issues, the ranking members of the Armed Services Committee, 
the Foreign Relations Committee, the Intelligence Committee--
some are with us today--are not part of the process in writing 
or drafting or amending a resolution, and I would hope that 
whenever that resolution is taken up in the House and the 
Senate, that it will be the Members, the senior Members of this 
committee that will lead that floor debate, that will manage 
that bill.
    Now, with that said, Mr. Chairman, I want to ask a question 
of Ambassador Holbrooke. In his testimony he cites, I believe 
on page 4--and I will read this so I have it exactly right, 
``however, in the fog of war terrible things can happen,'' but 
I am particularly interested in your next point, Mr. 
Ambassador, and I would appreciate it if you could talk in more 
detail about what you mean.
    This point, you say, ``there is a real danger which we 
should not ignore that what starts as a war against Iraq, 
especially if protracted, could metastasize into a wider 
conflict between Arabs and Israel.'' Would you please expand on 
that? Thank you.
    Ambassador Holbrooke. I do not want to be Cassandra, and I 
do not want to make a worst case scenario, but prudent policy 
planning for civilians and military alike requires that you 
consider worst case scenarios, and people who do not, who 
thought, for example, in the summer of 1914 that it would be a 
short war, live with consequences incalculable for the rest of 
history.
    I share the view expressed by some members of this 
committee, Senator Kerry among others, that the odds 
significantly favor a rapid military success, but as you well 
know from your own experience in Indochina, military plans are 
scrapped and rewritten on a daily basis, and the key to this 
war--and here I speak as a civilian. The key to this war will 
be whether the degradation and destruction of Saddam's weapons 
of mass destruction and their delivery systems, and to me, that 
is an unknown, will precede his ability to put something 
against Israel.
    In 1991, he put 35 Scud missiles into Tel Aviv. The 
Israelis did not respond. According to current newspaper 
accounts, the Israelis will not be so self-contained this time 
and, given the other issues raging to the west of Iraq between 
the Palestinians and the Israelis, we cannot preclude the worst 
case scenarios.
    Again, Senator, you and I share a Vietnam experience, as 
does Bud McFarlane, and we all know that things do not always 
work out according to plan in wars, and as we go forward, if we 
go forward, we should do it without predicting cake walks, but 
with a readiness to deal with this, and it would obviously be 
for the military chiefs in closed session to discuss with you 
what they have in mind to prevent this.
    I can assure you of one thing. The U.S. military planners 
are well aware of the risks, probably far more aware than I am, 
and anyone who dismisses this out of hand, as I have seen some 
rather casual television so-called experts, is being very 
irresponsible. We cannot just sit here and say, it is going to 
be a cake walk, because we do not know what will happen.
    Senator Hagel. Thank you. Mr. McFarlane, would you care to 
respond to that?
    Mr. McFarlane. Senator Hagel, it seems clear that Saddam's 
behavior is not predictable, but that there is a very strong 
animus toward Israel there, and that in the last war his use of 
weapons against them had, beyond its explosive purpose, to 
perhaps engender that very thing, a wider war, but indeed, that 
is a scenario that is not implausible at all, that the use of 
Scuds against Israel and their reaction, which has been 
confirmed as likely, would bring in other Arab parties to the 
conflict, with very unpredictable consequences, but a far 
greater commitment required by us to deal with it.
    Senator Hagel. Thank you both. Mr. Chairman, thank you.
    The Chairman. Senator Nelson.
    Senator Nelson. I am going to defer to my colleague from 
West Virginia.
    The Chairman. Senator Rockefeller.
    Senator Rockefeller. And as he was here before I was, I 
will defer to Senator Chafee.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Thank you, 
gentlemen. I would just like to have you discuss the relative 
threats to the United States from, first, terrorism, and second 
from Iraq, especially in light of how they are hemmed in by our 
international coalition, enforcing the no-fly zones. How do you 
weigh the threats against the United States from those two, in 
some way they might be mixed, but by and large separate 
dangers, Iraq, as we are discussing here, but also 
international terrorism?
    Mr. McFarlane. Senator Chafee, the scale and capability of 
the al-Qaeda and affiliated terrorist threat has not been fully 
defined, I think, by our government, and yet it is asserted 
that beyond Afghanistan affiliates in more than 50 cities and 
countries throughout the world have the training, the funding 
capability, to carry out major violence against the United 
States.
    Evidence of the past 10 years of the, what is it, half a 
dozen attacks from 1993 in New York to the embassies in Africa, 
to the USS Cole and Khobar Towers and so forth, are evidence 
that this is a very potent force and will remain so for a long 
time, in my judgment. One thing that has been underreported is 
the level of funding that is sustaining this work, which is not 
trivial. It is, in my judgment, more than $1 billion annually. 
Global terrorism, oriented primarily against the United States, 
is going to be with us for a long time.
    Saddam Hussein, as someone who is unchecked by a Congress 
or other institution, as made clear that he has ambitions to 
dominate his region. His invasion of two neighbor countries, 
the force that he maintains in being, which gives him the 
capability to do it again, his determination to achieve weapons 
of mass destruction, beg the question for what purpose, if not 
to expand his influence and to coerce the behavior of 
neighboring states.
    One also has to ask whether or not, given his history of 
supporting terrorists, the most notable recently deceased Abu 
Nidal, but Black June, Black September and others, underscore 
that his support for terrorists and terrorism is on the record, 
and therefore to suggest the plausibility of his providing 
terrorists with weapons of mass destruction in the perhaps hope 
of achieving anonymity through this third party use with his 
sponsorship, I certainly cannot assert that that is a high or a 
low probability, but given his history, it is a plausible 
scenario.
    Ambassador Holbrooke. Nothing to add, Senator.
    Senator Chafee. I will follow that up with, in light of the 
potential to fan the flames of anti-Americanism not only in the 
region but apparently in Europe also, is our intervention in 
Iraq counterproductive to our war on terrorism?
    Ambassador Holbrooke. That I will take a shot at, Senator 
Chafee, and my answer is simple. It depends. What does it 
depend on, and this goes back to Senator Hagel's question. It 
depends upon the war itself. If it is quickly successful in its 
objectives, I would share Fuet Jami's well-known statement that 
there would be dancing in the streets of Baghdad, and no 
mourning in any of the other Arab capitals.
    If the war does not go quickly, if it has consequences--and 
that is why I made the allusion in 1914, where everyone thought 
it would be a short war. It was not, and the world changed--
then you are in a different situation.
    As anyone in this room who has served in the military 
knows, military plans start getting rewritten and scrapped on 
day one. Our whole bombing campaign in Serbia, for example, was 
initially miscalculated, and the NATO command in Brussels, 
General Clark and company, had to redo it.
    So you have asked a fair question, but the outcome of the 
military determines the political situation that follows. That 
was true in 1914. It was true in 1945. It was true in the Six-
Day War in the Mideast. It is true in Vietnam. It is the core 
fact. People think there is war, and then there is diplomacy. 
It is not true. If war is an extension of diplomacy by other 
means, then diplomacy is an extension of war, as a result of 
it, and so that is why what we are talking about has such 
enormous consequences.
    Senator Chafee. I could not agree with you more. I think it 
was in your written statement you did say--Senator Hagel quoted 
from one of your statements, but also, war is truly hell, and 
went on to talk about the horrors and waste and its costs, so 
in light of that, just to followup on the same question, how do 
we justify--and again, I guess, going back to Senator Feingold, 
how do we justify without concrete evidence of a threat? In 
answering Mr. McFarlane's testimony here that the threat is 
just no different from several years ago, how do we justify 
this action?
    Ambassador Holbrooke. Senator, most of us in this room, 
unless we have access to current intelligence information, 
which I do not, cannot answer the question precisely. It is my 
view, however, that Saddam Hussein has spent 12 years doing 
whatever he can to rebuild himself. He could not rebuild his 
ground forces, which are about one third the size of 1991, but 
since inspectors left Iraq 3 years ago he has, without 
question, done what he could----
    Senator Chafee. Let me interrupt. Even with our 
overflights, our satellite reconnaissance, our no-fly zones? He 
is hemmed in.
    Ambassador Holbrooke. I will answer that subquestion on two 
levels. No. 1, even if we had cameras that could see through 
concrete bunkers and lead, all they would be was cameras, so we 
would not actually know what we do not know, and second, you 
can only do this with on the ground--and Hans Blix himself said 
last week, the excellent Swedish head of the U.N. inspection 
mission, which is preparing to go back in under certain 
circumstances, that nothing will be foolproof, but this goes to 
a very fundamental question.
    If Saddam is a problem today, as Senator Biden has said, he 
will be a much worse problem if he is left untouched for 3 or 5 
years, and that is why all of us as individuals, and you 
especially, as Senators, are going to have to decide whether to 
support a policy which has a very high probability of leading 
to war--why would anyone even consider it under these 
circumstances, and I hate war. I have been in refugee camps 
everywhere, I have been shot at, the whole works.
    The reason we have to contemplate it, in my view, although 
I agree with Senator Boxer, as a last resort, is that he will 
be more dangerous in the future. In 3 to 5 years he will be 
more powerful, and I do not agree that nothing has happened to 
bring it to a crisis. Why it is happening at exactly now, 
September of 2002, is a separate issue, but he has had 12 years 
in which he has done everything he can--he has made himself an 
international outlaw, essentially.
    If there is a state in defiance of the world system, the 
U.N. Security Council, which everyone in this room has talked 
positively about, it is Saddam and the Iraqis.
    Senator Chafee. I do take exception to the definitive 
aspect that he will be more of a threat in 5 years. That is 
debatable. Fidel Castro, you might have said he will be more of 
a threat if left untouched, and here, years later, he is not 
more of a threat, so that is a debatable point. I do not take 
that as an absolute.
    The Chairman. Did you want to respond, Mr. McFarlane?
    Mr. McFarlane. Please, Mr. Chairman. I do not think any of 
us can give you certainties on almost anything regarding Saddam 
Hussein. I would like to recall, however, Senator Lugar's 
comment about the plausible risks and the stated ambitions that 
we have heard from Saddam Hussein.
    Nuclear materials are poorly guarded in much of the former 
Soviet Union. Thanks to Senator Lugar and Senator Nunn, the 
program that was so well begun and is continuing has to be 
sustained and, unless it is, the plausibility of nuclear 
materials being misdirected, stolen, purchased, or whatever, 
cannot be denied, and the existence of a nuclear program in 
Iraq, which is a matter of fact under the United Kingdom's 
report, issued yesterday, gives us just cause in guarding 
against the growth of that program.
    The Chairman. Let me, before I yield to Senator 
Rockefeller, make a point that I think is a distinction with a 
difference. I think we miss the boat when we are talking about 
Iraq. Iraq violated international norms, invaded another 
country, essentially sued for peace, essentially signed an 
armistice, the conditions of which were contained in the U.N. 
resolutions, and has clearly violated those resolutions. 
Whether or not they are a threat or not, they violated those 
resolutions.
    I hope we stop talking about preemption. This is not 
preemption. Maybe we should or should not go to Iraq, and I 
have an open mind about that, but it is fundamentally different 
than invading a similar country in terms of seeking weapons of 
mass destruction, acted against their own people, not to the 
same extent, like Iran, or North Korea. They are not in the 
same situation. Iraq signed essentially a peace agreement with 
conditions. The conditions are contained in U.N. resolutions. 
They have violated them on their face. That is a fundamentally 
different thing.
    I wish the President and everyone else would stop talking 
about preemption and give people around the world the sense 
that we are acting like cowboys, and/or they have a right to 
act preemptively. This is a different deal.
    Ambassador Holbrooke. Mr. Chairman, I pray that what you 
have just said is understood, because many of your colleagues 
have talked about the fact that they do not feel the rationale 
has been adequately explained. If we would just focus on what 
you just said, then we could have a clear discussion of whether 
it is appropriate to move toward war. When we get into these 
theories about preemptive war, we bring in all these extra 
factors, so I heartily support what you have just said.
    The Chairman. Senator Rockefeller.
    Senator Rockefeller. Mr. Chairman, I thank you.
    What you said, let me use as a segue, because I was in an 
Intelligence Committee meeting yesterday, and it was 
fascinating, because there was--well, he was behind a screen so 
he was not visible--but there was a Minneapolis FBI agent, and 
he had reviewed Moussouai, and Moussouai's French visa had run 
out.
    Now, the FBI agents are lawyers, and they are trained to 
enforce the law, so he had two choices, and one was that he act 
upon the act of wrongdoing on the part of Moussouai, which was, 
he had a visa that had run out, and it was French, and he said, 
this cannot stand, and so he went to do something about that, 
and I asked him, well, and substantiated more in the press this 
morning, there has been some talk that he had quite a lot to do 
with terrorism, too, and would that not call for surveillance, 
and he said no. My job is to make sure that he did not--I mean, 
I am a little bit, with all due respect, reminded of that kind 
of comparison.
    Something changed after 9/11 is my general impression. I 
sure did, and I think everything has changed, so I am happy to 
talk about how it took Wendell Wilkie to come and testify 
before, I presume, this committee, or maybe it was a House 
committee, to get Lend Lease passed at Roosevelt's request, 
because Roosevelt could not get it done himself, so the British 
would not sink, so we could go ahead, and precedents are 
incredibly important.
    My question is, are precedents of a different nature now, 
and I want to put that in the form of a question of a different 
nature to both of our witnesses. We use the word, preemption, 
and I am also uncomfortable with the word preemption. I think 
it is an unfortunate word. It talks about unilateralism, and I 
get lots of e-mails on that subject.
    And on the other hand, supposing we changed the Security 
Council resolution in ways which have been suggested, and 
others have suggested, and it was done, and in fact it was done 
prior to the point that we voted, which probably will not 
happen, but if that were the case, that would be a neater, 
cleaner way of doing it.
    The question then arises, what is it that our allies, 
having, let us say, voted with us, would then proceed to do 
about it, and at some point it seems to me, and I agree with 
the chairman that, do not let Saddam Hussein hang around from 3 
to 5 years, because I will guarantee you he is a lot worse.
    He does not want to be a martyr. I think he wants to leave 
a legacy, and I do not really want to think a whole lot about 
what kind of legacy that might be, and it might well be at our 
expense, and it was not all wrong when Dick Cheney raised the 
question, what if the risk is that we get attacked, what would 
we say then? What would we say then? What would we say to our 
grandchildren then? Everything is, what would we say to our 
grandchildren? What if we get attacked, and he picks us over 
Israel?
    I do not think he would. I think he would take Israel over 
us. Is there a difference between that? In fact, because would 
we not then come to the defense of Israel?
    So my question is, given a new world order, which is going 
to last for a very, very long time under the domination called 
non-state terrorism, which is cellular in function, which has 
absolutely nothing to do in many ways with things like Security 
Council resolutions, it is what I want, when I choose and how I 
choose, and you will never know, but I will do it because I do 
not like you and that is what I have been trained to do, I have 
been trained to kill you--al-Qaeda.
    Now, Saddam may not be thinking that way. I think he 
probably is. Is he more prepared? He surely is. Is he a greater 
threat than he was in 1991? He surely is. He has different ways 
of launching Scuds that go faster and farther, there is no 
question on that.
    So my question is, if we do the unilateral, or if we do not 
do the unilateral but do the Security Council, and then they 
say, OK, we are with you on this, and maybe they give us fly 
zones or landing zones, or they give us this or that, but with 
the exception of one or two, are they going to be there for us, 
and if they are not there for us, does that mean in this 
debate, precedent-based, historically based, that we sort of 
sit and take it, or are we going to end up basically being 
unilateral anyway because we cannot have our children 
smallpoxed?
    Ambassador Holbrooke. Your question is, if no one was with 
us, would we go it alone anyway?
    Senator Rockefeller. And more refined than that, if people 
were with us, in what measurable way would they, in fact, be 
with us which would count for us in terms of dealing with that 
crisis?
    Ambassador Holbrooke. Senator Rockefeller, in the first 
part of your question, we will not be alone. The British have 
already made clear that they will be with us, and I would put a 
great deal of confidence in the fact that the Turks will be 
with us, and to some degree we will have support, logistics, 
basing and so on.
    Let us take Germany, for example. The Germans have said 
they will not be with us, but the bases will still be available 
for us to deploy out of.
    Senator Rockefeller. But that is my point. That is my 
point. I brought in the bases. I said, let us allow for those, 
the fly over and all of that, but at some point it is either 
troops on the ground or it is missiles, or it is the things 
which cause people to retaliate, or which, as Senator Chafee 
said when he was here, counterproductive--I mean, I think that 
is going to happen anyway. That dynamic works through something 
called poverty, so what really is the point on this, both of 
you?
    Ambassador Holbrooke. I think we have to defer to the 
military planners.
    Senator Rockefeller. I do not want to defer. I want to 
defer to you two.
    Ambassador Holbrooke. Bud, why don't you go first. You are 
a military man. I have a view on this, but you should speak 
first.
    Mr. McFarlane. This is an issue that ought to be much more 
front and center in this debate that is unfolding, Senator 
Rockefeller. This will not be a cake walk at all. It is 
possible that the brutality of Saddam will lead his organized 
army and the Republican Guards to fall away, and yet I cannot 
imagine that he will not maintain some capability and, indeed, 
a capability to use these awful weapons against us or against 
Israel, or both.
    Your question is, will anybody be there with us?
    Senator Rockefeller. In a significant way.
    Mr. McFarlane. I do not believe that there will, and that 
is an issue that I, and I am sure you, have focused on for a 
long time, and that is, if we are alone, is it still 
nonetheless imperative that we do this? Is the alternative of 
allowing this awful threat to grow, and some day be launched 
against anybody too big a risk to take, and I think it is, even 
if we have to do this alone.
    Ambassador Holbrooke. Senator, let me just try--I think I 
now understand the question. If you are talking about materiel 
support, airplanes pilots, combat troops, it is very unlikely 
that non-American assets, including the British, would account 
for more than 10 percent. I am making up that number. That was 
the case in the Balkans, especially in Bosnia. That is the case 
in Afghanistan, where, in fact, the Pentagon rather 
interestingly rejected a lot of the offered help initially. 
According to today's Times, they are beginning to look back on 
that as a mistake. So the materiel assistance, it will be 
marginal.
    The United States military strength is greater than all the 
other NATO countries combined. You know the statistics on this. 
The logistics, however, is indispensable, and the political 
support is far more important, in my view, than some of the 
spokesmen for the administration, who have been sort of 
contemptuous of it.
    It is very important in my mind that Prime Minster Blair 
did what he did yesterday in the House of Commons. I believe in 
the end the French will come around. Maybe I am being over-
optimistic, but I have worked a long time with the French, and 
in the end they do not want to be left behind, but they always 
want to be the last ones to come on board. They therefore get a 
better seat on the train. The Germans are a special problem 
because of the recent election, which I consider very 
unfortunate, but in the long run it is not going to damage 
U.S.-German relations.
    The Arab states in the gulf are all trying to maneuver to 
find ways to help us without compromising themselves or create 
domestic disturbances, and I do not know the state of play in 
Riyadh and Qatar and Bahrain and Kuwait, but they are going to 
find ways to help us within the limits they can. American 
troops are already basing in the East African Horn now to 
prepare for exigencies, with the permission of the local 
countries.
    So if you are meaning symbolic, logistical, political, we 
will not be alone. If you are meaning a really material 
addition to our fire power, I would say, again, as a civilian, 
that it will be marginal.
    I hope that is responsive to your question, Senator.
    Senator Rockefeller. Mr. Chairman, I think the political is 
tremendously important. It has psychological meaning. The 
question is, how long does that psychological meaning last? How 
long does it help us if it is our boots on the ground, if it is 
our guns that are shooting, if it is our missiles that are 
killing their people, and I agree with what you both said, all 
three of you have said, and that is that the probability of our 
being at war is very likely, and we can do all kinds of things 
to make that stay as far away as possible, give him a chance to 
back off as much as possible.
    Who knows, he could change his mind. He could play some 
kind of game with us that might not be a game. I doubt it, but 
he might, but in the end I think that that threat is real, and 
I just cannot deal with Woodrow Wilson and Wendell Wilkie in 
trying to set my mind to contemplate the scenario that plays 
out before us.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I find that I agree quite a 
bit with my colleague from West Virginia. It is my intention at 
this point to support a resolution. I hope that that resolution 
does, in fact, incorporate the Ambassador's suggestions, which 
I think are excellent.
    The vagueness of this resolution that has been sent to us 
as a draft begs for specificity, and the four points that you 
raised in your testimony I certainly hope are going to be 
included.
    I was quite intrigued to hear your comments that since the 
Constitution would confer upon the President as Commander in 
Chief the right to act to protect the interest of the United 
States, by him then coming out and enunciating this preemptive 
war doctrine, it has actually weakened his position. Would you 
elucidate further?
    Ambassador Holbrooke. Well, you have put in a much more 
succinct and pointed phrase what I think both Chairman Biden 
and I were saying about preemptive war. Why was it necessary to 
do it, when every President from Washington on has been able to 
do it, when the history shows that Presidents have used force 
234 times, according to yesterday's papers, and asked for 
declarations of war only 5 times, or 11 times if you take each 
axis country individually, so that is my strong view, that we 
have muddied the discussion.
    Senator Nelson. It seems somewhere in American history I 
heard of a President that said, ``speak softly and carry a big 
stick,'' and that people respected the United States, and of 
course that leads me as to why a lot of this conversation has 
been going on, and then you know, sadly, I read on the front 
page of the Washington Post today the quote that Senator 
Daschle felt compelled to take the floor this morning and 
quote, and I read from the Washington Post.
    ``Four times in the past few days Bush,'' referring to the 
President, ``has suggested that Democrats do not care about 
national security, saying on Monday that the Democratic-
controlled Senate is, `not interested in the security of the 
American people,' '' and that is a sad commentary coming out of 
the mouth of the President of what is to be the United States, 
when in fact it is very divisive.
    Ambassador Holbrooke. I have read this article, as you 
have, Senator, and I very much note Senator Biden's earlier 
chronology of 1990-1991, that President Bush Sr., waited until 
after the midterm elections in order to have this discussion. 
However, it is the President's prerogative to send up a 
proposed piece of legislation whenever he wants to, and he has 
chosen to do it at this time, and that is why we are here 
today, instead of having this discussion in December or 
January.
    So whatever the background, whatever the reasons, this is 
where we are, and it would be easier to have this discussion 
absent the overtones of the final days of a very critical 
midterm election, but it has happened before in history. 
Woodrow Wilson in 1918 did this, took the war-peace issues to 
the Nation and lost both Houses of Congress, so there are 
precedents. In any case, we are where we are.
    Senator Nelson. Did Woodrow Wilson, in your recollection of 
history, make statements like this?
    Ambassador Holbrooke. Well, I do not want to give history 
lessons, but he did something even more extraordinary. Senator 
Biden's predecessor at the time was Henry Cabot Lodge, Sr., as 
chairman of this committee, and was also Senate majority 
leader, and Woodrow Wilson chose to launch the attack on the 
Senate in Fanueil Hall in Boston, and from that point on 
Senator Lodge never forgave him, and the personal animosity 
turned into an all-out war, and that is why the League of 
Nations died, so President Wilson's political judgment on these 
things left something to be desired. I do not know whether 
there are any historical analogies or not. Senator Rockefeller 
talked about Wendell Wilkie. I think that is a particularly 
interesting incident.
    But the bottom line here, Senator, is, we are where we are. 
We are discussing a momentous issue today, war and peace, in 
the context of a political calendar, and we cannot avoid it, 
even if we may wish otherwise.
    Senator Nelson. What do you think, both of you--look into 
your crystal ball. If we are ready to go to war, how are we 
going to handle Germany, given the position that they have 
painted themselves into, in a corner?
    Ambassador Holbrooke. I was Ambassador to Germany, and I 
know Chancellor Schroeder quite well, and Foreign Minister 
Fischer. I believe the ties between the United States and 
Germany are unbreakable, based upon culture, commerce, common 
heritage, and the legacy of the cold war, and I believe we are 
going to get through this.
    There are permanent interests of countries, and the 
permanent interests of Germany are to be close to the United 
States. In fact, Chancellor Schroeder flew to London this 
morning specifically to ask Prime Minster Blair to intervene 
with the White House, but there is also personal relationships. 
Clinton and Yeltsin had a good relationship. It helped policy. 
Gorbachev and Reagan, when Bud was working on this, had a good 
relationship, and it helped world history. President Bush and 
President Putin have a good relationship that helps.
    In this case, the personal relationships are working the 
other way. It is not going to be a core issues, and I note that 
Germany has now offered to lead the International Security 
Assistance Force in Afghanistan, and Fischer, the Foreign 
Minister, is reaching out to his American counterpart, Colin 
Powell, as we speak.
    But on Iraq, it would appear to me that Chancellor 
Schroeder dug himself much deeper in than he probably now 
thinks is wise. On the other hand, he won the narrowest 
election in post-war German history. I do not consider this a 
long-term crisis, but going back to Senator Rockefeller's 
question, it will definitely affect that issue.
    One last point. The Bundestag, your counterpart body, would 
have to approve any German deployments. When Schroeder went to 
the Bundestag for approval, he won by only two votes, so my 
German friends have told me that he could not win a vote to 
send forces directly into Iraq anyway. On the other hand, it 
did not have to become this intense and this personal.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. I wonder what recent history would have been 
had we accepted the offer after he risked his career to send 
troops to Afghanistan, had we accepted the offer. I wonder what 
it would have been had we not unceremoniously pulled out of 
Kyoto as he walked into the President's office.
    So these personal things do matter, but I happen to agree, 
for what it is worth, with the Ambassador that the core 
relationship is so deep, so strong, that we will overcome 
personalities.
    But let me speak to Afghanistan for a minute, because like 
Cooperative Threat Reduction and Nunn-Lugar, I do think it 
relates, but not to the same extent, and that is that it seems 
pretty clear now, I emphasize appears, fairly clear now that 
the Defense Department has rethought a position that Senators 
Lugar, myself, I believe the Senator from Florida and the 
Senator from Nebraska all pushed for, which was that we expand 
the international security force in Afghanistan, that we engage 
NATO--as a matter of fact, Senator Lugar and I once again 
importuned the President to take NATO up on its offer for 
participation in Afghanistan, arguing that failure to do so was 
counterintuitive and counterproductive in terms of U.S.-NATO 
relations, and it seems as though now--and that was rejected 
over the strong objection on the part of the Defense 
Department, (a) to expand, (b) to include NATO, (c) to take 
advantage of the French and/or German offers for deployment.
    Now, if what we read is correct, and we had, by the way, 
several hearings that addressed this issue, calling the 
administration up, asking them to reconsider this position, 
specifically asking them to reconsider this position, and now 
it looks like they may be reconsidering the position. I ask you 
both, starting with you, Mr. McFarlane, if during this somewhat 
tumultuous period the administration is able to reconfigure an 
international security force with some muscle, some NATO 
signature, if you will, do it, and is able to put it in place, 
will that have any positive or negative impact on our ability 
to get support and/or succeed in Iraq, or is it not relevant? 
How will it play?
    I know you know so many foreign leaders. How do you think 
that would play in terms of the objective we all seek, which is 
a more cooperative effort to deal with Saddam? Saddam is not 
just our problem, he is the world's problem. We may be the only 
solution, but he is the world's problem.
    Is there any correlation between how we handle, from this 
point out, Afghanistan and its stability and our demonstrating 
to the world we have kind of learned a--what we intend in Iraq, 
and I will close this question--it sounds more like a diatribe 
than a question, but I have met with the Foreign Ministers of 
most of the European countries, beginning this February, and 
Iraq is always the subject at some point or another, or heads 
of state from our European allies that we have hosted here, and 
in almost every instance I have been asked the question, what 
is our intention relative to an Iraq without Saddam?
    They have no doubt we can take out Saddam. They wonder, 
what after, so that is the reason I ask this question, because 
there seems to be an inordinate amount of unease--or maybe 
inordinate is not right. There is an incredible amount of 
unease among our European and Arab friends of what happens to a 
destabilized Iraq, even without Saddam.
    Does the question make any sense?
    Mr. McFarlane. Yes, Mr. Chairman. I think first, your 
suggestion of the need for expansion in Afghanistan is right on 
the mark. If you think back 20 years to Lebanon, where our 
intention was to establish a truly Lebanese army, Shia, Sunni, 
Christian, Greek Orthodox and so forth, that was a sound idea, 
and essentially we are trying to do that in Afghanistan today, 
but it is not here, and it will not be here for a long, long 
time, and until we have that kind of force plus a separate 
constabulary worthy of the name, it is going to be a very 
unstable place.
    Today, all the guns are in the hands of the Northern 
Alliance, and it is a very unstable situation that can only be 
relieved by an expanded ISAF, in my judgment. Whether the 
additional units of volunteers from European countries should 
be individual or under NATO auspices, I do not have an opinion 
on. Clearly, we do need and would benefit from greater European 
participation.
    A second point, I think, is that to the extent our advocacy 
for a larger ISAF and a welcoming of a greater role for 
ourselves in it would relieve part of the angst, I think, that 
is real in Europe, and Asia for that matter, about 
unilateralism on our part, it would be a positive good in 
relieving some of those concerns.
    I think finally, however, that what would do the most good 
of all is to do both of those things, but then pledge very 
emphatically that if we go into Iraq, to not only change the 
regime, but restore or build institutions that can promise 
greater stability in the future, and that will take years and 
years, but it has to be done.
    The Chairman. Thank you.
    Mr. Ambassador.
    Ambassador Holbrooke. With your permission, I would like 
this to be my final answer, because I am running very late. I 
was supposed to host a dinner tonight for President Gusmao of 
East Timor in New York, and Nick Plath is going to handle it, 
but I would like to get there before it is over.
    You and I have discussed this many times. I wrote an 
article on this in early November, and you and I share the same 
view. What you said about Germany I agree with completely. It 
was unnecessary, when Schroeder put his whole career on the 
line, to treat it that way.
    I am very struck by today's New York Times article from the 
NATO summit saying the Americans regret they did not give NATO 
a role. This goes back to Senator Lugar's famous phrase, which 
has now become part of the language, ``out of area, out of 
business.'' I believe you initiated that phrase for NATO, and 
you and I have been allies on that.
    The ISAF should have been outside of Kabul, and the 
fundamental mistake that was made in Afghanistan was that while 
we proclaimed support for Karzai we strengthened the war lords, 
who are also drug lords, and whose strength is incompatible 
with any kind of affective central government, even a loose one 
in a loose federation, and you talked to Karzai when he was 
here about this.
    He minimizes the problem when he talks to us because he 
does not want to play into the hands of the critics of the 
administration that supported him, but he knows it is a 
problem, and you and I both talked to him privately, and I 
agree with what Bud McFarlane said, and if they are beginning 
to realize that they should have done it differently in 
Afghanistan, if they are beginning to realize that Bosnia is 
not the place that they should pull out of, as they wanted to a 
year and a half ago, then I hope those lessons will be applied 
to Iraq, if and when the time comes.
    The Chairman. Nation-building ain't a dirty word, but that 
is what we are talking about, nation-building.
    I understand you have to go.
    Senator Lugar.
    Senator Lugar. I would just thank the Ambassador, but I 
wish that he would leave if he needs to at this point, and I 
will raise my questions afterwards.
    Ambassador Holbrooke. Thank you, Senator Lugar, and before 
I leave, I did not express my own views on Nunn-Lugar because 
it would only be repetitive, but we need it more than ever, and 
your leadership has been extraordinary on that. Thank you.
    Senator Lugar. Mr. Chairman, let me just say for the record 
that the quote, ``out of area, out of business,'' came from 
somewhere else. I did not originate it, although I have 
utilized it. I think it was accurate, and I appreciate the fact 
that NATO has moved in that way. I would just underline what 
you and Ambassador Holbrooke have pointed out, that we did try 
to emphasize NATO in Afghanistan because it offered a 
structure.
    If Lord Robertson was able to assign countries so there is 
not a pick-up game every 3 months as to who might volunteer, 
and they would be prepared to do that. Lord Robertson came here 
to the United States and made those comments. Now, hopefully 
that may offer some structure, but something is needed there.
    Likewise, I just want to make a point once again for the 
record that President Bush has been commended for recommending 
that it be postponed until after the election. He did that, but 
the argument at that meeting was that there would be new 
Members seated in the new Congress, so as a result the old 
Members ought not to be voting in late November or December, 
because hearings were to be held. The chairman pointed out in 
his memo this committee met in December, as in Armed Services, 
but still there was resistance all the way through by the 
administration having to vote.
    And I can recall going to the White House with people who 
were arguing that the President should simply use the war 
powers resolution. In other words President Bush should just 
proceed, then after the requisite 30 or 90 days or so, if it 
had not worked out, come back and ask for something at that 
point.
    Now, fortunately, we had the vote on January 11 which gave 
us 4 days to go before 250,000 people or more would go into 
combat. So I am hopeful that we can sort of reconstruct all of 
that history. I think it is relevant for this situation, 
because ideally I think we still ought to take jurisdiction in 
the committee if we can do so for a period of time, it is 
reasonable for us to fashion a resolution. It may or may not be 
the one that is debated but nevertheless it should be our job.
    In it there were two resolutions that were offered in the 
Senate, and they were the rival resolutions from the Armed 
Services Committee, one offered by my friend Sam Nunn, and 
another offered by Senator Warner. These went together with the 
majority leader, Mr. Mitchell, and Mr. Dole, the minority 
leader, and those were the two offerings that we had at that 
point.
    I just wanted to ask you, Mr. McFarlane, in your judgment, 
would the Security Council be more likely to fashion a 
resolution that dealt with Iraq if the Senate held a vote 
before the Security Council acted? In other words, some have 
argued that the Security Council members, quite apart from 
Saddam, may finally doubt the resolve of this country, feel 
that once again we are bluffing, that for the last 11 years or 
so people have huffed and puffed about violations of the 
Security Council resolutions, as well as incursions in the no-
fly zone, but not a whole lot has occurred and as a matter of 
fact, we have been gone for 4 years.
    If he was a betting man, he might guess we might be gone 
for 4 more, but would it be helpful for us to vote, just 
playing the devil's advocate for a moment, sooner rather than 
later to indicate some resolve, the administration and the 
Congress working together?
    Mr. McFarlane. Senator Lugar, I think it would have a very 
positive impact, and the demonstration of that resolve and 
support and commitment that you suggest, and that that impact 
would be felt by members of the Security Council.
    This is not a direct analogy at all, but I recall very well 
the run-up to the first summit with President Gorbachev in 1985 
in Geneva, and the impact that the Senate, the majority 
resolution actually had on Gorbachev, separately the action of 
all permanent members of the Security Council, in joining in 
the support of President Reagan as he left for Geneva, and this 
very vivid public solidarity expressed in New York from 
Thatcher, Kohl, Mitterand, Craxi, I believe, and Nakasone, 
echoed--not echoed, but in parallel with that of the Senate, 
the joint resolution, and then of course the American people 
were at 70 percent supporting the President's positions going 
to Geneva, were more than Gorbachev could ignore, and it had a 
profound effect--it is in his memoirs--in influencing his 
position of change and a revolution that gradually led to 
successes in arms control and elsewhere.
    I think it has a very positive impact.
    Senator Lugar. Let me ask a second question. What should be 
the proper call with regard to the tactics of fighting a war in 
Iraq if we have one? For example, some have argued, I think 
privately rather than publicly, that the type of tactics that 
the United States ought to adopt in Iraq that would minimize 
the loss of American lives and minimize civilian losses and 
what-have-you are extraordinarily new and different, involving 
smart weapons, special forces, and so forth. But this requires, 
of course, not only an element of surprise but coordination 
which only our country might be able to bring this off 
successfully. To invite others into these intricate tactics is 
to risk failure.
    That, at least, was the argument made with regard to many 
of the tactics adopted in Afghanistan. The one reason that 
allies were not invited in was that they did not have lift 
capacity, but second they were not really compatible with the 
particular training and tactics that we were going to use in 
the Northern Alliance and so forth.
    From your own experience in this, and this has been 
extensive, what do you think of that argument? Is it the 
prudent thing, once we have decided to do this, even if we have 
a Security Council resolution and so forth, for us to counsel 
with our allies and say, now let us handle this in our way, 
because we believe we can do so with the minimum loss of lives 
and minimum amount of time and so forth. As opposed to taking 
time to involve several nations so that there is a show of 
their ability to participate?
    Mr. McFarlane. Well, I believe it is a little disingenuous 
to discount and disparage the role of allies because of 
incompatibility, or not having common tactics and so forth, 
given that that is what we have been working on for more than 
50 years in NATO, for example, and that commonality in fact 
exists. I would credit to an extent the arguments specific to 
Afghanistan that we were going into something where we were 
very much blind. This deserves in itself a lot of focus, 
because the intelligence of the United States before that 
conflict about the situation in Afghanistan was appallingly 
bad.
    The idea that the CIA for 10 years had to read in the 
newspapers that we had a drug problem there and not put anybody 
on the ground, that we had a growing cell of terrorist activity 
there and not put anybody on the ground, with the result that 
we finally go to war with nobody on the ground, led us to have 
to rely on the resourcefulness of our special operations 
people, and they did a remarkably good job.
    How much better it would have been if they knew who the 
good guys and who the bad guys were, and we ended up hiring bad 
guys who called air strikes on good guys. Well, that is another 
story.
    But your point is well taken. It is surely feasible to 
carry out the kind of tactics we are going to need to use in 
Iraq with allied units. We have operated in this kind of area. 
We have trained for it together, and we ought to be encouraging 
it. This does not even include the enormous political gain that 
comes from the political support that we also enjoy.
    Senator Lugar. Mr. Chairman, let me just make a point, 
prompted by that testimony. I am hopeful, and I do not draw any 
conclusions, but I am hopeful our intelligence with regard to 
Iraq is substantially better than Mr. McFarlane is pointing out 
it was prior to our war in Afghanistan. I mention that not with 
regard to the questions we have been raising of intelligence, 
because we participated in a good meeting with the CIA Director 
and others, but on these questions in which there do not seem 
to be many answers in terms of political leadership inside of 
Iraq.
    We have the exiles and some identification with these 
persons who purport to be a potential government or coalition. 
Granted Saddam has suppressed most people and they probably 
would not be showing their heads, but at the same time, we are 
about to get into a situation of potential instability, and I 
am not comfortable that of our knowledge of potential new 
leadership. I am hopeful we know more about the military 
predicament, but I am not confident we know where the weapons 
of mass destruction are, and that is a very large question in 
all of this.
    I suppose one value of these hearings is that you sound 
these alarms and it sort of sends signals. You ask somebody to 
look and watch, because it appears to me we are on the 
threshold of having to make some tough judgments in a military 
way, quite apart from the post-Saddam situation if we come to 
that, and in a political way, but these are just thoughts that 
are prompted by experienced testimony you have given, and I 
appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. I might point out that there are 600,000 to 
700,000, as Mr. McFarlane has indirectly referenced in early 
answers, 600,000 to 700,000 Shia Iraqi refugees in Iran, 
600,000 to 700,000 in Iran. What happens then? We are talking 
about 60 percent of the population.
    Senator Lugar. They become very interested in Iraq.
    The Chairman. Yes, but they are Iraqis in Iraq. Senator.
    Senator Nelson. That begs the question. As we look to the 
post-Saddam Hussein Iraq, how do you keep Iraq together with 
all of those forces pulling at it, the Kurds in the north, the 
Shia in the south, and how in the world do we protect the 
interests of the United States, and what is the plan for that? 
Can we discuss that? We do not hear that discussion coming out 
of the administration, but that is a very important element for 
the future protection and the interests of the United States.
    The Chairman. If the Senator would yield, part of the 
value, hopefully, of these hearings, to in a sense parrot the 
point Senator Lugar was making, is hopefully we send out the 
sort of cries for assistance here. We had testimony, as you 
well know, on so-called the day after, and former Secretary 
Weinberger and Secretary Rumsfeld, Weinberger last month, 
Rumsfeld last week, suggested the United States would not need 
to stay very long in Iraq.
    They argued that Iraq has a talented population, 
considerable resources to pay for its own reconstruction, will 
quickly be able to organize itself politically, economically, 
and militarily into a peaceful unified nation, free of weapons 
of mass destruction.
    But then we also had testimony here before this committee 
from considerably talented military experts, one whose sole job 
was post-war planning--I mean, post-victory planning, who 
indicated that 75,000 troops were required at a cost of $16 
billion for the first year to maintain order, to preserve 
Iraq's integrity, secure weapons of mass destruction sites.
    Other experts we had predicted that the United States will 
have to engage substantial resources for years, and among the 
more significant challenges for years, and among the more 
significant challenges that Iraq will not be able to handle on 
its own from a plethora of witnesses was, cleaning up after 
effects of a battle, and malicious destruction by Saddam with 
chemical and biological weapons, and providing basic 
humanitarian needs. We saw what happened in Afghanistan, a 
smaller country--dealing with refugees, displaced persons, 
catching Saddam if he flees, providing police protection, and 
preventing reprisal killings, detoxification of the Ba'athist 
officials and security services, aiding in the formation of a 
new government, ensuring Iraq territorial integrity, and 
dealing with possible Iranian and Turkish intervention, 
rebuilding the oil sector while ensuring the smooth reentry of 
Iraqi oil into the world markets, and promoting legitimacy of a 
new government for Iraq in the Arab world.
    I met, as we all have, I assume with the Iraqi National 
Congress. I admit this is now 5 months old. They came to me and 
said, hey, we are not getting any response from the 
administration. We are asking them to help train us on how to 
run an infrastructure. They said, well, we will talk to you 
later. Who is going to run these things?
    This is able to be done, but it sure requires some 
significant thought process a little bit ahead of time, and as 
I said, I believe--I am not just hopeful, I believe the 
President before, no matter under what circumstances, he 
arrives at the use of force, if he arrives at that, I am 
convinced he will come to us and the Nation with answers to 
some of these questions, but I do not think it is an 
exaggeration to suggest that the speech at the United Nations, 
although an incredibly important speech, was not designed to 
answer these questions. It was not designed to answer these 
questions, and these questions, if not answered, have to at 
least be spoken to.
    Again, I will end where I began. It is not hyperbole to 
suggest that the American people will not sustain the action we 
undertake if they are not informed front end. What we are 
asking of them, I believe if we ask of them, they will respond 
if we make our case, but I think we have got a little ways to 
go here, and I am hopeful that we can in a bipartisan way 
arrive at these conclusions.
    I regret the statements that I read in the paper. I suspect 
those statements related to the homeland security resolution, 
and not to Iraq. They were ill-advised, no matter what they 
related to, but they are probably not as bad as they appear, 
but I just hope we kind of get beyond this. I wish everybody 
would sort of calm down a little bit and we could all just take 
this a piece at a time and work our way through this, and we 
will arrive at the right conclusion, I have confidence in that, 
but I would respectfully suggest we are not quite there yet, 
and your testimony, Mr. McFarlane, has been insightful and 
helpful, and it reflects a joint position, even though we may 
start from different places.
    You are of the school, like many other very bright people, 
who say, going to the U.N. to seek this permission is not 
necessary and probably counterproductive, and others say it is 
essential to go to the U.N. first. Notwithstanding the fact 
that there may be disagreement on that point, there is 
agreement on the point that it is better to go with others if 
we can. It is better to have others in on the deal for paying 
the bill, if we can, and it is better to have at least some 
support and/or the acquiescence of the rest of the world if we 
can, but if we cannot get any of that, and our national 
interests are still at stake, we must respond.
    And so the question is to me, how do we get to the point 
where we limit the downside as much as we can, and increase the 
possible upside as much as we can, and that is what this is 
about right now. I hope no one listening to this in a foreign 
government or overseas thinks this reflects any fundamental 
disagreement about Saddam, but it does reflect the natural and 
necessary impulses of a democracy, to be able to determine what 
we are about to do and make sure all are signing on to the same 
deal.
    My dad, who just passed away, used to say, ``I like to know 
who is responsible so I know who to hold accountable.'' Well, I 
think the American people have a right to know what we have in 
mind before we ask them to sign on, and I thank you, Mr. 
McFarlane, for being here. You have great experience. I thank 
Ambassador Holbrooke.
    Tomorrow, again, we have--unfortunately former Secretary of 
State Eagleburger was to testify but he is ill, not seriously 
ill, but he is unable to be here. There are no alarm bells. He 
just has the flu, or something to that effect and is not able 
to be here tomorrow. Our witness list will be made up of former 
Secretary Albright, former Secretary Kissinger, as well as the 
present Secretary of State, Colin Powell.
    I do not intend that these, with the permission of my 
Republican colleagues as well, to be the last hearings we are 
going to have on this, but I do think it is important to have 
the three Secretaries of State tomorrow, and I will pursue with 
Senator Lugar his suggestion that this committee at least have 
an opportunity to debate--not debate, but to have hearings on 
whatever resolution we are going to be considering.
    And I am not suggesting that we should not be able to be 
discharged if we are unable to reach any conclusion. It is not 
meant to be in any way an attempt to hold anything up, and I 
further would suggest that the purpose of committees is to 
allow all of our colleagues the benefit of having done some 
serious spade work before we vote on important subjects. It 
seems to me to be the responsibility of this committee to do 
that. I will attempt to work with my colleague to do that.
    Senator Lugar. Mr. Chairman, may I make one more, I hope 
diplomatic comment, and that is, essentially all of us today, 
whatever we have thought of past administrations or this one, 
are really trying to ask questions in which we hope that there 
is planning going on in our administration now on these 
critical issues. We may not have been informed of it.
    But on these questions of the numbers of people required in 
Iraq, or the thoughtfulness about the Sunnis and the Shiites 
and the implications of Iran and other countries, there are a 
lot of very bright people in America, a good number of them I 
am sure in the administration. The question is, has there been 
a focus, and if so, I think we would appreciate in this 
committee some sharing of that.
    Now, some of it may be highly classified, or even the fact 
that people are thinking about it is classified, but at some 
point, historically, the American people are going to ask of 
us, where were you when all of this went on, did you raise 
these questions, and we would say, we just did not think of 
that, we were fastened on something else.
    I think the committee hearing today, aided by our two 
witnesses, did think of a number of things, and both of us and 
others have indicated we are using this forum almost to send 
messages, and please, to do things.
    I would just like to say, Mr. Chairman, I appreciate the 
spirit with which you have approached this hearing, as well as 
others. Sort of clamoring outside of the committee room are 
many who want comments as to whether the whole Iraq issue has 
become viciously partisan, and so forth. The fact is that it 
could be, but it should not.
    The chairman is a candidate for reelection this year. 
Fortunately, I am not, so I have the comfort zone at least of 
that situation to say that I understand. People who are 
involved in election campaigns, reading the analysis every day, 
does Iraq supplant every other issue, or something of this 
variety, may be tempted to get into some other analysis, but 
thank goodness, that was not the case here, so I thank the 
chairman, and I think the bipartisanship and the 
nonpartisanship really with regard to this issue has been very 
important, and that was true of our first two hearings, it was 
true of this one, and it is important in terms of our own 
credibility, because we are raising these questions with our 
administration as well as the rest of the world.
    If we do so from a degree of unity, why, obviously it is 
highly, much more effective, so I thank the chairman.
    The Chairman. We often kid about this, but it probably 
hurts us both that at least you and I--not least, you and I 
have been almost completely unified in this endeavor, as has 
Senator Hagel and, I might add, if you notice way down the 
other end there in terms of seniority is the Senator from 
Florida who has, to the best of my knowledge, stayed for every 
last drop of every hearing.
    We are not attempting to be self-congratulatory. We are 
trying to send a simple message. This committee, this Congress, 
the people who have primary responsibility in this Congress for 
at least presenting this debate are unified and are trying to 
help, not be obstructionist. We are trying to help the 
President in resolving a very difficult situation.
    We all know--I have been here for almost 30 years, this 
Senator has been here 28 years, if I am not mistaken.
    Senator Lugar. Twenty-six.
    The Chairman. We have been around a long time We understand 
that no President is ever in a position where he has 100 
percent of the information he needs to make a decision. We 
understand that.
    The only thing we want to know is that he has thought 
through, the administration has thought through, even if the 
answers are not available, has raised all the pertinent issues, 
because--I keep saying how the American public has to be 
informed. I want to be informed. I want to be informed before I 
vote on these things.
    Again, I thank you all. Bud, thank you for sitting through 
our little dialog here, our conversation among ourselves. You 
are very gracious to do that.
    But again, this is not a divided committee. This is a 
united committee in our effort to do what is right for this 
country, and I have not a single doubt in my mind that the 
three Senators here and the rest of the members of this 
committee will do what we think is right, regardless of what we 
think the political pressures are relative to each of our 
political parties, and I think that is how everyone is going to 
act.
    This is too important. There are some things worth losing 
elections over. There are some things worth losing elections 
over. This is one of those things that is so big that, even if 
it was going to be politically costly, we have no choice but to 
do a thorough and deliberate job.
    Again, I thank everyone. Thank you for your indulgence. We 
are adjourned. Thank you.
    [Whereupon, at 5:05 p.m., the committee adjourned, to 
reconvene at 10:30 a.m., September 26, 2002.]


                           NEXT STEPS IN IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:35 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Joseph R. Biden, Jr. (chairman of 
the committee), presiding.
    Present: Senators Biden, Sarbanes, Feingold, Wellstone, 
Boxer, Bill Nelson, Helms, Lugar, Hagel, Frist, Chafee, Allen, 
and Brownback.
    The Chairman. The hearing will please come to order.
    Starting in July, the committee has held a series of 
hearings on U.S. policy toward Iraq, and we have heard from a 
broad range of experts and witnesses, former senior officials 
on the basic questions before the country, which is, what 
threat does Iraq pose to the United States? What are our 
possible responses? How do our allies around the world and our 
friends in the region see the problem? What would be our 
responsibilities the day after? What is the goal that we have 
here?
    I think the President is dead right about the danger of 
Saddam Hussein. The witnesses and my colleagues are tired of 
hearing me say this. I think no matter how well formulated a 
foreign policy, it will not be sustained very long without the 
informed consent of the American people.
    So one of the questions I have been asking is, at what 
point, if it gets to this that we ``take down Saddam,'' do the 
Secretary of Defense and the Secretary of State turn to the 
President and say, we are done here, Mr. President? We have met 
our goals and we can go home. I think we should be talking 
about that.
    This morning we continue our inquiry with two Americans who 
have had an extraordinary impact on our country's foreign 
policy and security problems: former Secretary of State 
Madeleine Albright, and former Secretary of State Dr. Henry 
Kissinger. This committee has heard from them on many occasions 
in the past and I am pleased to welcome them both here again to 
help us work through a difficult challenge posed by Iraq.
    This afternoon we are going to hear from the current 
Secretary of State, Colin Powell, and I will have a lengthier 
statement at that time.
    For now, let me simply welcome our two witnesses and tell 
them how pleased we are they are here for this important 
process and yield to my very good friend from North Carolina, 
Senator Helms.
    Senator Helms. Mr. Chairman, thank you very much.
    You have rung the bell this morning by bringing these two 
leaders here this morning. I join in welcoming them here. If I 
had been a little closer, I would have hugged you, but it is 
hard to do it with a barricade like that.
    We could not have, I think, two finer examples of 
naturalized citizens. I have thought about that a lot. They are 
a tribute to the opportunities offered by our country to all 
citizens. And certainly I join you and the rest of the 
committee in welcoming both of them.
    An international consensus to rid the world once and for 
all of Saddam Hussein is developing, I think, and the 
President's speech to the General Assembly of the United 
Nations 2 weeks ago presented the clearest possible case for 
action against the Iraqi regime of Hussein.
    Tony Blair. My affection for that guy just keeps increasing 
because he has really stuck with us in thick and thin. His 
speech and his report to the British Parliament also laid the 
case out clearly and succinctly.
    Yesterday Ambassador Holbrooke sat where you are sitting 
this morning, ma'am. He called Turkey our indispensable NATO 
ally. I could not agree more, and that country's assistance is 
noteworthy.
    The Washington Post reported last week that Qatar and 
Jordan and Saudi Arabia are coming around, even at the expense 
of criticism and possible--possible--unrest within their 
jurisdictions.
    In any case, it is certainly good to see you here this 
morning, and all of us will be interested in your assessment of 
the further steps we can take to solidify the key support of 
our key allies. And I thank you for being here, both of you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me suggest to our witnesses something that we do not 
often suggest. I am not asking you to be limited by time. This 
is such an important issue. I mean this sincerely. We have two 
incredibly knowledgeable people and we will benefit from 
whatever time you think is necessary for you to make the points 
that you make. So I am going to ask the staff not to turn on 
the timer light and apologize to my colleagues. I do not expect 
that the witnesses will take an inordinate amount of time, but 
your statements are so important I do not want you to feel 
rushed to say I am summarizing my statement in 3 minutes or 5 
minutes and move from there, unless that is what you prefer to 
do. I just want you to know we are anxious, truly anxious, to 
hear from you both.
    Only in order of recent occupants of the chair, I would 
yield first to Secretary of State Albright and then to Dr. 
Kissinger and then we will move to questions, if that is 
appropriate and all right with my colleagues.
    Senator Helms. Good.
    The Chairman. Secretary Albright.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
 STATE, CHAIRMAN, NATIONAL DEMOCRATIC INSTITUTE, WASHINGTON, DC

    Secretary Albright. Mr. Chairman, thank you very much, and 
Senator Helms, thank you for your kind comments. It is very 
nice to see you.
    I am delighted to be here as you exercise your patriotic 
duty to ask questions about the substance and direction of 
American policy toward Iraq. To me this committee is kind of 
like a second home, and it is a special honor to be accompanied 
by my very distinguished and charismatic predecessor and 
especially very good friend.
    I think I speak on behalf of both of us, Senator Helms, 
that there is no greater honor than to serve this country, 
especially for those of us who were not able to be born here 
but have benefited from the great generosity of the American 
people.
    Mr. Chairman, the President's speech to the U.N. 2 weeks 
ago paralleled many of the statements that I made when I served 
as U.N. Ambassador and as Secretary of State. The details of 
Saddam's noncompliance with Security Council resolutions were 
not new, nor was the President's challenge for the Council to 
respond firmly or face a forceful American response.
    The difference now is that weapons inspectors have been 
absent from Iraq for almost 4 years, and the risk that Saddam 
Hussein will succeed in reconstituting deliverable weapons of 
mass destruction has increased. It is in the interest not only 
of the United States but also of the entire international 
community to act.
    So I strongly support the administration's decision to back 
the return of U.N. inspectors to Iraq without any conditions. 
The path of inspections is all too familiar, but it is worth 
traveling one last time. If the Iraqis break their promise, the 
case for military action will be stronger. If they keep it, the 
U.N. inspection and monitoring regime will resume, and that is 
good. Before the inspectors were kicked out, they had destroyed 
more weapons of mass destruction capacity than the gulf war 
itself had. Unfettered inspections and monitoring will make it 
far harder for Iraq to continue developing advanced arms.
    So we must be willing to take a ``yes'' for an answer. But 
we must also be prepared for a negative response.
    The President has asked Congress for the authority to use 
all means necessary to enforce Iraq's compliance with U.N. 
Security Council resolutions. He should have this authority and 
members of the Security Council should join us in the 
enforcement effort. And I refer particularly to permanent 
Council members France, Russia, and China. You know, we speak 
about the United Nations, but ultimately it is the individual 
members who make the decision. These are the countries that 
most vigorously promote the Council's prerogatives, and they 
should be the countries most determined to see that its 
resolutions are enforced.
    If Saddam continues to behave like Saddam, we have 
legitimate grounds for acting on behalf of the Security Council 
to bring Iraq into compliance. This answers the question of why 
a confrontation might be necessary.
    It does not, however, answer two other questions. The first 
is how and the second is when.
    The question of how has two parts. One is military, which I 
will leave to my friends in uniform. The other is the problem 
of planning for a post-Saddam era. This is complicated because 
we could be confronted with a no-win choice. One option might 
be a prolonged U.S. military occupation of the country that 
served as the cultural capital of Islam during that 
civilization's Golden Age. This would hand a new organizing 
tool to anti-American terrorists worldwide.
    The other option is to withdraw promptly and risk plunging 
the country into factionalism and civil war. It is naive to 
think that a peaceful and democratic Iraq will automatically 
emerge from the ashes of our invasion. It is crazy to believe 
we can run post-war Iraq alone. And it is essential that the 
administration think through the consequences of all this in 
advance, which it is not evident to me that they have done. One 
thing is certain. We may be able to win a war against Iraq 
without a broad coalition. But there is no way we can win the 
peace without help from many others.
    As for when to confront Iraq, the answer should be at a 
time of our own choosing. In making that choice, several 
factors should be borne in mind.
    As evil as Saddam Hussein is, he is not the reason anti-
aircraft guns ring this city and a Department of Homeland 
Defense is being created. Saddam Hussein remains the enemy we 
know. His military is far weaker than it was a decade ago, and 
he knows that he will be obliterated if he ever tries to attack 
another country again. As a rule, people who build statues to 
themselves are not suicidal.
    The more urgent threat remains al-Qaeda and related groups 
because deterrence is ineffective against those who embrace 
death. More than a year after September 11, only a handful of 
al-Qaeda's top leaders have been eliminated and its funding 
sources have not dried up. Terrorist attacks continue to take 
place and al-Qaeda members are reportedly filtering back into 
Afghanistan.
    Defeating al-Qaeda is not a part-time job, and we will need 
the sustained help of governments everywhere and especially in 
the Islamic world. And we must make an undivided commitment of 
our own military power, diplomatic capital, intelligence, and 
law enforcement resources.
    This is not the time or place for short attention spans. 
The fight against al-Qaeda must remain our top priority.
    I did note that yesterday, Dr. Rice in an interview talked 
about the fact that they can now link some al-Qaeda people and 
Iraq. This kind of information is just dribbling out and I am 
not sure that we fully understand what it means or that we have 
enough information about it. And I hope very much that that is 
something that we can all explore.
    In his memoirs, one of our most illustrious predecessors, 
Secretary of State Acheson, wrote that it is sometimes 
necessary to over-dramatize a threat in order to arouse public 
support for a policy. This administration is now doing just 
that by trying to claim September 11 as a primary reason to go 
to war against Iraq. Officials say that September 11 created a 
new reality, which is that terrorists might be able to obtain 
weapons of mass destruction. That is, of course, a reality but 
hardly a new one. There are perhaps half a dozen other 
countries that are thought to have weapons of mass destruction 
programs and links to terrorism that are at least as extensive 
as Iraq's.
    Certainly the danger is real, but eliminating Saddam will 
not eliminate the threat. It might even make it worse if anti-
American extremists elsewhere are energized by an assault on 
Baghdad.
    There is a valid case for using force against Iraq, but 
timing matters. At a minimum, the administration still needs to 
develop a coalition, strengthen Iraqi opposition groups and 
develop a coherent blueprint for the post-Saddam era. It must 
also conduct diplomacy aimed at cooling tensions in the Middle 
East and make certain that a war with Iraq does not result in 
attacks against Israel and a broader regional conflict.
    To buy this time, we should give notice that if U.N. 
inspectors are again rebuffed by Iraq, we will destroy, without 
warning, any facilities in that country we believe are being 
used to develop prohibited arms. Even if those suspicions prove 
wrong, the blame should fall on Iraq for denying access, not on 
America for enforcing the Security Council's will.
    Mr. Chairman, in closing, let me say that I expect Congress 
to authorize the President to use force against Iraq. I hope, 
however, that it will not be necessary to use the authority in 
question. America must respond firmly to Saddam Hussein, but I 
do not share the irrational exuberance for conflict that is 
present among some pundits and perhaps even a few 
administration officials. It is not an American trait to want 
war, and it is not a sign of sound leadership to understate the 
risks of war or to offer constantly shifting rationales, as 
this administration has, for undertaking such a venture.
    I also question the administration's wisdom in publicly 
adding new and hegemonic language to our national security 
strategy. This document brags unnecessarily about American 
strength and gives ammunition to those who accuse us of 
pursuing our interests without regard to international norms.
    More than 200 years ago when the British Empire was at its 
height, Edmund Burke wrote, ``I dread our own power and our own 
ambition; I dread our being too much dreaded. We may say that 
we shall not abuse this astonishing and hitherto unheard of 
power. But every other nation will think we shall abuse it. 
Sooner or later, this must produce a combination against us 
which may end in our ruin.''
    Mr. Chairman, there is a gathering danger that America will 
be perceived as a nation uninterested in the concerns of others 
at the precise moment we most need global cooperation to fight 
terrorism, proliferation, and menacing dictators such as Saddam 
Hussein.
    We must, therefore, be strong but also smart in 
articulating the why, planing the how, and choosing the when of 
actions directed against Iraq and other challenges we face. And 
we must be clear not only about what America is against, but 
what America is for. We are against terrorism and Saddam 
Hussein; that is a given. But we are for democracy and 
development, the rule of law and respect for human rights. 
These priorities must not be lost amidst the sound and fury of 
some parts of this present debate.
    I salute you and the committee for these hearings because I 
think that they are providing a very important place to debate, 
as calmly as we can, what is the most difficult decision any 
President and Congress has to make, to go to war.
    I will not take more advantage of your time and hope very 
much that a lot of the issues that we have will come up in 
questions. I am very, very pleased now to turn the floor over 
to my good friend, Secretary Kissinger. I am sure that he 
agrees heartily with everything I have said.
    [The prepared statement of Secretary Albright follows:]

 Prepared Statement of Hon. Madeleine K. Albright, Former Secretary of 
                                 State

    Mr. Chairman, Members of the Committee, I am delighted to be here. 
This Committee is like a second home, and it is a special honor to be 
accompanied by my very distinguished predecessor and friend, Secretary 
Kissinger.
    Mr. Chairman, the President's speech to the UN two weeks ago 
paralleled many of the statements I made when serving as UN Ambassador 
and Secretary of State. The details of Saddam's noncompliance with 
Security Council resolutions were not new. Nor was the President's 
challenge for the Council to respond firmly or face the likelihood of a 
forceful American response.
    The difference now is that weapons inspectors have been absent from 
Iraq for almost four years. The risk that Saddam Hussein will succeed 
in reconstituting deliverable weapons of mass destruction has 
increased. It is in the interests not only of the United States, but 
also of the entire international community to act.
    So I strongly support the Administration's decision to back the 
return of UN inspectors to Iraq. The path of inspections is all too 
familiar, but it is worth traveling one last time. If the Iraqis break 
their promise, the case for military action will be stronger. If they 
keep it, the UN inspection and monitoring regime will resume, and that 
is good. Before the inspectors were kicked out, they had destroyed more 
weapons of mass destruction capacity than the Gulf War. Unfettered 
inspections and monitoring will make it far harder for Iraq to continue 
developing advanced arms.
    So we must be willing to take ``yes'' for an answer. But we must 
also be prepared for a negative response.
    The President has asked Congress for the authority to use all means 
necessary to enforce Iraq's compliance with UN Security Council 
Resolutions, the most important of which requires Baghdad to destroy 
its weapons of mass destruction and longer-range missile programs.
    The President should have this authority, and members of the 
Security Council should join us in the enforcement effort. I refer 
particularly to permanent Council Members France, Russia and China. 
These are the countries that most vigorously promote the Council's 
prerogatives. They should be the countries most determined to see that 
its Resolutions are enforced.
    If Saddam continues to behave like Saddam, we have legitimate 
grounds for acting on behalf of the Security Council to bring Iraq into 
compliance. This answers the question of ``why'' a confrontation might 
be necessary. As President Clinton said almost four years ago, the 
Iraqi leader threatens ``the security of the world,'' and the ``best 
way to end that threat once and for all is with a new Iraqi 
government.''
    This does not, however, answer two other questions. The first is 
``how'' and the second is ``when.''
    The question of ``how'' has two parts. One is military, which I 
will leave to my friends in uniform. The other is the problem of 
planning for the post-Saddam era. This is complicated because we could 
be confronted with a no-win choice. One option might be a prolonged 
U.S. military occupation of the country that served as the cultural 
capital of Islam during that civilization's Golden Age. This would hand 
a new organizing tool to anti-American terrorists worldwide.
    The other option is to withdraw promptly and risk plunging the 
country into factionalism and civil war. It is naive to think that a 
peaceful and democratic Iraq will automatically emerge from the ashes 
of our invasion. It is crazy to believe we can run post-war Iraq alone. 
And it is essential that the Administration think the consequences of 
all this through in advance, which it has not yet done. One thing is 
certain. We may be able to win a war against Iraq without a broad 
coalition. But there is no way we can win the peace without help from 
many others.
    As for ``when'' to confront Iraq, the answer should be at a time of 
our own choosing. In making that choice, several factors should be 
borne in mind.
    As evil as Saddam Hussein is, he is not the reason anti-aircraft 
guns ring this city, a Department of Homeland Defense is being created, 
and the phrases ``ground zero,'' ``Let's roll'' and ``9-1-1'' have 
acquired new meanings.
    Saddam Hussein remains the enemy we know. Since the administration 
of former President George H.W. Bush, each time Mr. Hussein has pushed, 
we have pushed back. Today, American and British planes enforce no-
flight zones over 40 percent of his country and a maritime force 
prevents weapons from reaching Iraq by sea. Saddam Hussein's military 
is far weaker than it was a decade ago. And he knows that he will be 
obliterated if he ever tries to attack another country again. As a 
rule, people who build statues to themselves are not suicidal.
    The more urgent threat remains Al-Qaeda and related groups, because 
deterrence is ineffective against those who embrace death. More than a 
year after September 11, only a handful of Al-Qaeda's top leaders have 
been eliminated. Its funding sources have not dried up. Terrorist 
attacks continue to take place. And Al-Qaeda members are reportedly 
filtering back into Afghanistan where thousands of Taliban hide in 
plain sight, and the international community has failed to establish a 
meaningful security presence outside Kabul.
    Defeating Al-Qaeda is not a part time job. We will need the 
sustained help of governments everywhere, and especially in the Islamic 
world. And we must make an undivided commitment of our own military 
power, diplomatic capital, intelligence and law enforcement resources.
    This is not the time or place for short attention spans. The fight 
against Al-Qaeda must remain our top priority.
    In his Memoirs, former Secretary of State Acheson wrote that it is 
sometimes necessary to over-dramatize a threat in order to arouse 
public support. This Administration is now doing just that by trying to 
claim September 11 as a primary reason to go to war against Iraq. 
Officials say that September 11 created a ``new reality,'' which is 
that terrorists might be able to obtain weapons of mass destruction. 
That is, of course, a reality--but hardly a new one. And there are 
perhaps half a dozen other countries that are thought to have weapons 
of mass destruction programs and links to terrorism that are at least 
as extensive as Iraq's.
    Certainly, the danger is real, but eliminating Saddam will not 
eliminate the threat, and might even make it worse if anti-American 
extremists elsewhere are strengthened by an assault on Baghdad.
    Unlike the Gulf War, which was paid for largely by others, a war 
with Iraq will be paid for by us, and could cost anywhere from sixty to 
two hundred billion dollars in direct costs, not to mention what the 
mere prospect of war is doing to our economy. Congress should consider 
whether our country would be more secure using those funds to intensify 
the pursuit of Al-Qaeda, secure Russia's nuclear arsenal, strengthen 
homeland defense, improve public diplomacy, and transform Afghanistan 
into a permanent terrorist-free zone.
    As I said, there is a valid case for using force against Iraq, if 
that is needed to ensure disarmament under UN Security Council 
Resolutions. But timing matters.
    At a minimum, the Administration still needs to develop a 
coalition, strengthen Iraqi opposition groups, fine-tune military 
planning, develop a coherent blueprint for the post-Saddam era, and 
identify the resources required to fund the war. It must also conduct 
diplomacy aimed at cooling tensions in the Middle East, and make 
certain that war with Iraq does not result in attacks against Israel 
and a broader regional conflict.
    To buy this time, we should give notice that if UN inspectors are 
again rebuffed by Iraq, we will destroy without warning any facilities 
in that country we believe are being used to develop prohibited arms. 
Even if those suspicions prove wrong, the blame should fall on Iraq for 
denying access, not on America for enforcing the Security Council's 
will.
    Mr. Chairman, in closing, let me say that I expect Congress to 
authorize the President to use force against Iraq. I hope, however, 
that Senators will continue to exercise their patriotic duty to ask 
hard questions. And that the language of the Resolution will be drawn 
more narrowly than the Administration's draft, which includes an 
authorization of force unrelated to any specific countries, threats, 
American interests or periods of time.
    I also hope it will not be necessary to use the authority in 
question. America must respond firmly to Saddam Hussein and it may be 
necessary to wage war to remove him. But I do not share the irrational 
exuberance for this conflict that is present among some pundits and 
perhaps even a few Administration officials. That enthusiasm is not 
shared by many in our military or among professional diplomats. It is 
not an American trait to want war. And it is not a sign of sound 
leadership to understate the risks of war, or to offer constantly 
shifting rationales--as this Administration has--for undertaking such a 
venture.
    I also question the Administration's wisdom in publicly adding new 
and ostentatiously hegemonic language to our national security 
strategy. This document brags unnecessarily about American strength, 
and gives ammunition to those who accuse us of pursuing our interests 
without regard to international norms.
    More than 200 years ago, when the British Empire was at its height, 
Edmund Burke wrote, ``I dread our own power and our own ambition; I 
dread our being too much dreaded . . . We may say that we shall not 
abuse this astonishing and hitherto unheard of power. But every other 
nation will think we shall abuse it. Sooner or later, this must produce 
a combination against us which may end in our ruin.''
    Mr. Chairman, there is a gathering danger that America will be 
perceived as a nation uninterested in the concerns of others at the 
precise moment we most need global cooperation to fight terrorism, 
proliferation and menacing dictators such as Saddam Hussein.
    We must, therefore, be strong but also smart in articulating the 
``why,'' planning the ``how,'' and choosing the ``when'' of actions 
directed against Iraq and other challenges we face. And we must be 
clear not only about what America is against, but also about what 
America is for. We are against terrorism and Saddam Hussein; that is a 
given. But we are for democracy and development, the rule of law and 
respect for human rights. These priorities must not be lost amidst the 
sound and fury of the present debate.
    Thank you for your attention. I will be pleased to respond to any 
questions you may have.

    The Chairman. Dr. Kissinger, you are probably the single 
most listened-to voice in the last 30 years in American foreign 
policy. It is an honor to have you here and it is a pleasure. 
It is almost 30 years to the day since the first time I met you 
at a similar hearing. At least we have now got each other's 
names straight. It is a long story. But at any rate, welcome, 
Dr. Kissinger, Mr. Secretary. Happy to have you here.

   STATEMENT OF HON. HENRY A. KISSINGER, FORMER SECRETARY OF 
      STATE, CEO, KISSINGER ASSOCIATES, INC., NEW YORK, NY

    Secretary Kissinger. Mr. Chairman and members of the 
committee, good morning. Like Madeleine, I would like to 
express my pleasure at being here. I have the recollections of 
many meetings in this room, of the different chairmen and of 
the issues that have deeply affected our country.
    Madeleine and I have been friends for decades and we have 
discussed these problems between us--when we were in office, 
when one of us was in office and when both of us were out of 
office. And as she pointed out, we share the experience of 
having had the great good luck of finding refuge in this 
country and safety from totalitarianism. That then also created 
a very special sense of obligation and concern for the role 
that America plays in the world.
    The Senate and the Congress have been asked to express 
themselves on what action the United States should take to deal 
with the threat being posed by the illegal stockpiles of 
weapons of mass destruction in Iraq, and by their potential 
growth.
    President Bush has reaffirmed America's commitment to a 
cooperative world order by asking the United Nations to rectify 
Iraq's defiance of a large number of United Nations resolutions 
mandating the destruction of these stockpiles, as well as 
Iraq's flagrant breach of its pledge to do so as a condition 
for the suspension of the gulf war in 1991. If, by fudging its 
response, the world community opts to face the risk of an even 
greater threat in the future, the issue becomes one of whether 
America and a coalition of the like-minded should acquiesce to 
stockpiles of weapons of mass destruction in Iraq.
    I do not believe that the issue of America acting alone 
will arise. Whatever happens, a significant number of countries 
will support, and maybe a larger number will welcome, an 
American action. I think that Secretary Albright and I agree 
that the authority for such action already exists in the form 
of previous resolutions whether or not the U.N. passes another 
resolution.
    But there is a question as to the when and the how. I would 
like to stress, first that there is an integral connection 
between the Iraqi stockpiles of weapons of mass destruction and 
the terrorist threat. I do not believe it is possible to 
separate these two issues or to deal with them in sequence. For 
how we deal with Iraq will affect our ability to deal with the 
terrorist threat.
    On September 11, 2001, the world entered a new period. 
Private, non-state organizations had undertaken threats to 
national and international security by stealth attacks. Highly 
disciplined operatives were scattered around the globe, some on 
the soil of America's closest allies and of even America 
itself. Having no territory to defend, these terrorists are not 
subject to the deterrent threats familiar to us from the cold 
war. Having as their aim the destruction of social cohesion, 
they are not interested in the conciliating procedures and 
compromises of traditional diplomacy.
    Modern technology in the service of terror gives no 
warning; its perpetrators are capable of inflicting 
catastrophic damage and vanishing with the act of commission. 
The relationship of international politics to the traditional 
notions of sovereignty is inherent in the nature of the 
challenge, therefore also to the accumulation of weapons of 
mass destruction in Iraq. Moreover, violation of U.N. 
resolutions cannot be separated from the war against terrorism.
    In the cold war world there was a degree of uniformity in 
the assessment of risk between the two nuclear sides. But when 
many different states threaten each other for incongruent 
purposes and when they acquire weapons of mass destruction, who 
is to do the deterring and in the face of what provocation? 
This is especially true when what has to be deterred is not 
simply the use of weapons of mass destruction, but the threat 
of them.
    In the discussion that is going on today, one hears a great 
deal of talk about the danger that American and allied action 
might provoke the use of existing stockpiles of weapons of mass 
destruction against Saudi Arabia, Israel, or other targets. But 
if that is a danger today, how much more of a danger will it be 
some years from now? What this illustrates is the complexity of 
the challenge rather than the obstacle to dealing with it now.
    Therefore, when the question is asked, why now, I would 
like to ask the question, why not now? What is the reason for 
not dealing with it?
    Global terrorism cannot flourish without the support of 
states that either sympathize with or acquiesce in its actions. 
To the extent that these countries observe the flouting of 
United Nations resolutions, the weakening of international 
norms, and the defiance of America, they feel less restrained 
in acquiescing to or ignoring terrorist activities. For nations 
of the world to accept the presence of growing stockpiles of 
weapons of mass destruction in the very region where this new 
form of terrorism originated, is to undermine restraint with 
respect to not only weapons proliferation but the psychological 
impulse toward terrorism altogether.
    In short, the continuation of illegal proliferation and the 
global dangers that involves, the rejection or unfeasibility of 
establishing a viable inspection system, and the however subtle 
growth of terrorism require action--preferably by the 
international community but, as an ultimate resort, by America 
together with those countries prepared to support it.
    It is argued, and has been argued by my friend, that 
dealing with weapons of mass destruction in Iraq weakens the 
war against terrorism. It is not clear to me what measures 
required in the war against terrorism would be either 
interrupted or weakened by actions that might may be imposed on 
us if it is not possible to do away with the stockpiles of 
weapons of mass destruction in Iraq by other means.
    One can make the opposite argument, that by showing our 
determination to prevent such threats, we strengthen the war 
against terrorism.
    At any rate, my basic point is that the two issues are so 
closely related that they cannot be separated, and that the 
attempt to separate them will make it difficult to achieve 
either. The war against terrorism will take many years. Dealing 
with weapons of mass destruction in Iraq cannot wait for many 
years. So one can only really argue about the number of months 
by which one can defer action.
    At the same time, while reserving the option to act in 
concert only with those nations it can convince to join the 
effort, I strongly support the United States' appeal to 
cooperative action by the world community. As the most powerful 
nation in this world, the United States has a special, 
unilateral, capacity--indeed, obligation--to take the lead in 
the implementation of its convictions. But it also has a 
special obligation to justify its actions by principles that 
transcend the assertion of preponderant power. It cannot be 
either in the American national interest or in the world's 
interest to develop principles that grant every nation an 
unfettered right of preemption against its own definition of 
threats to its security.
    The case for enforcement of established resolutions derives 
from the special danger Iraq poses by its violations of the 
United Nations resolutions. This does not require a universal 
principle. Indeed, I would favor a discussion, led by the 
United States, of those principles of preemption that are 
compatible with the operation of an international system 
separate from the case of Iraq which does not require such a 
debate.
    Second, if military action against Iraq is unavoidable, it 
becomes most important to address the issues of reconstruction 
and the future of the region.
    Iraq is a country of strategic importance to the 
equilibrium of the region. It is composed of a combination of 
at least three, and maybe several more, ethnic groups. A 
Federal system enabling these groups to live together without 
domination and oppression is surely desirable, but how this can 
be achieved and with what degree of American involvement, is a 
matter that requires serious thought.
    Moreover, I believe that, when military action proves 
necessary, however many nations hesitate to support it 
explicitly, we will encounter a larger degree of support by 
inviting them to join a program of post-war reconstruction, 
which I believe is in the interest of the region and in the 
interest of the world.
    Mr. Chairman and members of the committee, Congress has an 
opportunity to vindicate a system of international order. I 
urge you to give the President the authority to enforce the 
appropriate U.N. resolutions, together with the world 
community, if at all possible, in concert with like-minded 
nations if necessary. Thank you.
    [The prepared statement of Secretary Kissinger follows:]

  Prepared Statement of Hon. Henry A. Kissinger, Former Secretary of 
                                 State

    Mr. Chairman: Congress is considering one of the most consequential 
expressions of its views since the end of the Cold War: what action the 
United States should take to deal with the threat posed by illegal 
stockpiles of weapons of mass destruction in Iraq and their potential 
growth. President Bush has reaffirmed America's commitment to a 
cooperative world order by asking the United Nations to rectify Iraq's 
defiance of a large number of U.N. resolutions mandating the 
destruction of these stockpiles as well as Iraq's flagrant breach of 
its pledge to do so as a condition for the suspension of the Gulf War 
in 1991. But were the world community, by fudging its response, to opt 
for the risk of a greater threat in the future, can America and a 
coalition of the like-minded acquiesce in stockpiles of weapons of mass 
destruction in Iraq? Thus the Committee will need to consider not only 
the risk of action but also the consequences of inaction.
    The Iraqi stockpiles of weapons of mass destruction will be growing 
in an international environment in which their danger merges with the 
threat of terrorism. For on September 11, 2001, the world entered a new 
period in which private, non-state organizations undertook to threaten 
national and international security by stealth attacks. The controversy 
about preemption is a symptom of the impact of this transformation. At 
bottom, it is a debate between the traditional notion of sovereignty of 
the nation-state prevalent since the Treaty of Westphalia in 1648 and 
the adaptation required by both modern technology and the nature of the 
terrorist threat.
    Osama bin Laden's base was on the territory of a national state, 
though his was not a national cause. Highly disciplined operatives are 
scattered around the globe, some on the soil of America's closest 
allies and even within America itself. They enjoy financial and 
organizational support from a number of states--most frequently from 
private individuals ostensibly not under the control of their 
governments. Bases for terrorists have been established in several 
countries, usually in areas where the governments can plausibly deny 
control or are actually not in control, such as in Yemen, Somalia, or 
perhaps Indonesia and Iran. Having no territory to defend, the 
terrorists are not subject to the deterrent threats of the Cold War; 
having as their aim the destruction of social cohesion, they are not 
interested in the conciliating procedures and compromises of 
traditional diplomacy.
    Unlike the previous centuries, when the movement of armies 
foreshadowed threat, modern technology in the service of terror gives 
no warning, and its perpetrators vanish with the act of commission. And 
since these attacks are capable of inflicting catastrophic damage, 
traditional notions of sovereignty have to be modified with respect to 
countries that harbor terrorist headquarters or terrorist training 
centers. The problem of preemption is inherent in the nature of the 
terrorist challenge.
    The accumulation of weapons of mass destruction in Iraq in 
violation of U.N. resolutions cannot be separated from the post-
Afghanistan phase of the war against terrorism. Iraq is located in the 
midst of a region that has been the hotbed of the special type of 
global terrorist activity from which the attack on the United States 
was organized. And the consequences of weapons of mass destruction have 
many similarities to those of terrorism. They can be used without 
warning; their impact is catastrophic. In some circumstances, their 
origin can be uncertain. If the world is not to turn into a doomsday 
machine, a way must be found to prevent proliferation--especially to 
rogue states whose governments have no restraint on the exercise of 
their power.
    Cold War principles of deterrence are almost impossible to 
implement when there is a multiplicity of states, some of them 
harboring terrorists in position to wreak havoc. The Cold War world 
reflected a certain uniformity in the assessment of risk between the 
nuclear sides. But when many states threaten each other for incongruent 
purposes, who is to do the deterring, and in the face of what 
provocation? This is especially true when that which must be deterred 
is not simply the use of weapons of mass destruction but the threat of 
them.
    Suicide bombing has shown that the calculations of jihad fighters 
are not those of the Cold War leaders. The concern that war with Iraq 
could unleash Iraqi weapons of mass destruction on Israel and Saudi 
Arabia is a demonstration of how even existing stockpiles of weapons 
turn into instruments of blackmail and self-deterrence. Procrastination 
is bound to magnify such possibilities.
    The existence and, even more, the growth of stockpiles of weapons 
of mass destruction in Iraq poses a threat to international peace and 
stability. The issue is not primarily whether Iraq was involved in the 
terrorist attack on the United States. The challenge of Iraq is 
essentially geopolitical and psychological. Its policy is implacably 
hostile to the United States, to neighboring countries, and to 
established rules that govern relations among nations. It possesses 
growing stockpiles of biological and chemical weapons, which Saddam 
Hussein has used in the war against Iran and on his own population. 
Iraq is working again to develop a nuclear capability. Saddam Hussein 
breached his commitment to the United Nations by preventing the 
operation of the international inspection system he had accepted on his 
territory as part of the armistice agreement ending the Gulf War. There 
is no possibility of a direct negotiation between Washington and 
Baghdad and no basis for trusting Iraq's promises to the international 
community. By what reasoning can the world community--or America--
acquiesce in this state of affairs?
    If these capabilities remain intact, they will become an 
instrument--actual and symbolic--for the destabilization of a volatile 
region. And if Saddam Hussein's regime survives both the Gulf War and 
the anti-terrorism campaign, this fact alone will compound the existing 
terrorist menace.
    By its defiance of the U.N. Security Council resolutions requiring 
it to give up weapons of mass destruction, Iraq has in effect asserted 
the determination to possess weapons whose very existence compounds the 
terrorist threat immeasurably. Global terrorism cannot flourish except 
with the support of states that either sympathize or acquiesce in its 
actions. To the extent that these countries observe the flouting of 
U.N. resolutions, the weakening of international norms, and the 
defiance of America, they feel less restrained in acquiescing in or 
ignoring terrorist activities. For the nations of the world to accept 
the existence of growing stockpiles of weapons of mass destruction 
where the new form of terrorism has been spawned is to undermine 
restraint with respect not only to weapons proliferation but to the 
psychological impulse toward terrorism altogether.
    The campaign in Afghanistan was an important first step. But if it 
remains the principal move in the war against terrorism, it runs the 
risk of petering out into an intelligence operation while the rest of 
the region gradually slides back to the pre-9/11 pattern, with radicals 
encouraged by the demonstration of the world's hesitation and moderates 
demoralized by the continuation of an unimpaired Iraq as an aggressive 
regional power. In short, the continuation of illegal proliferation, 
the global dangers which it involves, the rejection or infeasibility of 
a viable inspection system, and the growth of terrorism require action, 
preferably global, but as an ultimate resort of America's, together 
with those countries prepared to support it.
    It is argued that dealing with weapons of mass destruction in Iraq 
weakens the war against terrorism. The opposite is more likely to be 
true. Eliminating such weapons in Iraq is an important aspect of the 
second phase of the anti-terrorism campaign. It demonstrates American 
determination to get at the root causes and some of the ultimate 
capabilities of what is, in essence, a crusade against free values. 
Enforcing U.N. resolutions in Iraq does not compete with the 
capabilities needed to pursue the second phase of the anti-terrorism 
campaign. In all likelihood, such action will strengthen it by 
additional deployments to the region.
    Nor should it weaken the cooperation of other countries in the 
anti-terror campaign. Assisting in this effort is not a favor other 
countries do for the United States but ultimately for themselves. And 
what exactly will they decline to support without risking their entire 
relationship to the United States? The fight against terrorism will 
take many years. To wait for its end before acting is to guarantee that 
stockpiles of weapons of mass destruction multiply.
    At the same time, while reserving the option to act in concert with 
only the nations it can convince, the United States is wise to appeal 
to cooperative action of the world community. As the most powerful 
nation in the world, the United States has a special unilateral 
capacity and, indeed, obligation to lead in implementing its 
convictions. But it also has a special obligation to justify its 
actions by principles that transcend the assertions of preponderant 
power. It cannot be in either the American national interest or the 
world's interest to develop principles that grant every nation an 
unfettered right of preemption against its own definition of threats to 
its security. The case for enforcement of established resolutions 
should be the opening move in a serious effort of consultation to 
develop fundamental principles that other nations can consider in the 
general interest.
    The United Nations is therefore challenged to come up with a 
control system that eliminates existing weapons of mass destruction in 
Iraq--together with procedures to prevent their being rebuilt. The 
control system must go far beyond the inspection system negated by 
Saddam Hussein's evasions and violations. It must prevent any 
possibility for local authorities to harass informants or to impede 
free access to the inspectors. It should be backed by standby authority 
and perhaps a standby force to remove any obstacle to transparency. 
Moreover, any system of inspection must be measured against the decline 
in vigilance that accompanied the previously flawed system's operation. 
Nor can it be achieved at the price of lifting sanctions while Saddam 
Hussein stays in office. For that would provide the Iraqi regime with 
the means of rearmament as a reward for ending its violations. Indeed, 
the rigorous measures required to implement the U.N.'s own resolutions 
are almost surely incompatible with Hussein's continuation in power.
    In the end, enforcement of U.N. resolutions should be coupled with 
a program of reconstruction for Iraq. Because of the precedent-setting 
nature of this war, its outcome will determine the way U.S. actions 
will ultimately be viewed. And we may find more nations willing to 
cooperate in reconstruction than in enforcement, if only because no 
country wants to see an exclusive position for America in a region so 
central to international political and economic stability.
    Reconstruction will require dealing with how to preserve the unity 
and ensure the territorial integrity of a country that is an essential 
component of any Gulf equilibrium. A federal system to enable the 
Shiite, Sunni, and Kurdish ethnic groups of Iraq to live together 
without domination by one of them is surely appropriate. But any 
serious planning would have to consider the means to prevent autonomy 
from turning to independence, which, in the case of the Kurds, would 
put Turkish support for the military phase at risk. And all this would 
have to take place in the context of a government capable of resisting 
pressures from the remnants of the old regime or from neighboring 
countries determined to destabilize the emerging system.
    The United States has put forward a reasoned definition of the 
dangers: the possession of weapons of mass destruction by governments 
that have demonstrated their willingness to use them, have professed 
hostility toward America or its allies, and are not restrained by 
domestic institutions. Can the world community reject that definition 
of the danger?
    However the issue of weapons of mass destruction in Iraq is 
resolved, the longer-range goal must be to devise a system for dealing 
with new attempts by additional countries to acquire weapons of mass 
destruction or biological and chemical weapons. We are only at the 
beginning of the threat of global proliferation. The nations of the 
world must face the impossibility of letting such a process run 
unchecked. The United States would contribute much to a new 
international order if it invited the rest of the world, and especially 
the major nuclear powers, to cooperate in creating a system to deal 
with this challenge to humanity on a more institutional basis.
    Congress has an opportunity to vindicate a system of international 
order. I urge you to give the President the authority to enforce the 
appropriate U.N. resolutions together with the world community if at 
all possible, in concert with like-minded nations if necessary.

    The Chairman. Thank you very much.
    With the permission of Senator Helms, we will go 7-minutes 
rounds. Does that make sense?
    Senator Helms. Yes, sir. That would be fine.
    The Chairman. Let me again thank you both.
    There are a number of questions, as you can tell by the 
attendance here. I would like to focus on just one aspect, and 
I apologize for being parochial in the sense of articulating my 
view.
    I arrive at the same spot that you both do, which is that 
it is not a question of if, it is a question of when and how we 
deal with this problem of Saddam Hussein. I for one think that 
the distinction made by Dr. Kissinger is a very important one 
and implied by the comments of Secretary Albright, that we need 
not yield to a newly and not fully articulated doctrine of 
preemption to justify action against Saddam Hussein.
    I am operating on the premise that I am likely to be faced 
with voting for a resolution that I think is not a good 
resolution, because I believe that the President will not go 
alone. I believe there are other nations in the world, whether 
it is a Kosovo model or a U.N. model, that we will not be 
alone. And I am quite confident of that. But I do worry about a 
resolution that sets a precedent for future Presidents, 
Democrat and Republican, that they will be able to turn, 
assuming I am here after November, and say, well, Biden, you 
voted for a resolution that said the following.
    We all have a resolution in front of us that I think is so 
broad, and unnecessarily broad, without articulating the 
rationale for action and a conclusion that I have reached, as a 
matter of policy, that the President should be in a position to 
be able to enforce the U.N. resolutions, preferably with the 
U.N. stepping up to the ball, clearly with some outside help, 
but if need be, reserving the right to enforce them alone.
    But we have kind of put the cart before the horse here in a 
sense. The President keeps saying that he has not made a 
decision about war. I believe him. He said that privately and 
he said that publicly. Yet, he is asking us for an equivalent 
of a declaration of war. I cannot think of any time in American 
history where there has been a resolution sought authorizing 
the use of force at the discretion of the President against an 
individual country before the President has come to the 
American people and us and said, this is what I intend to do. 
That disturbs me.
    It further disturbs me that there is no clear articulation 
as it relates to precedent, based on the administration 
witnesses, as to what the legal rationale for action is. In the 
Armed Services Committee, some of the testimony was, as I 
understand it--I did not attend at all, but just on the reading 
of the news excerpts--that it fits within this doctrine of 
preemption.
    I for one would like to see a resolution make it clear that 
that is not the basis upon which we are giving the President 
authority, adopting a non-articulated or, I think, poorly 
articulated doctrine of preemption that warrants the debate Dr. 
Kissinger refers to, led by the United States, as to whether or 
not the world should change its attitude.
    If I am not mistaken, you have pointed out, Dr. Kissinger, 
it was back as far as the first half of the 1600s that after 
the religious wars, we agreed on a modus operandi of how we 
proceed, as to what constitutes a legitimate action on the part 
of one nation state moving against another nation state. And to 
change that blithely is, I think, a very dangerous precedent.
    So it leads me, believe it or not, to a question coming 
from a Senator who is likely to vote for what is probably going 
to be an imperfect resolution, but because I think the 
President should be in a position to be able to enforce the 
U.N. resolutions.
    Now, here is my question. Given the sequence of events that 
got us to this moment, this hearing, and the primary rationale 
being offered by the administration at the moment for wanting 
us to act, the U.S. Congress, is that it strengthens his hand 
at the United Nations to get the United Nations to do the thing 
that they should do, and that is jointly enforce a violation of 
what effectively are the conditions of surrender of a country 
that invaded another country, lost the war, and agreed to a set 
of conditions in the wake of that loss, the U.N. resolutions, 
and that this would strengthen the President's hand.
    If that is the case--and I think it is a legitimate case--
then it seems to me we should be saying to the President in a 
resolution, Mr. President, we authorize you to act in 
conjunction with a U.N. resolution, a Security Council 
resolution, authorizing force in the absence of Saddam agreeing 
to unfettered inspection. And if the Security Council does not 
give you that or if that is granted through the Security 
Council and Saddam resists, then we authorize you, with some 
further conditions, to use force independently if need be.
    Can either of you tell me why that is not a more rational 
way for us to do this in terms of making two cases? One, giving 
the President sufficient authority; and two, not leaving the 
impression around the world and allowing us to be subject to 
the criticism that comes from many quarters of the world that 
we are ignoring international law, that we are ignoring the 
United Nations, that we are acting independently and we are 
acting without any serious consideration of what the rest of 
the world thinks.
    Because nobody that I know suggests we can win the second 
war--and I agree they are inseparable, although there is no 
evidence that al-Qaeda and Saddam Hussein were united in their 
effort in 9/11, none that I have heard, no matter what is 
implied, none that I have heard. We need the cooperation of the 
intelligence services from Beijing to Moscow, to Berlin, to 
Singapore in order to win that second fight.
    So in the waning seconds of my time here, would it not be a 
better way to sequence, not condition, but to sequence any 
resolution we have, rather than give a broad declaration to the 
President, when you have in the New York Times today, whether 
it is true or not, an article saying that there is a 
disagreement still within the administration as to whether or 
not we want the U.N. involved and one unnamed spokesperson 
saying, all we need is the congressional declaration and we can 
go? It does not matter what the U.N. does.
    Can you speak to that? I realize that is a long question, 
but it is fairly basic. Does it make more sense to sequence, 
not condition? Or should we just go the other way?
    Secretary Albright. If I might, Mr. Chairman. I think you 
have asked a key question here because it goes to the 
relationship between the role of Congress and our participation 
in an international organization.
    I have I think the dubious honor on having spent more time 
dealing on Iraqi resolutions, both as U.N. Ambassador and as 
Secretary of State, than anybody else. When I went to New York 
first in 1993, we had these resolutions on the table, and we 
worked very hard to try to get compliance with them through a 
variety of means, which I will not go through, that you all 
know. I am the first one to testify to the fact that it gets 
harder and harder to get coordination and compliance by 
everybody on the Security Council. It was there initially. It 
is harder and harder to get. But when you get it, it is a 
really big deal because it does allow you to have more 
legitimacy behind the way you operate abroad.
    Obviously, when you cannot get it, as we did not on Kosovo, 
we took another route, but at least we could see whether we 
were trying that particular approach.
    If I might just say this, when I sat at the United Nations, 
I used to sit there and think, in my political science 
professor mode, that this is the most fascinating thing in the 
world, that you actually are talking about what is going on 
inside another country and that you have the right to do that. 
That is a very different concept that came into existence. And 
as Secretary Kissinger said, we are in a very different phase 
where there are non-state actors and you have to look at things 
in a different way. Nobody is denying the complication of this.
    But it seems to me, Mr. Chairman, that your suggestion 
makes a great deal of sense. I also know that when I was at the 
U.N. and as Secretary, it helps a lot when you have the power 
of Congress behind you. It is a big plus in your pocket. So I 
think a resolution--I am not going to get into the wording of 
it--makes sense.
    The Chairman. No, I am not either. Just conceptually.
    Secretary Albright. But the other thing I must say that 
bothers me, if I might say this, I think we are loading too 
much onto this issue. There are many people within or outside 
the administration that had a different agenda from the very 
beginning, and I think they are finding this, in some ways, a 
useful horse.
    And I think the issue of preemption is a huge issue, and I 
would definitely agree with Secretary Kissinger that it is 
worth discussing. It is a huge deal. It is a totally different 
way of operating. It is one thing for self-defense, and I think 
that becomes a complicated issue of how quickly do you move 
when you believe you are being attacked. But I think to load 
this issue now with a major discussion of change in our whole 
strategic policy is a mistake, and I think we need to deal with 
this issue as you have presented it, and as I have heard the 
discussion. But we do not need to load it with ideological 
issues that had nothing to do with this in the first place.
    The Chairman. Dr. Kissinger.
    Secretary Kissinger. When the President spoke at the 
General Assembly, he did not base the case on a general 
doctrine of preemption. He based the case on Iraq's violations 
of a whole series of U.N. resolutions and agreements related to 
the gulf war.
    The Chairman. I agree.
    Secretary Kissinger. Therefore, the issue of preemption is 
inherent in the terrorist challenge because there you have non-
state actors operating from the territory of states in pursuit 
of objectives that go beyond national borders.
    However, this is not an issue that needs to be settled 
theoretically now. To justify action against Iraq, it is 
sufficient to examine the behavior of Iraq and the systematic 
violation of its undertakings and of the U.N. resolutions.
    Second, in order to establish a relationship between 
terrorism and violations of U.N. resolutions on Iraq, it is not 
necessary to demonstrate a specific connection between al-Qaeda 
and Iraq. It is sufficient to point out that one of the motives 
of the terrorist groups is to convey their belief that the will 
of the West and of the United States is flagging and that they 
can assert their claims by ruthless demonstration of power. And 
to the extent that a country is surrounded by nations 
acquiescing to or helping terrorism explicitly, it is getting 
away with a violation of the international system. Overall, the 
psychological support for terrorism will only grow.
    I believe that the two issues cannot be separated because 
of that psychological and geopolitical connection. It is also 
why I believe that taking action on the violation of U.N. 
resolutions is part and parcel of the war against terrorism, 
independent of whether al-Qaeda had--or has--connections in 
Baghdad, of which I have no personal knowledge.
    I should also think that the media tend to emphasize 
whatever disagreements may exist at middle- and lower-levels. 
My impression--and the Secretary of State will, undoubtedly, 
express himself more convincingly on this than I can--is that, 
on the basic principles we are discussing here, the 
administration is indeed united and that the basic principles 
we are discussing here are in the fundamental national 
interest.
    The Chairman. Thank you very much.
    Senator Helms.
    Senator Helms. Mr. Chairman, I would like to have a give 
and take between these two distinguished Americans. Do you 
agree with Secretary Kissinger, Ma'am?
    Secretary Albright. Well, I agree with part of what he has 
said. I think that there certainly is the question, the way he 
has redefined it, on preemption that makes sense to me, that it 
is important to have a discussion about it, but not apply it to 
this, and that there are, in fact, legitimate resolutions that 
are already in place.
    I have a disagreement, somewhat, not in the fact that what 
is going on in Iraq is terrorism and that it links to terrorism 
generally, but that I am concerned about the timing on this 
because, as Chairman Biden said, there are certain aspects of 
the war against terrorism that require cooperation, even among 
countries that we do not particularly agree with, on 
intelligence, on tracking the money of al-Qaeda and Osama bin 
Laden, and on law enforcement when the people come into their 
various territories. And I think this is not the time to 
disrupt that.
    I think one of the things--actually Henry and I have talked 
about this a lot--we do talk to each other. And by the way, may 
I say the only time that there was not disagreement between the 
State Department and the White House was when Henry Kissinger 
was both National Security Advisor and Secretary of State. 
Otherwise, it is hard wired.
    But I think that there is this question about what is the 
right timing on this. What you pointed out, Henry, is that 
having unsheathed the sword here, if we in fact do not use it 
immediately, do we lose credibility? I do not think so because 
I hope very much that we would continue to be robust in our 
fighting of terrorism in Afghanistan, where I pointed out we 
have not finished, and also make clear what we believe in. So I 
hope we are not in this position, having threatened, that we 
cannot take a measured approach to what we are doing.
    Secretary Kissinger. Could I make two points?
    Senator Helms. Yes, sir.
    Secretary Kissinger. First, when one talks about timing, 
when is there a better time to deal with Iraq than at this 
moment, when the major nations of the Security Council are not 
in open opposition to us and can be brought along? Above all, 
the war against terrorism will take many years. The decision 
one has to make is whether to wait, permitting the growth of 
stockpiles for many more years until one has to address the 
issue under quite different international circumstances.
    Second, when nations help in the fight against terrorism, 
they are not just helping us; they are helping themselves. 
Russia has a major interest in not permitting fundamentalism to 
become a dominant force in the Muslim world. The war against 
terrorism must be conducted on the basis of its protagonists 
having common interest, rather than looked at as if it were a 
special challenge to the United States. To the extent that 
other nations believe in the importance of a strong America, 
they will not stop cooperating with us on something that is so 
much in their own interest, because after all we are enforcing 
U.N. resolutions.
    I do believe that we must go through a process that is now 
already underway and which will make clear what support we can 
generate and what coalitions we can create. I am sure the 
Secretary of State will talk about this in the afternoon.
    Secretary Albright. I think that I do not believe, nor did 
I say, that the war on terrorism would have to be finished. 
First of all, I think it will not be finished for a long time. 
It is unfortunately what we have to live with for most of our 
lives and our children's lives. So there can be no termination 
to our effort on it.
    But I think that we are in a crucial phase as far as 
finishing the job in Afghanistan. Just to use an image here, I 
think that we do have Saddam in a box, a strategic box. We do 
not know a lot about it, but I have a feeling that if we blow 
up the box, that as the sparks fly out, they will have an 
effect already on a region that is inflamed and we cannot 
forget what is happening or not happening in the Middle East.
    So I actually think we are probably not as far apart as 
might seem. It is a matter of timing and our favorite 
diplomatic word, ``nuance,'' in terms of when we do things. I 
agree with Henry that we cannot persuade other countries to 
think that fighting the war on terrorism is only in our 
benefit. It has to be in their benefit also, obviously.
    But I think it is just unnecessary to do this this moment, 
and what I am advocating is that we play out the U.N. string 
with the support of Congress in the pocket of the President and 
the Ambassador, and we will have a better chance of getting 
support by the other countries if it is evident to everybody 
that the Iraqis stiffed us. And that is where my timing comes 
in.
    Senator Helms. Do you have any further comment?
    Secretary Kissinger. It really is a question of whether we 
are talking about a few months or a few years. The process, as 
it now seems to evolve, seems to me to require some months of 
clarification and that seems to me also perfectly consistent 
with what the administration is doing and saying. So I do not 
think there is a fundamental difference, if that is what we are 
talking about.
    The Chairman. You are both talking about a few months, are 
you not, as opposed to a few years?
    Secretary Kissinger. Then there is no difference.
    Senator Helms. What was your answer to his question?
    The Chairman. I said you are both talking about a few 
months, and your response was, yes, if that's the case, there 
is no difference. Right? Is that correct?
    Secretary Kissinger. I am talking of a few months.
    The Chairman. And I understand, Madam Secretary, you are 
talking months, not years.
    Secretary Albright. Correct, but I think that we have to 
run out the string.
    The Chairman. No, I understand.
    Secretary Albright. And may I just say this. The inspectors 
have to get in. They have to have a chance to work it, et 
cetera.
    Secretary Kissinger. May I say something about that?
    The Chairman. Sure.
    Secretary Kissinger. I think that before inspectors go in, 
or as inspectors go in, we require for ourselves some 
definition of what is considered an adequate inspection system.
    The Chairman. Absolutely.
    Secretary Kissinger. The previous inspection system was 
clearly not workable. My understanding is that an inspection 
system needs to have some assurance that its inspectors can 
talk to potential informants without interference from local 
authorities. I do not know how you bring this about, but those 
concerns need to be answered since we know that the previous 
inspection system has not worked. One must not permit the word 
``inspection'' to be used as a subterfuge for endless 
procrastination. And inspections must be tied to a system that 
gives major assurance that we will not see a repetition of what 
we have been going through for the last 10 years.
    Secretary Albright. You have given us unusual leeway, and I 
do not want to take advantage of it. But I think the timing 
also depends on whether we hear from the administration what a 
day-after plan looks like. It is the getting the inspectors in 
and going through that string, but I think it is irresponsible 
to go in without knowing a little bit more than at least I know 
about what their plans are afterwards. So for me the timing 
depends a lot on the information that comes out on the U.N. 
string, and on what very detailed plans are--not on the 
military side, because that is not my job and never was, but 
more on the process of not leaving a vacuum there.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Secretary Kissinger, is it your position the war against 
Iraq is necessary and inevitable?
    Secretary Kissinger. My position is that military action to 
enforce the U.N. resolutions is necessary if they cannot be 
implemented any other way. And I think it is likely.
    Senator Sarbanes. Therefore, should we move to military 
action?
    Secretary Kissinger. We should not move to military action 
until we have run out the string on the diplomatic process that 
is now underway.
    Senator Sarbanes. Is there a peaceful path by which this 
matter can be solved?
    Secretary Kissinger. I have difficulty visualizing how an 
inspection system can operate while Saddam Hussein is in 
unimpaired power. It will certainly require some political 
changes in Iraq. But I would be open-minded enough to allow for 
the possibility that somebody could produce an inspection 
system that can really operate. I do not think the issue should 
be defined strictly in terms of who is for war and who is 
against war.
    Senator Sarbanes. Well, that is a pretty fundamental 
question, is it not, whether we are going to go to war or not 
or whether there is a peaceful path? I take it your position is 
you do not think there is a peaceful path. You just sort of 
dismissed the inspection path. So if we do that, what is left? 
War.
    Secretary Kissinger. No, no. I think there is a peaceful 
path.
    Senator Sarbanes. Well, what is that peaceful path?
    Secretary Kissinger. Theoretically, if the U.N. passes a 
strong resolution and if an inspection system is devised that 
meets the objectives of the U.N. resolution, it is possible 
that they will agree to it. Under those conditions, that would 
indeed be a peaceful solution. That it is unlikely this will 
happen, is a judgment, not a course of action, and we should 
run out the full diplomatic string.
    Senator Sarbanes. Well, because you think it might work or 
just as a matter of appearance?
    Secretary Kissinger. Not as a matter of appearance. I would 
like it to work. I think it is unlikely to work, but I would be 
delighted if it worked.
    Senator Sarbanes. You say in your statement that we have to 
entertain a program of reconstruction for Iraq.
    Secretary Kissinger. Are you talking to me?
    Senator Sarbanes. Yes, and that is on page 5 of your 
statement.
    Secretary Kissinger. Right.
    Senator Sarbanes. What do you think about the program of 
reconstruction in Afghanistan?
    Secretary Kissinger. Afghanistan is a notoriously difficult 
country for foreigners to deal with or to reconstruct. I 
strongly favor economic aid to Afghanistan.
    Senator Sarbanes. Do you think we are paying adequate 
attention to the question of reconstruction in Afghanistan? You 
argue here on Iraq, we are going to go in, and then we are 
going to do a major reconstruction program in order, in effect, 
to deal with the aftermath. What about the reconstruction 
program in Afghanistan? If we are going to look at what kind of 
reconstruction program would we do, how committed have we 
remained in Afghanistan in order to do reconstruction?
    Secretary Kissinger. It depends on how you define 
reconstruction.
    First, about Iraq. Reconstruction in Iraq should be 
undertaken not just by the United States, but by an 
international consortium, international community, and a group 
of major interested countries.
    Something akin to that should be done in Afghanistan, too, 
though Afghanistan has the additional difficulty that the 
country is run by a group of warlords whose subjugation would 
require a major military effort. In the past, attempts to that 
have produced a situation in which the warlords, who normally 
fight each other, unite against the foreigner seeking to curb 
their power. So I would be uneasy about a major military effort 
to pacify the whole country. I would favor whatever can be done 
with a reasonable military effort and a significant economic 
effort, together with other nations. But I do have a question 
in Afghanistan, which would not arise to the same extent in 
Iraq.
    Senator Sarbanes. Is the effort underway in Afghanistan for 
reconstruction up to the standard that you think it should be? 
Are we falling short, perhaps woefully short, in Afghanistan? 
There are some who think we are risking turning a success into 
a failure by not following up on the reconstruction.
    Secretary Kissinger. The first thing one has to consider, 
Senator, is this: if, on September 10, 2001, somebody had said 
that we were going to have an expeditionary force in 
Afghanistan, were going to overthrow the Taliban, operate all 
over the Middle East, and do all this within 6 weeks, it would 
have been considered incredible. So, considering the magnitude 
of the challenge we have faced and the unusual cast of thinking 
required vis-a-vis American traditions, I think we have done 
well in Afghanistan. As things continue----
    Senator Sarbanes. You think at this point that our 
reconstruction effort is adequate and meets the standard? You 
do not think we should be doing more?
    Secretary Kissinger. I think we have done the best that 
could be done under present circumstances. As time goes on, we 
will probably want to strengthen the reconstruction effort.
    Senator Sarbanes. Could I hear from Secretary Albright on 
these points?
    Secretary Albright. I disagree. I think that we have done a 
halfway job in Afghanistan and we need to keep our attention on 
it. I know that I certainly have met with some Afghan 
officials, and they are grateful to us, but they understand 
that there is a lot more to do and that there is reconstitution 
there potentially of some al-Qaeda groupings, and Pakistan 
continues to be a haven for some of these issues. So I think it 
is very hard. We have not finished the job and this concerns 
me.
    And I might say that I think we have to deal with something 
very serious here. The issue of Afghanistan is as a result of 
unintended consequences of previous foreign policy decisions, 
and I think we have to be very careful about the unintended 
consequences of whatever decision we make on Iraq. And Iraq at 
the moment, as I have said, I think is in a strategic box. We 
need to be careful about blowing it up and seeing what the 
problems are.
    And to answer your previous question, I do think there is a 
possibility here that there could be some working of the issue 
if in fact the international community is mobilized. We did it 
once, and the problem was that it dissipated over the years. We 
do continue to bomb. We have authority to do that. And I think 
we have got to be careful about making this a war versus the 
fact that 40 percent of Iraq is already under a no-fly zone. So 
it is a matter of enforcing issues and giving strength to the 
United Nations resolution, that maybe the threat of this will, 
in fact, make it possible to have a different solution.
    Senator Sarbanes. Mr. Chairman, my time has expired, and I 
appreciate it. I hope we will have a second round because I 
want to address this issue.
    The Chairman. We will. I realize I am frustrating my 
colleagues at the end here on both ends, but I am going to let 
the witnesses go on, otherwise I will go to a 15-minute rule 
for each Senator.
    Senator Sarbanes. I just want to say I do want to come back 
to the preemption issue. I see Secretary Kissinger has put 
Yemen, Somalia, Indonesia, and Iran on the agenda here, and I 
want to explore that with him.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Dr. Kissinger in his testimony says ``the United Nations 
is, therefore, challenged to come up with a control system that 
eliminates the existing weapons of mass destruction in Iraq, 
together with procedures to prevent their being rebuilt.'' This 
follows his discussion of the violation by Iraq of United 
Nations resolutions dealing with weapons of mass destruction.
    And certainly he is right. This is at the heart of our 
problem, but it is obviously very difficult to think through 
how the United Nations is going to have this ability under 
current conditions or even with Hans Blix and inspectors going 
back in. This does not negate the discussion we have had of 
timing, but it is at the heart of the matter. How in the world 
do you ever find weapons of mass destruction and then, as Dr. 
Kissinger said, have a control system not only that destroys 
them but that makes sure that no one ever rebuilds them? That 
is a degree of invasion of sovereignty that is very 
substantial.
    Secretary Albright mentions it is naive to think that a 
peaceful and democratic Iraq will automatically emerge in the 
ashes of our invasion. It is crazy to believe, she says, we can 
run post-war Iraq alone. It is essential that the 
administration think of the consequence of all this through in 
advance. But she says, it has not yet been done.
    Now that is at the heart of our dilemma. As the chairman 
has said, we are heading toward a resolution, a very imperfect 
one, in which many Senators may vote in favor of authorizing 
our President to have this authority so that he has some 
bargaining ability with the rest of the world.
    But the consequences of this are critically important. I 
have not heard any discussion of Secretary Kissinger's thought 
about how the United Nations or anyone else comes up with a 
control system. We need to hear about this rapidly.
    And the chairman and I, about 5 o'clock last night, were 
having a dialog between the two of us, and Mr. McFarlane who 
was left as a survivor at the witness table at that point, 
essentially saying we are trying to send messages. We are 
asking somebody. Now, this afternoon we will have our Secretary 
of State, and we will ask him. Is there a plan? Do we have any 
idea what we plan to do in Iraq after we win the war? How do we 
stop the fragmentation of this box that Secretary Albright has 
talked about?
    All the testimony we have had from the Iraqis who came 
before us before was simply to confirm it is a very complex 
country with many nationalities and divisive groups, Iran 
coming in from one area, Turkey from another. This is very 
tough business right now.
    The Chairman. If the Senator will yield. And every one of 
those witnesses said the United States has to be the one to 
manage this.
    Senator Lugar. Yes, so we come back to that. How about the 
United Nations?
    And you are probably both right. We ought to try to make 
sure there are a lot of other helpers to help pay for this as 
well as sustain it for a period of time.
    But let us take the worst case scenario. It is us. Do we 
have any idea, any plan for how to bring about peace in Iraq, 
the territorial integrity, peace with the neighbors, to get the 
weapons of mass destruction?
    Now, maybe somebody in the administration does. Maybe even 
as we speak there are people who will come and say, we have 
thought of those things. We have not told you about them and 
they are highly classified. That would be reassuring.
    But I simply use this opportunity to ask either of you. You 
do not know what the administration is doing, but Secretary 
Albright, what would you do? How would we begin to think 
through the situation at the end of the war in the worst case 
scenario that we are there alone? Now, you said we enlist other 
people. We try to do that. But what are the elements of a plan 
for a post-war Iraq?
    Secretary Albright. Well, first of all, I think that we do 
have to recognize, while I agree with Henry that Afghanistan is 
full of warlords and a real problem, Iraq is not exactly a 
unified place. And everything that we have ever heard is that 
it is a country that was created by outside powers that put 
together at least three groups, the Kurds, the Shiites, and the 
Sunnis. And that is the least of it. So the integrity of the 
country is an issue.
    I met previously many, many times with the Iraqi 
opposition, and as somebody whose father was part of an exile 
movement, I applaud those people, but I also know how difficult 
it is. Everybody has a different view, and believe me, the 
Czechoslovak exile movement had nothing in common with the 
Iraqi one.
    So I think that there are very many different kinds of 
groupings. When I met with them, they all had a different idea 
about what to do. And I think the first thing that has to 
happen is to try to bring them together in some particular way.
    The reason that I also believe that it is essential to get 
more international support is while it has not been perfect, 
Bosnia and Kosovo have, in fact, provided a model of what 
happens when you work with an international organization in 
terms of getting a high representative and various countries 
participating in not only the reconstruction, but the modeling 
of local elections, et cetera. We cannot do that alone. So that 
is one of the reasons I think it is important to have U.N. 
support because it does provide some kind of model. That is a 
beginning.
    But I was plagued always whenever I suggested using force--
and I did--with what is the exit strategy. As far as I have 
heard, none. And I do think that the administration, while 
there is no way they can give us all the details on this--I 
think that is impossible--they do need to give us a better 
blueprint for what is out there after the day after.
    Senator Lugar. Secretary Kissinger, do you have any idea as 
to how the control situation might work with regard to the 
weapons of mass destruction, how we would get to something that 
is satisfying?
    Secretary Kissinger. I think this is a question that should 
be addressed to the Secretary of State.
    At some point in this process, we have to make clear what 
we would consider an adequate inspection system or, at the 
least, what we do not consider an adequate inspection system. 
Otherwise, there will be no criteria on which to base our 
actions. I have put down here some general ideas, but I have 
not studied in detail what you would require.
    At the same time, I want to warn against the danger of 
using the imperfection of any solution as an argument for doing 
nothing. From where we stand now, the choice is this: will 
there be enforcement of the U.N. resolutions, or will these 
stockpiles continue to grow? I think the danger of acquiescing 
is greater than some of the concerns that have been raised, but 
I also think we have to answer this question.
    Now, about a post-war Iraq and its political organization. 
That really requires really a lot of thinking because it is 
easy enough to say you have a democratic government. The 
question is, how quickly can you create it and what are the 
interim arrangements that have to be made. One also has to keep 
in mind that there will be great temptations on the part of 
Iran to wreck any political structure in order to shift the 
balance of power in the region, and that there will be other 
neighboring claimants as well. This is not a vacuum in which 
one can operate politically with an unlimited time span, but an 
issue that has to be dealt with.
    Senator Lugar. Mr. Chairman, I would just add yesterday one 
of our witnesses suggested, as Dr. Kissinger has, we may not 
have the perfect solutions but that should not defeat action. 
But the administration ought to report to the Congress at least 
every 30 days on how it was going. In other words, if you are 
still trying to perfect the solutions, that one resolution to 
go to war ought not to suffice for the next 8 years, given all 
the ramifications that we are discussing that would follow.
    Secretary Kissinger. Also, the power to improve what exists 
now is not too high. We do not have to achieve perfection in 
order to have the people of Iraq live under better conditions 
than they live in now.
    The Chairman. The interim solution will be a MacArthur in 
Baghdad.
    Senator Helms. Mr. Chairman, I ask unanimous consent that a 
letter relevant to what we are discussing right now from the 
State Department be printed in the record.
    The Chairman. Without objection, it will be placed in the 
record.
    [The letter referred to follows:]

                                  U.S. Department of State,
                                      Washington, DC, May 29, 2002.

Ms. Patricia A. McNerney
Republican Staff Director,
Committee on Foreign Relations,
United States Senate,
Dirksen Senate Office Building,
Washington, DC.

    Dear Ms. McNerney:

    As we discussed on May 23, the Bush Administration regards the 
Future of Iraq project as a key part of our Iraq regime change policy. 
We notified the appropriations and authorization committees on March 21 
and held consultations on this project with you and your colleagues in 
April and May. In response to questions from you and the SACFO, on May 
21 we provided you a paper describing how we proposed (1) to move 
forward now to fund Phases I and II of the project, in the amount of 
$1.54 million out of the total $5 million for the project, and (2) not 
to use the Middle East Institute but rather to bring management of the 
project inside the State Department. We plan to carry out this project 
through small, grants to policy NGOs and to a neutral conference-
planning institute. We will consult with authorizing and appropriations 
committees before we decide to move forward on Phase III and beyond.
    In particular, I want to address the three questions you posed. 
First, for the substantive work of the working groups, it is our 
intention to fund the work in Phases I and II of the project through 
policy-oriented NGOs that have expertise in the subject matter of the 
working groups, are able to work effectively and credibly with Iraqi 
and international experts, and have the organizational capacity and 
ability to handle a grant of funds from the State Department. For 
example, among the characteristics of an ideal NGO to help handle the 
Public Health and Humanitarian Needs working group, in addition to 
these general criteria, would be an understanding of the health care 
and humanitarian needs of Iraqis inside Iraq, a track record of 
delivering health care and humanitarian assistance to Iraqi refugees, 
knowledge of how to administer public health programs, and familiarity 
with best practices in health care and humanitarian aid delivery. (This 
working group will be a particular challenge, as no one group is likely 
to have the same high level of expertise in both public health and 
humanitarian needs, so we intend to try to find the best fit.) We would 
prefer the substantive work to be done by NGOs led by free Iraqis, 
though we recognize that for some of the working groups, there may not 
be an existing Iraq-focused group with the necessary expertise and 
organizational capacity to administer a grant of USG funds. In such a 
case, we would look at universities, private businesses, or non-Iraq-
focused NGOs with (i) special expertise in the subject matter, (ii) the 
necessary organizational capacity, and (iii) the ability and 
willingness to work with a broad range of free Iraqis.
    Second, we intend to involve about 10-20 Iraqis in each working 
group. We have canvassed the broadest possible range of Iraq-focused 
groups, both political an non-political to solicit names, although we 
have made clear that the final determinant will be the Department, 
subject to approval by an inter-agency steering group that includes 
members from the Department of Defense, the National Security Council, 
and the Office of the Vice President. To date, we have received 
hundreds of names from Iraqi opposition groups and others. To narrow 
the lists, we will look to the individual's expertise in the subject 
matter of the working group, to the individual's ability to contribute 
to practical problem-solving, and to their ability to work with Iraqi, 
U.S. and international experts.
    Finally, in response to your view that we should start a discussion 
of political issues in Phase I of the project, we are bringing forward 
the working group on Political Principles and Procedures to Phase I. We 
believe we can do this within the existing $1.54 million budget, though 
we may have to move forward our consultations on Phase III by a couple 
of weeks to accommodate this change, or we may delay one of the other 
working groups until Phase III.
    We hope that this information will be sufficient to enable us to, 
go ahead with the Future of Iraq project. Please do not hesitate to 
contact me if you require further information.
            Sincerely,
                                           Ryan C. Crocker,
                                         Deputy Assistant Secretary
                                 of State for Near Eastern Affairs.

    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I certainly 
appreciate Senator Lugar's line of questioning.
    To get some initial answers about some of these basic 
questions about the day after is not to suggest that any of us 
are in a do-nothing posture. The administration is passionate 
about regime change in Iraq, and I subscribe to a policy that 
supports regime change by reasonable means. It does not mean I 
will sign off on any proposal aimed at that end. I cannot 
imagine any American would not support the overall goal. Saddam 
Hussein's rule has been brutally violent.
    So I guess I would like to just assume, in terms of my 
questions, that a military operation has been successful in 
toppling Saddam Hussein, and I would like to see if we could 
get you to at least speculate on a couple of specific points, 
following on Senator Lugar's question.
    The Iraqi people have suffered terribly from years of 
deprivation. Of course, they have been consistently told that 
it is American support for sanctions that is responsible for 
their plight.
    If widespread civil conflict breaks out in the wake of 
military action, a significant military presence, obviously, 
might be required for some time, particularly given the reality 
of weapons of mass destruction in the country. What kind of 
reaction can we expect from the Iraqi people if the United 
States moves to invade and then for some period of time has to 
occupy the country? Secretary Albright?
    Secretary Albright. I have to tell you frankly we do not 
know because we have been told that there are many people who 
would welcome us with open arms on the assumption that they 
have lived under the terrible boot of a dictator and that they 
know that he is responsible for this and that the United States 
is not. But in our lives I think we have all dealt with people 
who have been heavily propagandized for a number of years, and 
they have, as you have said, Senator, been basically told that 
the sanctions are the fault of the United States. Some of them 
will definitely not be pleased to see us there.
    Plus, I think as I said in my testimony, Baghdad is a very 
special place to the Islamic religion, and the question is how 
others would react to a United States occupation of that 
country.
    Then there is the whole issue of the divisions within Iraq 
itself.
    I think we all need to ask these kinds of questions so that 
the people at the State Department who are working on this 
know. What would we do if a civil war developed in Iraq between 
the Sunnis and the Shias, or what if the Kurds take a different 
position vis-a-vis each other? They are not also totally 
united. So I think these are the kinds of questions that have 
to go down.
    But we cannot assume that this is like liberating central 
Europe after Hitler. This is a different situation, and so we 
have to look at that very carefully.
    Senator Feingold. Let me follow that. Then I want to hear 
Dr. Kissinger's remarks. Can you say anything more specifically 
about what kind of threat conditions our U.S. soldiers might be 
facing for months on end and what we could do to reduce the 
threat? I wonder if you would follow with that, Secretary 
Albright.
    Secretary Albright. I think, again, this is something we do 
not know because it depends if it is the Republican Guard or 
the people that have been very close to Saddam Hussein--if we 
are in Baghdad with hand-to-hand fighting from block to block, 
I think there would be a threat. And I think that the number of 
forces that will have to stay there and should to protect our 
own forces as a result of our own experiences in this, we would 
have to assume that there would be a threat to our military. 
Whether it exists or not, we cannot take the chance of sending 
them in without assuming that there would be.
    Senator Feingold. Dr. Kissinger.
    Secretary Kissinger. First, as to the political outcome in 
Iraq. I do not pretend to be an expert on Iraqi conditions, but 
I do think a lot will depend on what kind of outcome takes 
place. It is conceivable that, if the United Nations takes a 
firm stand and if this country is united in its general 
direction, as I believe it is and will be, that Saddam may then 
do what Milosevic did after Kosovo: accept some kind of 
agreement that in fact undermines his rule and, after a certain 
interval, he is removed. It is not very likely, but it is also 
not totally inconceivable.
    What is more conceivable, though still not very probable, 
is that some of the military people in Iraq will decide that 
they have gone about as far as they can that to fight a 
suicidal war is senseless and that we suddenly find Saddam has 
been removed. In that case, we would have the problem of 
negotiating with a de facto government. The question of coming 
up with an inspection system with real teeth would be very 
relevant, which the Government of Iraq would be less of an 
issue.
    From the point of view of post-war reconstruction, the most 
complex situation would be one in which military action leads 
to the disintegration of all authority in Iraq. Then the need 
to reestablish authority, as was the case in the occupation of 
Germany and, to some extent, of Japan, would pose an 
extraordinarily complicated issue.
    I am opposed to the prolonged occupation of a Muslim 
country in the heart of the Muslim world and by Western nations 
proclaiming the right to re-educate that country. Such an 
undertaking would prove very difficult and should really be 
turned over to some kind of new international group in which we 
would have a very major role. But it is very difficult to talk 
about all this in the abstract.
    Senator Feingold. Well, I appreciate that answer. And if I 
could just comment, Mr. Chairman, and then turn it over. We are 
talking about a scenario here where we have militarily 
succeeded, but no matter who is taking over there, we still 
have the problem of the weapons of mass destruction and 
securing those weapons of mass destruction. I do not think that 
is the time to start figuring out how we are going to secure 
those weapons of mass destruction.
    I agree with Senator Lugar, although I certainly do not 
want to try to put words in his mouth, that there is a sense 
here that we are not getting even the outlines or the general 
concept of what would that entail. What would be the American 
commitment? What kind of agreements do we have to get up front 
from our allies about how to achieve the kinds of things in 
that area that Senator Lugar has devoted so much of his career 
to doing in other places?
    So I think this is central, and I am worried that we are 
talking about knocking out Saddam Hussein and then trying to 
figure it out after the fact.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    I add my welcome and thanks to both of you. We are grateful 
for your appearance this morning and the benefit of your 
expertise and insight and great experience. Thank you.
    I would just add a comment to what the Senator from 
Wisconsin and prior to the Senator from Wisconsin's comments, 
the Senator from Indiana said, but more to the point, their 
line of questioning. I think as you have sat through this for 
about an hour-and-a-half, you both are getting a sense, at 
least from some on this committee, where the thrust of this is, 
this great question, this debate, this issue of whether we 
should go to war and the questions that you both began with, 
how, when. I think it is clear to state that no one has all the 
answers, and I think it is also clear to state, going back to 
referencing the Senator from Wisconsin's point, I do not know 
if there is a Member of the Congress certainly that I am aware 
of that does not take seriously the threat of Saddam Hussein.
    Now, that said, we differ a bit on how we deal with that. 
But there are those who minimalize even such a debate and how 
outrageous to even question things like the destabilization of 
the Middle East. I mean, how foolish of you to ask such a 
question. If we could just get rid of Saddam Hussein, then all 
of our problems would go away. Everybody knows that. And you 
heard some of that.
    I want to go back to the destabilization issue in a moment 
and would like very much to hear from each of you on a 
particular question I will ask on that.
    But before I do, Secretary Albright, you are the most 
recent Secretary of State who has had to deal with this issue. 
You were Secretary of State in the first 2 years after Saddam 
Hussein kicked the U.N. inspectors out. What did your 
administration learn that you could share with this committee 
on how we should be dealing with Saddam Hussein and this issue 
today, the debate that is going on today?
    For example, did your administration ever closely examine 
or pursue tightening those resolutions or forcing those 
resolutions at the U.N. and looking seriously at a military 
option, to go through maybe what President Bush is going 
through now, realizing that you did not have the force of 
September 11? You did not have the mobilization of the country, 
the world, the Congress behind you on that. But is there 
anything that you can share with this committee with the 
experience you had most recently that might give us some 
assistance here as we grapple with this great debate of our 
time?
    Because I am one who believes that we are not talking about 
just going to war with Iraq. You both have talked about 
preemption, about doctrines, about the future, of what this 
will do to balance of power and geopolitical strategic 
interests, economic interests. We are talking about an awful 
lot here. Your point, Madam Secretary, about overloading the 
structure and the system, I generally happen to agree with 
that.
    But not to get off into that tangent, I would like to stay 
on focus on asking you to answer the question and then I would 
come back to a more particular question I have for each of you. 
Thank you.
    Secretary Albright. I, unfortunately, do have more 
experience with this than most, and I think we have to keep in 
mind the following, that we did try very hard to keep a 
consensus in the United Nations. There began to be what we 
called sanctions fatigue. As we know, certain of our friends 
and allies had a different idea. But we, for a long time, kept 
a completely unanimous Security Council to enforce the 
resolutions, but ultimately it was very hard I think to keep 
everybody in line.
    We began to think about very much the kind of thing that 
Secretary Powell came forward with at the beginning of the 
administration, which were the smart sanctions which was trying 
to limit and tighten the box on the regime and not to punish 
the people because one of the things that was happening was we 
were losing support because there was increasing--I would 
actually not have agreed with this--propaganda, basically that 
it was our fault that the people were suffering.
    We also did consider a number of military options, and I 
think we managed to do what was the right thing, which was to 
keep constantly vigilance on the no-fly zones to make sure that 
he stayed within that box, and were more and more robust in 
that bombing not just when our pilots were illuminated, but 
when we felt that there was danger from ground-to-air attacks. 
So I think we really did bomb and do that job well, and they 
are continuing to do it now.
    I must say that while there were sometimes discussions 
about a ground option, you point out very accurately the mood 
is very different after 9/11, and I think that there was no way 
to do that psychologically, much less do I think physically 
given what we knew about the numbers that were necessary to do 
that.
    I stand down to no one in terms of my characterization of 
Saddam Hussein in terms of being a danger and an evil. And I 
think the question is what is the best way to handle it. I do 
think that the continued bombing is the way to do it. And as I 
suggested in my testimony, if we know or have suspicions that 
some facility is actually in the process of doing something 
with weapons of mass destruction, I think we have the authority 
to just go and do the bombing. So I think that we need to 
continue this robust keeping him in a box until we are ready 
with all the plans that we need to have some other aspect if it 
cannot be handled in some other way.
    May I just make one other point? The inspection issue is a 
dreadful one because what happened in the course of the years, 
the original inspection regime became weaker and it did work at 
the beginning. As I said, the inspectors managed to get rid of 
more weapons of mass destruction than the war itself. But 
ultimately there were changes in the modalities, and I do think 
that the deal that Kofi Annan made in 1998 was a problem in 
terms of inspectors had to be accompanied by diplomats and all 
that. But even that has not been enforced. So we need to get 
back to an intrusive and overall inspection regime, not the 
modalities that we have had in the past.
    Senator Hagel. Mr. Chairman, may I ask if Secretary 
Kissinger had any response to that, we would welcome his 
response?
    Secretary Kissinger. I think the conditions after September 
11 produced the current situation. I understand why, before 
September 11, it was deemed not to be desirable but, sooner or 
later, we would have faced this problem. Sooner or later, the 
problem of weapons of mass destruction in Iraq would have had 
to be faced, but I generally sympathize with the answer that 
Madeleine has given.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. You know, I 
have been listening and I have a bunch of questions prepared by 
staff, but I am going to try to go with our discussion and try 
to ask some questions based upon what is on my mind.
    I think it was Senator Hagel who said that there is no 
disagreement about Saddam Hussein. Nobody I know wants to just 
put him in parentheses and say we will get back to thinking 
about this in 3 to 5 years from now. I do not know anybody who 
has taken that position at all.
    A couple of observations and one question. Senator Sarbanes 
asked Dr. Kissinger, is there a path to peace? Dr. Kissinger 
said, I do not know but certainly we ought to play it out. I 
want to emphasize that again. It seems to me that, although 
Secretary of State Albright is correct that this has not worked 
so far, it is simply not true that you cannot design an 
international arms inspection regime that could work and that 
insists on unfettered access and that gets whatever weapons of 
mass destruction there are out. It seems to me we would want 
to, first of all, pursue that with all vigor before we talk 
about going to war. It seems to me the military option would be 
the last option.
    My question is when I hear you all say what happens 
afterward, we win militarily but then we are there--and then I 
have heard I think both of you say we do not want to be doing 
this alone. That is for sure. Then I heard Secretary Albright 
say I have got some real concerns about this war against 
terrorism and al-Qaeda and I want to make sure this does not 
undercut our efforts in South Asia and the Near East where we 
need the assets on the ground and we need the cooperation. And 
then I think about the Israeli/Palestinian conflict.
    It would seem to me that there would be a world of 
difference in terms of both what our men and women face if we 
have to go in, God forbid, in terms of what the reaction in the 
Near East and South Asia and throughout the world would be, 
much less who is going to do the occupying afterwards. It would 
make a huge difference whether we did this with the 
international community or we did it alone. Do you think there 
are some major differences here in terms of all of the 
consequences? Because the resolution calls for preemptive, 
unilateral military action. That is what we are voting on.
    Do you think there is a difference in terms of the 
consequences on all three fronts between our doing it alone 
versus if we have to? And I still believe that the arms 
inspection regime ought to be given the first priority. That if 
we have to, that we do it internationally would make a huge 
difference or not?
    Secretary Albright. Well, I happen to believe it makes a 
huge difference to do it internationally, and the first gulf 
war was done internationally. That was a huge difference to 
have that coalition, and the first President Bush worked that 
very well. I admire what was done, and there is great 
continuity where we picked it up in 1993 from there. So I do 
think that it is very important to do it internationally. It 
would make a huge difference.
    If it is impossible and if we are given better information 
than at least I believe we have on how rapidly this has to be 
done, I think that we then owe it to our people to take action. 
But all that is missing. Those are the missing pieces.
    And I must say that I think this is a remarkable 
discussion. I think the fact that we are able to have these 
kinds of discussions is what the American people need to hear 
because this is going to be long-term and expensive. There are 
a lot of priorities that we will have to set aside because of 
this. I am very concerned not just about a unilateral foreign 
policy but a unidimensional foreign policy. We will suffer for 
that in the long run.
    Senator Wellstone. Dr. Kissinger.
    Secretary Kissinger. Look back at the first gulf war, it is 
important to understand its structure. It is indeed correct 
that the first President Bush achieved an international 
consensus. It is also true that he moved some 400,000 American 
troops into the region before there was international 
consensus. For it was clear that we could not march in and 
march out and that the implication of the President's conduct 
was that, if we did not achieve international consensus, we 
would operate with those nations that would support us. I 
believe that one reason he received as much support as he did 
was that he opted for a way by which other nations could 
influence our actions and participate in them. So in principle, 
the difference is not so great in the methods of the Bush 
family with respect to the gulf and with which, I must say, I 
agree.
    Second, in conducting these discussions, we have to keep in 
mind that we do seem to agree that what we are talking about 
here is timing. We are not talking about the principle. One has 
to take care lest these discussions of the inspection system 
and of what might happen are not used for endless 
procrastination. On the other hand, we have to be serious in 
conducting them.
    Senator Wellstone. Well, if I could say to me the two 
issues that I feel like are staring me in the face--and I 
appreciate the answer of both of you--are, one, as a matter of 
public policy, are we not going to make it the first priority 
to try to put into effect an arms inspection regime that will 
work, unfettered access, and will insist that these weapons of 
mass destruction are out? Is that the first priority or not? I 
think some, frankly, do not think it is. They have other 
priorities. And some think it is.
    The second point I would make is it seems to me that we are 
in an odd position right now because, on the one hand, we are 
saying to the United Nations we want your support. On the other 
hand, we are asked to vote on a resolution that gives the 
United Nations the back of the hand and says regardless of what 
you do, we are going in. And if we go in unilaterally, I would 
just say to the chairman again, I think that the consequences 
throughout the Near East and South Asia, the consequences in 
the world that we live in, and the consequences for our men and 
women that are there in Iraq could be very serious.
    I think we need to pay very special attention to that, the 
difference between unilateral, going alone, and having the 
support of the international community. If it requires more 
diplomatic heavy lifting, we ought to at least make every 
effort to do that first. That would be my plea here today.
    Secretary Kissinger. If one looks at the discussion taking 
place in the Security Council, it is interesting that none of 
the permanent members has threatened a veto. For they know 
that, by abstaining, if that is what they are indeed going to 
do, they will make possible a resolution that will support our 
action--assuming we can achieve nine votes. Britain will 
clearly be for us. And I am not sure that France will abstain. 
But it is not necessary now to speculate about what the 
individual countries may or may not do in a final vote.
    Second, as I pointed out before, I am convinced that, if 
military action is taken, we will not be acting alone and that 
there will be significant countries supporting the United 
States. None of this is absolute, and one always has to keep 
focused on the alternatives. But we all do seem to agree that 
we cannot acquiesce in the growth of weapons of mass 
destruction in Iraq, so what we are really talking about is the 
means for dealing with that problem.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman, and thank you both, 
our esteemed witnesses today, for your insights and comments.
    I think I speak for everyone on this committee that no one 
cares to risk lives unnecessarily of the men and women in 
uniform. We do not want war. It is not in our interest. 
However, when you think of the priorities of the Federal 
Government and you say, gosh, there are a lot of different 
concerns and priorities, the top responsibility is national 
security. Unfortunately, we only have a theoretical unimpeded 
path to disarming Saddam Hussein.
    I would say to Secretary Albright that we have had 
briefings, and some of these briefings were of a highly 
classified nature. We cannot necessarily publicly state every 
bit of intelligence, very credible intelligence, about the 
capabilities that Saddam has as far as chemical and biological 
weapons and the means of delivering those. One can be in a box 
and still deliver outside that box. Also, the concern is that 
he may transfer some of that capability to terrorists.
    I know, Madam Secretary, you were Secretary of State in 
1998, and I do not mean to get into legalistic matters. But in 
1998, the Senate passed Senate Concurrent Resolution 71 with 
all the Whereases and the Resolved clauses. In many ways, this 
resolution is a furtherance of it. In fact, it is entitled a 
furtherance of the 1998 resolution. As Secretary of State, did 
you support this resolution, which urged the President ``to 
take all necessary and appropriate actions to respond to the 
threat posed by Iraq's refusal to end its weapons of mass 
destruction programs?''
    Secretary Albright. First of all, we did want them to end 
everything in terms of their weapons of mass destruction. But 
the terms of that resolution were somewhat different. They were 
more narrow in terms of the scope for the President. My reading 
of it here is that it was to bring Iraq into compliance with 
its international obligations.
    I think part of the problem with the current resolution--
and again, I do not think it is up to me as a private citizen 
to even begin to think about how you draft that last paragraph, 
but I think what is troubling to me as a private citizen is it 
sounds very much like a carte blanche to do things within the 
entire region. I think that is one of the questions and how 
much impact and activity the Congress wants to have in this.
    I worked for Senator Muskie, so I understand the role of 
Congress in foreign policy, and I respected it as Secretary of 
State. I think here, as Senator Lugar suggested, part of the 
difference in this resolution is that it needs to have more of 
a reporting role in some way. So that is the difference.
    The resolution that we had in 1998 was more limited, and I 
did support it.
    Senator Allen. I would say, Mr. Chairman, that you made 
some comments having to do with a sense of the Senate which 
makes, a great deal of sense logistically and diplomatically in 
that we would encourage more allies to be with us. I do think 
the Bush administration--we will hear from the Secretary of 
State this afternoon--is making efforts in the United Nations 
and obviously, with our NATO allies and others who are not NATO 
members, countries in the Middle East, which is very important. 
Logistically, in the unfortunate event that military action is 
needed, you want allies, if nothing else, for some of the bases 
for the tactical air strikes, allies will also help, obviously, 
in making sure that any conflagration stays in Iraq and that we 
do not end up having Saddam, as he has done in the past, trying 
to get Israel into this and trying to make this into religious 
wars.
    I would say, Mr. Chairman, that those sort of constructive 
additions to Whereas clauses in here would make sense, but I 
ask Secretary Albright: Since the statement back in 1998 urging 
the President to take all necessary and appropriate actions--
which is pretty broad--to respond to the threat posed by Iraq's 
refusal to end its weapons of mass destruction programs, have 
you seen anything, Madam Secretary, in the subsequent 4 years 
to lead you to believe he has not gotten stronger in his 
stockpiles and capabilities, whether in delivery systems or in 
the biological or the chemical weapons programs?
    Secretary Albright. Again, I think it is very hard to tell. 
I have had a briefing also, and I think that he has probably 
gotten weaker in terms of some of the conventional aspects that 
he has. And we do not know enough about what has happened in 
the others, but it is of concern. I in no way am 
underestimating the concern that we should have, and we were 
concerned and continue to be concerned. I think the question is 
whether an all-out invasion of some kind is the right approach 
to take at this time.
    I also believe, Senator, that one of the strengths that we 
have had in all of this is a continuity and in many ways 
bipartisanship as far as the policy toward Iraq is concerned. 
We were handed Saddam Hussein in 1993 with a set of resolutions 
that we worked very hard to get international support for. I 
hope very much that we continue to see this in a bipartisan 
way. The way this question is asked is a little bit as to what 
we did and when, and I just think that we have all been on this 
really difficult road of trying to deal with what I call 
Migraine Hussein. I mean, he has really been there throughout, 
and I think we are looking for the best methods to make sure 
that he stays in a box that does not explode and make the 
Middle East more complicated than it already is.
    Senator Allen. Madam Secretary, I just wanted to see if 
there is consistency of thought and so forth since 1998.
    I ask Secretary Kissinger: You mentioned if not now, why 
not now? It reminds me of Ronald Reagan's statement about if 
not now, when? If not the United States, then who is going to 
disarm Saddam Hussein for his clear violations? We do need to 
have our allies.
    Do you feel that if the United Nations does not act, that 
we still should act with as many allies as possible in the 
event military action is necessary?
    Secretary Kissinger. Yes, I do because if we do not, we 
will face a worse problem a year or 2 or 3 from now.
    Senator Allen. Thank you. My time is up, Mr. Chairman.
    Senator Sarbanes. Mr. Chairman, could I ask Senator Allen, 
when he quoted whatever it was he quoted to Secretary Albright, 
what was he quoting from?
    Senator Allen. I was quoting from Senate Concurrent 
Resolution 71, which was a resolution passed in 1998 condemning 
Iraq's threat to international peace and security. This was the 
second resolved point.
    Senator Sarbanes. Did that pass?
    Senator Allen. I asked the Secretary if she supported it 
and she said she did.
    Secretary Albright. If I might ask. I was thinking we were 
talking about what happened August 14, 1998, which became 
public law.
    Senator Sarbanes. That is not this resolution. This 
resolution did not pass, and the resolution that passed on 
August 14 and the public law that passed on October 31 were 
both more narrowly drawn. The public law on October 31 said at 
the end: ``nothing in this act shall be construed to authorize 
or otherwise speak to the issue of United States armed forces 
except as provided in section 4(a)(2) in carrying out this 
act.'' And 4(a)(2) talked about draw-down of military defense 
articles for the Iraqi opposition.
    And the other one, Public Law 105-235 at the end said that 
``the President is urged to take appropriate action in 
accordance with the Constitution and relevant laws of the 
United States,'' which of course includes, amongst other 
things, the War Powers Act, and that was very carefully worked 
out in the Congress.
    And my understanding--and if I am wrong, I certainly want 
to be corrected--is that the resolution from which the Senator 
is quoting in fact was not passed by the Congress.
    Senator Allen. I would say, Mr. Chairman, to my good friend 
from Maryland, I wanted to ask what her position was on this 
resolution. This resolution, I would say to my friend from 
Maryland, Senator Sarbanes, was sponsored by the following 
Senators who are still here, and it had bipartisan support: Mr. 
Daschle, Mr. Leahy, Mr. Dodd, Kerry, Moynihan, Byrd, Wyden, 
Hollings, and Akaka, as well as others on our side of the 
aisle.
    Senator Sarbanes. It did not have Senator Biden or me 
cosponsoring it or a number of others. In fact, it did not have 
Senator Lugar. I am looking at this resolution. When the 
resolution was finally worked out, there was much more narrow 
and careful language. That is the only point I am making.
    I am laying this out because the premise that was given to 
the Secretary was that this was passed by the Congress, 
presumably acquiesced in by the administration. The language 
you quoted was not passed by the Congress. I have the language 
that was passed by the Congress. In both instances, the 
relevant paragraphs are far more narrow and pointed than what 
you quoted to the Secretary, which was an open-ended thing. The 
fact that some people went on it when it was introduced--that 
was not the end product.
    Senator Allen. Nevertheless, I would say, Mr. Chairman, 
that it was the sentiments of those bipartisan leaders in it. I 
think we can all stipulate that matters in Iraq have not gotten 
less dire since 1998 when this concern was actually addressed 
by the Senate and with Secretary Albright as Secretary of 
State.
    Senator Sarbanes. Oh, I am not addressing that issue. Maybe 
it is getting more dire, maybe it is not. I am just addressing 
the issue that you put a question to the Secretary, the premise 
of which was that that language had been adopted by the 
Congress, and that is not the case.
    Secretary Albright. Senator Sarbanes, I appreciate very 
much the clarification because the language that I have here 
that I was responding to was out of Public Law 105-235 that 
does, in fact, have the final paragraph from which I quoted in 
responding to your question.
    Senator Sarbanes. It says any action should be ``in 
accordance with the Constitution and relevant laws of the 
United States.'' Is that correct?
    Secretary Albright. Right, and to bring Iraq into 
compliance with its international obligations, not the broad 
language that is in the resolution that has been proposed by 
the administration that, as I said, gives carte blanche to the 
administration to do what it wants in the Middle East. I 
disagree with that, and I hope very much that that will, in the 
course of this, be redrafted.
    But to the point, Senator Allen, I think that we have all, 
over the years, tried to figure out how to deal with the horror 
of Saddam Hussein and the mood in the country is different at 
different times. I am very proud of what we tried to do to keep 
him in his box.
    Senator Allen. Well, as we develop this draft resolution we 
will fine tune it, if it needs fine tuning--and any legislative 
branch is naturally going to change something; that is just the 
nature of a legislative branch of the government. But the draft 
resolution does say the President is authorized to use the 
means he determines to be appropriate to enforce the United 
Nations Security Council resolutions that are referenced above 
in the Whereas clauses.
    I think that the chairman does have some good ideas that I 
would like to work with him on, particularly having allies join 
with us.
    The Chairman. I do not want to take up Senator Boxer's 
time. She has been so patient.
    But I was involved in that negotiation. I will not 
characterize anybody else. I will speak for myself. The reason 
why I felt comfortable in voting for the amended resolution was 
the addition of the paragraphs that said ``the Government of 
Iraq is in material and unacceptable breach of international 
obligations. Therefore, the President is urged to take 
appropriate action in accordance with the Constitution and 
relevant laws of the United States.''
    The other one that we talked about, Public Law 105-338 on 
October 31, added the section which I may be mistaken but I 
think I was in the room and helped draft, which was section 8, 
rule of construction, which says, ``nothing in this act shall 
be construed to authorize or otherwise speak to the issue of 
United States armed forces except as provided in section 
4(a)(2) in carrying out this act.'' And that was giving aid and 
assistance.
    Senator Sarbanes. To the opposition.
    The Chairman. To the opposition.
    Again, this is not a matter of argument. At least I am not 
trying. Hopefully we can do what we have always done with these 
resolutions, going all the way back to the gulf war or as 
recently as 9/11. And that is, when we have got cooler heads, 
we sit down. We have worked through it. Administrations have 
cooperated. We have ended up with something we could all live 
with that gave the President the necessary authority needed to 
meet the limited objective he stated. Hopefully that process is 
still underway and we will be able to do that. I am anxious to 
work with the Senator to incorporate, to the degree he agrees 
with Senator Lugar or me or anyone else, additional language.
    But let me yield and apologize to the Senator from 
California and blame the Senator from Maryland.
    Senator Boxer. I think the Senator from Maryland is right, 
these points are important. I cannot thank both of you enough, 
because you have helped me cement my views, and I want to tell 
you why. During yesterday's hearing with Mr. McFarlane and 
Ambassador Holbrooke I spoke about how I voted for force twice 
recently, once against Milosevic in your day, Madam Secretary, 
and once after 9/11 under the current administration, and I 
also spoke about my belief, very strong belief that the use of 
force should be a last resort, and that I believe every 
President has an obligation to lay out a path for peace before 
taking us to war.
    In my view, I have not seen this President do that yet, and 
in the view of my constituents, thousands of whom are calling 
me--it is unbelievable, every 2 days, we get 1,000 calls or e-
mails They are saying they feel the President is itching to go 
to war, and to put in a nicer way, a phrase that Secretary 
Albright used, not pertaining to the President in her opinion, 
but she said ``some in the administration have an irrational 
exuberance for war,'' and I think that does speak for a lot of 
my constituents.
    Well, I want to thank you in particular, Secretary 
Albright, because you did for me something that I have not 
heard yet before today from someone at your level. You have 
laid out a path for peace, and I believe your statement was a 
breath of fresh air in the drumbeat of war.
    I also would say to Dr. Kissinger, for one brief, shining 
moment in your answer to Senator Sarbanes, I think you laid out 
a path for peace, a little bit more skeptically than Secretary 
Albright, but nonetheless, it was there, and I can tell you 
that I take pleasure in small victories as this debate moves 
forward. For the first time, I have seen experts lay out a path 
to avoid bloodshed, and I understand it is not an easy path. I 
understand it might not work. I understand it will take a 
strong, intrusive, unfettered inspection regime, followed by 
dismantlement of anything found.
    I personally demand that Iraq live up to the U.N. 
resolutions, particularly regarding inspection and 
dismantlement of weapons of mass destruction. They agreed to 
it. They must live up to it, and the world must ensure that, 
not just our Nation, because if it is just our Nation, I am 
very worried, as the Senator from the largest state in the 
Nation, about the risks and the cost borne by our people. The 
world must step up to the plate, and I think the world will if 
we do this right.
    Yesterday, Senator Danny Inouye took to the floor. Danny 
Inouye is a war hero. He has more medals than, I do not know, 
probably anyone that I know.
    The Chairman. Including the Medal of Honor.
    Senator Boxer. Including the Medal of Honor, and I want to 
tell you what he said. He said, ``there are those who plan war 
and there are those who fight war,'' and as we sit here talking 
about post-war regime in Iraq, as we sit and plan for that, I 
want us to think for a moment the path we are taking if we do 
not follow the path for peace that I heard outlined here today, 
and I would ask unanimous consent, Mr. Chairman, at this time 
to introduce into the record an article in today's USA Today.
    It is entitled, ``In Iraq's Arsenal: Nature's Deadliest 
Poison.'' Botulinum toxin might be the most diabolical of 
Saddam's terror tools, but the U.S. is far from ready to 
protect its troops. I would like to put that in the record.
    The Chairman. Without objection.
    [The article referred to follows:]

                  [From USA Today, September 26, 2002]

              In Iraq's Arsenal: Nature's Deadliest Poison

                          (by steve sternberg)
    Botulinum toxin might be the most diabolical of Saddam Hussein's 
terror tools, but the U.S. is far from ready to protect its troops--the 
only remedy is antitoxin made from horse serum.

    In the year since an unknown bioterrorist stuffed envelopes with 
anthrax and mailed them, the government has stockpiled anthrax vaccine 
and antibiotics, planned mass vaccination campaigns and ordered 209 
million fresh doses of smallpox vaccine.
    Yet the United States is still unprepared to contend with other 
agents on its A-list of potential biowarfare threats, especially 
botulinum toxin, an experimental terror tool of Saddam Hussein's.
    Botulinum toxin, the most poisonous substance known, is about 
100,000 times deadlier than the neurotoxin sarin, which was used in an 
attack on Tokyo subways in 1995 that killed 10 and sent 5,000 people 
streaming into hospitals. During the Gulf War in 1991, Iraq reportedly 
stockpiled thousands of liters of the botulinum toxin and funneled some 
into bombs.
    Today, as the United States edges closer to another war with Iraq, 
U.S. troops would be just as vulnerable to botulinum toxin as they were 
a decade ago. There's still no government-approved vaccine, and the 
only antitoxin is made by extracting antibodies from the blood of 
vaccinated horses using decades-old technology.
    Antitoxin, which clears toxin from the blood, is so scarce that 
there isn't enough to safeguard thousands of troops from a botulinum 
attack. There are other major problems: Antitoxin is too difficult to 
administer on the battlefield, and it can have life-threatening side 
effects.
    Although a 21st-century biotechversion is in laboratory trials, it 
will be years before the experimental antitoxin reaches battlefield or 
civilian stockpiles.
    ``Unfortunately, there's nothing really available for people yet, 
other than horse serum,'' says George Lewis, a retired Army veterinary 
microbiologist who oversaw the program that developed the equine 
antitoxin shipped to Saudi Arabia during the Gulf War.
    When botulism strikes, it strikes hard. The toxin destroys the 
nerves that enable people to breathe and swallow. Until the nerves 
regenerate, which takes weeks or months, paralysis sets in. Without 
ventilators and mechanical life support, victims almost always die.
    Botulinum toxin's availability and lethality make it a potentially 
fearsome weapon. It is difficult to defend against on the battlefield 
or in the hands of urban bioterrorists, who wouldn't have to kill 
millions or even thousands to have a considerable impact.
    The toxin was so popular among Iraqi bioweapons scientists that 
they claimed to have produced botulinum toxin on an industrial scale. 
After the Gulf War, Iraq told U.N. weapons inspectors that it had 
stockpiled nearly 20,000 liters of toxin in solution in anticipation of 
a U.S. attack. Some of it, Iraq said, had been loaded into more than 
100 solution-filled ``wet bombs,'' which were never used.
    Security analysts believe Iraq's bioweapons arsenal is much larger 
than Iraqi leaders acknowledge. Even the experts can only guess at what 
Iraqi biologists have cooked up since 1998, when U.N. inspections 
ended.
    ``The biological program is a black hole,'' says Avigdor Haselkorn, 
a Defense Department adviser with the Geopolitical Forum, a consulting 
group, and author of The Continuing Storm: Iraq, Poisonous Weapons, and 
Deterrence, an analysis of the Iraqi program.
    If Saddam had chosen to use botulinum in 1991, he would have caught 
the U.S. military with its guard down. At the start of the Gulf War, 
the U.S. stockpile of equine antitoxin totaled roughly 2,600 doses. 
During the war, the Army bought a herd of horses, vaccinated them and 
began extracting their antibodies for antitoxin. But three years after 
the war, the funding died and the effort ended.
    Military experts concede that biohazard suits and a costly, crude 
vaccine remain the best defense against a battlefield botulinum attack. 
Antitoxin won't help much on the battlefield, they say, because it must 
be given via a prolonged intravenous drip right after exposure.
    ``If there was a massive exposure on the battlefield, there aren't 
enough medical assets to give antitoxin to enough people,'' says Col. 
David Danley of the Army's Joint Program Office for Biological Defense.
Where it comes from
    The toxin is made by a microscopic bacterium, Clostridium 
botulinum. Most people think of botulism as a scary byproduct of 
careless home and commercial canning, because the bacterium grows--and 
produces toxin--only in airless environments such as vacuum-packed jars 
and cans.
    Adults get botulism from direct exposure to the toxin in food or 
dirty hypodermic needles, where spores can germinate in leftover 
liquid. But adults represent just one-third of the roughly 100 cases 
that occur in the USA each year. The rest are infants who are infected 
with spores traveling on dust motes in air or who are unwittingly fed 
spore-carrying honey. The spores germinate in the oxygen-free darkness 
of the infants' intestines, producing toxin from within.
    Microscopic C. botulinum spores, which are found in backyards 
everywhere, are easily accessible to those with the know-how to extract 
and grow them. In the hands of an urban terrorist, experts say, the 
toxin could wreak havoc.
    ``More people have died from West Nile virus than died from the 
anthrax letters, but the chaos and terror and economic impact of 
anthrax were incalculable. You could do that with botulinum toxin,'' 
says Stephen Arnon of the California Department of Health, who led the 
effort to develop a human version of antitoxin to treat infants. ``With 
the simplest of lab equipment, for $1,000, you could make enough toxin 
to kill hundreds of people.''
    If a bioterrorist were to release a cloud of botulinum in a major 
city, 50,000 people would get sick, and 30,000 of them would die 
without antitoxin treatment, according to a report released this year 
by the National Academy of Sciences' Institute of Medicine, a think 
tank financed partly by Congress.
    Because 80% to 90% of the beds in any intensive care unit in any 
given city are usually full--and because most cities have just a few 
hundred intensive care beds--fewer than 100 cases of botulism could 
lock up every intensive care ward in a city like San Francisco for 
weeks, says James Marks of the University of California-San Francisco, 
an author of the report.
    The gridlock would displace cancer patients, heart patients and 
candidates for elective surgery, Marks says, depriving them of life 
support and turning them into ``collateral damage.''
    The religious sect Aum Shinrikyo attempted to weaponize botulinum 
toxin before its attack on the Tokyo subway system. Aum Shinrikyo's 
attempt failed because the botulinum variant members used turned out to 
be non-lethal. Sarin was the group's second choice.
    ``Botulinum toxin is a very scary agent,'' says Arturo Casadevall, 
an infectious-disease specialist at Albert Einstein College of Medicine 
in New York. ``We wouldn't know we were attacked until we had an 
epidemic of paralyzed people with no explanation.''
    Casadevall notes that ordinary medicines wouldn't help the victims. 
``One of my fears,'' he says, ``is that if we get hit we wouldn't have 
enough respirators in New York City. If you had an attack that involved 
thousands of people, you couldn't put them in the (intensive care 
unit).''
    Quick access to antitoxin would shorten the course of the illness. 
If a bioterrorist were to release a cloud of botulinum toxin in a big 
city, antitoxin could save about half of the lives that would be lost.
    But antitoxin is in perilously short supply. After the Gulf War, 
the Army stockpiled 5,000 doses of finished antitoxin from its herd of 
horses. The Centers for Disease Control and Prevention stored some of 
what remains in freezers, but officials will not disclose exactly how 
much they have on hand. The Army put 45,000 unprocessed doses into the 
deep freeze.
    In 1999, the Army abandoned the program and donated 53 horses to 
the Air Force Academy stables. Some were auctioned or sold, stable 
manager Billy Jack Barrett says; others are kept at the stables for 
cadets and others to ride.
    The story of the Army's botulinum antitoxin program provides a 
compelling example of the nation's once-ambivalent commitment to 
biodefense, experts say.
    Before the Gulf War, most military analysts were more concerned 
about nuclear and chemical weapons than they were about biological 
agents. In 1972, 140 countries--including Iraq--renounced offensive 
biowarfare by signing the Biological Weapons Convention. But the treaty 
didn't deter Iraq from launching a covert bioweapons program.
    CIA bioweapons analyst Kimberly Stergulz says bioterrorism offers 
rogue nations like Iraq--and ``non-state actors'' like al-Qaeda--cheap 
access to weapons of mass destruction. A rogue nation can launch an 
extensive biowarfare program for about $10 million, compared with the 
$2 billion needed to build nuclear arms.
    Analysts estimate that by the time Iraq invaded Kuwait in 1990, 
Baghdad had spent $100 million on biowarfare delivery devices and 
agents. Besides botulism, the Iraqis brewed up vast amounts of anthrax; 
ricin, a castor-bean toxin that blocks breathing and circulation; and 
Clostridium perfringens, which causes gangrene.
    No one knows how effective Iraq's arsenal would have been had 
Saddam elected to drop those bombs. Some animal research suggests that 
botulinum is 40 to 80 times more lethal when it is consumed in food 
than when it is inhaled into the lungs.
    Before the United States abandoned offensive bioweapons research in 
1969, tests on Horn Island, near Pascagoula, Miss., suggested botulinum 
isn't effective when it's dropped in a small bomb.
    ``It just didn't kill guinea pigs downrange,'' says David Franz, 
former commander of the U.S. Army Medical Research Institute for 
Infectious Diseases.
    But a British intelligence report released Tuesday says Iraq is 
``judged to be self-sufficient'' in the technology needed to improve 
its bioweapons, including fermenters, centrifuges and spray dryers. The 
L-29 drone aircraft developed by Iraqi engineers are basically high-
tech crop-dusters capable of unleashing up to 80 gallons of toxin or 
other agents in a deadly mist.
    In the wake of Sept. 11 and the anthrax attacks, the government has 
developed a renewed interest in the botulism antitoxin, says Nicholas 
Pomato, vice president of research at Intracell, the Gaithersburg, Md., 
biotech firm that made the antitoxin during the Gulf War.
    Intracell has begun negotiating to finish the job of processing the 
Army's stored horse serum, Pomato says, at a cost of $15 million to $20 
million--about $500 a dose. ``Double that cost if you start making the 
material from scratch again from horses,'' Pomato says.
    But he adds that it will take time to outfit a processing facility 
and begin the work. New supplies, he says, won't be tested and ready 
for use until next year.
    Since the Army has decided not to stockpile antitoxin because it 
would be unwieldy to use on the battlefield, Pomato says, the CDC plans 
to take over the serum for use in the event of a bioterror attack 
against civilians.
    But horse antitoxin isn't without drawbacks. The human body might 
recognize it as foreign and reject it, much as it would a transplanted 
organ. Doctors who administer antitoxin must keep drugs on hand to 
counter allergic reactions and rejection.
    Ironically, because botulism is such a rare disease, drug companies 
have elected to invest in more profitable products--such as the toxin 
itself. A purified form of botulinum toxin, sold as Botox, is used to 
treat a long list of ailments, including eye-muscle spasms, post-stroke 
spasticity, migraine headaches and cerebral palsy. Botox's popularity 
as a wrinkle relaxer also promises to turn it into a billion-dollar 
cosmetic drug.
    The anthrax attacks, impending war with Iraq and an imminent flood 
of government research money could provoke new interest in treating the 
botulism itself. Marks, at the University of California-San Francisco, 
and his colleagues at the Army's infectious-diseases research institute 
already have begun exploiting the new tools of biotechnology to develop 
an alternative to equine antitoxin.
    In late August, they reported success in developing a trio of 
genetically engineered human antibodies. Given together in animal 
tests, the three antibodies inactivated botulinum toxin type A, the 
most lethal toxin and the one preferred by Saddam. Biotech antitoxin, 
Marks says, could ``deweaponize'' botulinum toxin.
    Because the antibodies persist in the body for months, troops going 
into battle could be immunized; protection would last six months. The 
antibodies are 100 times stronger than the human antibodies used to 
treat infants, but the experimental antibodies will take years to 
develop.
    Human clinical trials have not yet begun. Moreover, type A 
botulinum toxin is only one of seven types; different antibody 
cocktails must be identified for each one.
    Marks says vast amounts could be made cheaply in high-production 
fermenters to treat civilians stricken in a bioterror attack. ``One 
kilogram could treat 10,000 people,'' he says, and an industrial 
fermenter could crank out 120 kilograms a month.
    The challenge now, Marks says, is to ``make them, get them into 
humans and see if they work.''
    The Army has a vaccine, developed years ago, that primes the immune 
system to make its own anti-botulinum antibodies. It is rarely used 
because so few people run the risk of exposure to the toxin. The 
vaccine has never gotten government approval because the Army has never 
been able to mount a large-scale study showing that the vaccine works. 
As a result, the vaccine can be used only under a special exemption 
from FDA rules. Newer vaccines are also in the works, but they are 
years from winning approval.
The Botox connection
    In an odd twist, vaccinating soldiers or civilians also would 
immunize them against Botox, the only potential bioterror agent 
approved for use as a drug.
    Botox, which is made by Allergan, poses a dilemma to health 
officials and bioterror strategists. Vaccinating soldiers and the 
public would protect against exposure to the toxin, but it also would 
deprive people of Botox's benefit--and knock a blockbuster product with 
estimated sales of $430 million this year off the market.
    Former FDA commissioner Donald Kennedy, a Stanford University 
neurobiologist who has used the toxin for years in research, says the 
risk of leaving the public unprotected is just too great.
    ``Who would have imagined a world in which terror weapons are used 
as beauty aids?'' Kennedy wrote in a recent issue of the journal 
Science.
    Kennedy, the journal's editor, worries that mass producing Botox, 
and trying to improve it, will ultimately make it a bigger threat. ``I 
think we should develop a vaccine,'' he says.
    Allergan vice president Mitchell Brin, a Botox pioneer, says his 
firm has chosen to stay out of the vaccine debate. Brin says the 
company has assured the government that it will keep its Botox 
operation secret to preserve national security. ``We don't talk about 
our manufacturing facilities,'' he says. ``We've agreed to keep a low 
profile.''
            weapons against bioterrorism--(bioterror agent)
Anthrax
    Symptoms: A high fever and flu-like symptoms for inhalation 
anthrax; a black lesion from cutaneous anthrax. Anthrax cannot be 
transmitted from person to person.
    Defenses: Antibiotic Cipro, which must be taken for 60 days, is the 
only drug approved by the Food and Drug Administration to treat 
inhalation anthrax. But so far, all of the anthrax strains have been 
identified also have been sensitive to doxycycline and other 
tetracycline antibiotics, as well as penicillin. Bayer, maker of Cipro, 
tripled it production last fall.
Botulinum toxin
    Symptoms: Botulism always begins with paralysis in the muscles of 
the head, eyes and face and throat. The first signs appear 12 to 72 
hours after exposure. They are typically droopy eyelids, the absence of 
smile lines around the eyes and dilated pupils. Paralysis descends down 
the body, with muscles growing limp. Muscles that govern breathing and 
swallowing stop working. Patients need life-support to survive.
    Defenses: An experimental vaccine made from inactivated toxin is 
used mainly to protect people who work with botulinum and Botox 
(purified toxin, which is sold as a drug). Newer biotech versions are 
also in the works. Human anti-toxin made of antibodies from the blood 
of vaccinated humans is used to treat infant botulism. Horse antitoxin, 
made from the blood of vaccinated horses, is used to treat adults with 
the disease.
Smallpox
    Symptoms: High fever, chills and head and back aches begin one to 
six days after exposure. A rash forms on the face, arms and legs and 
can cause severe scarring. The disease is spread through person-to-
person contact. It is highly contagious, especially in populations in 
which few people have been vaccinated or have had the disease.
    Defenses: Vaccination against smallpox in the USA ended in 1971; 
the world's last naturally occurring case was in Somalia in 1977. The 
United States currently has 155 million doses of vaccine made decades 
ago kept in storage. Another 209 million doses have been ordered and 
are expected by the end of the year, bringing the total supply to 364 
million doses.
Tularemia (also known as rabbit fever)
    Symptoms: The bacteria-borne disease cannot be spread from person 
to person; it is usually spread through contaminated animals or meat. 
Initial symptoms include fever, chills and weakness. Tularemia triggers 
pneumonia, pleuritis and lymph-node disease within three to five days 
of exposure. The disease is rare in the USA, but outbreaks commonly 
occur in Europe and Russia.
    Defenses: Tularemia is treated with antibiotics; the military has a 
vaccine, but it's not available for general use. Treatment with 
antibiotics after exposure is effective.
Plague
    Symptoms: High fever, chills and headache begin one to six days 
after exposure. Death can occur within two to four days.
    Defenses: The vaccine for bubonic plague, which is transmitted by 
fleas, is not effective against the aerosolized form that would be used 
in bioterrorism. Antibiotic treatment must begin within 24 hours of 
symptoms to improve chances of survival.
Viral homorrhagic fever
    Symptoms: Depending on the virus (Ebola, Marburg, others), symptoms 
can be high fever, diarrhea and muscle aches, followed by severe chest 
pain, shock and bleeding. Death can occur in seven days.
    Defenses: No licensed vaccines exist for any of these diseases, 
though experimental versions have been made for yellow fever and 
Argentine hemorrhagic fever. The only therapy is supportive, mainly 
intravenous fluids. An antiviral drug called ribavirin has proven 
useful in people with Rift Valley and Lassa fevers. An oral form can be 
used when there are mass casualties and not enough health workers or 
equipment to give it intravenously.

    Senator Boxer. I think sometimes we are not paying enough 
attention to this, at least in my opinion.
    I want to say that I listened to National Security Advisor 
Condoleezza Rice with great interest, and I spoke to the 
chairman about what Condoleezza Rice said today about the 
presence of al-Qaeda in Iraq, and Madeleine Albright, Secretary 
Albright, you referred to this, and to me it was very 
interesting.
    It seems a whole new line is developing here as a 
rationale, and since she raised the question, which we have 
been briefed on but none of us really raised it, I want to say 
today what I believe to be the case. I believe there may be 
some al-Qaeda there. I also believe, in my opinion, from what I 
know, there is more al-Qaeda in Pakistan. There is more al-
Qaeda in Africa, and there is more al-Qaeda in the United 
States of America itself, in this Nation, and so those of my 
colleagues who bring up not taking our eye off the ball in the 
war against terrorism, and to you, Madam Secretary, for 
mentioning that, I think that is very important.
    To me, the issue in Iraq is simple. Weapons of mass 
destruction have got to be inspected. We have got to find them 
if they are there. We have got to get them dismantled. But all 
these other issues, I think, added now are very interesting, 
and go to some of the cynicism that I hear among my 
constituents, and I want to put that point out there.
    I have a question, believe it or not, that deals with the 
Carnegie Foundation. The Carnegie Endowment for International 
Peace released a study called, ``Iraq, A New Approach,'' which 
advocates a policy of U.N.-sanctioned, coerced inspections. 
This plan envisions that an armed inspection implementation 
force would be added to support international inspectors. I 
wonder if either of you have read this report, or have a 
feeling about it, because as I search for a path to peace, it 
is through the inspection regime, but I want to make sure it is 
a strong inspection regime, and I think that the Carnegie 
Endowment for International Peace may have come up with some 
idea that we can seize on and develop and I wonder if you, 
Secretary Albright, and then Secretary Kissinger, could 
respond.
    Ms. Albright. Secretary Boxer, I think that--I have not 
read the report. I have read about it, and I do find it an 
interesting concept, because part of the issue is how to try to 
get intrusive inspections that actually have some teeth to 
them, and while I think there probably are some technical 
difficulties to it, I think it is certainly worth exploring.
    If I might also say, I know this is not an easy subject to 
bring up, but I do not think it would hurt if we considered the 
fact that Saddam Hussein is a war criminal, and the War Crimes 
Tribunal made a big difference when we were dealing with 
Milosevic, and I think this is something we might also think 
about.
    Senator Boxer. Actually, that was my next question. My time 
has run out, but I will submit it and hope that you can respond 
to it. I would greatly appreciate it.
    The Chairman. Madam Secretary, I proposed that 5 months 
ago. He should be declared a war criminal.
    Senator Boxer. Can we hear from Dr. Kissinger?
    Dr. Kissinger. I do not agree with the statements that have 
been heard around here about the administration's irrational 
exuberance for war. The administration is facing a problem on 
which we all agree: the existence of weapons of mass 
destruction in Iraq. They are facing the problem that, if we 
acquiesce in that now, these weapons will only continue to grow 
and we will face the same problem a year or 2 or 3 from now.
    The President went to the United Nations, put the case to 
the United Nations, and there-by started a process I am 
confident he will let run to a reasonable conclusion. We have 
all agreed here that we are talking about months not years, so 
the difference in regard to all of this is relatively small.
    Now, with respect to that inspection system. I have talked 
to General Boyd, who was one of the drafters, and I have read 
the report. I put a sentence in my statement about a stand-by 
force and a stand-by authority when I discussed the general 
requirement for inspection, so I think it is a useful idea. If 
an inspection system were worked out, that would be a possible 
element of it.
    The only warning I would issue is not to use inspections as 
a means for avoiding the problem and then having to face the 
same issue down the road. We should of course see what can be 
worked out in good faith. I cannot make a big contribution 
because I do not know enough about it, but I think the 
administration will in fact, do this because they will have to 
answer the question of the inspection system as it goes through 
the process. But if that does not prove feasible we will have 
to face the issue within a limited period of time for action.
    Senator Boxer. Thank you. Thank you, Mr. Chairman.
    The Chairman. I apologize to the Senator from Rhode Island 
for this additional intervention, and it will just take a 
second, but I want to make sure the record is straight. My 
understanding was, the comment was made earlier on that some 
within the administration were engaged in irrational exuberance 
about war. I do not think that was said of the President.
    The second point is----
    Senator Boxer. I said that, Mr. Chairman.
    The Chairman. I know. I just want to make sure what we are 
talking about here, because we are trying to--and the witnesses 
are incredibly helpful to this degree. We are trying to work 
something out here. We are trying to do this cooperatively. We 
are not looking for disagreement. We are looking for agreement 
to deal with what we all agree is a bad guy and a bad 
situation, meaning Saddam.
    Part of the reason why I think we are in this dilemma is 
that as recently as today in the press--and I can tell you from 
my personal experience there is still real disagreement within 
this administration about how to proceed. Now, I know the 
Secretary of State is going to tell us there is not much, but 
there is. There has been at least up until today, and so part 
of our problem relates to whether or not we pick up the paper 
and read a statement made by, say, Mr. Wolfowitz, as opposed to 
a statement made by the Secretary of State. Sometimes they are 
way apart.
    The President is working his way through, deciding who he 
agrees with on each of the things, but guaranteed there is a 
fundamental difference being presented to the President on 
these issues.
    And the second point is, the Senator from Indiana and I had 
an opportunity to meet with the Russian Foreign Minister, Mr. 
Ivanov. We asked about amendments to a new resolution in the 
Security Council. His initial response to us was, there was no 
need for one.
    As we pursued this along the lines of Dr. Kissinger's 
comments and Secretary Albright's comments, we said the 
inspection regime as played out prior to them being removed was 
not good enough. The point Dr. Kissinger made, we could not 
interview potential defectors and/or collaborators because Kofi 
Annan had come along and said, you are allowed to have an Iraqi 
military person standing in the room. That is unacceptable.
    We also discussed the possibility of the need for a 
military force to accompany the inspectors, and to that, and I 
am anxious to hear what the Secretary of State has to say, the 
Foreign Minister said he was open to that. The Russians were 
open to that. So I would not be so quick--and I know neither of 
the witnesses are suggesting it. I would not be so quick to 
suggest that Secretary Powell may not be able to pull off 
something very positive here to get us down this road we all 
say we want to go down.
    So I just want to make those two points as it relates to 
how it is beginning to move, and hopefully, God willing, and my 
grandpop used to say, ``and the creek not rising,'' we could 
end up at the end of the day with the same kind of resolution 
agreement we had as we work through the 1998 resolution with 
sufficient safeguards built into it.
    But at any rate--and Senator, you and the Senator from 
Florida can take additional time to ask your questions, because 
you have been so patient.
    Senator Chafee. Well, thank you, Mr. Chairman, very much. I 
know we all share the same goals and had a good discussion 
about that, but one of the areas that does concern me is the 
international relations that have been, the dynamics that have 
been created by this initiative and, of course, the elections 
in Germany are, I guess, on the front burner as to how that 
became an issue in that country.
    But one--and you read the comments from the various 
international leaders from around the country, whether it is 
China, Japan, Kuwait, even our friends in Canada, they are all 
expressing concerns about this, but particularly one of the 
quotes was from President Mubarak, who is maybe one of the 
deans in the Arab world, has been there since the early 
eighties as the leader of his country, and he said just several 
weeks ago, ``if you strike Iraq, not one Arab leader will be 
able to control the angry outburst of the masses.''
    And maybe we should not argue, just for the sake of 
discussion, about whether he is right or wrong, but supposing 
he is right, then what happens, and from your experience, maybe 
you could take us down that path. What countries are most 
susceptible in the region to the angry outburst of the masses?
    Jordan, certainly King Abdullah has expressed concerns, and 
where do we go? Then do we go into Jordan and help him out? Do 
we go into Saudi Arabia or Egypt to help them out? Maybe you 
could go down that path a little bit, if he is right, just for 
the sake of argument.
    Ms. Albright. First of all, could I just say I appreciate 
Chairman Biden straightening out the business about exuberance, 
because I did not say it about the President or the whole 
administration, but I do think, as I said earlier, that there 
are those who had an agenda even before this started, so that 
concerns me.
    I think Secretary Kissinger is right when he says that if 
we go in and do this ultimately there will be some that have 
said they would have nothing to do with us that will have 
something to do with us, so I do not dispute that.
    On the other hand, I do think that we have had many signals 
from various Arab leaders in the region who are very concerned 
about what the sparks of this might initiate, and King Abdullah 
has made that very clear. I think the Saudis, one of the 
reasons that they have backed off a lot on this is that they 
are concerned about what happens on their street, and that we 
do have to be concerned about how, that we find ourselves in 
the rather peculiar position, if I can put it this way, that we 
might be opposed to those who disagree with their governments, 
but are not necessarily extremists about how this is carried 
out.
    So I think again, as people consider what the effect of 
this will be, we need to hear more from those who have up-to-
date intelligence as to what the effect of all of this will be 
in those countries, because there is little doubt in my mind 
that there will be outpourings of sentiment against what we 
have done.
    Dr. Kissinger. I am assuming that we will not act unless we 
believe it is in the overwhelming interest of national and 
international security. If that is indeed the judgment of the 
administration, it cannot be deterred by the threat of 
outbursts in the streets, because that is what will happen and 
it will surely become a source of permanent source of 
blackmail.
    The countries you mentioned have shown a pretty good 
capacity to control their streets. Still we cannot be driven in 
our fundamental judgment of what is necessary for international 
order by the fear or threat of demonstrations.
    The growth of Iraq's stockpiles is a serious problem and it 
must be addressed. It can hopefully be dealt with through the 
processes now being conducted, but even if it is not, I do not 
think the demonstrations are going to prove disastrous.
    Moreover, the German election was not caused by American 
policy. There were many elements within German politics that 
produced this reaction, and it will almost certainly be 
resolved in the weeks to come in a cooperative spirit.
    Senator Sarbanes. Would the Senator yield on that very 
point for just a minute?
    Senator Chafee. Certainly.
    Senator Sarbanes. I am interested to hear Dr. Kissinger say 
that, because on January 13 you wrote--and I would only make 
this point because earlier in this discussion you said we 
should not engage in speculation about individual countries, 
and I wanted to just quote what you said then. Talking about 
building up this movement against Hussein you said, ``Britain 
will not easily abandon the pivotal role, based upon its 
special relationship with the United States, that it has earned 
for itself in the evolution of the crisis, nor will Germany 
move into active opposition to the United States, especially in 
an election year.''
    Dr. Kissinger. All of us who have been concerned with 
German-American relations were surprised by the fact that an 
anti-American appeal could evoke such feelings.
    Senator Sarbanes. But it does underscore, I think, the 
warning you gave today about the danger of speculating about 
individual countries.
    Dr. Kissinger. That is right. I had not understood the 
degree to which such feeling had evolved, but it surely has 
deeper causes than a reaction to the immediate tactics 
regarding this situation.
    Senator Sarbanes. I thank the Senator.
    Senator Chafee. Thank you. I will just followup a little 
bit.
    At a hearing we had earlier this month, I asked one of the 
witnesses about spontaneous combustion that has happened, and 
specifically I mentioned Iran, and how we were caught so flat-
footed. It just seemed to happen overnight. We did not even get 
our embassy evacuated, obviously.
    The witness responded by saying yes, as a matter of fact, 
one of the leading scholars in the area wrote a book, ``Iran 
Under the Pahlavis,'' by Professor Lenkowski, if I have 
pronounced it right, and saying it is the most stable regime in 
the region--his book was not a best-seller--so we have to be 
aware of that, and when President Mubarak is making these type 
of statements, no Arab leader will be able to control the 
outbursts--let me get it right, the angry outbursts of the 
masses, I think we have to listen, and if we are going down 
this road, go down it.
    And I guess I will ask one more time, if Jordan is, the 
Arab leader cannot control the outburst of the masses, or 
Egypt, for the sake of argument, then what do we do?
    Ms. Albright. Could I, Senator--I think that--I hate to, I 
really do hate to disagree with Henry on this. I think that as 
we look at what the causes of terrorism are--I remember, 
Chairman Biden asked me when I testified sometime ago whether 
poverty was the cause of terrorism, and I remember saying, we 
do not know that.
    We do know that there are people who are looking for 
reasons to be opposed to us that are part of societies that are 
dysfunctional, or where there is a great gap between the rich 
and the poor, or people have no way of knowing what their 
future will be, that they are out there as potential recruits 
for terrorism and therefore, if the streets explode, it is not 
just a matter of controlling them by the monarch or the ruler. 
It may be impossible, and it may, in fact, create an 
environment that hurts us in the overall fight against 
terrorism, and that is my concern.
    Senator Chafee. I would agree with that.
    Thank you, Mr. Chairman.
    Dr. Kissinger. One has to go back to the fundamental issue: 
that there are stockpiles of weapons of mass destruction in 
Iraq, in violation of the U.N. resolution; that we are engaged 
in a diplomatic process to attempt to deal with this. First of 
all, does Mubarak really mean this, and second, even if he 
does, can we ultimately be deterred from doing what we should 
do and leave these weapons undisturbed? Will that not create a 
worse problem with the streets as time goes on? These are the 
questions that need to be addressed.
    Senator Chafee. I know my time is up, but I guess I did not 
get an answer to the question, what does happen, just for the 
sake of argument? Do we preemptively go into Jordan if there is 
someone there, but I do not want to take any more time.
    Dr. Kissinger. The word ``preemptively'' is being thrown 
around too loosely in the debate. It has always been understood 
that, if there is a fundamental threat to national security, 
one reserves the option for military action. There have been 
occasions in the past--as when the Jordanian Government was 
threatened--that the United States was willing to give it very 
substantial support.
    Nobody could recommend moving American troops into Egypt or 
Jordan on the basis of riots in the streets. This will have to 
be dealt with when the issues arise and in a way that is not 
determined by an abstract theory of preemption, but by an 
assessment of the national security and international security 
as perceived at that moment.
    Senator Chafee. Thank you very much.
    The Chairman. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. I am intrigued by 
the declaration of this preemption doctrine. As I read the 
Constitution, the President in his role as Commander in Chief 
can act preemptively for the protection of the interest of the 
United States. What is different in this declaration of 
preemption, and if there is an emphasis on it, is there a 
weakening of the actual constitutional responsibilities of the 
Commander in Chief?
    Dr. Kissinger. This is a question you should address to 
administration witnesses. I have not had the document in my 
hand yet, but I have read it on the Internet. I have expressed 
my general view in my statement and elsewhere: that I do not 
believe it is in the American interest to proclaim a universal 
theory of preemption that any nation can then use to protect 
itself against its definition of a threat.
    I also believe that, given the kind of terrorism that now 
exists, dealing with it would be incompatible with some of the 
notions of sovereignty that have evolved in the 17th, 18th, and 
19th centuries, and that have governed the rules among nations. 
For there is an element of preemption inherent in the nature of 
the terrorist threat and in the nature of the modern frame of 
reference.
    It would therefore be useful to initiate a general 
international discussion, or Security Council discussion, of 
what principles of preemption could be universally applied so 
that not every major nation could attack every nation around 
its periphery. I have no resolution to this problem, but--as I 
recall the statement when I read it--preemption is listed as an 
absolutely last resort in that document, and primarily aimed at 
terror. One really ought to ask the people who drafted it. My 
own view on preemption is the one I have stated.
    Senator Nelson. Madam Secretary.
    Ms. Albright. Well, I think that it becomes a very kind of 
shadowy area in terms of what the right of self-defense is 
versus the preemption, and I think you raise a very important 
point, that perhaps it does undermine the whole concept of 
self-defense if, in fact, you begin now to see it as a new 
doctrine, and that is what has concerned me, is that all of a 
sudden--you know, everybody has been looking for a term for the 
post-cold war era and whether deterrence still works, and these 
are very important discussions, but I do not think they should 
be superimposed on what we are trying to deal with now, because 
it is so unclear, and I agree with Secretary Kissinger that it 
would be worth having a national as well as an international 
discussion of this, not in any kind of an overly rapid or 
hysterical way.
    Dr. Kissinger. In retrospect, I did not argue that at the 
time. It would have been appropriate to take preemptive action 
against bin Laden in Afghanistan and, as these terrorist cells 
exist, it cannot be precluded. But what it means in an 
international system both as a concept and as something that 
can be more or less universally accepted so that it does not 
become arbitrary, is a problem we are at the beginning of not 
at the solution of it.
    Senator Nelson. Mr. Chairman, I have come away from this 
discussion and others we have had both in this committee and 
our other committee, the Armed Services Committee, thinking 
that the draft resolution that was sent to us clearly needs to 
be changed, that Ambassador Holbrooke had four suggestions of 
change yesterday that I think were excellent, and I am just 
curious about the views of our two witnesses here with respect 
to those suggestions.
    One was to delete the clause that would seemingly give 
carte blanche to go into the whole area, and nail it down just 
as a resolution authorizing force in Iraq, another one was to 
make reference to a U.N. Security Council resolution, a third 
would be the executive branch reporting clause to the Congress, 
and a fourth was a clause as to the post-conflict Iraq, and 
what would be our planning efforts and responsibilities there.
    Are we moving in the right direction with such changes to 
the resolution?
    Ms. Albright. Well, I do not think that as a private 
citizen it is absolutely right to give you suggestions on this, 
but my problem with the resolution that came here is its 
broadness, and you all have in previous ways worked out a 
resolution that makes clearer what the co-responsibility of the 
executive and legislative branch is in this, and as somebody 
that was in an administration that we always have had 
discussions about the war powers, I do think that it is up to 
you all to figure out how to refine this, and it is essential, 
frankly, but I am not sure it is appropriate for me to make 
suggestions.
    Senator Nelson. Thank you, Mr. Chairman.
    Dr. Kissinger. I have not studied the resolution enough to 
make suggestions. As a general proposition, however I think the 
President should be given authority of a nature that makes 
clear that: No. 1, the Congress understands the relationship of 
the Iraq issue to other issues in the area, and does not just 
deal with it or look at it in strictly Iraq terms; and No. 2, 
that the President is given adequate flexibility to deal with 
this as to reporting requirements.
    Senator Sarbanes. I am not clear on that answer. Is it your 
view the President should be authorized to take military action 
with respect to issues in the region, and not just with respect 
to Iraq?
    Dr. Kissinger. I am now most concerned about the issue of 
Iraq. The resolution should clearly indicate the relationship 
of the Iraqi issue to others, though I really have not studied 
this enough to make drafting suggestions.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Thank you both 
very much for being here, and for lasting through this.
    A couple of quick things. I want to apologize for not being 
here during a portion of this hearing. There were other 
hearings I had to be at.
    A point that I would like to make is, at least for this 
Member, if we need to narrow the resolution or add restrictions 
or reporting requirements to that, I would be open to any of 
that being done as long as at the end of the day it allows the 
President the use of force, including military force against 
Iraq if the administration decides it is necessary to move on 
forward.
    So working the wording on this to make it clear that it is 
not expansive, it cannot be used in other places, I think that 
is good, and if we can do that and get a large, positive vote 
for it, because I think that is an important statement to make, 
that it be a large vote in the Senate for moving forward on 
this, I think it would be a very positive statement to do.
    Secretary Kissinger, I wanted to ask you, in looking 
through your statement about a post-Saddam Iraq and the impact 
on terrorism if we do move forward against Iraq--and I 
apologize if this question has been asked in another forum or 
while I was not here, but I see a problem if we do not move 
forward--and you articulate that some people will ask ``why 
now,'' and you would ask, ``why not now'' in your original 
statement. I can see a lot of difficulty if we move forward, 
but I see a lot of difficulty if we do not move forward, and I 
think there is a substantial positive scenario if we do move 
forward on Iraq, not on the basis of a preemption doctrine, but 
on the basis of what he has failed to do with U.N. resolutions, 
that we could have a substantial positive impact on the Iraqi 
people and the war on terrorism if this is done right, and with 
the right reasoning in place.
    Dr. Kissinger. That is my view.
    Senator Brownback. I would like you to articulate, how do 
you see this impacting the whole region and its war on 
terrorism if we do move forward with this war on Iraq?
    Dr. Kissinger. There are many causes for which groups join 
terrorism, and Madeleine has indicated some of them. I would 
focus on the toleration of terrorist groups by government more 
afraid of the consequences of not tolerating them; and, second, 
on the perception that, in the end, the United States and its 
friends not appear too weak to defend their fundamental 
interests.
    For all these reasons, a demonstration that the United 
States will insist on carrying out obligations it has 
undertaken, particularly in this region and especially with 
respect to weapons of mass destruction, will have a positive 
impact on the war against terrorism.
    As I have said, I do not accept the proposition that there 
is a distinction between the war on terrorism and the Iraqi 
problem. I believe the two are closely related. The war against 
terrorism must be pursued energetically. Our credibility with 
respect to it will be enhanced if we act as I have indicated 
and, more importantly, as the administration has indicated, on 
the Iraq issue.
    Senator Brownback. Previously I have worked a lot with the 
Iraqi National Congress, the Iraq Liberation Act in 1998 that 
Secretary Albright, you worked on its implementation, and with 
Senator Kerrey of Nebraska, Bob Kerrey, the former Senator. 
Both of us concluded--and this is somewhat wishful thinking, 
but I do not think so, that Iraq will move to democracy and 
will be, we would hope and think, clearly very possible in the 
near future, a strong democracy. It has resources underneath 
it. It has an educated population. It is not without its 
difficulties and divisions within the country, north and south 
and in the middle, but that this could be a very strong force 
for democracy once Saddam is removed in that region.
    Secretary Albright, you would have dealt with that a lot as 
Secretary, and probably had a lot of opportunity to think about 
that recently as well.
    Ms. Albright. Well, I think it would be much wished, and 
clearly the population of Iraq is a little bit different in 
terms of its modernity and education from some of the other 
places, but the question that I think we have, and we raised, 
was, what is the plan to get from here to there, that it will 
not be simple, that there is not only the potential of 
democracy, but also the potential of internecine fighting 
before we get there, and what I have wanted to hear a little 
bit more from the administration, what is the plan from getting 
here to there?
    I am chairman of the board of the National Democratic 
Institute, that has been working very hard at looking at 
different ways that democracy might be possible in the Middle 
East. We have programs in Yemen and Bahrain, and I am not one 
of those people who believes that it is impossible to have 
democracy in the Middle East, but I think that we have to get 
there in a systematic way, and understand how we get there, and 
I must say that while I have a great deal of respect for those 
people who try to work with the Iraqi National Congress, it is 
not a group that I think is quite--has shown so far that it has 
the continuity and the cooperation within it to be ready to 
have democracy.
    I have talked to the Kurdish leaders. They would so much 
like to hear us talking about not regime change but a freeing 
of Iraq, and I think we should be thinking about that, but I 
think it is a long way between here and there, and that is why 
we need to see a little bit more how we get there, and what the 
role of the United States in that will be.
    Dr. Kissinger. I would say that the choices with respect to 
weapons of mass destruction are relatively limited. Our choices 
after a military operation will require us to bring about 
substantial improvement in Iraqi conditions. I would consider 
it unlikely that one could move there to full democracy in a 
very brief time. However I think it is essential to move to 
accountability of the government institutions toward some type 
of constitutional system, and to substantial improvement in the 
lives of the population. We cannot do that all alone and it 
will require an international effort.
    Senator Brownback. I would certainly agree with that. I 
think there is a potential to do something extraordinarily 
positive for a lot of people and extraordinarily positive for 
our security here, not without huge risks, substantial risks, 
but the risks of waiting I have concluded are greater than 
those of acting now.
    Thank you, Mr. Chairman.
    The Chairman. You have been very patient. With your 
permission, I would like to let Senator Sarbanes--he says he 
has another question, and I know you missed your shuttles, two 
of them here.
    Senator Sarbanes. Mr. Chairman, I am looking at a dispatch 
from a Virginia paper reporting on a meeting at the University 
of Virginia on Tuesday at the Miller Center, at which General 
Scowcroft and Secretary Eagleburger spoke. They had a crowd of, 
it says here of over 900 people, and the director of the center 
says, ``I do not know of a larger gathering, or an event of 
this kind in the city in a long time.''
    At that event, General Scowcroft said, ``America cannot 
fight a global war on terrorism without the active assistance 
of other nations, and must consider what the consequences of 
actions taken in Iraq might be for that international 
cooperation. Saddam is a terrible, evil man,'' he said, ``but 
he is not a problem for us because of terrorism. If we 
antagonize the world, it could cripple world support for the 
war on terrorism. We cannot win the war on terrorism without 
international support.''
    And, of course, earlier, a little over a month ago, General 
Scowcroft had an article in the Wall Street Journal in which he 
said, amongst other things, ``an attack on Iraq now would 
seriously jeopardize our counterterrorist campaign.''
    Now, Secretary Kissinger, you have argued here this morning 
just to the contrary. You think an attack on Iraq would help 
the counterterrorism campaign, but General Scowcroft is very 
strong on this point. I mean, he argues it with considerable 
force, so what is your take on this, Secretary Albright?
    Ms. Albright. Well, I agree with what General Scowcroft has 
said. That has kind of been my point, is that basically the war 
on terrorism I think we have been told by the President is our 
top priority, and I do think that in many ways, either because 
assets are removed, or because we cannot get the kind of 
cooperation we need from the rest of the international 
community for pursuing the terrorists, that this in some ways 
is an additional task that we do not need right now.
    But I think, Senator, the problem that we are all having in 
this is that there is nothing that is written in stone in this, 
that there are answers that are not out there, and we are all, 
I think, trying to seek them, and my personal opinion is that, 
as you pointed out earlier, we have not finished in 
Afghanistan. In fact, far from it.
    Senator Sarbanes. We may not have finished elsewhere. I was 
struck by Secretary Kissinger's statement here, and I just 
alluded to it before, and I want to come back to it. At the 
bottom of page 1 of your statement, bases for terrorists have 
been established in several countries, and I am now quoting, 
``usually in areas where the governments can plausibly deny 
control, are actually not in control, such as in Yemen, 
Somalia, or perhaps Indonesia and Iran.''
    Now, should we not be focused on that specific problem at 
this time, if these terrorists have established these bases, 
this infrastructure, like what they had in Afghanistan, 
although presumably not as fully developed, should not the 
immediate focus of our attention be to figure out how to 
destroy that infrastructure?
    Dr. Kissinger. General Scowcroft is a long-time associate 
and friend of mine, for whom I have very high regard. We just 
have a serious difference of opinion on that subject. I do not 
believe that the war against these bases is competitive with 
the need to destroy the weapons of mass destruction in Iraq. 
Indeed, I believe that success, either diplomatic or military, 
in destroying these weapons of mass destruction will enhance 
our ability to conduct another war. Scowcroft has a different 
opinion.
    Senator Sarbanes. What do you think we should do about 
these four countries here?
    Dr. Kissinger. Well, one would have to deal with them, and 
there is no general rule. Somalia has no government, really at 
least no effective government. Thus the question is, what are 
these places actually doing? Yemen has a government, but not in 
every region of the country. With respect to bases from which 
terrorist attacks are being planned or might be planned against 
the United States, we cannot exclude, ultimately, the use of 
military action.
    Obviously, a country like Indonesia is of such a magnitude 
that this is not something to be done except under the most 
extreme provocation--which does not exist right now. It is not 
even clear whether there are bases on these islands, as some 
people claim, so one would have to go about this country by 
country, and consider the nature of each threat.
    The Chairman. Not that you ever need me to defend you, Dr. 
Kissinger, but as I listened to Senator Sarbanes and your 
response, am I missing something, or is there--it seems to me 
that your underlying premise is that if and when the President 
takes action, he is not going to be antagonizing the rest of 
the world, that he is going to have a sufficient portion of the 
rest of the world with him. Is that--I mean, because I think 
everybody agrees----
    Dr. Kissinger. That is my underlying premise.
    The Chairman. Again, though there is a disagreement, one of 
the things that I find the most difficult as I try to go 
through this----
    Dr. Kissinger. It depends upon how you define the rest of 
the world. But, as a general principle, if you take all the 
major countries and all the other countries, I do not believe--
--
    Senator Sarbanes. What is your analysis if it is done 
unilaterally?
    The Chairman. In other words----
    Senator Sarbanes. What is your analysis if it is done 
unilaterally, American military action unilaterally?
    Dr. Kissinger. I do not believe it will happen.
    Senator Sarbanes. But we have to reason this through, do we 
not?
    Dr. Kissinger. But I am convinced that----
    Senator Sarbanes. Would you condition the President's 
ability to act on the premise that it not be unilateral?
    Dr. Kissinger. We pay a higher price if we act 
unilaterally, but I have enough confidence in the President 
that, if he did act, I would assume it to have been necessary.
    Senator Sarbanes. Well, the rhetoric that has been used it 
seems is moving us increasingly to the position where we do not 
have options. If they do not act, then we say, aha, he did not 
act. He said he was going to act, unilaterally or not, and he 
did not do it.
    The Chairman. Well, if I can, you have been here 3 hours. 
You have been incredible. I just want to conclude by thanking 
you and also pointing out what I think is a fair statement, I 
hope is a fair statement, and that is that, as it relates to 
Saddam Hussein in Iraq, as policymakers writ large, the 
President, the Secretary of State, the Secretary of Defense, 
they are never going to have more than 75 percent of the facts 
they need to know to be certain.
    There is no way we can reach the point where there is 
certainty, so where we peel off among us is the degree to which 
it seems to me--it is not observation, but the degree to which 
we think certain things are going to fall into place. I happen 
to agree with Dr. Kissinger on this point. I cannot fathom the 
President going alone. I just cannot fathom the President going 
alone.
    If I am wrong about that--and I am going to end up having 
to take a chance here when I vote. If I am wrong about that, I 
have made a tragic mistake, because he would be making a tragic 
mistake if he went alone, but that comes down to a little bit 
of faith here. I mean, it comes down to the point where, at 
least for me, what I do not know I have to look at, and based 
on my personal conversations, public conversations, I have to 
take a chance. We all do at some point. We are not going to get 
all the facts here.
    One point I would make, though, and I publicly urge the 
President, he made a very compelling case to the United Nations 
as to why Iraq has violated the United Nations standards. That 
is a different case than the case to the American people of 
what he is asking the American people to be prepared to do.
    I will end where I began this hearing. I am absolutely 
convinced that no matter how well-formulated a foreign policy, 
it cannot be sustained without the informed consent of the 
American people, and at this moment we do not have that 
informed consent.
    You go home--and I will just read from today's paper, the 
Washington Times. It says, ``An increasing number of Republican 
lawmakers are saying that President Bush has not made a 
convincing case of using force against Iraq, although they 
expect the Congress to overwhelmingly approve a resolution 
authorizing military force.''
    Representative Michael N. Castle of Delaware, a very good, 
personal friend, said the same thing I have been saying at 
home, and what I have been hearing at home. He said ``that the 
administration lobbying job on Capitol Hill has been `so 
dismal' that the best arguments by far thus far have been made 
by Tony Blair.'' He goes on to say, there is almost ``no 
discussion with the administration, said Mr. Castle, a member 
of the House Intelligence Committee.''
    ``I do not know if they think we are all glued to the 
Sunday talk shows, but we are not. Most of us have questions. 
Members of Congress are not getting the information . . . 
Quote, ``no Republican mentioned the public disagreements among 
the Democrats . . . I am looking for more information,'' said 
Representative Ray La Hood of Illinois, a Republican member of 
the Intelligence Committee.'' You go on and on.
    Now, that does not mean the case is not there. That does 
not mean the case is not there. I have the advantage or 
disadvantage of having access to, on a regular basis, the 
Secretary of State, the President because of this job, but I 
really think it is very important, very important that the case 
be made in more detail, and not confuse having made the case of 
a violation of U.N. resolutions as being synonymous with having 
made the case to the American people that we may be asking 
them--not only, as my friend from Kansas says, taking a chance 
here, we have to be prepared. Are we prepared?
    For example, we had testimony in our second set of hearings 
from a retired executive director, Colonel Scott Feil, whose 
job was post-conflict resolution questions and what we do. He 
says, ``the requirements are providing a core security for the 
largest city, about 10 million in population, in the largest 
state, which is about 40 percent of the population, and 
humanitarian efforts, securing WMD and associated facilities, 
patrolling the Iranian border areas, the Kurdish areas, 
protecting the Shat Al-Arab oil fields, monitoring the region 
from the Tigris to the Euphrates, and Syrian border--the Tigris 
and the Euphrates contain the bulk of the population--and then 
conducting the integrated disarmament and demobilization 
process in coordination with the integrated efforts.''
    He goes on to say, ``the total cost of this force, once 
again based on U.S. equivalence--there is wide variation in the 
country--could range up to $16 billion and a force of 75,000 to 
operate within Iraq.''
    Now, it may not be 75,000, but I will conclude by saying, 
in my last meeting with the President, along with 10 other 
congressional leaders, the President turned to me in the 
presence of everyone, as he asked other people, and he said, 
``Mr. Chairman, what do you think,'' and I said, Mr. President, 
I will be with you as long as you make a clear case to the 
American people, including telling them we are going to have to 
be there for a while, we are going to have to put American 
forces on the ground there for a while, and it could cost a lot 
of money. His response was, ``I will do that.'' That has not 
been done yet.
    Senator Brownback. Mr. Chairman, you are very thorough. 
Would you mind if I make just a quick comment on this regard, 
because I think you have got quite a valid point. I mentioned 
to other people the calls into my office, many are running 
against this, even though polling numbers say they are for it.
    What the President did at the U.N. was, he spoke at the 
United Nations, and I did not hear new information come 
forward, but he recited, here is the case. I think we should 
have the President up to a joint session of the Congress and 
have him say, here is the case, and here is what we will do, 
because what the U.N. did, and what the President took 
advantage of there was to say, OK, you want me to go to the 
United Nations, I will go to the U.N. Here is my case, and when 
you put it all together, it stacks up that Saddam has made a 
great case against himself. He is the one who has made the 
case.
    I think if the President will come up to a joint session of 
Congress, address the Congress and the American people 
similarly, here is the case, and that you will cumulatively 
see, in the private briefings we have, and the public hearings 
we have had, an extraordinary condemnation, but it does need to 
be laid out collectively to the American public, because you 
are right, no policy of ours, if it is to engage a war effort 
in this country, can be sustained without the sustained support 
of the American people, and I think that would be an important 
thing for the President to do and for us to engage.
    The Chairman. I am making that point, and I appreciate the 
witnesses sticking around for our intramural discussion here, 
but I am making an additional point, an additional point not 
merely what the threat is, which is critically important, but 
what we are going to ask of the American people to meet the 
threat. I think they are prepared, but we have to tell them.
    What I worry about after being here 30 years, I do not want 
to go through a process where we engage, we succeed on the 
military front, we lose some or many American forces in the 
process, but we will succeed and then find 18 months from now 
we do not have the same people who called for going to war 
refusing in the budget price to say, I am going to vote for an 
extra $30 billion for Iraq this year, instead of--which will 
have to be made, instead of a tax cut, or prescription drugs, 
or for whatever it is, because those are the choices we are 
going to have to make.
    And I watched in Afghanistan, Mr. and Mrs. Secretary, I 
asked, I sat with the President for literally hours, over 3 
hours on this. The President said, we need a mini Marshall 
Plan. The President said, we need to have forces there to 
provide security. The President said, this was a long term 
obligation. The President said, we are in there for the long 
haul. We cannot get the House and we cannot get some of our 
colleagues to vote the money we need there.
    Now, I do not want to be around when my son, who just got 
back from Kosovo, or his friends are sitting in the middle of 
Baghdad and the U.S. Senate says, well, wait a minute, you did 
not tell me that we had to vote for an extra $10, $20, $30, $40 
billion to finish this job. I want everybody on the line.
    My father, who died 2 weeks ago, used to say, ``I like to 
know who is in charge so I know who to hold responsible,'' and 
I am prepared to do it, but I do not want to be part of an 
outfit that votes to send us to war, or gives the President 
that authority, and then leaves him hanging, or is unsure 
whether the President is willing to come back to us and say, 
pay the price.
    I promise you if we go, forget your permanent tax cut. 
There is not enough money. If we go, forget the idea that we 
are going to have a massive new health care program. Now, that, 
I am prepared to make those choices, but let us not kid the 
American people, because I am not in for a guns and butter 
routine here. I am not going down that route again.
    I first met the distinguished Secretary of State when I 
first got here as a 29-year-old kid, and our first meeting was 
on the Vietnam war. I am not going to go there again. We have 
to tell the American people what the likely price is, even 
though we do not know for certain. It may be a lot less.
    We will have the present Secretary of State at 2:30. I 
thank my colleagues. This has been incredibly helpful, and you 
have been here for over 3 hours. We owe you.
    [Whereupon, at 1:35 p.m., the committee adjourned to 
reconvene at 2:30 p.m., the same day.]

                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:45 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Sarbanes, Dodd, Kerry, Feingold, 
Wellstone, Boxer, Bill Nelson, Rockefeller, Helms, Lugar, 
Hagel, Gordon Smith, Frist, Chafee, Allen, and Brownback.
    The Chairman. The hearing will please come to order. Good 
afternoon. It's a pleasure to welcome the Secretary of State, 
Secretary Powell, back to this committee.
    Mr. Secretary, as you know, in late July this committee 
began hearings on U.S. policy toward Iraq and our purpose--and 
it's no surprise to anyone, because we've both said it, you and 
I had discussions back then about those hearings and whether 
they should take place and so on and so forth, and we've 
cooperated in this all along, as has the administration, 
generally. Our purpose was to start a national discussion on 
Iraqi policy, raise the difficult questions that surround it, 
and consider how that policy should move and in what direction.
    We've heard from a broad range of experts and expert 
witnesses. Elsewhere, prominent Americans with decades of 
experience in foreign and national security policy have spoken 
out, and the Bush administration has begun to do so, as well, 
in public statements and hearings before the Congress and 
President Bush's important speech to the United Nations General 
Assembly and, I would note, in your testimony before our 
counterparts in the House.
    As a result, I believe there's an emerging bipartisan 
consensus on some basic principles for moving forward on Iraq. 
I want to make it clear I speak for no one but myself here. I'm 
not speaking for the committee, for the Democratic Party, or 
for anyone; I'm just saying what I think is emerging here. And 
I think the emerging consensus on some basic principles is, in 
no small part, due to your leadership.
    First, Iraq is the world's concern, not just the concern of 
the United States. Mr. Secretary, I know that you were 
instrumental--I believe; I don't know--you were instrumental in 
shaping the President's speech to the United Nations. I thought 
it was a devastating indictment, by the U.N.'s own standards, 
of Iraq's defiance of the international community. For more 
than a decade, Saddam has flaunted solemn obligations, 
obligations made not to the United States alone, but to the 
United Nations, and the President was right to take the issue 
to the United Nations, and right to make it clear that the 
legitimacy of that institution and its efficacy depends, in no 
small part, on how it responds.
    Second, it seems to me there's a consensus that we should 
pursue a policy toward Iraq that has broad international 
support. To put it in colloquial terms, it's obviously better 
if we move with the world behind us than if we move with the 
world against us. I applaud your effort to build that support 
and hopefully you'll talk about that today. I applaud your 
efforts. And our allies around the world and the region have 
important contributions and, in some cases, necessary 
contributions to make if we are to succeed, and we--I think all 
of us on this committee support and encourage and hope for the 
best in your unfinished business before the Security Council as 
you pursue gaining this support.
    The third general principle, I think, that has emerged here 
is that many of us share the conviction that Saddam Hussein's 
relentless pursuit of weapons of mass destruction and his 
possession of some already, especially his pursuit of nuclear 
weapons, which I do not believe he possesses, pose a 
significant threat to Iraq's people, its region, and to the 
world. Ultimately, in my view, either he must be dislodged from 
his weapons or dislodged from power.
    I believe there's a broad consensus on these principles, 
but important, indeed, fundamental questions remain about the 
administration's Iraqi policy and about the consequences of the 
various courses of action under consideration. And that puts us 
in an extraordinary situation in an extraordinary moment.
    The President has asked Congress for an expansive grant of 
authority to wage war before he, himself, has decided to go to 
war or addressed some of the unanswered questions. Now, I have 
no doubt that part of the reason you're here is to be able to 
answer those questions. And, in fairness to the President, he 
has just begun to do that.
    I would note, as I did with Secretary Kissinger just, it 
seems a moment ago, an hour ago, that to make the case before 
the United Nations as to how Saddam has violated the United 
Nations commitments is a different case than making the case to 
the American people as to what we're about to ask of them if, 
in fact, we are in a position as the President has indicated we 
might end up in, if we end up in a position where we're asked 
to do this ourselves.
    He made, as I said, a powerful case that Saddam is the 
world's problem, but he has yet, I believe, to make the case to 
the American people that the United States must solve the 
problem alone, if necessary.
    The threat posed by Iraq is real and escalating, in my 
view. And the singular capacity of the United States to deal 
with this threat alone is equally as real. We have the capacity 
to do that. But so are the potential costs. They are real. 
Indeed, I believe the degree to which we act alone correlates 
with the price we'll have to pay in lives, dollars, and 
influence around the world. That is the burden we may have to 
bear, but one I know you do not wish to bear, nor does the 
President wish to bear alone. But before we bear that burden, 
the American people have to know what is being asked of them, 
what they're being asked to sign up to.
    And so, Mr. Secretary, I hope that here today you will 
address some of these questions and that in the days and weeks 
to come we will hear the President, either before joint session 
or on national television, laying out what it is we're going to 
ask of the American people.
    What is the likelihood that Iraq would use weapons of mass 
destruction against us to blackmail us or to supply terrorists? 
What is our objective? Is it to compel Iraq to destroy its 
illegal weapons of mass destruction or to liberate Kuwaiti 
prisoners or to end Saddam Hussein's regime? What is the 
rationale for our action? To enforce the U.N. Security Council 
resolution that Saddam has flaunted for more than a decade or 
to preempt that possibility that he'll use those weapons? And 
what is the rationale we are going to use?
    Some are confused--we discussed this at length today--about 
whether or not we would proceed based on a doctrine of 
preemption or based on a doctrine that this is a fellow who 
lost the war, essentially signed an armistice the conditions of 
which were contained in U.N. resolutions, and he now has 
violated those, and, therefore, we have reason to proceed. 
Would attacking Iraq risk precipitating the very thing we're 
trying to prevent, the use of those weapons?
    I know we have no absolute answers to these, but I think, 
in fairness to the American people, we should discuss them. 
There are many more questions which I will not take the time to 
ask now, because my colleagues will pursue them as we go around 
this table, but ultimately, Mr. Secretary, your appearance here 
today is part of a singularly important process that must 
culminate with the President securing the informed consent of 
the American people for our policy toward Iraq. I'm confident 
he can do that. I'm confident that can be done. But I am also 
absolutely confident it can only be done with some significant 
change in the resolution that has been sent to us and some 
clear specification of what the President will be asking of us.
    Mr. Secretary, when the President had the congressional 
leadership down to the Cabinet room about 2 weeks ago, he asked 
a number of us questions. And when he turned and asked me my 
view, I indicated to him that I was prepared to be with him, 
assuming several things. One, that he continued to pursue the 
course he was pursing at the United Nations and exhaust those 
possible avenues, as well as state clearly to the American 
people once we've succeeded in dethroning--removing Saddam--and 
I have no doubt we will if we undertake that--what we are going 
to have to do--what we may have to do in terms of staying in 
Iraq, and what the cost may be without any clear definition of 
how many troops or how long.
    And the President said to me, as you recall, he would do 
that. He has yet to do that. I'm confident he will do that. And 
only then, I think, can we have some certainty that once we 
undertake this, we will have the American people with us 
committed to do the whole job.
    Senator Brownback, I think, was the only person left in the 
room when the two former Secretaries were leaving, and I 
indicated that I hope to God we don't do--not you; we, the 
Congress, giving the President the authority--I hope we don't 
say to the American people what was said to them by previous 
Congresses just before I arrived here in the 1960s, that we can 
have guns and butter, we can have everything we want, the costs 
will be able to be borne, no matter what they are, without us 
making any sacrifices.
    It may be everything works out like clockwork and there's 
no problem, but I do not want to be part of a Senate that gives 
the President the authority where we move and it ends up that 
we are required to commit billions of dollars a year to sustain 
a unified Iraq after we defeat the present government and not 
be able to get the money and the commitment up here to do it. I 
will not be part of that, personally. And I think everyone 
should know what we're in for and what the possible costs are, 
even though we can't say for certain.
    So, Mr. Secretary, I'm delighted you're here. I mean this 
sincerely, I am thankful you are here and I'm thankful you're 
the Secretary of State at this moment, and I look forward to 
hearing what you have to say, but I will now yield, if I may, 
to Senator Helms.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Good afternoon. It is a pleasure to welcome Secretary of State 
Powell back before this Committee.
    Mr. Secretary, as you know, in late July this Committee began 
hearings on U.S. policy toward Iraq. Our purpose was to start a 
national discussion of that policy and to raise the difficult questions 
that surround any consideration of next steps.
    We have heard from a broad range of expert witnesses. Elsewhere, 
prominent Americans with decades of experience in foreign and national 
security policy have spoken out. And the Bush Administration has begun 
to do so as well--in public statements, in hearings before Congress, 
and in President Bush's important speech to the United Nations General 
Assembly.
    As a result, I believe there is an emerging bi-partisan consensus 
on some basic principles for moving forward on Iraq. And this is in no 
small measure due to your leadership.
    First, Iraq is the world's concern, not just a concern of the 
United States. Mr. Secretary, I believe that you were instrumental in 
shaping the President's speech to the United Nations. It was a 
devastating indictment, by the U.N.'s own standards, of Iraq's defiance 
of the international community. For more than a decade, Saddam has 
flaunted solemn obligations--obligations made not to the United States, 
but to the United Nations. The President was right to take this issue 
to the U.N. and right to make it clear that the legitimacy of that 
institution and the effectiveness of international security cooperation 
is at stake.
    Second, we should pursue a policy toward Iraq that has broad 
international support. To be colloquial about this matter, it is better 
if we move with the world behind us than against us. I applaud your 
efforts to build that support. Our allies around the world and in the 
region have important and necessary contributions to make in the effort 
to disarm Iraq. And we must continue to work with them in the 
unfinished war against terrorism.
    Third, many of us share the conviction that Saddam Hussein's 
relentless pursuit of weapons of mass destruction, especially nuclear 
weapons, poses a significant threat to Iraq's people, its region and 
the world. Ultimately, either Saddam must be dislodged from his 
weapons, or he must be dislodged from power.
    I believe there is a broad consensus on these principles. But 
important, indeed fundamental questions remain about the 
Administration's Iraq policy and about the consequences of the various 
courses of action under consideration.
    And that puts us in an extraordinary situation. The President has 
asked Congress for an expansive grant of authority to wage war before 
he himself has decided to go to war or addressed these unanswered 
questions. I have no doubt that you are here to answer these questions.
    The President's speech to the United Nations was an important 
moment. He made a powerful case, under the U.N.'s own standards, that 
Saddam Hussein is the world's problem. But he has not yet made the case 
to the American people that the United States must solve this problem 
alone, if necessary.
    The threat posed by Iraq is real and escalating. The singular 
capacity of the United States to deal with this threat alone is real. 
But so are the potential costs. Indeed, I believe the degree to which 
we act alone correlates with the price we will have to pay in lives, 
dollars and influence around the world.
    That is a burden we may have to bear--one I know that you and the 
President do not wish to bear alone. But before we bear that burden, 
the American people have to know what they are being asked to sign up 
to.
    And so Mr. Secretary, I hope that, here today, you will address 
some of these questions, and that in the days and weeks to come, we 
will hear the President laying out what it is we are going to ask of 
the American people.
    What is the likelihood that Iraq would use its weapons of mass 
destruction against us, to blackmail us or to supply to terrorists?
    What is our objective? To compel Iraq to destroy its illegal 
weapons of mass destruction programs? Or to liberate Kuwaiti prisoners? 
Or to end Saddam Hussein's regime?
    What is the rationale for our action? To enforce the U.N. Security 
Council resolutions that Saddam has flaunted for more than a decade? Or 
to preempt the possibility he will use his weapons against us?
    Would attacking Iraq risk precipitating the very thing we are 
trying to prevent: the use of weapons of mass destruction? I know we 
have no absolute answers to these things, but I think in fairness to 
the American people, we should discuss them.
    Ultimately, Mr. Secretary, your appearance here today is part of a 
singularly important process that must culminate with the President 
securing the informed consent of the American people for our policy 
toward Iraq. I am confident he can do that. But I'm also absolutely 
confident it can only be done with some significant change in the 
resolution that has been sent to us and with some clear specification 
as to what the President will be asking of us.
    I hope we in the Congress don't say to the American people what was 
said to them by previous Congresses in the 1960s--that we can have guns 
and butter, everything we want, and that the costs could be borne 
without any sacrifices.
    It may be everything works out like clockwork and there's no 
problem. But I do not want to be part of a Senate that gives the 
President the authority where we move, and it ends up that we are 
required to submit billions of dollars a year to sustain a unified Iraq 
after we defeat Saddam, and not be able to get the money and the 
commitment up here to do it. I will not be part of that personally. I 
think everyone should know what we're in for and what the possible 
costs are, even though we can't say for certain.
    So Mr. Secretary, I'm delighted you're here. I am thankful you are 
here and I'm thankful you are the Secretary of State at this moment. 
And I look forward to hearing what you have to say.
    But I will now yield, if I may, to Senator Helms.

    Senator Helms. Mr. Chairman, thank you very much.
    The first time I ever saw this gentleman, he was 
resplendent in his uniform performing before the then-President 
of the United States and doing a great job at reporting to the 
President. I made some comment, and President Reagan wrote on a 
little pad, ``Like him?'' Slid it over. And I wrote, ``I sure 
do.'' I still do, Mr. Secretary.
    I'm just going to use about two pages of my statement and 
ask unanimous consent that it be made part of the record, Mr. 
Chairman.
    The Chairman. It will be.
    Senator Helms. I do want to mention publicly that there are 
two criticisms, and they've been directed at the present 
President of the United States. First, it's been suggested by 
some that the President failed to pay due diligence to the role 
of the United Nations. Well, that simply is not so. The 
President has challenged that much-ballyhooed institution in 
New York to seize this opportunity to become an important actor 
in world affairs and not just a critic of people who are doing 
the heavy lifting in dealing with foreign affairs.
    The truth is, the President's September 12 speech to the 
United Nations methodically detailed the history of Iraqi 
noncompliance with the U.N. Security Council resolutions. It's 
now up to the United Nations to demonstrate that it is the U.N. 
that has the will to enforce its resolutions and rhetoric.
    And the second point is that some have suggested that the 
President has not fully taken into account the legitimate role 
of the Congress in fundamental questions of war and peace. But 
the truth is, Mr. Chairman, Congress has been and continues to 
be consulted. The President formally asked Congress to pass a 
resolution giving him the authority to end the Saddam Hussein 
problem once and for all.
    Having said all that, welcome, sir. It's always good to see 
you.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Mr. Chairman, I am grateful for your having scheduled this week's 
series of hearings to address the resolution authorizing the use of 
force against Iraq.
    The Senate long ago gave our committee exclusive jurisdiction to 
review intervention abroad and declarations of war. That is an 
important obligation. I am pleased that our committee has taken such an 
active role in considering (1) the threats posed by the Iraqi regime 
under Saddam Hussein, and, (2) the appropriate U.S. response to these 
threats.
    The President's speech two weeks ago to the General Assembly of the 
United Nations presented the clearest possible case for action against 
the Iraqi regime of Saddam Hussein. I will support the President.
    Ten years of noncompliance with United Nations resolutions, the 
continued brutality waged against his own population, the imprisonment 
of hundreds of Kuwaiti citizens held since 1990, and evidence of 
continued pursuit of weapons of mass destruction are all the evidence 
any Senator needs to support the President, which certainly I do and 
will continue to do.
    Mr. Chairman, there are two criticisms that have been directed 
against the President. First, it has been suggested by some that the 
President failed to pay due diligence to the role of the United 
Nations. Well, that simply is not so. The President has challenged the 
much-ballyhooed institution in New York to seize this opportunity to 
become an important actor in world affairs, not just a critic of people 
who are doing the heavy-lifting in dealing with foreign affairs.
    The truth is, the President's September 12 speech to the United 
Nations methodically detailed the history of Iraqi noncompliance with 
U.N. Security Council resolutions. It is now up to the United Nations 
to demonstrate that it is the U.N. that has the will to enforce its 
resolutions and rhetoric.
    The ball is clearly in the U.N.'s court. If the Security Council 
now fails to support action against Saddam Hussein, the U.N.'s 
ineffectiveness and irrelevance will be incontrovertibly clear.
    Surely, if the September 11 attacks taught us anything, it is that 
America does not have the luxury of sitting idle while our enemies 
conspire against us. We simply cannot wait for Iraq to acquire the 
nuclear weapons to add to the chemical and biological weapons Iraq 
already possesses.
    Second, some have suggested that the President has not fully taken 
into account the legitimate role of the Congress in fundamental 
questions of war and peace.
    Mr. Chairman, the truth is, Congress has been, and continues to be, 
consulted. The President formally asked Congress to pass a resolution 
giving him the authority to end the Saddam Hussein problem once and for 
all.
    Mr. Chairman, I am confident that the Senate will give the 
President the authority he has requested.
    Like the United Nations, we too must consider our own previous 
declarations and mandates. We must consider our strong words in the 
Iraq Liberation Act.
    We must consider our previous joint letters to the President. We 
must consider our previous grants of authority to the President.
    In 1998, the Congress authorized an earlier President to take 
appropriate action to bring Iraq into compliance with its United 
Nations-imposed obligations. Are we not obliged to give this President 
similar authority, and trust that he will take meaningful action to 
address the dangerous threats to peace and security posed by Saddam 
Hussein's regime?
    The answer, to borrow a Latin expression used by lawyers--res ipsa 
loquitur.
    Mr. Chairman, the thing does indeed speak for itself. Let's get 
about the business of standing with the President.

    The Chairman. The floor is yours, Mr. Secretary.

    STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Powell. Thank you very much, Mr. Chairman.
    And Mr. Chairman, it's a great pleasure to be back before 
the committee. I always look forward to the opportunity to 
discuss the foreign policy of the United States before the 
distinguished members of this committee, and I'm especially 
pleased to be here today to follow the very distinguished 
witnesses who have preceded me, Secretary Kissinger and 
Secretary Albright today, and Ambassador Holbrooke and my old 
friend and former National Security Advisor, as I was, Bud 
McFarlane yesterday, as well as other witnesses.
    As I was working out of my office this morning and watching 
television out of the corner of my eye and also looking at the 
clock, I assumed that Henry was going to run the clock on me as 
well himself and Madeleine.
    But I'm pleased that he allowed you to recess long enough 
to get a bite of lunch and, therefore, to be ready for me.
    I do welcome this opportunity, Mr. Chairman. We have talked 
about this issue on many occasions, and I'm pleased to be able 
to do it again today. Before beginning, let me take the 
opportunity to again thank the committee for the support that 
they have provided to the State Department. You will have that 
opportunity once again with the State authorization bill that 
is before you, and we're very anxious to see action on that 
bill because there are a lot of authorities in there that we 
can use, and I hope that it will be moved promptly so that we 
can get going on that.
    And, Senator Helms, it would be remiss of me not to take 
note once again that this is probably the last time you and I 
will be together at a hearing and to thank you for the support 
you've provided to the men and women of the Armed Forces, to 
the men and women of the State Department and the friendship 
and support you've extended to me over many years, Mr. 
Chairman, and for that I am deeply appreciative.
    Mr. Chairman, you mentioned that you met with the 
President. It was 3 weeks ago, if I'm not mistaken now.
    The Chairman. That's correct.
    Secretary Powell. And it was in a time of enormous debate 
and speculation as to what the President was going to do. 
August is over now. We were all back together. And he laid it 
out rather clearly in that afternoon session with the 
leadership that he was going to consult with Congress and that 
he was going to consult with the international community. And, 
as you noted, he has done exactly just that, and that's what we 
have been doing for the last 3 weeks since he made that 
statement. And this appearance today and the appearance that my 
colleagues in the administration have been making before 
various committees, Director Tenet and Secretary Rumsfeld, are 
all part of that consultation process.
    I have a longer statement that I would like to submit for 
the record, Mr. Chairman, and I would like to summarize that 
now.
    The Chairman. Without objection, it will be placed in the 
record.
    Secretary Powell. I also am prepared to comment on the 
various issues that previous witnesses have made, the so-called 
doctrine of preemption and other issues that have been raised 
over the last 2 days, as we go through the hearing and as 
questions are raised.
    Senator Biden, Senator Helms, and so many other members of 
the committee, we've talked about Iraq a number of times over 
the years, and I always have to go back to 1990 when Saddam 
Hussein's forces invaded Kuwait when I was chairman of the 
Joint Chiefs of Staff and the Iraqis brutalized the population 
and rejected, at that time, the international community's 
ultimatum to withdraw.
    At that time, we built a worldwide coalition with the clear 
political purpose of liberating Kuwait. And the military 
instrument of that coalition, led by America, had an equally 
clear military objective that flowed directly from the 
political purpose, and that was to eject the Iraqi Army from 
Kuwait.
    The United Nations Security Council endorsed this purpose 
and objective, and the international community responded with 
unprecedented political backing, financial support, and 
military forces. As a result, we not only accomplished our 
mission in the gulf war, we did it in a way that I think was a 
model of American international leadership and international 
cooperation.
    When that war ended, the United Nations Security Council 
agreed to take measures to ensure that Iraq did not threaten 
any of its neighbors again. Saddam Hussein, we knew, was a man 
who, after all, had sent his armies against Iran in 1980 and 
then against Kuwait in 1990. We knew he was a man who had fired 
ballistic missiles at neighboring countries and who had used 
chemical weapons in the war with Iran and even against his own 
people.
    The United States and the international community were 
strongly determined to prevent any future aggression, so the 
United Nations Security Council Resolution 687 of April 1991 
fixed the terms of the cease-fire in the gulf. And the 
fundamental purpose of this resolution and many more that 
followed was restoration of regional peace and security by way 
of a series of stringent demands on Iraq, particularly its 
disarmament with respect to weapons of mass destruction and 
ballistic missiles with ranges greater than 150 kilometers.
    Desert Storm had dramatically reduced Iraq's more 
conventional military capability while at the same time--and we 
did this deliberately--not leaving Iraq so prostrate that it 
could not defend itself against Iran, its former enemy.
    Mr. Chairman, members of the committee, you know the rest 
of the story. You heard the President relate it at the United 
Nations 2 weeks ago today. Iraq has defied the United Nations 
and refused to comply completely with any of the United Nations 
Security Council resolutions. Moreover, since December 1998, 
when the U.N. inspection teams left Iraq because of the 
regime's flagrant defiance of the United Nations, the Iraqi 
regime has been free to pursue the development of weapons of 
mass destruction.
    Meanwhile, the world has changed dramatically. Since 
September 11, 2001, the world is a different place. As a 
consequence of the terrorist attacks on that day and of the war 
on terrorism that those attacks made necessary, a new reality 
was born. The world had to recognize that the potential 
connection between terrorists and weapons of mass destruction 
moved terrorism to a new level of threat. In fact, that nexus 
became the overriding security concern of our Nation. It still 
is, and it will continue to be our overriding concern for some 
years to come.
    We now see that a proven menace like Saddam Hussein in 
possession of weapons of mass destruction could empower a few 
terrorists with those weapons to threaten millions of innocent 
people. President Bush is fully determined to deal with this 
threat. His administration is determined to defeat it. I 
believe the American people would have us do no less.
    President Bush is also aware of the need to engage the 
international community. He understands how powerful a strong 
and unified international community can be, as we have seen so 
well demonstrated in the war on terrorism in Afghanistan and 
elsewhere.
    The need to engage the international community is why the 
President took his message on the grave and gathering danger of 
Iraq to the United Nations on the 12th of September. Moreover, 
it is the United Nations that is the offended party, not Iraq, 
as some would have us believe or might even claim. It was the 
United Nations resolutions that were systematically and 
brutally ignored and violated for these past 12 years. It was 
United Nations inspectors who found it impossible to do their 
job and had to leave the work unfinished. The President's 
challenge, therefore, to the United Nations General Assembly 
and through them to the Security Council was a direct one and 
it was a very simple one, ``If you would remain relevant, then 
you must act in the face of these repeated violations.''
    I was there that day, and the President's speech was a 
powerful one, and it energized the entire meeting hall. It 
changed the political landscape on which this issue was being 
discussed--that one speech--and it made it clear that Iraq is 
the problem. Iraq is the one who is in material breach of the 
demands placed upon it by the United Nations. It is not the 
United States that is in the dock; it is not the United Nations 
that is in the dock. It is not the Security Council that is in 
the dock. It is not France or Britain or Russia or the United 
Kingdom or all the other members of the Security Council. It is 
Iraq that is in the dock, and we must not lose sight of that 
simple, clear fact.
    The President, in his speech, then went on to make it clear 
what was expected of Iraq to repair this material breach. He 
made it clear that the issue was more than disarming Iraq by 
eliminating its weapons of mass destruction and its mid- and 
long-range missile programs. The United Nations resolutions 
also spoke of terrorism, of human rights, the return of 
prisoners and property.
    Iraq stands guilty. It convicts itself by its actions. 
There can be no question that it is in material breach of its 
obligations. All of these demands on Iraq are spelled out in 
the 16 Security Council resolutions levied against that country 
since 1991.
    Over the weekend following the President's speech at the 
United Nations, I watched the reaction. I watched the pressure 
build on the Iraqi regime as the Arab League, the Secretary 
General, and so many others pressed Iraq on their need to take 
action. They essentially told Iraq the jig was up. Nobody was 
going to listen to these phony excuses anymore, and the 
pressure built to an enormous level.
    On Monday of that week--the next week, Iraq responded with 
a familiar tactical ploy. The Iraqi Foreign Minister said Iraq 
would let the inspectors back in without conditions. And later 
in the week, in a speech at the United Nations, their Foreign 
Minister challenged President Bush's September 12 speech. He 
even called for a discussion of the issues of inspection teams 
in accordance with international law, already qualifying his 
Monday offer of inspections without conditions. Now, 2 days 
ago, we have an Iraqi Presidential advisor telling the press in 
Baghdad that weapons inspectors would be allowed to go wherever 
they want.
    But these people are not deceiving anyone. It is a ploy we 
have seen before on many occasions. And on each of these 
occasions, once inspectors began to operate, Iraq continued to 
do everything to frustrate their work.
    Mr. Chairman, I will just call your and the members' 
attention to the written statement that I have provided where I 
record a dozen examples of Iraq's defiance of these resolutions 
and of the U.N. mandate. Cited in my longer statement is 
everything from intimidation at gunpoint to holding up 
inspectors while all the incriminating evidence was removed. It 
is a litany of defiance and unscrupulous behavior and every 
sort of attempt at noncompliance. And I, by no means, in my 
longer statement, have listed everything, only a sampling.
    The regime is infamous for its ploys, its stalling tactics, 
its demand on inspectors, sometimes at the point of a gun, and 
its general and consistent defiance of the mandate of the 
United Nations Security Council. There is absolutely no reason 
at all to expect that Iraq has changed; at least they haven't 
given us any indications to suspect that they have changed. And 
this latest effort to welcome inspectors without conditions is 
another ploy.
    Let's be clear about the reason for their suddenly being 
willing, after several years, to accept inspectors. Iraqis did 
not suddenly see the error of their ways. They were responding 
to the heat and pressure generated by the international 
community after President Bush's speech at the U.N. We must 
keep that pressure on.
    The United States has made it clear to our Security Council 
colleagues that we will not fall for this ploy. This is the 
time to apply more pressure, not to relent. We must not believe 
that inspectors going in on the same conditions and under the 
same terms that they went in on so many occasions earlier would 
be acceptable now. We won't fall for that. These 4 years have 
been more than enough time for Iraq to procure, develop, and 
hide proscribed items well beyond the reach of the kinds of 
inspections that were subject to Saddam's cheat-and-retreat 
approach from 1991 to 1998.
    It is up to the United Nations Security Council to decide 
what action is now required of Iraq to deal with this material 
breach of the U.N.'s mandate. If part of the solution involves 
an inspection regime, it must be a regime that goes in with the 
authority of a new resolution that removes the weaknesses of 
the present regime and which will not tolerate any Iraqi 
disobedience. It cannot be a resolution that we are going to 
negotiate with Iraq. The resolution or resolutions must be 
strong enough and comprehensive enough so that they produce 
disarmament and not just inspections.
    Many U.N. members, including some on the Security Council, 
want to take Iraq at its word and send inspectors back in right 
now without any new resolution and new authority, and we 
believe that this would be a recipe for failure. The debate we 
are having within the Security Council now is on the need for 
and the wording of a resolution or, some feel, more than one 
resolution.
    Our position is clear. We must face the facts and find Iraq 
in material breach. Then we must specify the actions we demand 
of Iraq. And President Bush has already discussed what he 
believes is appropriate.
    And then there's a third element. We must determine what 
consequences will flow from Iraq's failure to take action. Just 
laying out a new inspection regime and declaring them in 
material breach isn't enough. The Security Council must face up 
to their responsibility to take action or to allow action to be 
taken in the face of continued Iraqi violation.
    That is what makes it different this time. This time, 
unlike any time over the previous 12 years of Iraqi defiance, 
there must be hard consequences. This time Iraq must comply 
with the U.N. mandate or there will be decisive action to 
compel compliance.
    We are listening to other points of view, and we are 
working to reach agreement within the Security Council. It is a 
difficult debate. There are strong views one way or the other. 
As you may have noticed in some of the press reporting in the 
last 24 hours, we have come into agreement with the United 
Kingdom of what the elements of a resolution should look like. 
I am sending a senior official from my Department to Paris this 
evening and then on to Moscow to discuss with the French and 
the Russians what we believe should be in such a resolution. We 
are briefing representatives of the Chinese Government here in 
Washington today. And so far, in the last 12 hours, I've spoken 
to my French colleague, Foreign Minister de Villepin, my 
Russian colleague, Foreign Minister Ivanov, my Chinese 
colleague, Foreign Minister Tang, and Secretary General Kofi 
Annan describing the progress we have made with the British and 
the fact that we are now expanding the circle of consultation. 
We're a long way from getting agreement, but we're working 
hard, and there are many points where we are in agreement, and 
there are some outstanding issues that have to be dealt with.
    Some have suggested that there is a conflict in this 
approach, that U.S. interests should be our total concern. We 
are a member of the Security Council. We are a member of the 
United Nations. It is a multilateral institution whose 
resolutions have been violated. So I think it is quite 
appropriate for the President to seek action by the United 
Nations through its Security Council.
    But the United States, as an entirely separate matter, 
believes that its interests is threatened. We believe that we 
are at risk and our interests in different parts of the world 
are at risk by Iraqi development of weapons of mass destruction 
and by the nature of this regime. We are trying to solve the 
problem through the United Nations and in a multilateral way. 
But, at the same time, if the United Nations is not able to 
act, and to act decisively--and I think that would be a 
terrible indictment of the United Nations--then the United 
States will have to make its own decision as to whether the 
danger posed by Iraq is such that we have to act in order to 
defend our country and our interests.
    I believe strongly, Mr. Chairman and members of the 
committee, that our diplomatic efforts at the United Nations 
would be helped enormously by a strong congressional resolution 
authorizing President Bush to take necessary and appropriate 
action. Language has been proposed by the President, and I know 
it's a subject of intense discussion in both bodies and with 
the White House and various members of the President's national 
security team, and it is healthy to have such discussion and 
debate. But I hope it is not too prolonged, and I ask for your 
action in the very near future to provide the President such a 
resolution to show the world that we are united in this effort.
    Mr. Chairman, my colleagues in the intelligence community 
and the Department of Defense are giving the Congress the 
information that it will need with respect to the details of 
our intelligence assessment and military contingency planning 
that Secretary Rumsfeld is conducting, and I will leave those 
issues to them.
    But let me just make two points before I end this 
presentation. We can have debates about the size and nature of 
the Iraqi stockpile. We can have debates about how long it will 
take him to reach this level of readiness or that level of 
readiness with respect to these weapons. But no one can doubt 
two things. One, they are in violation of these resolutions. 
There's no debate about that. And, second, they have not lost 
the intent to develop these weapons of mass destruction. 
Whether they are 1 day, 5 days, 1 year, or 7 years away from 
any particular weapon, whether their stockpile is small, 
medium, or large, what has not been lost is the intent to have 
such weapons of mass destruction.
    The challenge before us now is to see whether or not the 
Iraqi regime makes a sea change in this behavior because of 
this international presence, and they'll only make this kind of 
change if they sense there will be consequences for not having 
made such a change. The President is determined that we cannot 
look away again. This matter must be dealt with. Hopefully, it 
will be dealt with by nations coming together the way they came 
together 12 years ago.
    We recognize the seriousness of this issue. We recognize 
the consequences for our economy. We recognize the consequences 
for other foreign policy interests that we have around the 
world. We recognize the consequences for our Middle East 
policies. And we also recognize that if it becomes necessary to 
see the regime changed in Iraq, then a great obligation is 
placed upon those of us who will be changing that regime for 
the future of Iraq and for the future of the Iraqi people. And 
I can assure you that this issue is receiving the highest 
attention within the State Department, the Defense Department, 
and all the other institutions of government.
    If I just may close with one other observation, because I 
know it came up earlier in the hearings, this comment about 
``new doctrine of preemption.'' If you would go to the new 
National Security Strategy that the President issued not too 
long ago and look at the specific section which talks about our 
strategy and doctrine, you will find that we have not abandoned 
containment. We have not abandoned deterrence. We still have 
thousands of nuclear weapons. We still have a magnificent 
military force that can deter. We haven't abandoned these time-
honored methods of using our national power.
    But, what that chapter specifically says is there is now a 
new threat out there. There is a threat that doesn't respond 
the way older threats did to deterrence, that did not respond 
to theories of containment. These are terrorists. These are 
people who are willing to ignore what's going to happen to 
them. They are suicidal. They believe in evil concepts, and 
they're going to come at us. And so a doctrine of preemption or 
an element of preemption in our strategy is appropriate.
    It's not a new doctrine. It's been around for as long as 
warfare has been around. I can give you example after example 
in our own history of preemptive actions. In fact, I might even 
suggest that when President Clinton thought it necessary to 
attack the chemical plant in Sudan not too long ago, one might 
say that was a preemptive act or an act of prevention.
    When you have this kind of new threat, this kind of new 
enemy, then this doctrine of preemption should rise a little 
higher in your consideration, because this kind of enemy will 
not be deterred or contained the way perhaps the Soviet Union 
might have been and was contained and deterred in the past.
    So see it as elevation of one of the many tools that we've 
always had, but don't see it as a new doctrine that excludes or 
eliminates all the other tools of national security and 
military power.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Powell follows:]

     Prepared Statement of Hon. Colin L. Powell, Secretary of State

    Mr. Chairman, members of the committee, I am pleased to appear 
before you to testify on the Administration's position with regard to 
Iraq.
    Senator Biden, Senator Helms, you and several other of the 
committee members have been discussing Iraq with me for a long time. In 
fact, all the way back to the Gulf War.
    In 1990, Saddam Hussein's forces invaded Kuwait, brutalized the 
population, and rejected the international community's ultimatum to 
withdraw.
    The U.S. built a world-wide coalition with the clear political 
purpose of liberating Kuwait. The military instrument of that 
coalition, led by America, had an equally clear military objective that 
flowed directly from the political purpose: eject the Iraqi army from 
Kuwait.
    The United Nations Security Council endorsed this purpose and 
objective, and the international community responded with unprecedented 
political backing, financial support, and military forces. As a result, 
we not only accomplished our mission in the Gulf War, the way we did it 
was a model of American leadership and international cooperation.
    When the war ended, the UN Security Council agreed to take measures 
to ensure Iraq did not threaten any of its neighbors again. Saddam 
Hussein was a man after all who had sent his armies against Iran in 
1980 and then against Kuwait in 1990, who had fired ballistic missiles 
at neighboring countries, and who had used chemical weapons in the war 
with Iran and even against his own people. The United States and the 
international community were strongly determined to prevent any future 
aggression.
    UN Security Council Resolution 687 of 3 April 1991 fixed the terms 
of the ceasefire in the Gulf. The fundamental purpose of this 
resolution and many more that followed was restoration of regional 
peace and security by way of a series of stringent demands on Iraq, 
particularly its disarmament with respect to weapons of mass 
destruction and ballistic missiles with ranges greater than 150 
kilometers. Desert Storm had dramatically reduced Iraq's more 
conventional military capability while at the same time not leaving 
Iraq so prostrate it could not defend itself against Iran.
    Mr. Chairman, members of the committee, you know the rest of the 
story. You heard the President relate it at the United Nations two 
weeks ago today. Iraq has defied the United Nations and refused to 
comply completely with any of the UN Security Council resolutions. 
Moreover, since December 1998 when the UN's inspection teams left iraq 
because of the regime's flagrant defiance of the UN, the Iraqi regime 
has been free to pursue weapons of mass destruction.
    Meanwhile, the world has changed dramatically.
    Since September 11, 2001, the world is a different place. As a 
consequence of the terrorist attacks on that day and of the war on 
terrorism that those attacks made necessary, a new reality was born: 
the world had to recognize that the potential connection between 
terrorists and weapons of mass destruction moved terrorism to a new 
level of threat. In fact, that nexus became the overriding security 
concern of our nation. It still is. It will continue to be for some 
years to come.
    We now see that a proven menace like Saddam Hussein, in possession 
of weapons of mass destruction, could empower a few terrorists to 
threaten millions of innocent people.
    President Bush is fully determined to deal with this threat. His 
Administration is determined to defeat it. I believe the American 
people would have us do no less.
    President Bush is also aware of the need to engage the 
international community. He understands how powerful a strong and 
unified international community can be, as we have seen so well-
demonstrated in the war on terrorism in Afghanistan and elsewhere.
    The need to engage the international community is why the President 
took his message on the grave and gathering danger of Iraq to the 
United Nations last week. Moreover, it is the United Nations that is 
the offended party, not Iraq, as some might claim.
    It was United Nations resolutions that were systematically and 
brutally ignored and violated for these past 12 years. It was United 
Nations inspectors who found it impossible to do their job and had to 
leave their work unfinished.
    The President's challenge to the United Nations General Assembly 
was a direct and simple one: If you would remain relevant, you must 
act.
    The President's speech was powerful and energized the UN General 
Assembly debate. It changed the political landscape on which this issue 
was being discussed, Iraq is the problem. Iraq is in material breach of 
the demands placed upon it by the United Nations.
    President Bush made clear in his speech what Iraq must do to repair 
this breach:

  <bullet> Iraq must immediately and unconditionally forswear, 
        disclose, and remove or destroy all weapons of mass 
        destruction, long-range missiles, and all related material.

  <bullet> Iraq must end all support for terrorism and act to suppress 
        it, as all states are required to do by UN Security Council 
        resolutions.

  <bullet> Iraq must cease persecution of its civilian population, 
        including Shia, Sunnis, Kurds, Turkomans, and others, again as 
        required by UN Security Council resolutions.

  <bullet> Iraq must release or account for all Gulf War personnel 
        whose fate is still unknown. It must return the remains of any 
        who are deceased, return stolen property, accept liability for 
        losses resulting from the invasion of Kuwait, and it must 
        cooperate fully with international efforts to resolve these 
        issues, once again as required by Security Council resolutions.

  <bullet> And Iraq must immediately end all illicit trade outside the 
        oil-for-food program. It must accept UN administration of funds 
        from that program, to ensure that the money is used fairly and 
        promptly for the benefit of the Iraqi people.

    All of these demands on Iraq are spelled out in the sixteen 
Security Council resolutions levied against that country since 1991. If 
these demands on Iraq sound like regime change, then so be it. And Mr. 
Chairman, if there is regime change, brought about either by Iraqi 
voluntary compliance with these demands or by the use of military force 
to compel compliance, the United States will commit wholeheartedly to 
the reconstruction of Iraq as a democratic state with its territory 
intact.
    Over the weekend following the President's speech, I watched the 
pressure build on the Iraqi regime as the Arab League, the Secretary 
General and others pressed Iraq on the need to take action.
    On Monday of last week, Iraq responded with a familiar, tactical 
ploy. The Iraqi Foreign Minister said Iraq would let the inspectors in 
without conditions. But he is not deceiving anyone. And later last 
week, in a speech at the United Nations, the Foreign Minister 
challenged President Bush's September 12th speech. He then called for a 
discussion of the issue of inspection teams ``in accordance with 
international law''--almost immediately rescinding his Monday offer of 
inspections ``without conditions.'' Now, two days ago, we have an Iraqi 
presidential adviser telling the press in Baghdad, that weapons 
inspectors would be allowed to go ``wherever they want.''
    It is a ploy we have seen before, on many occasions. And on each 
occasion, once inspectors began to operate Iraq continued to do 
everything to frustrate their work.
    In May 1991, for example, just after suspension of hostilities in 
the Gulf War, Iraq accepted the unrestricted freedom of entry and exit 
without delay or hindrance for UN inspectors and their property, 
supplies, and equipment.
    In June 1991--a short month later--Iraqis fired warning shots at 
the inspectors to keep them away from suspicious vehicles.
    Three months later, in September, the Iraqis confiscated a set of 
documents from the inspectors. When the inspectors refused to comply 
with an Iraqi demand to give up a second set of documents, the Iraqis 
surrounded them and for four days refused to let them leave the 
inspection site. Finally, when the UN threatened enforcement action, 
the inspectors were allowed to leave.
    In February 1992 Iraq refused to comply with a UN inspection team's 
decision to destroy certain facilities used in proscribed programs and 
in April of that year Iraq demanded a halt to the inspectors' aerial 
flights.
    Later, in July of that year, Iraq refused the inspectors access to 
the Iraqi Ministry of Agriculture. The inspectors had reliable 
information that the site contained archives related to proscribed 
activities. They finally gained access only after members of the 
Council threatened enforcement action.
    In January 1993, Iraq refused to allow the UN inspection teams to 
use their own aircraft to fly into Iraq.
    In June and July of 1993, Iraq refused to allow the UN inspectors 
to install remote-controlled monitoring cameras at two missile engine 
test stands.
    In March 1996, Iraqi security forces refused UN inspection teams 
access to five sites designated for inspection. The teams entered the 
sites after delays of up to 17 hours--which of course permitted the 
Iraqis to remove any incriminating evidence.
    In November 1996, Iraq blocked UN inspectors from removing remnants 
of missile engines for in-depth analysis outside Iraq.
    In June 1997, Iraqi escorts on board a UN inspector team helicopter 
attempted physically to prevent the UN pilot from flying the helicopter 
in the direction of its intended destination.
    In that month also, Iraq again blocked UN inspection teams from 
entering designated sites for inspection.
    In September 1997, an Iraqi officer attacked a UN inspector on 
board a UN helicopter while the inspector was attempting to take 
photographs of unauthorized movement of Iraqi vehicles inside a site 
designated for inspection.
    Also in September, while seeking access to a site declared by Iraq 
to be ``sensitive,'' UN inspectors witnessed and videotaped Iraqi 
guards moving files, burning documents, and dumping ash-filled waste 
cans into a nearby river.
    Mr. Chairman, I have left out much and could go on--all the way to 
the departure of the UN inspection teams from Iraq in December 1998 
because they could no longer do their job. And I could talk about 
Operation Desert Fox, the military action that resulted.
    But I believe you get the point.
    The Iraqi regime is infamous for its ploys, its stalling tactics, 
its demands on inspectors--sometimes at the point of a gun, and its 
general and consistent defiance of the mandate of the UN Security 
Council.
    There is absolutely no reason at all to expect that Iraq has 
changed, that this latest effort to welcome inspectors without 
conditions is not another ploy.
    Let's be clear about the reason for their announcement. The Iraqis 
did not suddenly see the error of their past ways. They were responding 
to the heat and pressure generated by the international community after 
President Bush's speech.
    The United States has made it clear to our Security Council 
colleagues that we will not fall for this ploy. This is the time to 
apply more pressure, not to relent. We must not believe that inspectors 
going in on the same conditions that caused their withdrawal four years 
ago is in any way acceptable. These four years have been more than 
enough time for Iraq to procure, develop, and hide proscribed items 
well beyond the reach of the kinds of inspectors that were subject to 
Saddam's cheat and retreat approach from 1991 to 1998.
    The United States has determined that Iraq's obstruction of UN 
Security Council resolutions and its gross violation of its obligations 
cannot continue. In his speech to the General Assembly, the President 
challenged the Security Council to live up to its responsibilities. The 
UN Secretary General, Kofi Annan, said the same thing. We, our closest 
allies, and our friends around the world are prepared to do our part to 
enforce Security Council resolutions and render harmless the Iraqi 
threat. We are discussing now the best way to proceed with the other 
members of the Security Council and with close friends. We are trying 
to find a solution.
    If part of the solution involves an inspection regime, it must be a 
regime that goes in with the authority of a new resolution that removes 
the weaknesses of the present regime and which will not tolerate any 
Iraqi disobedience. It cannot be a resolution that will be negotiated 
with Iraq. The resolution must be strong enough and comprehensive 
enough that it produces disarmament, not just inspections.
    Many UN members, including some on the Security Council, want to 
take Iraq at its word and send inspectors back in without any new 
resolution or new authority. This is a recipe for failure.
    The debate we are having within the Council is on need for and the 
specific wording of a resolution. Our position is clear. We must face 
the facts and find Iraq in material breach. Then, we must specify the 
actions we demand of Iraq--which President Bush has already shown us. 
And we must determine what consequences will flow from Iraq's failure 
to take action.
    That is what makes this time different. This time, unlike any time 
over the previous 12 years of Iraqi defiance, there must be hard 
consequences. This time, Iraq must comply with the UN mandate or there 
will be decisive action to compel compliance.
    In New York, we are listening to other points of view and trying to 
reach agreement within the Security Council. It is a difficult debate. 
We are also preserving the President's ability to defend our nation and 
our interests.
    Some have suggested that there is a conflict in this approach, that 
U.S. interests should be our total concern.
    But Mr. Chairman, both of these issues are important. We are a 
member of the UN Security Council. We are a member of the UN. It is a 
multilateral institution whose resolutions have been violated. But the 
United States, as a separate matter, believes that its interest is 
threatened. We are trying to solve this problem through the United 
Nations and in a multilateral way. The President took the case to the 
UN because it is the body that should deal with such matters as Iraq. 
It was created to deal with such matters. And President Bush is hoping 
that the UN will act and act in a decisive way.
    But at the same time, if the UN is not able to act and, act 
decisively--and I think that would be a terrible indictment of the UN--
then the United States will have to make its own decision as to whether 
the danger posed by Iraq is such that we have to act in order to defend 
our country and our interests.
    And Mr. Chairman, our diplomatic efforts at the United Nations 
would be helped by a strong Congressional resolution authorizing 
President Bush to take action.
    I ask for your immediate action on such a resolution to show the 
world that we are united in this effort.
    Mr. Chairman, my colleagues in the intelligence community and in 
the Department of Defense are giving the Congress what it will need 
with respect to intelligence on Iraq and on military contingency 
planning. So I won't speak to those areas.
    But let me say this about the Iraqi threat before I stop and allow 
the greater part of this time for your important questions.
    We can have debates about the size and nature of the Iraqi 
stockpile of WMD and of midand long-range missiles. But no one can 
doubt the record of Iraqi violations of United Nations Security Council 
resolutions, one after another, and for twelve long years.
    And no one can doubt that the Iraqi dictator's intentions have not 
changed. He wants weapons of mass destruction as clearly as he wants to 
remain in power.
    Thank you and I'll stop there and take your questions.

    The Chairman. I thank you. I thank you for that 
explanation. And it's something that I think, as your two 
predecessors early this morning said, warrants some legitimate 
discussion and debate internationally. And I know you too well. 
I know you don't want to set a precedent that allows India to 
say, ``By the way, Pakistan has done the following. We reserve 
the right to preemptively act.'' So I understand that. I've had 
lengthy discussions with Dr. Rice on this. I think this is not 
so much a departure, although there are some who wish to make 
it sound like a gigantic departure. But we'll leave that for 
another day.
    I just want to make sure that anything I vote for is not 
premised on the notion that this is a preemptive doctrine. This 
is premised on the notion that a bad guy invaded another 
country. He lost the war. He had to settle. Certain terms were 
agreed to with the world at the U.N. He's violated that. That's 
all we need. We're not invoking a new rationale to move against 
Iraq.
    But let me suggest, and I have already: we should start the 
clock. I apologize. We'll stick to 7 minutes, if we can, 
because, obviously, there are many members here.
    Anytime you need a little bit of a break, you just raise 
that pencil and we'll recess for a minute. We're probably going 
to have to recess at some point for a vote, at 3:45. That's 
Senate time. That could be 4, 5, 6, 7.
    But it's supposedly 3:45. And when we do break, because 
this is so important, I'm not going to do the usual practice of 
letting us continue. We'll break, everybody breaks, we go vote, 
and everybody comes back, because it's too important what the 
Secretary has to say.
    Let me begin. And there are a lot of questions. My 
colleagues, I'm sure, will cover many that I want to speak to, 
as well.
    Mr. Secretary, there is a sound rationale, in my view, to 
your statement on page six which says, ``Mr. Chairman, our 
diplomatic efforts at the United Nations would be helped by a 
strong congressional resolution authorizing President Bush to 
take action.'' Part of our dilemma here is that, as I said at 
the outset, we're being asked to pass a resolution that is 
broad before the President has made a decision whether or not 
he is going to go to war. So we're going to give, in effect, 
under constitutional theory, the equivalent of a declaration of 
war before the President has decided to go to war. I don't know 
of any time in American history that's ever been done. That 
doesn't mean it shouldn't be done, but it is a bit unusual.
    One of the things I raised earlier today, would not your 
purposes be met if we gave the President authority to use 
whatever force is necessary in conjunction with a Security 
Council resolution, if one is acquired; and if one is not 
acquired--or if one's acquired and we are, to use the 
vernacular, ``stiffed'' by Saddam Hussein, the President would 
be authorized to use force; and if one is not acquired, the 
President would be authorized to use force?
    It would seem to me that gives you every tool, but it 
satisfies the skepticism on the part of many of my colleagues, 
notwithstanding their knowledge of your intense desire to make 
this a world problem, that it will not be short-circuited.
    In the New York Times today--and, again, although I know it 
calls itself ``the paper of record,'' I'm not suggesting 
everything in the paper is accurate. What I am suggesting is 
there is a reference that all we need from, quote, 
``unidentified administration officials''--all we need is a 
congressional declaration. We don't have to worry about 
anything else. That worries some people up here, because we do 
know--and I know you'll say, ``No, I don't''--I understand, but 
I know for a fact there are serious people in your 
administration that didn't want to go to the United Nations, 
think it was a mistake to have gone to the U.N.--not the 
President--think it's a mistake to have gone to the United 
Nations, and are very disappointed we went to the United 
Nations.
    And so my question is, why would it not make sense--I'm not 
asking you to rewrite the resolution--but why would it not make 
sense to have a resolution that says, ``We authorize the 
President to conform with any U.N. resolution.'' If he doesn't 
get one that has a follow-through to it, we authorize him to 
follow through and use force? But it sequences them. It doesn't 
condition them. It sequences them. Doesn't that make sense? 
Doesn't that give you all the authority you need to make it 
clear to your colleagues we're for real?
    Secretary Powell. It's an interesting formulation, Mr. 
Chairman, and I'd like to see it in writing and discuss it with 
the President, because the way you have laid it out, he gets 
the authority with a U.N. Security Council resolution and he 
gets the authority without--or in the absence, I should say----
    The Chairman. But it's sequenced.
    Secretary Powell [continuing]. Of a Security Council 
resolution. I'd have to see the language and then talk to the 
President.
    The Chairman. I'm not asking you to commit to it, but----
    Secretary Powell. What we don't want to do, though, is to 
any way suggest that we are not united as a Nation behind our 
efforts to find a diplomatic solution.
    The Chairman. Well, quite frankly, one of the reasons why I 
suggest we're going to have to have a different kind of 
resolution--and I've been discussing this with my good friend 
from Indiana, a different resolution--is that the last thing I 
think we need, as I said earlier this morning, is, ``The board 
voted five to four for your speedy recovery.'' We want to be 
united here. We want whatever we do to get as many votes as 
possible. And I fear that the present resolution--and it's 
being negotiated--there's still good-faith negotiation going 
on--is pretty far from that point right now.
    Let me move to a second question in the time that I have 
and probably the only other question I'll be able to ask you. 
You stated at the end of your statement, and you indicated in 
your formal statement, that--let me find the exact quote: ``The 
U.S. will commit wholeheartedly to the reconstruction of Iraq 
as a democratic state within its territorial boundaries.''
    Now, if I can ask you the question this way. Scenario. We 
go in with or without the U.N. I'm confident we won't go in 
alone, because you'll get some folks to go with us, even if 
it's not the U.N.--maybe a Kosovo model. I have great faith in 
you, boss. We take down Saddam Hussein. We begin the 
commitment, which is, the United States commits wholeheartedly 
to the reconstruction of Iraq as a democratic state within its 
territorial boundaries. Whether or not we get others to help 
us, implicit is that for a while, some U.S. presence will be 
required, hopefully in conjunction with others, and some 
financial assistance will be required, hopefully with others. 
When do you, as Secretary of State, or the Secretary of 
Defense, in that circumstance, feel confident to be able to say 
to the President--not how long it will take, but at what point 
do we have to get before, consistent with this commitment, 
you're able to turn to the President and say, ``Mr. President, 
we can now leave. We can now leave. We can now disengage''?
    Is that at the point where there is a democratic government 
in place, or is it at a point prior to that?
    In other words, what are we--what is the end game here? I'm 
not looking for an exit strategy in timing, but what is the end 
game? Because with some in the State Department, as it related 
to Afghanistan, there was, at the outset, a very different view 
of what our role in Afghanistan was going to be, more 
consistent with mine, which was we were going to have a greater 
presence. The International Security Force was going to be 
expanded beyond Kabul. The President sat with me and you and 
others and talked about a mini-Marshall Plan. And we're a long 
way from there.
    So what I'm trying to get at is, what are we signing the 
folks on for? Not in terms of hours, days, or dollars. What is 
the point at which we can, in good faith, say, ``We can now 
leave''? Is it when there is a democratic government, or what 
is it? That's my question.
    Secretary Powell. I'd just preface my response by saying, 
of course, the President has not made any decision with respect 
to military action and still is hopeful for a political/
diplomatic solution, but that really is in the hands of Saddam 
Hussein, not us or the United Nations.
    But should it become necessary to take unilateral action or 
action that we would hope would be multilateral, or if it's the 
Kosovo model with like-minded, willing nations, and we go in 
and remove the regime, I think we would have an obligation 
afterwards first to make sure that we remove all weapons of 
mass destruction, which is what started this all, and use all 
of our presence, plus intelligence assets. Plus, I suspect, a 
lot of people would be coming forward at that point in the 
absence of Saddam Hussein and his regime, to tell us what's 
been going on and make sure that this nation has been disarmed 
of those kinds of weapons or the capability to produce those 
weapons, and that the government that we would help put in 
place would be a representative government no longer committed 
to use its wealth--great wealth, I might add--for any such 
purposes. We would want to put in a government that would be 
representative of the people.
    And the term, really, ``put in the government,'' isn't the 
right way to put it. The better way to put it is to ``raise up 
a government,'' allow the Iraqi people to create a government, 
using those who are outside the country who have expressed an 
interest in coming back and helping with this, and who have 
been against this regime for a long time, the opposition, and 
also those from within the country. So there would be some 
effort at reconciliation and some commitment to a single state 
that is not going to be broken up into three pieces that will 
have a representative, democratic model as its political basis.
    I won't sit before you today and say it's going to look 
like the House of Representatives and the U.S. Senate in the 
Jeffersonian model--we're a long way from there--but something 
that will be seen by the international community as a 
representative government that will keep this state together, 
that will foreswear the use of any weapons of mass destruction 
or the development of them, and that we will put in place a 
system that the great wealth of Iraq--roughly $20 billion a 
year is available to the people of this country--will be used 
to develop the country, to develop the infrastructure, help 
people in need in a more equitable distribution of the treasure 
of that nation for the benefit of the people of that nation.
    I think it will take time, and I can't tell you how many 
years.
    The Chairman. I'm not asking for time.
    Secretary Powell. You didn't ask. But it will take strong 
American presence. That presence will be political presence, 
and it'll probably be military presence, and we shouldn't 
deceive ourselves. And we are not. In our conversations on this 
subject, we recognize that we are on the cusp of a very, very 
demanding and long-term commitment if we have to go down this 
road. But there are certain opportunities that come with this 
commitment, the opportunity to create this kind of a government 
in a part of the world where it's almost unknown. And it could 
be a model for other nations in the region, an opportunity, not 
to take a basket-case country like Afghanistan, but a country 
with an educated population, although there are disparities 
between the three different groups, and with this wealth that 
can be used for legitimate purpose.
    You made a comparison to Afghanistan. This morning I kicked 
off a session at the World Bank of the Afghan Reconstruction 
Support Group. Sixty nations came again to talk about the 
rebuilding of Afghanistan. We made an additional pledge to that 
effort, $33 million out of the recent supplemental. Other 
nations are making their pledge. And we have accomplished a 
great deal in Afghanistan. There's a lot more to be done, and 
one can argue whether ISAF should be expanded or not. But I 
think the security situation is not as bad as some say, but it 
certainly isn't as good as we want it to be. But we're working 
these issues, and we should be very proud of what we've 
accomplished over the last 9 months.
    The Chairman. Well, one thing is clear. When we succeed 
militarily, if we decide we have to go, it will not be like the 
gulf war when Johnnie comes marching home within 3 to 5 days or 
several weeks or months. Some Johnnies are going to stay there.
    Secretary Powell. We understand that.
    The Chairman. OK. I just----
    Secretary Powell. We have to make sure.
    The Chairman. I'm not opposing that. I just want to make 
sure we understand.
    Secretary Powell. Ambassador Holbrooke made a point 
yesterday that I just might touch on in this regard. The gulf 
war was fought for the singular purpose of ejecting the Iraqi 
army from Kuwait, restoring a legitimate government, and 
stabilizing the region and bringing Iraq down to conventional 
size. It was our hope that Hussein would not survive it. He 
did. But nevertheless, the decision to do that was a wise 
decision and one those of us who were there----
    The Chairman. I'm not second-guessing.
    Secretary Powell [continuing]. Never regretted. And it 
wasn't a decision made at the end of the war. It was made 
before the war. That's how we got that coalition together.
    The Chairman. This is a different deal, though.
    Secretary Powell. It is a different deal.
    The Chairman. Senator Helms.
    Senator Helms. Mr. Secretary, it's kind of refreshing to 
hear everybody singing from the same songbook on this. There 
are a few voices, but they're out in the bushes somewhere and 
they're not identifying themselves to the people.
    Condoleezza Rice said the other day that the United States 
will be completely devoted to the reconstruction of Iraq as a 
unified democratic state in the event of a military strike that 
topples Saddam Hussein. Now, this was said this morning. This 
was essentially said by you this afternoon.
    Now, one question that comes to mind, given the enormous 
financial stakes of countries like France and Russia and 
Germany, how will their views, do you think, figure into a 
post-Saddam economy and all the rest of it?
    Secretary Powell. We would certainly take their views into 
account. The Russians, for example, have a commercial interest 
in Iraq, and Iraq has quite a debt to Russia. All of the other 
nations will have, I think, an economic interest in Iraq, and I 
think they will also have a desire to participate in the 
rebuilding.
    We have been in conversation with our friends in the 
Security Council on this, and Secretary General Kofi Annan and 
I have talked about this in hypothetical terms, and I know that 
if it ever came to this, the international community would be 
most willing to play a role. And I think it'll be not just a 
role of how do we get in there first and make the most money we 
can, I think it'll be a role to establish commercial contracts 
and see, you know, what we can do to make proper investments. 
But I think it'll be also for the purpose of rebuilding a 
nation and trying to put in place the kind of nation we'd all 
like to see in that part of the world. So I think it is quite 
possible, under those circumstances, to harness the 
international community in a most positive and effective way.
    Senator Helms. Every once in awhile the Devil makes me do 
things, and this morning was one of them. I wanted to get these 
two former Secretaries, who are a little bit at odds with each 
other, to talk to us in terms of specific questions. And the 
outcome was interesting. For example, Madeleine Albright argued 
that Saddam Hussein is ``in a box,'' quote/unquote, and that 
continuing a policy of combining sanctions with containment 
will suffice. But then Henry Kissinger got in there, and that 
didn't--he had some different views. But it was interesting to 
hear these people who served as Secretaries several years back.
    Now, Secretary Albright also suggested this morning that 
all of this attention to Iraq is distracting from the war on 
terrorism around the world. Secretary of State Kissinger 
countered that to wait for the end of our fight against global 
terrorism before acting is to guarantee that the stockpiles of 
weapons of mass destruction will multiply. And I wonder if you 
agree or disagree with Henry Kissinger.
    Secretary Powell. On both points. With respect to 
containment, keeping him in a box, but he continues to bounce 
against the walls of that box, and one of these days he'll have 
a box cutter and then he'll be out, and we don't want to wait 
and see that day. We think we have been at this long enough, 
and it's time to deal with the contents of the box.
    With respect to the second point on distracting, I'm not 
sure what evidence Secretary Albright put forward to the fact 
that we are distracted from the war against terrorism. Almost 
every day now we see another set of arrests somewhere in the 
world as we work with our partners in the international 
community. We see al-Qaeda cells being broken up here. We're 
working with the Yemenis. We see things happening in Spain, in 
Portugal, in Germany. And so we're hard at work, our law-
enforcement activities, our financial task forces that are 
chasing down al-Qaeda finances. We continue to work in 
Afghanistan to rebuild that country. That's what I was doing 
this morning before coming over here. So the campaign against 
terrorism is going well.
    And all of these actions, I might say, could be 
characterized as preemptive actions: going after their 
finances, going after where they might be next, ripping up the 
cells, all of this before they have a chance to act.
    So the campaign against terrorism is going in full swing, 
and I don't see why there is a suggestion that somehow if we 
had to undertake this mission, it would be at the expense of 
the campaign against terrorism. Would it require a surge? Yes. 
Would it require a lot of our energy? Yes. But the suggestion 
that we weren't going to be able to continue the campaign 
against terrorism if we moved in this direction I don't think 
is an accurate assessment.
    Senator Helms. I wonder of your reaction to anti-American 
rhetoric of the Schroeder campaign for Chancellor of Germany. I 
was terribly offended by that. Now, the guy won. No question 
about that. But it was a very small margin of victory. So what 
do you think will be the long-term impact on U.S.-German 
relations if this anti-American election rhetoric continues?
    Secretary Powell. We were deeply disturbed and offended by 
how the Iraqi issue played into the recent German election, and 
we were very disappointed. We made that disappointment known to 
Chancellor Schroeder and to many other German officials, and we 
were particularly horrified by the comments of the Minister of 
Justice and her comparison of President Bush and some of his 
actions to those of Hitler. And we expressed our outrage over 
that.
    But I have to stand back and take a look at some other 
things to put this in context and perspective. Germany has been 
very helpful in a number of areas over the past year. They've 
been very supportive of our efforts in Afghanistan. They've 
been very supportive of our campaign against terrorism. What we 
saw in this recent election I don't think was so much anti-
American as it was anti a particular American policy.
    Joschka Fischer, my Foreign Minister colleague, gives some 
of the most powerful pro-American speeches you can hear. When 
we needed a place to hold a conference to create the new Afghan 
authority last year, it was Germany that stepped forward and 
volunteered, and we held the conference in Bonn. And when we 
had the loya jirga recently and needed somebody to sponsor 
that, the Germans did it. And when we needed somebody to help 
train the new Afghan police, military, and border forces, 
Germany stepped forward. And Germany has indicated the desire 
now to take over the ISAF.
    So we have been good friends with Germany for many years. 
We will remain good friends in the years to come. But a serious 
breach occurred in recent weeks as a result of the matter in 
which this issue inserted itself into the German election 
campaign, and we were disappointed, disturbed, and we expressed 
our concerns to our German colleagues.
    Senator Helms. Mr. Secretary, it's always good to see you, 
and thank you for coming.
    The Chairman. Mr. Secretary, before I yield to the Senator 
from Maryland, it's been pointed out by one of my colleagues--
you'll never guess who, and I won't name them--but when I said 
``Johnnie comes marching home,'' I should have said ``Johnnie 
and Jill come marching home.''
    Secretary Powell. Absolutely.
    The Chairman. And I apologize for that, because there are--
--
    Secretary Powell. I knew that's what you meant, Mr. 
Chairman.
    The Chairman. Thank you very much for the help.
    Senator Sarbanes.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Mr. Secretary, I'm looking at pages two and three of your 
statement. Is the United States prepared to go to war against 
Iraq if it engages in illicit trade outside the oil-for-food 
program that's been established by the U.N.?
    Secretary Powell. The principal concern that we have are 
weapons of mass destruction, and the principal focus of the 
U.N. resolutions are on weapons of mass destruction, and that's 
what the inspection regime was trying to uncover and destroy. 
At the same time, however, Iraq is in violation----
    Senator Sarbanes. I understand that, but I'm looking----
    Secretary Powell [continuing]. Of many other provisions 
and----
    Senator Sarbanes [continuing]. I'm looking at your 
statement, and you say ``what Iraq must do repair this 
breach.''
    Secretary Powell. Right.
    Senator Sarbanes. And I'm trying to section this out. You 
list 5 things. The first, of course, is the removal of all 
weapons of mass destruction. But I want to go to the others. 
Are we prepared to go to war to make sure they comply with U.N. 
resolutions on illicit trade outside the oil-for-food program? 
You've got it listed here.
    Secretary Powell. I've got it listed as one of a number of 
issues that they are in material breach of. I don't think I 
linked going to war to any one of them or any combination of 
them.
    Senator Sarbanes. Well, you say ``what they must do.''
    Secretary Powell. Right.
    Senator Sarbanes. So they must do that or otherwise we're 
prepared to move against them?
    Secretary Powell. I don't think I said that, Senator.
    Senator Sarbanes. OK, well, what about----
    Secretary Powell. I'm saying----
    Senator Sarbanes. What about----
    Secretary Powell. I'm identifying--if I may, I'm 
identifying the specific U.N. resolutions that they're in 
violation of. And under U.N. resolutions they are supposed to 
comply with those resolutions. They have the force of 
international law.
    Senator Sarbanes. Well, you say, ``If these demands on Iraq 
sound like `regime change,' then so be it.'' Will we take 
military action or go to war in order to make them release or 
account for all gulf war personnel whose fate is still unknown? 
Would we do that?
    Secretary Powell. I think the operating clause in that that 
is of the greatest concern is the one having to do with weapons 
of mass destruction. It is unlikely that any of the others 
individually would lead to that kind of consequence.
    Senator Sarbanes. So if they did that, that's the one 
toward which war is directed.
    Secretary Powell. I think what we have to do--no, I don't 
want to make that connection, Senator. I think what we have to 
do is look at their total response to these resolutions. And 
the resolution of greatest concern, the issue of greatest 
concern are the weapons of mass destruction, which is why, in 
1998, both the U.S. Congress and the previous administration 
made that the policy of the U.S. Government.
    Senator Sarbanes. Why are you listing all these things if 
the weapons is the thing? Shouldn't we--do you want authority 
to use military force against Iraq, from the Congress, in order 
to make them comply with U.N. resolutions on illicit trade 
outside the oil-for-food program? Do you want that authority?
    Secretary Powell. The principal reason for the authority is 
for the President to do what he needs to do to focus on the 
principal offense that he has been presenting to the Nation, 
and that is weapons of mass destruction. The rest of those 
elements----
    Senator Sarbanes. All right, I want to take you through the 
rest of them. Do you want authority to go to war in order to 
accomplish----
    Secretary Powell. The President hasn't asked for any 
authority----
    Senator Sarbanes [continuing]. Compliance with those 
resolutions?
    Secretary Powell. The President has not linked authority to 
go to war to any of those elements. The President has asked 
for----
    Senator Sarbanes. It's right in the resolution. You have 
all these Whereas's where you enumerate these resolutions, and 
then you say, ``The President is authorized to use all means 
that he determines to be appropriate, including force, in order 
to enforce the United Nations Security Council resolutions 
referenced above.'' And the ones that are referenced above are 
all of them. And all of them encompass illicit trade outside 
the oil for food--accounting for the missing, et cetera, et 
cetera.
    So you want the authority to use force to carry out those 
resolutions. Is that correct?
    Secretary Powell. Yes, he wants the authority to use force 
to carry out those resolutions where he believes force is the 
appropriate way to get implementation of those resolutions. I 
think it unlikely that the President would use force if he 
complied with the weapons of mass destruction conditions. It 
seems very unlikely, then, that he would be using force to 
comply with any of the other resolutions.
    Senator Sarbanes. But you want the authority to use the 
force even if he complies with the weapons of mass destruction 
resolution. You want the authority to go beyond that to all the 
other resolutions. Is that correct?
    Secretary Powell. The President was putting the case 
forward that all of these resolutions produce a pattern of 
misbehavior and material breach that he wanted the authority to 
deal with in a way that he thought appropriate.
    Senator Sarbanes. So if they comply with the weapons of 
mass destruction, but not the others, you want the authority to 
be able to use force to compel compliance with the others. Is 
that correct?
    Secretary Powell. That's the way the resolution is 
currently worded, but we all know, I think, that the major 
problem, the offense, what the President is focused on and the 
danger to us and to the world are the weapons of mass 
destruction.
    Senator Sarbanes. Why did you word it this way? I mean, you 
worded this resolution. We're trying to examine it, and we see 
a broad reach of authority here.
    Which leads me to my next point. I want to ask, who 
prepared the preemptive doctrine here in this National Security 
Strategy? Who's the author of this document?
    Secretary Powell. It's an administration document, and we 
all participated in it.
    Senator Sarbanes. Well, I know, but someone must be the 
responsible person for----
    Secretary Powell. The actual pulling it together was done 
in the National Security Council, but we all participated in 
it. I had authors working on it. Others had authors working on 
it.
    Senator Sarbanes. So, I mean, this is your document.
    Secretary Powell. It is the President's document.
    Senator Sarbanes. And this notion of a preemptive strike, 
you don't regard that as a departure from past American--I know 
you spoke earlier, ``Well, you know, we've done preemption 
under certain circumstances.'' I think the example you used was 
a strike against a chemical plant.
    Secretary Powell. There are many others I could use.
    Senator Sarbanes. Yes. But when have we ever launched a war 
against another country on this basis?
    Secretary Powell. Where does that document say we're going 
to launch a war against a country? What it says is that there 
is a new threat that is different from the threats we have 
engaged in the past. Deterrence and containment, as strategies, 
has not gone away. Preemption has always been a tool available 
to a President, not just in this administration, but throughout 
military history.
    I would say that when we launched an attack against Panama 
the 20th of December, 1989, it was a form of preemption, 
because we were afraid that Noriega would be killing more 
American citizens, other than the ones that he killed. And the 
specific context of preemption there is that when you're 
dealing with terrorist threats--it is written almost 
exclusively around terrorist threats--when dealing with 
terrorist threats of the kind we saw on the 20th, or excuse me, 
on 9/11, threats of that nature, preemption rises higher in our 
hierarchy of options because they tend not to be--terrorists 
tend not to be deterred or contained in the way that states are 
deterred and contained.
    The chapter also concludes with some discussion about the 
fact that this is not to be entered into lightly and one should 
look for other alternatives, and it should be done with the 
most serious consideration.
    Senator Sarbanes. Well, Mr. Chairman, my time's up. I'd 
just close with this observation. Every article about it, about 
the doctrine you've put out, has language such as this: ``Bush 
Details Preemptive Strike Policy Under New Security Plan,'' 
``U.S. Will Attack Nations, Groups That Pose Threats,'' ``Will 
Act Alone If Necessary,'' and that's just out of one newspaper. 
They're all saying the same thing.
    Now, you sort of addressed it to and tried to put it in a 
different context, but a lot of people are either 
misinterpreting you or perceiving it as it is, and I'm not sure 
which is the case yet. But it would seem to me to be of some 
concern if you don't mean to do this, to leave this impression, 
that that's how it's being read.
    Secretary Powell. I didn't put it in a different context. I 
put it in the context in which it was written. And I would 
encourage everyone to read that one very short section of the 
National Security Strategy, and you will find that it talks 
about the traditional tools of national security and military 
forces, and then it shifts and talks about the new threat we 
are facing from terrorists and why preemption is something that 
should rise in our hierarchy of available options.
    The Chairman. I suggest that we ought to be able to work 
out what the operative resolutions are. I don't think anybody 
wants to go to war over liberating Kuwaiti prisoners, including 
the President. So maybe we can get--it is in the resolution. 
That's my point. I can't imagine the President not being 
willing to take it out. But at any rate----
    Senator Sarbanes. Why did he put it in?
    The Chairman. Well, I don't know why he put it in, but--he 
didn't call me first.
    I am very close--matter of fact.
    Senator Wellstone. Senator Biden, I know we're going to 
vote, but could some of us say to the Secretary we really 
apologize. We have a caucus meeting after the vote, and we have 
questions, and I'm very sorry we didn't get a chance to put 
some of them to you. Thank you for being here.
    The Chairman. I'm very sorry--quite frankly, I shouldn't 
say this. I'm very sorry our leadership set the caucus for this 
time. I think it was inappropriate for them to do it this way. 
I told them not to. We should stay here and listen to you 
instead of go to the caucus, in my view.
    We will adjourn until we vote. We're going to come right 
back.
    [Recess.]
    The Chairman. The hearing will come to order.
    Senator Lugar is recognized.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Secretary Powell, at the last hearing in this committee 
room, I made a plea to you in behalf of the President and 
yourself and the administration for a language in the 
Appropriations bill for Armed Services and authorization for 
Armed Services to give the President the ability to waive 
previous congressional stipulations so that our Nation could 
start destroying chemical weapons in Russia under the Nunn-
Lugar program in particular, and so that the general provisions 
of the Nunn-Lugar act might prevail.
    And this is pertinent to the Moscow Treaty, at least in my 
judgment. The Nunn-Lugar program is destroying dangerous 
missiles as we speak and this will continue unless we stop 
them. I appreciate your great efforts and I wanted to take this 
moment simply to thank you for your intervention, for your 
timely calls to members of the House conference committees. And 
I'm hopeful the President will get that authority so that our 
Nation might be able to destroy weapons of mass destruction in 
large quantities, even as we are discussing the very terrible 
circumstances in Iraq.
    Second, I want to just comment, the chairman mentioned 
earlier in the meeting, and this has brought some fresh 
questions during the interval, that he and I have been working 
on some language with regard to the resolution that we thought 
might have a broader support, listening to our colleagues 
around the table. I raised, yesterday, the hope that our 
committee might, in fact, have jurisdiction with regard to the 
resolution for at least a week so that we at least fulfill our 
role. Whether that will happen or not, I do not know, but it is 
true that the chairman and I have been trying to work through 
this.
    Now, from the press over in front of the Senate I had the 
question, ``Well, what do you think of the latest 
administration draft?'' And so I said, well, I have not seen 
any such draft. I'm unaware that there is such a draft. And 
they said, ``There is.'' Now, if the chairman is aware of this, 
he hasn't told me. I am not aware of it.
    And I would just simply say again, we are trying very hard 
to obtain substantial support for the President. It is very 
difficult to do this when we are working constructively and 
simply discover inadvertently that somebody in the press is 
already informing us that there is a new draft. I will say no 
more. But please register that thought if you will.
    The third thing, I appreciated very much your outlining 
this afternoon what a new Iraq Government might look like. 
Granted we do not know that there will be military action. And, 
as Secretary Kissinger pointed out today, there could be a coup 
in Iraq: the military might dispatch Saddam, and they deal with 
us, and that's a different picture.
    But in response to all the contingencies that you were 
asked--that is, if a regime change occurred--you pointed out 
that it would have to be a regime that would help us find and 
destroy the weapons of mass destruction. That will take some 
doing, as you pointed out: scientists, intelligence sources, 
everybody. But at least that's a formation of a plan. It 
indicates some sound thinking about this area, which we asked 
for.
    With regard to a new Iraqi Government, you said we'd try to 
raise up a government representative of the people with the 
democratic model as the basis, keeping the state together. Oil 
resources would be focused on financing humanitarian projects 
for the people. A strong American presence will be required, 
both political and military, probably for some time and 
preferably the presence of a lot of our allies and friends in 
the area.
    Now, that is important, and I suspect that it comes not 
only from your own supposition, but from the planning efforts 
on the part of the administration. In other words, there are 
people actually at work on this. The chairman and I have been 
asking for this in the hearings, evidence that, even in our 
important discussion about war and peace, we are thinking about 
the consequences. And there are consequences, obviously, 
coming.
    And we would hope, perhaps, as a part of the resolution to 
be adopted by the Congress, some formal structure for regular 
consultation between the administration and the Congress as we 
identify the resources and authority that will be needed. The 
American people must understand how this will evolve as opposed 
to the Gulf of Tonkin situation in which we go to war, Vietnam 
goes on and on, there is no really formal way of telling what 
was going to happen. So all of this, I just simply wanted to 
say at the outset.
    Now, having said this, an interesting piece the 23rd of 
September in the Wall Street Journal by David Price Jones, the 
senior editor of National Review. He points out the origin of 
Iraq, at least in his formulation, came because the British 
when they put together a state after World War I. They put 
together several clashing groups. His claim is that it took a 
dictator then, a king that was imposed, and it's taken one ever 
since to hold this country together. Maybe true, maybe not.
    Evolution in Iraq--and we all need to learn much more about 
that--may permit this coalition, this representative government 
that speaks for all the people. There are other voices who say 
there could be a bloodbath of Shiites mopping up on Sunnis 
because of all the slights in the past, or the Iranians 
intervening, quite apart from the Kurds and Turkey in the 
north.
    So it's still a stretch for many, historically, to try to 
think in terms of this representative democracy. On the other 
hand, it is important that the Iraqis know, that the world 
knows, that the American people know that that is our goal, 
that that's the formulation, a different government in a 
difficult neighborhood implying a great deal of American 
resources--human, military, and civilian and money and time. 
And it seems to me if that is the formulation you and the 
President are able to present, the case is much more powerful. 
It represents, really, as you say, an opportunity, as opposed 
to a situation of chaos and gloom in comparison to Afghanistan 
or what have you.
    Do you have any comment about any of the above?
    Secretary Powell. Well, just, first, thank you for your 
comments about the waiver authority we requested. And with 
respect to the latest, quote, ``administration draft,'' I will 
check on that when I get back to the office and make the point 
to the White House that you have made to me.
    On reconstruction, I'm sure that the President would want 
to consult regularly, and if that sort of guidance was 
contained in a resolution, I don't know that he would find 
anything objectionable about it.
    And with respect to the Wall Street Journal comment and 
article, quite true. The British created this in 1921, and it 
is something of an odd creation, and that's the way they did it 
and disengaged, and there is no democratic tradition. But we've 
seen a lot of states in recent times with not much of a 
democratic tradition, but when exposed to the possibility of 
moving in that direction, they have done so with dispatch. That 
doesn't mean it can't be done, but it will be a difficult and 
challenging task for all of us, and we very much recognize 
this. And we also know the kind of commitment that'll be 
required from us and from others to bring it about. But if we 
do bring it about, it will be an historic change in that part 
of the region, and there is an opportunity there.
    We have to be mindful, as came out in the questioning 
earlier, about the fact that there will still be a campaign 
against terrorism going on in other parts of the world. 
Afghanistan will still be going on. And we'll be stressed. We 
will truly be stressed. But I think it is possible to manage it 
all.
    Senator Lugar. Thank you.
    The Chairman. Thank you for your candor. And I hope the 
State Department, which is very good at coming up with phrases, 
comes up with a new word for nation-building, because that's 
what we're going to be doing.
    The Senator from Wisconsin.
    Senator Hagel. Mr. Chairman, if I might add, I don't think 
the concern about nation-building comes out of the State 
Department.
    The Chairman. No, it doesn't. No, no. But maybe they can be 
helpful with the White House to come up with--I wasn't 
implying--you had a----
    Secretary Powell. I know you weren't.
    The Chairman. We may need a word, though.
    Senator Feingold. Thank you, Mr. Chairman.
    I'd like to thank you, Mr. Secretary, for being here today 
to discuss United States policy toward Iraq, and I welcome the 
opportunity.
    For months, the administration has continued to rachet up 
the rhetoric on Iraq, and, as we've already talked about, last 
week sent proposed language authorizing the use of force to the 
Congress. It is high time that this committee had the 
opportunity to hear a bit about just what is being proposed and 
what the implications are for our national security and foreign 
policy priorities.
    And I think this is especially true because, I've got to 
say, that because months into this debate I think we still lack 
clarity on a number of points. I think we're hearing shifting 
justifications for taking military action in Iraq now. Part of 
this was illustrated by Senator Sarbanes' listing of the 
different possible justifications, vis-a-vis Security Council 
resolutions, some of which I'm quite certain this country would 
not invade Iraq in order to enforce.
    The same thing goes for the sort of intermittent popping up 
of the claim that Iraq and al-Qaeda were in league on 9/11. 
Yesterday, the Secretary of Defense basically asserted that. 
When someone asked the press secretary of the President whether 
or not that was the case, he said, ``Well, they could get 
together.'' So the trouble is, Mr. Secretary, it's unsettling 
to get this feeling that there are really shifting 
justifications for what is being contemplated here.
    We still know very little about precisely what mission is 
being proposed and what kind of commitments the American people 
are being asked to make. And so I, for one, given where we're 
at at this point, am very reluctant to support any resolution 
without clarity on these critical issues.
    As you know, I have tremendous respect for you, though, 
Secretary Powell, and I take your views very seriously, and 
that's why I'm very pleased that we have the chance to talk to 
you today.
    Mr. Secretary, the administration has asked for the 
authority to use force in Iraq. Actually, the administration 
has asked for authority to use force throughout the region, but 
we are talking about Iraq today. What is the mission being 
proposed? Is it disarmament? Are we proposing to do that? Or is 
it regime change? How does regime change relate to the problems 
of weapons of mass destruction? Or is it enforcement of U.N. 
resolutions? Which mission is it?
    Secretary Powell. The President hopes that it will be 
possible to solve this problem and deal with this crisis with 
military force as the last resort. If it is necessary to use 
military force because Iraq does not come into compliance with 
the resolutions, particularly--and especially, really--the 
focus is on weapons of mass destruction resolutions. The others 
might be considered a lesser included offense within a 
principal offense of weapons of mass destruction.
    If the President finds it necessary or the international 
community finds it necessary to use military force to enforce 
those resolutions, at that point, I would not prejudge what the 
international community would say or what the President might 
say, but it seems to me clear that we're using military force 
because the regime intends not to come into compliance, and, 
therefore, the regime has to be changed.
    Senator Feingold. Is it possible that it would involve 
disarmament without regime change?
    Secretary Powell. It would seem to me if the Iraqis----
    Senator Feingold. The military action.
    Secretary Powell. If the Iraqis do not cooperate and do not 
allow inspectors in under a new inspection regime to do the 
work that has to be done, then there is no point in continuing 
to deal with this regime in any way, shape, fashion, or form.
    And I think what comes into play at that point is what came 
into play back in 1998 when President Clinton looked at this 
problem and when the Congress looked at this problem. Both 
President Clinton and the Congress--and, in the case of this 
administration, we continue their policy of regime change 
because we had doubts about the willingness of this regime to 
come into compliance with these resolutions, especially those 
resolutions dealing with disarmament, getting rid of weapons of 
mass destruction.
    Senator Feingold. Under that formulation then, the mission 
is disarmament, and the regime is an impediment to that 
mission. It is not the mission----
    Secretary Powell. That's right.
    Senator Feingold [continuing]. To change the regime.
    Secretary Powell. The mission from 1991 to 1998 was to get 
the inspectors in to make sure that they had disarmed. In 1998, 
when the inspectors could no longer do their work, the 
administration at that time and the Congress at that time said 
that the only way to get disarmament was for regime change, and 
regime change became American policy because the regime would 
not disarm.
    Senator Feingold. I understand. Now, let me follow on that.
    Secretary Powell. Yes.
    Senator Feingold. If that's the case, are you aware of any 
significant planning for securing WMD sites in Iraq in the 
event of a military invasion? If the government were to be 
toppled and some degree of chaos were to reign for some period, 
isn't there a very real risk that weapons of mass destruction 
and the means to make them will be taken out of the country or 
sold off to exactly the kind of non-state actors that the 
United States is worried about? Do we know enough about where 
WMD sites are to be confident in our ability to secure them? 
And it seems that it would take a pretty large force to secure 
these throughout the country, and that if we don't succeed in 
all of this, then we've not actually succeeded in what I think 
you and I agreed was really the core idea of what the mission 
here is.
    Secretary Powell. I think there's a danger that we might 
not be able to get to every site that contains weapons of mass 
destruction or the capacity to develop weapons of mass 
destruction. The intelligence is not that perfect. But you can 
be sure--and here I don't want to get into military planning or 
options, and it's really the role of Secretary Rumsfeld and 
General Myers. But I'm quite sure, in any contingency planning 
that's going on in the Pentagon, the securing of those sites 
and disarmament is a major element of military planning.
    Senator Feingold. Finally, the Iraqi people have suffered 
terribly from years of deprivation, and they've been 
consistently and, I think, falsely told that it is American 
support for sanctions that is responsible for their plight. If 
widespread civil conflict breaks out in the wake of military 
action, a significant military presence obviously might be 
required for some time, particularly, again, given the 
existence of weapons of mass destruction in the country.
    What do you think is the kind of reaction we can expect 
from the Iraqi people if the United States moves to invade and 
then, for some period, has to actually occupy their country?
    Secretary Powell. This is a very important question on 
which there are many points of view. Some suggest that the 
Iraqi people will be delighted to see the end of this regime. 
This regime has suppressed its minorities, violated the human 
rights of its citizens, and not made good use of the resources 
that it has to better the lives of its people, but instead has 
used those resources for war and development of weapons of mass 
destruction.
    I think a good argument can be made that the removal of 
this regime would be greeted warmly by the people as long as 
they felt a better life was awaiting them and that a different 
kind of government would be coming in that would take care of 
their needs and not the needs of a dictator intent on the kind 
of aggression that Saddam Hussein has been intent upon.
    Others argue that the very fact that it would be non-Arabs 
or Americans coming in to take control for awhile of an Arab 
country might be a difficult problem for the population. I 
think----
    Senator Feingold. But, Mr. Secretary, what's your view?
    Secretary Powell. I think that if the operation was done 
with dispatch, was done quickly, and the Nation was clearly put 
on a path of the kind that I described earlier--getting rid of 
the weapons of mass destruction, putting in place a 
representative government, making it clear, as history 
demonstrates, the United States does not come to stay. The 
United States comes to help, it comes to build, and then 
leaves. We have no territorial ambitions or any motives of 
aggrandizement--then I think this probably would be received 
with pleasure by the people of Iraq.
    Senator Feingold. Thank you very much, Mr. Secretary.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Secretary, thank you for coming today. I want to first 
thank you also for your steady leadership through this process. 
This has not been a simple challenge, and I don't believe it 
gets any easier, and you understand that. But I think I speak 
for this country, and I think I can speak for the world, we are 
glad you are where you are and we appreciate it, and the team 
that you have backing you up, your ambassadors and all, who are 
part of your operation. So thank you.
    Secretary Powell. Thank you, Senator.
    Senator Hagel. I also want to say that I was very pleased 
to learn that it appears now that Assistant Secretary Kelly is 
going to North Korea. I know that is hourly and that could yet 
change. But, as you know, we have had some discussion about 
``axis of evil'' and the countries, and I think the direction 
that we appear to be headed here is the responsible direction.
    I had an opportunity to be briefed by the Japanese 
Ambassador here the last couple of days as I know you have, and 
the President has by the Japanese Prime Minister about this. 
And Iraq obviously seeps into everyone's conversation 
regardless what the issue is.
    I want to take the time I have to frame up a general 
question for you, Mr. Secretary, one that some of us have been 
concerned about; it's been dismissed by some. And that is maybe 
that the general area of the possibility of a ripple effect in 
the Middle East, South Asia, Central Asia, focusing on, a bit 
on the Israeli situation, the Israeli-Palestinian problem, what 
kind of an effect this could have, short-term, long-term, if, 
in fact we invade Iraq with a coalition. And followup questions 
that we have discussed here, how long the United States would 
have to stay in Iraq.
    I know they are all subjective. You cannot calibrate it 
precisely. But I think this committee, certainly this Senator, 
would be very interested in having you address that. You 
obviously have had to think through this a little bit as to 
some of the ``what ifs.'' What if we get into a little more 
than we thought? What if Saddam Hussein throws some Scuds with 
biological/chemical-tipped warheads and all these things that 
you've had to think through--not just the Defense Department, 
but you've had to think through them. You went through that 
once.
    And also in connection with that, maybe you could go a 
little deeper in your response to Senator Sarbanes as he quoted 
you back about the United States wholeheartedly committed to 
reconstruction.
    A plan. How far are we along the way with a plan? I know 
what you've said, and I hear it from the administration, ``We 
want a democracy and democratic institutions.'' You said today 
that it most likely won't be a U.S. model in the first year. We 
accept that. But is there any plan? Who's working on something? 
Identify for me who is out there as to who we can go to to help 
us on the ground.
    I know I've thrown a lot at you, but take it in any 
sequence you like.
    Thank you.
    Secretary Powell. With respect to the Middle East peace 
situation that you touched on, I think that it is important 
that during this period of tension and buildup we do everything 
we can to keep the Middle East peace process on track. We're 
working very hard on this, Senator Hagel. We had good meetings 
in New York last week with Arab leaders with the quartet. And 
for the first time in a long time in the presence of the 
quartet, we brought in representatives of the Israeli 
Government and the Palestine Authority. We had a rather 
energized debate, let me put it that way. And we have seen some 
progress with respect to transformation within the Palestinian 
Authority and some other things happening. Some slow progress, 
but I was encouraged by that progress.
    Unfortunately, as so often happens in that part of the 
world, the events of the last week and the situation at the 
Muqatta once again, with the Israeli ringing of it, has been a 
very unhelpful development, and we're working hard to see if we 
can break this siege once again and get back on a positive 
track and not constantly be sliding back down the hill.
    It is important for us to do everything we can to stabilize 
that part of the world and show progress, regardless of what 
else is going on, but especially in light of what might be 
going on in Iraq.
    There is also no doubt--there is no love lost for Saddam 
Hussein in any of the countries in the region. They recognize 
that he is one of the biggest destabilizing elements in the 
whole region and that a different kind of regime in Iraq would 
be quite welcome. They are not unmindful of the fact that the 
two invasions he's conducted in the last 20 years have been 
against neighbors. And they would like to see that kind of a 
change, but they are uneasy about how that change comes about 
and whether it will be in a way that further destabilizes the 
region. So it'll be a time of great tension.
    But I think if such an operation becomes necessary, that if 
it is done with dispatch, with efficiency, and with a clear 
sense of purpose and determination to bring this to an end, it 
will generate support and we can deal the other issues of 
uncertainty, such as the Middle East peace plan and concerns 
that might exist in the Arab street.
    With respect to Scuds and how they may be used against 
neighboring countries, it is an issue I've faced before for 
real. We went into the Desert Storm conflict quite confident 
they would use chemical weapons. They did not. We were 
expecting it. And we knew they had radiological capability and 
biological capability, and we prepared ourselves for that. And 
they did fire Scuds at neighbors, and we dealt with that. And 
we are thinking through the consequences of potential responses 
from neighbors, and all that is part of our calculus.
    And on your last point, the plan for reconstruction, there 
are task forces at work. There's a task force in my department. 
We're working with the Defense Department, National Security 
Council, and others. And as that work progresses, I think there 
will be opportunities to share that work with the Congress. As 
you can appreciate, it's quite sensitive and compartmentalized 
at the moment.
    Senator Hagel. I've got the little yellow timing light 
here.
    It was referenced recently by a member of your 
administration that one of the areas that we could count on if 
we invaded Iraq was to use Jordanian areas. Can you talk about 
that? It was my understanding that that was still pretty iffy.
    Secretary Powell. I think I would rather yield to my 
colleagues in the Defense Department who might be having more 
direct conversations of this nature, and I would not want to 
speak for the Jordanian Government in this----
    Senator Hagel. Has King Abdullah's position shifted 
publicly on this? The last I knew----
    Secretary Powell. From what to what, Senator?
    Senator Hagel. From what he--last I knew, what he said 
publicly was that he wasn't prepared yet to commit to any 
invasion or use of Jordan for an invasion of Iraq.
    Secretary Powell. I think that remains his public position, 
and I don't think we have asked him for permission to do 
anything yet. So the question is not before us at the moment.
    Senator Hagel. Thank you.
    The Chairman. Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman. How much time are 
we operating on?
    The Chairman. Seven minutes.
    Senator Kerry. Thank you.
    Mr. Secretary, welcome, and thank you so much for your 
superb efforts at the United Nations. We do appreciate it.
    Let me begin by saying that I completely support what you 
have said in your testimony, and hope the United Nations will 
understand there's a broad base of support for that here in the 
Congress, that the regime of an inspection regime must, in your 
words, have the authority of a new resolution, it must remove 
the weaknesses of the present regime and cannot tolerate Iraqi 
resistance and games and so forth. We can't go back to where 
we've been. And I think everybody of common sense, hopefully, 
would support that notion.
    Would you say to Americans that we are in a stronger 
position with respect to the prosecution of a war and our 
relations in the world if we have the support of the United 
Nations?
    Secretary Powell. Yes.
    Senator Kerry. And given that fact, would you also say that 
it is important to proceed now to try to give time to the U.N. 
to try to--and I'm not saying how much, and I certainly am not 
suggesting that our rights ought to be subjugated--but to give 
them sufficient time to be able to lend us that support so we 
are operating from a position of strength?
    Secretary Powell. Yes, and that's what we're doing now, 
Senator. We are in the most intense consultations. And earlier 
I mentioned that the United States and the United Kingdom have 
come together on a proposed resolution which I've sent my Under 
Secretary for Political Affairs, Marc Grossman, off this 
afternoon to visit Paris and Moscow and present our ideas to 
the French and the Russians. And I've discussed those ideas 
with my Chinese colleague earlier this morning on the phone and 
presented it to one of his Foreign Minister associates who is 
visiting here in Washington. So we are working to try to bring 
the Security Council together on a resolution.
    Senator Kerry. And if the United Nations were to pass a 
resolution that, indeed, changed the regime and provided for 
genuinely airtight, comprehensive, unfettered, unconditional 
access, which I think is the only standard that can exist here, 
is it your judgment that if that were not complied with and 
they didn't provide authority for force commensurate with that, 
that they would then have no choice but to provide authority 
for use of force? I mean, I assume that they would be 
completely rendering themselves useless and meaningless and 
have held themselves up to the highest level of contempt if 
they didn't.
    Secretary Powell. It's certainly the case that I am making 
and the President is making to our colleagues in the Security 
Council, don't go down this road unless you are prepared to 
take action if there is continued violation of the kind we have 
seen in the past with respect to a new resolution.
    Now, the debate really is, should we come back to the 
Security Council again for new authority, or should the 
authority be imbedded in one resolution?
    Senator Kerry. I understand. But what I'm asking you really 
is, isn't the new authority an inevitability if they, in fact, 
give you this regime?
    Secretary Powell. If they give--well, I believe it should 
be inevitable, either under the framework of the United Nations 
or if, for one reason or another, the United Nations does not 
wish to take that action.
    Senator Kerry. Well, that brings me----
    Secretary Powell. But the President reserves the right to 
take the action with like-minded nations, just as was done in 
Kosovo.
    Senator Kerry. Fair enough. And I would accept where we are 
up until this point.
    Now, the purpose of the resolution that the President has 
submitted to us, and, indeed, the purpose of your going to the 
United Nations, is to seek the strength of a U.N. resolution, 
really to enforce the U.N.'s purpose in all its prior 
resolutions, correct?
    Secretary Powell. Yes, sir.
    Senator Kerry. And what you are seeking from us in the 
resolution you have submitted to us is, in fact, enforcement of 
the U.N. resolutions. I mean, that's--there's a list of U.N. 
resolutions, correct?
    Secretary Powell. Yes.
    Senator Kerry. And so you're seeking, from the U.S. 
Congress, the right to use force to enforce those. Now, let me 
ask you----
    Secretary Powell. Either--if I just--just to make sure we 
have a common understanding--to act as part of a multilateral 
effort, but also, in the event that the President sees that the 
U.N. will not be able to act and----
    Senator Kerry. Well, I understand.
    Secretary Powell [continuing]. Decides that it is in our 
interest to act with like-minded nations. And we believe there 
would be like-minded nations at that time.
    Senator Kerry. But the action, this is what I'm trying to 
get at. What we're seeking now, what you have acknowledged is 
the United States would be stronger if we had the United 
Nations. The United Nations has already expressed itself in a 
series of resolutions. All of those resolutions were listed in 
the President's speech. They are now listed in the resolution 
before us. What we are effectively being asked is to provide 
the capacity for the enforcement of these resolutions, the most 
important of which, you have acknowledged, is weapons 
inspection.
    Secretary Powell. Right. Weapons disarmament. Disarmament.
    Senator Kerry. Weapons destruction----
    Secretary Powell. Right.
    Senator Kerry [continuing]. Not inspection. Now, none of 
those resolutions mention or seek regime change.
    Secretary Powell. That's correct.
    Senator Kerry. So the United States is, in effect, sort of 
moving unilaterally to decide there is another goal here 
outside of the United Nations. They don't mention regime change 
except to the degree that enforcement of the inspection and 
destructions may ultimately require a regime change.
    Secretary Powell. Yes. That's the basis for U.S. Government 
policy, as expressed both by two Presidents in a row and the 
Congress since 1998.
    Senator Kerry. So, therefore, I would ask you, Mr. 
Secretary, and, through you, the President, based on some of 
the questions Senator Sarbanes asked earlier--I mean, I would 
assume, based on your experience and, I mean, just knowing you 
as I do, I can't believe you would recommend to the President 
that he should go to war simply to enforce, what, the proper 
sale of oil. I would assume the President is not going to go to 
war simply--where is the listing here----
    Senator Sarbanes. Page three.
    Senator Kerry [continuing]. The release of the gulf war 
personnel. Let me sort of come to my question. I mean, if--if--
and I know it's a huge if; but if Iraq were pushed to a point 
that they had to comply, and did comply fully with an 
unfettered, unconditional spot inspection satisfactory to the 
new regime which you are seeking from the United Nations, and 
it was met, would you go to war?
    Secretary Powell. If Iraq was disarmed as a result of an 
inspection regime that gave us and the Security Council 
confidence that it had been disarmed----
    Senator Kerry. Correct.
    Secretary Powell [continuing]. I think it unlikely that we 
would find a causus belli.
    Senator Kerry. Then don't we have to give that its 
opportunity to work? Don't you have to exhaust that 
possibility?
    Secretary Powell. That's exactly the challenge that the 
President presented to the United Nations.
    Senator Kerry. Then why are we being asked----
    Secretary Powell. Because we believe----
    Senator Kerry [continuing]. For a very broad resolution 
where we would give the authority to the President to go to war 
for so much more than that, prior to that even happening? I 
mean, you're asking the Congress of the United States to give a 
blanket permission to go to war for a broad set of things that 
aren't even encompassed in the resolutions, none of which rise, 
in your own testimony now, to the level of going to war?
    Secretary Powell. Which broad set of things that----
    Senator Kerry. Well, I mean, are you telling me we're going 
to go to war because they haven't returned all the stolen 
property and accepted losses from the war?
    Secretary Powell. I think the President has made it clear 
in all of his conversations with Members of Congress, in his 
presentations to the American people, and his presentation to 
the United Nations that Iraq has to be disarmed. That----
    Senator Kerry. I agree.
    Secretary Powell [continuing]. Is the major problem.
    Senator Kerry. I agree completely.
    Secretary Powell. But there are also, as you talked about, 
the various resolutions, the 16 resolutions, the almost 30 
conditions contained within all those resolutions, there are a 
lot of other things that Iraq is in violation of.
    Senator Kerry. I completely agree.
    Secretary Powell. But there is no question that light that 
is glowing at us is the one that has to do with weapons of mass 
destruction. And the whole inspection regime went after that 
one. There was no inspection regime on Kuwaiti prisoners or the 
oil-for-food program. There are other ways to deal with that.
    And so what the President is asking for the authority to do 
is to take appropriate action either with the U.N. or, if the 
U.N. does not act, for him to work with other like-minded 
nations to disarm Iraq.
    And the whole purpose of a regime-change policy that came 
in in 1998 was because the regime, the Iraqi regime at that 
time, was acting in a way that suggested the only way you could 
get satisfaction of that disarmament requirement was through a 
change in the regime.
    Senator Kerry. Well, if I could just say, Mr. Secretary, 
the reason--and I'll close. My time is up, and I don't want to 
abuse it. But may I say to you, sir--and I don't want any 
misinterpretation about my position. I really want none 
whatsoever. The issue, to me, is not whether Saddam Hussein 
should be held accountable. Of course he should. The issue is 
not whether or not these weapons are a threat. Yes, they are. 
The issue is, how do we go about this?
    And the question remains why, if the gravamen of threat to 
the United States, according to most rational people's 
judgment, is the weapons of mass destruction, the capacity of 
Saddam Hussein to miscalculate, the capacity of those weapons 
to slide off to a surrogate terrorist group--all of those 
threats are real--but if you could satisfy that threat without 
a drop of blood spilled because the United Nations succeeds in 
putting in place an unfettered, unconditional spot inspection 
that results in destruction--I have no confidence, 
incidentally, that that will happen automatically. But it seems 
to me that's what builds you the legitimacy of the casus belli 
and the consent of the American people to finally make that 
commitment, and it just baffles me why the resolution doesn't 
reflect that, rather than this extraordinary broad overreach.
    The Chairman. Because it was written by the White House 
Counsel and not the Secretary of State.
    Secretary Powell. May I make one final point?
    The Chairman. Yes.
    Secretary Powell. Thank you, Senator. And I understand your 
point. If I can, just before shifting, come back to Senator 
Hagel briefly, yes, Assistant Secretary Kelly will be traveling 
to Pyongyang on the 3rd of October as a Presidential envoy.
    Senator Sarbanes. Was the resolution written--I heard from 
someone the State Department wrote it. But I now understand 
from what Senator Biden said that that's not the case and that 
the resolution was written by the White House Counsel. It came 
up here under the White House Counsel's name.
    Secretary Powell. I think it came up from the White House. 
We all saw the resolution in the process of it being drafted. I 
saw it before it was submitted.
    Senator Sarbanes. Where was the locus for writing it, at 
the State Department?
    Secretary Powell. I can't tell you, Senator, whether my 
lawyers were involved in it or not, but I think the principal 
focus of writing and authorship was in the White House.
    The Chairman. Well, on a different subject of some 
interest, since you mentioned it at the front end of your 
testimony, we just passed the State Department Authorization 
bill. The House has passed it. The President will get it soon. 
If he signs it, which I hope he will, you'll have $80 million 
to take care of your last payment----
    Secretary Powell. Whew.
    The Chairman [continuing]. And a lot of other things, so I 
just thought that might give you a little good news in all the 
fun you're having here today.
    Secretary Powell. The money was going to expire Monday, so 
thank you.
    Senator Kerry. Mr. Secretary, I just want to thank you.
    Secretary Powell. Thank you, Senator.
    Senator Kerry. Thank you very much, sir.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here.
    At the earlier session, I asked the former Secretaries a 
question relative to what President Mubarak said several weeks 
ago, and that was, ``If you strike Iraq, not one Arab leader 
will be able to control the angry outbursts of the masses.''
    Now, as we go forward and you listen to someone who's been 
in the country since the early 1980s, probably longer than 
anybody else in the region, what do you think? Is this 
hyperbole? And if we're going to listen to these respected 
leaders in the world--and I'll also quote General Musharraf, 
``An attack on Iraq will have very negative repercussions 
around the Islamic world''--how do we, absent the overwhelming 
proof that constraints on Saddam Hussein are not working, how 
do we listen to these leaders and risk what they're saying?
    Secretary Powell. There will be a period of heightened 
tension if we have to undertake military operations against 
Iraq. Many of them have also said to us that if it becomes 
necessary, it would be better if it was done under the 
provisions of a U.N. mandate, U.N. resolution. That would 
assist them enormously in dealing with the problems that might 
exist within their countries.
    There's no question there will be tension. But, at the same 
time, every one of these leaders also tells us that there is no 
question in their minds that Saddam Hussein is in violation, 
there's no question in their minds that he's a threat to 
regional stability and peace, there's no question in their 
minds that he is a threat to the region and has demonstrated 
previously his willingness to use weapons of mass destruction, 
and there is no doubt in their minds that he continues to have 
the intent to develop these weapons of mass destruction. And so 
if it was done in a way that was decisive and that was swift 
and with the promise of a better life for the Iraqis 
afterwards, I think the spill-out--spill-off problems that 
might exist in the region for some period of time could be 
managed.
    Senator Chafee. In light of that, what's the difference 
between your experience in 1991 in forming an international 
coalition and the trouble, obviously, that we're having this 
year? You talked about these leaders knowing Saddam Hussein is 
a threat. Back in 1991 they gladly signed up to an 
international coalition, save Jordan, but this time, obviously, 
the dynamics are so different. It's 11 years later, and they're 
expressing grave, grave reservations. Does that tell us 
something?
    Secretary Powell. Well, there are many differences. In 
1990, it was a invasion of a fellow Arab nation. I mean, Iraq 
left its borders to invade another nation and take it over and 
eject a ruling family. It was on the verge, perhaps, of 
invading another neighbor, Saudi Arabia. And so there was no 
doubt about the threat. It was clear, it was present. And the 
response that the international community made to that 
aggression was that we would reverse that aggression, and we 
would do it in a way that did not invade an Arab country in the 
process of doing it. We weren't going to Baghdad. We weren't 
invading Iraq. We were ejecting Iraq from Kuwait. And that gave 
us the wherewithal to put together this international coalition 
that consisted of Arab armies cooperating with us and fighting 
alongside of us. The Syrian army, the Egyptian army, the gulf 
military forces, and other Muslim nations participated in it. 
And it was for that reason that we had a limited mission, which 
was to eject the Iraqi army and not move on Baghdad.
    This is different. We have now seen, 11 years later, that 
this individual still remains a threat, still tries to develop 
weapons of mass destruction, and it is a different context. And 
it's also a different context with respect to the situation 
between the Israelis and the Palestinians. It's a much more 
heated environment. But keep in mind, it was heated then. 
People were worried then. And as the results of our success in 
the gulf war, we found that we were able to manage this heat 
that existed in the region and even use our success in the gulf 
war to get the Madrid process underway, the Madrid meetings 
that took place in the fall of 1991 which, in due course, led 
to other progress in trying to solve the Middle East crisis. 
Unfortunately, that did not solve the Middle East crisis and 
it's still with us, and it's in a much more difficult situation 
than it was then.
    Senator Chafee. So to get right down to it, the threat is 
different.
    Secretary Powell. The threat is different, the environment 
is different, and the only way to deal with the threat right 
now if we do not get compliance on the part of the Iraqi 
regime, Saddam Hussein--if we don't get compliance this time, 
then it is a different kind of military mission that must be 
undertaken, must be to go in and remove the regime.
    Senator Chafee. Would it be fair to say the threat is 
lesser?
    Secretary Powell. The threat--if you're talking about the 
capacity of the Iraqi military, its conventional capacity is 
nowhere near where it was 12 years ago. I would guess it's 
about perhaps 30 percent of its--30 to 40 percent of its size 
and certainly of its effectiveness. Its weapons of mass 
destruction, we destroyed a lot. The inspectors did great work.
    Sometimes people talk down to the inspectors about the 
wonderful work they did for a period of 7 years. They helped 
with intelligence and helped with defectors who gave them 
information, but then they were thrown out and we don't know 
what's been reconstituted over the last 3 to 4 years. So there 
is still the threat of weapons of mass destruction being used 
in any new conflict.
    Senator Chafee. It seems to me then that if the threat is 
lesser, we're having to horsewhip our allies into a coalition, 
the Arab friends and neighbors in the region----
    Secretary Powell. Yes.
    Senator Chafee [continuing]. Are all saying, ``Don't do 
it.''
    Secretary Powell. The coalition just----
    Senator Chafee. Madeleine Albright said, ``This is a 
mistake.'' And all you have to do is run your hand over the 
black granite at the Vietnam Memorial to see what mistakes do.
    Secretary Powell. The coalition just didn't snap together 
on the first day of the conflict back in 1990. It took a lot of 
hard work. It took a lot of discussion and a lot of hard work 
on the part of Secretary Baker, then-Secretary of Defense 
Cheney, yours truly, as chairman of the Joint Chiefs of Staff, 
and, above all, President Bush and the other members of the 
Cabinet, to bring that coalition into being. And we are working 
in that same vein now. That's why President Bush took it to the 
United Nations on the 12th of September. He didn't go to the 
United Nations on the 12th of September to issue a declaration 
of war. It was a declaration of purpose, ``We've got to do 
something about this.''
    And, yes, there are these dangers in the region that 
Secretary Albright spoke of, but we believe one of the greatest 
dangers in the region right now is the danger of this 
individual being able to thumb his nose once again at the 
United Nations, and the United Nations doing nothing about it, 
and his intent, unchanged, to continued to develop weapons of 
mass destruction. And we may not be able to keep him in his box 
forever. We might not be able to contain him forever. We can't 
continue to take the risk of him coming out of that box or him 
showing up one day with the capability that threatens his 
neighbors or threatens our interests or threatens us directly, 
or his working with terrorist organizations which threaten us 
directly.
    Senator Chafee. Before my time runs out, I know Senator 
Kerry talked about it. Isn't that all the more reason to have 
more time on debate on this and----
    Secretary Powell. Well, I think----
    Senator Chafee [continuing]. Giving the time for the----
    Secretary Powell. I think we are having that debate now, 
both here in the United States and in the United Nations. 
We're--I mean, I haven't spent--I've been doing nothing for the 
last 2 weeks since the President's speech but working this--
yes, I have been doing other things, let me not sell myself 
short, others will do that for me.
    But this certainly has been a priority for me for the last 
several weeks.
    Senator Chafee. You're terrific. Thank you.
    The Chairman. Mr. Secretary, do you need a break?
    Secretary Powell. No, I'm fine.
    The Chairman. OK. And if you'd like a cup of coffee or 
something----
    Secretary Powell. I'm great.
    The Chairman. Mr. Secretary, you know better than I do that 
when--I guess it was, I don't know--Senator Lugar or Senator 
Hagel were talking about the, sort of the artificial construct 
of this country named Iraq after 1921. This country, and I know 
you know this, but make sure I get it right--is divided Arab, 
Indo-European--that is, Kurds--and the rest of the population 
is Arab. Arab population is split Sunni and Shia. Kurds, non-
Arabs, are Sunnis. Sixty percent of the population is 
essentially in the southeastern part between the Tigris and the 
Euphrates, generally.
    The Shia, there are 600,000 to 700,000, based on, I think, 
your Department's estimates, Shia in Iran right now as 
displaced refugees. Do we have any sense--I'm not suggesting 
you should know, but do we have any sense whether or not if 
Saddam were gone, they'd come back? Do we have the problem and 
opportunity of 600,000-700,000 people moving back across the 
border, and all that that entails, good and bad? And do we have 
any sense of whether or not they'll come back looking to settle 
scores with the roughly 20 percent of the Arab Sunni 
population, which is the Ba'ath, the essence of the Ba'ath 
Party?
    In my discussions, and we've all had them over the years, 
with the Iraqi National Congress, there are real deep 
disagreements. Do we have any sense of what this diaspora of 
Shia in Iran, particularly, are likely to--anything about their 
attitudes, about democracy, or their attitudes about a united 
Iraq. Can you talk to us about that?
    Secretary Powell. I don't know, Senator. I haven't seen any 
data on attitudes or whether we have done any analysis of that 
or polling of that population. I'll have to look at that. If we 
have, I'll provide it for the record.
    The Chairman. Now, you may not be able to answer the 
question in public, but we all know from our individual 
interfacing with foreign leaders that the Turks are very 
concerned about the Kurds. We also know that the Kurds, some 
Kurds, kind of like it just the way it is. This is as close to 
an autonomous republic that they have had since 1921. And we 
know that not all Kurds, but a number of Kurds, still harbor a 
desire for a Kurdistan, which, I know you know this, the map is 
very small--but which goes well into Turkey and into Iran. Are 
we going to have to make any commitments to the Turks that the 
Kurds aren't going to know about? Or are we going to have to 
make any commitments or lay down the law to the Kurds before we 
enlist the Turks?
    In other words, everybody we've spoken to, military, non-
military, says this operation--and you are one of the most 
well-known military men; you don't think that way anymore, but 
you are--everybody tells us that without Turkey's participation 
or accommodation militarily, this is a very difficult 
undertaking for us. So how are you all playing this Kurd-Turk 
deal?
    Secretary Powell. We've made it clear that in any future 
Iraq, we are interested in retaining the country as it 
currently exists, within those borders, and would not be 
supporting an independent Kurdistan.
    The Chairman. And the Kurds know that?
    Secretary Powell. It's been our declared policy.
    The Chairman. Yes. Do you have a sense--how great is your 
concern? I'm not suggesting it's not manageable, but how great 
is your concern that Saddam lashes out against Israel to try to 
make this a larger war? What is your sense of his capacity to 
do that?
    Secretary Powell. He does have some capacity to do that. We 
believe he still holds some Scud missiles that the inspectors 
did not destroy during their period of activity inside Iraq, 
and we have to assume he has that capability. But it is far 
less than he did in 1990. But it is, nevertheless, something we 
are concerned about.
    The Chairman. Now, have you--I'm sure you have--have you 
calculated what the response or reaction will be in Jordan, 
Egypt, Saudi Arabia, Syria, Iran, the gulf states, if Israel 
were to respond in kind or beyond what they were--what came 
their way?
    Because it seems to me--and, again, this is just, you know, 
a student of the region--part of Sharon's doctrine--I'm making 
it up; there's no Sharon doctrine--but part of Sharon's 
doctrine is the absolute demonstration that Israel is prepared 
to respond to anything, and respond beyond what was delivered 
to them. Assume that were to occur. Do you, have you factored 
in what happens in the Arab states from the gulf to Jordan and 
Egypt?
    Secretary Powell. We have factored both alternatives into 
our thinking, and we will stay in the closest consultation with 
our Israeli friends as to the nature of any threat they might 
be facing.
    The Chairman. Since we only have a few left, I'm going to 
yield now, but before I let you go, with your permission, I 
want to ask you about one other aspect of the resolution, but 
my time's up.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Secretary, on the front page of the Wall Street Journal 
this morning, there is an analysis of administration foreign 
policy which suggests, among other things, that it's been very 
assertive, very bold, successful, at least in pushing the 
envelope in many ways. It suggests that one repercussion of 
this, successful or not, is resentment on the part of many 
countries that we are pushing ahead in these ways.
    Certainly without getting into any thesis the Wall Street 
Journal has, it's been evident as we've discussed the previous 
war with Afghanistan with NATO allies, that many feel that they 
invoked Article V and that we did not take them seriously. We 
have responded--we, in a broad sense--that we were attacked, we 
had lift capacity, and, except for the British, they did not, 
that the specific tactics of that war were unique there, 
perhaps, the success there.
    But, at the same time, there has come to be an argument 
over the relevance of NATO. And this is a very important 
alliance, a very important group of countries for success.
    I'm wondering, how can we constructively rebuild the kind 
of esprit de corps that we need. Lord Robertson and others 
suggested from the beginning that NATO might take over the 
responsibility in Afghanistan of assigning roles, rather than 
sort of a pickup game every 3 months or whoever volunteered, 
and we might really enlist more people to help us in this 
particular situation.
    I know you've thought about this a great deal, and so this 
is not a comment of criticism; it's just a comment of 
observation that we need these countries. Specifically, I know 
Secretary Rumsfeld is over there, maybe as we speak, visiting 
about the creation of a response force of 20,000 soldiers. Such 
a force might relieve the need for NATO countries to cover 
every responsibility. Can you make an overall comment about 
where and how our allies contribute to success in a post-Iraq 
scenario, whatever it may be?
    Secretary Powell. I'm a great supporter of NATO. I started 
my career in NATO as a young second lieutenant and ended my 
field career in NATO as a corps commander. And I have been 
astonished to see the growth of NATO in the years following the 
end of the cold war. That wasn't supposed to happen. But guess 
what? They all want to join. And we're about to see a 
significant expansion of NATO. So it is as relevant as it has 
ever been, but just in new ways. And it can take on new 
missions and new challenges. Integrating all of these new 
members into an alliance that is resting on the pillars of 
democracy and the free enterprise system and the individual 
rights of men and women, in and of itself, is a significant 
achievement for the alliance.
    NATO stepped up to that the very first day after 9/11 when 
they invoked Article V. Now, there were those that suggested, 
well, then the whole alliance is coming. But what we didn't 
really need was the whole Alliance to show up as NATO. What we 
got, though, were Alliance members who contributed to Operation 
Enduring Freedom and to ISAF. So NATO is in Afghanistan--its 
techniques. All the training we do is in alliances in 
Afghanistan, our command and control ability, our ability to 
work with nations, different nations with different languages 
and different force structures, but they're all unified by 
their membership in NATO. And I've seen this happen time and 
again over the years.
    So NATO, even if it isn't there as a formal structure, is 
there, in terms of the capacity that it has, and I think it 
will be there in any future operation we have, because that's 
where you go to to pull this capability from.
    My colleague, Don Rumsfeld, made a case the day before 
yesterday for a rapid reaction force that has new capabilities 
that is transformed for these new kinds of challenges that are 
coming along. And I think his presentation was warmly received, 
and we'll see how the Alliance responds to this.
    So NATO does have an important role to play in the future, 
and I'm glad that we're going to be on an expansion run with 
them in November in Prague.
    You also gave me a softball there, Senator, to talk about 
our foreign policy. Even though there are those who 
occasionally resent us, they tend not to show too much 
resentment when they come to my office and when they go to see 
the President. Individual nation leaders go to see the 
President in the Oval Office. They are thankful for our 
willingness to stand up for what we believe in. They are 
appreciative of our efforts to break down trading barriers and 
to expand the circle of economic liberalization and to talk 
about human rights.
    We spend a great deal of time saying, well, we haven't made 
enough progress in the Middle East, or, we have this Iraq 
problem, but we don't spend enough time talking about 
rapprochement and the strong relationship we've built with 
Russia, strong relationship we're building with China, our 
successes with respect to free trade agreements and how the 
President's going to trade promotion authority. We don't talk 
enough about the President's leadership with respect to HIV/
AIDS and other infectious diseases. We don't talk enough about 
the African Growth and Opportunity Act expanded.
    And so we have got a lot of good things going on. We don't 
talk enough about how we got a Treaty of Moscow and we put the 
ABM Treaty in the past, and we're still going to cut ballistic 
missiles pointed at each other by some 60 or 70 percent, all 
without destroying the strategic framework. Yet everybody last 
year resented the United States even thinking in these terms. 
Well, we pulled it off and we got a good agreement with the 
Russians, which I trust this body will ratify in the not-too-
distant future.
    And so we've got a lot of good things going on that 
occasionally don't get talked about because we're focusing on 
the crisis of the moment, which is the way it is and the way 
things tend to be looked at. But we have had a number of 
foreign policy successes. There are a number of initiatives 
underway. And if you occupy the position of leadership that the 
United States does, you must assert it. You must lead. That's 
what President Bush is doing. And I think we will be showing to 
the world that success comes from such assertive, responsible 
behavior working with our friends and allies.
    Senator Lugar. Mr. Chairman, I think that the NATO nations 
that listen to what the Secretary just said will be heartened 
by that. I appreciate your being that explicit and 
comprehensive.
    Mr. Chairman, I just want to offer a word of 
congratulations--and maybe I'm historically inaccurate, so you 
may check the record. But I think there has not been an 
authorization bill for the State Department that passed both 
houses and was conferred upon and signed by the President since 
1986.
    Secretary Powell. See, another foreign policy success that 
I wasn't even going to take credit for.
    Senator Biden. But whose is it?
    Senator Lugar. But congratulations.
    The Chairman. I'm sure the President is responsible for 
that.
    Secretary Powell. Thank you, Mr. Chairman, seriously. Mr. 
Chairman, that bill cleans up a lot of things and gives us a 
lot to work with, and we really are appreciative.
    The Chairman. We had a lot of help.
    Senator Sarbanes. Oh, I'm sorry. Senator Nelson. I beg your 
pardon.
    Senator Sarbanes. I don't think you had a turn, did you?
    Senator Nelson. Not yet.
    The Chairman. I beg your pardon. Sorry.
    Senator Nelson. Mr. Secretary, we have a downed American 
pilot from the gulf war. You and I have talked about this. 
Since I have spoken to you, I have spoken to every leader that 
I can get my hands on from the gulf region asking them to task 
their intelligence apparatus to see if they can get any 
information. Indeed, Captain Scott Speicher's status has been 
changed by the Department of Defense from killed in action to 
missing in action. And there is some consideration right now of 
perhaps changing his status to missing-captured, because there 
was a credible live sighting of Captain Speicher alive being 
driven to the hospital by a defector who was deemed credible.
    So I would just encourage you--Senator Pat Roberts of 
Kansas and I and Senator Bob Smith of New Hampshire are the 
ones that have been involved, mainly. Captain Speicher is from 
Jacksonville. His family is there. There's a wife and children 
and you can imagine the agony they're going through. So as we 
are getting ready to do an inspection regime on weapons of mass 
destruction in Iraq, I would encourage you to press the issue 
of the missing American pilot, as well.
    Secretary Powell. Senator, you should have no doubt about 
that. I think I mentioned it in my prepared testimony. I'm in 
close touch with Secretary Rumsfeld and Deputy Secretary 
Wolfowitz, who has a personal interest in this and monitors it, 
and there were some developments earlier this week that I spent 
time on and, through intermediaries, was in touch with the 
family, so we take it very, very seriously and we watch it very 
closely and it will never be far from our mind. He went down 
when I was chairman, and I'll never forget it.
    Senator Nelson. Thank you.
    Could you help me understand how what is being trumpeted as 
a preemptive doctrine is any different from how we've always 
operated, that the President clearly has the authority, as 
Commander in Chief, to act if it's in the interest of the 
United States, to protect the United States?
    Secretary Powell. Well, I agree with you, Senator, and I 
had a chance to talk about this a little bit earlier, but I 
would like to say another word about it. In the National 
Security Strategy, what we attempted to convey with that 
language was that traditional means of deterrence and 
containment that worked against state actors--the Soviet Union, 
China, others--when you look at what happened to us on 9/11, we 
were struck by a terrorist group, not by a state actor, by a 
terrorist group that didn't come out to fight us in the field 
of battle, but sent in suicide bombers.
    And so it is a different kind of threat. And as we look at 
the tools available to us to deal with this threat, one of the 
tools that we have to be able to use are preemption tools. When 
if we see this kind of attack coming at us, then the act of 
preemption or taking preemptive action should be something we 
consider and perhaps consider it more readily than we might 
have in the past.
    I have reread that chapter a number of times since seeing 
all the press speculation and all the editorials being written 
on how it represents a revolutionary new doctrine, and I, 
frankly, don't find it revolutionary. I find it sensible.
    The reason it's focused on so heavily in that particular 
section of the National Security Strategy, it was an effort on 
the President's part and the author's part to explain to people 
why this new threat has now been elevated in our thinking and 
how preemption, therefore, also has to be elevated in our 
thinking. But it is a tool that we have always had and we have 
used in the past and we're using today as we try to preempt 
their financial systems and we try to preempt their movements, 
we try to preempt their activities around the world. All of the 
arrests that are taking place now are good, solid preemptive 
actions.
    Preemption may well rise to be a military action at some 
point. But the purpose of that section was not to be as 
revolutionary as it has been portrayed, but to elevate the 
concept of preemption in our thinking and in our strategic 
discussions.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Secretary, you have, I'm sure, noted over the last 
couple of months and may well have had personal contact with 
your friends and former colleagues, General Zinni, 
Schwartzkopf, Clark, Joe Hoar, Shalikashvili, others, about 
their reservations about going to war in Iraq. You obviously 
have high regard for their judgment. You served with them. Some 
have testified before this committee. Some have testified 
before the Armed Services Committee. All have spoken out 
publicly on their concerns and reservations. Would you care to 
address those concerns in any way you like?
    Secretary Powell. These are old friends and colleagues of 
mine, and we all served together in one capacity or another, 
and I would expect them to put forward concerns and 
reservations.
    This would be a daunting military operation. I don't accept 
the premise that it's going to be a ``cakewalk.'' No sensible 
military officer would go into any operation thinking it's 
going to be a ``cakewalk.'' And so I think it was useful of 
them to put down their perspective.
    And you can be sure that my colleagues in the Pentagon and 
those who took over for me when I retired and left the uniform 
understand what will be required if asked to do this. But I 
don't think one of them would say that it is an impossible 
mission or that difficult, really, if you put your mind to it 
and you put the resources to it.
    We have to be mindful of the day-after scenario that we've 
been talking about, and it will probably require a fairly 
significant commitment of troops to manage and occupy Iraq 
until such time as you can turn it over. That, I think, is a 
daunting problem, as well. And you can be sure that their 
concerns, their reservations, and their points of view are 
being considered. And I have respect for their points of view.
    Senator Hagel. Thank you.
    Can you tell this committee what kind of progress we have 
made, our country, in enlisting Arab country support in our 
efforts here if, in fact, the option is a military option?
    Secretary Powell. The Arab countries have had reservations, 
and they have made public statements, and they've also made 
private statements. I'd rather not get into the specifics of 
each country, but let me make this overall observation. A lot 
has changed since the President's speech on the 12th of 
September. A lot has changed once the President put the case 
out publicly and we stopped all the dueling op-ed pieces and 
the dueling leaks and all the other things that were happening 
in August. Once the President put the case down clearly and 
asked the U.N. for action, that changed a number of attitudes 
among our Arab friends.
    Senator Hagel. Back to the issue on opposition forces, 
wherever, however they be and what role they may play. I noted 
here in the paper we are now engaged or soon will be engaged in 
training some form of opposition force. I think some of the 
terms used is ``scouts'' and other descriptions. What do you 
know about that? Where are they coming from? Is this a Northern 
Alliance kind of an effort? Are they there? Where are they? Why 
didn't we know about them before?
    Secretary Powell. Senator, no decisions have been made yet, 
but there is certainly a great deal of planning underway as 
referenced in newspapers. But I would really prefer to yield to 
my colleagues in the Pentagon in a closed session to get into 
the details of this.
    Senator Hagel. OK.
    Back to the issue of the resolution questions that were 
asked--and maybe you said this and I didn't hear it--the 
current back and forth and negotiation, if that's what's going 
on--most of us are not aware of it--are you involved in that? 
Do you have a representative involved in that day to day 
negotiation with the language----
    Secretary Powell. I haven't been involved in the day to day 
discussions that may be taking place between the administration 
and Members of Congress on the resolution. We all were involved 
in the preparation of the resolution or--although it came out 
the White House signed out by the President's Counsel, Mr. 
Gonzalez, I believe. I'm quite confident that as Congress 
decides what changes it believes are appropriate to the 
resolution and the President considers those changes, that we 
will have a chance to weigh in as to the impact that those 
changes would have on anything we're doing diplomatically.
    I would just reinforce, however, that I believe it's 
important that action be taken on a resolution quickly as a way 
of showing unity of purpose within the U.S. Government. That 
would be helpful to me in my diplomatic efforts with the U.N.
    Senator Hagel. Well, obviously, my implication there, and 
you, I'm sure, follow it--and I have nothing against lawyers. 
I've got one in the family, actually, one of my brothers.
    Secretary Powell. Me too.
    Senator Hagel. And you do, too. But one per family should 
be sufficient. And I apologize to Sarbanes and Biden on this 
point, but I don't think framing up the verbiage in an intent 
of going to war should be left to the President's Counsel's 
office, and I am concerned--maybe only I am concerned about 
that. It's important that the people who are going to have to 
implement this and carry out whatever it is the lawyers decide 
is the right way to do it be part of that, as well as you.
    And the other thing that concerns me about the resolution 
is this, I think, is the same office who had counseled the 
President that he doesn't need any involvement by the Congress 
to go to war in Iraq. And so if you'd care to comment on that, 
I'm sure we would welcome any thoughts you have.
    Secretary Powell. The resolution that the President sent 
up, we all saw, had an opportunity to comment on--I did--and 
reflected our input, but it came out of the White House, which 
is where I would have expected it to come out of. As 
modifications are made, as changes are made, and I think as we 
get closer to what the will of the Congress might be, I'm quite 
confident that the President will share it with the rest of us 
and we'll have a chance to give our input.
    Senator Hagel. Well, thank you. I've got a little more time 
here, and I've got one additional question.
    In the Washington Post today there's a headline, ``Bush 
Asserts That Al Qaeda Has Links To Iraq's Hussein.'' And I know 
you generally responded to that over here, but there's a quote 
in here from Secretary Rumsfeld--I know you don't speak for 
him: ``A few hours before Bush's remarks, Defense Secretary 
Donald Rumsfeld was asked by reporters traveling with him in 
Warsaw if there are any linkages between al-Qaeda and Iraq.'' 
After, there's now been some generalization that there might be 
new evidence here on training and there was past training and 
so on. And this is the quote, if this is correct, from 
Secretary Rumsfeld in response to that question, ``I have no 
desire to go beyond saying the answer is yes.''
    Well, I find that interesting. I know it's not your quote. 
I'm not saying you answer for anyone other than yourself on 
this, but there is a thing that is rumbling around, I think, in 
the country and the world, Mr. Secretary, and that's the 
credibility of the argument here. And if the credibility of the 
argument continues to be stretched and pulled, and one week 
it's this and this week it's this, and much of the evidence of 
what I'm talking about, too, came out today in the hearings, as 
you know, trying to define a number of the questions that were 
asked what is the objective.
    I know you know this, but I don't think we can ever 
overstate the importance of the credibility of our senior 
members of our government. And to say, yes, I know there is 
evidence there, but I don't want to tell you any more about it, 
that does not encourage any of us, nor does it give the 
American public a heck of a lot of faith that, in fact, what 
anyone is saying is true. We've been through one of those 
experiences before.
    Secretary Powell. I think Director Tenet has spoken to this 
in his classified testimony, and I would encourage you to take 
a look at what George said.
    To summarize what I can say in open testimony, there is 
evidence of linkage between al-Qaeda and Iraq. Second, there is 
no linkage to 9/11 that we are aware of, but I can't dismiss 
that possibility. And, third, perhaps part of the confusion on 
this issue is that we're learning more over time as we get 
access to more and more people who have been detained or 
captured and as we have other defectors coming forward and as 
we really focus our intelligence assets on this question. And 
so there is no doubt that there are linkages, that there have 
been al-Qaeda members in Baghdad, and there have been contacts 
that have occurred over the years.
    There's no smoking gun linkage to 9/11, but it cannot 
totally be ruled out. And one of the reasons for the 
development of this story over the recent days and weeks is 
that we're learning more. And I think George Tenet, in his 
prepared classified testimony, talks to this in a way that I 
think will answer your question and reassure Congress that 
we're doing the best we can not to strain our credibility. That 
is not in our interest and that is not our intention.
    Senator Hagel. Thank you.
    The Chairman. I was at such a briefing. I can't comment on 
it except just for the record to show I dissent from the 
characterization of the Secretary of Defense.
    Senator Sarbanes.
    Senator Sarbanes. Mr. Secretary, I wasn't clear earlier 
whether you were suggesting that the Congress had adopted a 
decision supporting the use of military force to achieve regime 
change.
    Secretary Powell. No, I was saying that in--I don't have 
the public law in front of me, but the Congress did adopt a 
position with respect to a regime change.
    Senator Sarbanes. For the use of military force?
    Secretary Powell. I don't have the law in front of me, so I 
don't want to say what was contained within that public law.
    Senator Sarbanes. Well, that's the Iraq Liberation Act----
    Secretary Powell. Yes.
    Senator Sarbanes [continuing]. Of 1998, I presume, and that 
was an effort to try to give a boost to the Iraqi opposition 
and is stated as a policy to remove the regime. But that law, 
at the very end of it--do you have it there--oh, I thought you 
were looking----
    Secretary Powell. No, I don't think so.
    Senator Sarbanes. Well, at the very end of it, it says, 
``Nothing in this Act shall be construed to authorize or 
otherwise speak to the use of United States Armed Forces, 
except as provided in Section 4(a)(2) in carrying out this 
Act.'' And 4(a)(2), the section--the exception section--dealt 
with providing military draw-downs to provide aid to this Iraqi 
opposition. But there's not been, to my knowledge, at least, 
any authorization by the Congress for the President to use 
force to achieve regime change.
    Secretary Powell. I would have to review my own transcript 
of earlier this afternoon. I don't recall that I said that. 
What I said was that the Congress and the Clinton 
administration and then the Bush administration, over a period 
from 1998 on, have established that it is the policy of the 
U.S. Government, as it says here in Section III, ``should be 
the policy of the United States, to support efforts to remove 
the regime headed by Saddam Hussein from power in Iraq and to 
promote the emergence of a democratic government,'' the Iraqi 
Liberation Act.
    Senator Sarbanes. Right.
    Secretary Powell. Imbedded in that was the intent to 
support opposition forces to this end.
    Senator Sarbanes. Yes.
    Secretary Powell. But it became the policy of the U.S. 
Government, as expressed in this act, and I think--I don't know 
if it's in other acts or not--and it became, it was a policy 
that was enunciated by President Clinton.
    Senator Sarbanes. But also imbedded in that act is the 
section I read to you----
    Secretary Powell. Yes, it is.
    Senator Sarbanes [continuing]. Which is right at the end of 
it which says, ``Nothing shall be construed to authorize or 
otherwise speak to the use of United States Armed Forces.''
    Secretary Powell. Nor do I think that I asserted that it 
did authorize the use of United States Armed Forces.
    Senator Sarbanes. Well, I just want to be clear on that 
point.
    Secretary Powell. Yes.
    Senator Sarbanes. Now, on this National Security Strategy, 
I have this question and one other. David Broder says in a 
column this week, and I'm going to quote him, ``The restatement 
of the United States' fundamental defense doctrine issued by 
the Bush administration last week substituting preemption of 
potential threats for containment of aggression is probably the 
most dramatic and far-reaching change in national security 
policy in a half a century.'' And then he discusses this.
    And then later he talks about the evolution of our policy 
through the isolationism between the two world wars to the 
bipartisan containment policy and so forth. He says, ``A common 
characteristic of the whole 20th century was a readiness of the 
United States to respond to threats to its security and its 
reluctance to initiate conflict or issue ultimatums to anyone. 
When aggressors pushed forward, we pushed back, but we did not 
start fights ourselves. Now with the doctrine of preemption 
justified by the all-too-real threat of terrorism, Bush is 
proposing to scrap that distinction. Instead, he has searched 
the right of the United States, as the only superpower, to 
judge the degree of potential danger itself and to take 
whatever action it deems necessary to eliminate that threat.''
    Now, you, today, have spent some time sort of saying, well, 
this isn't a big change and it's not a large thing, although 
it's being interpreted by all commentators as a large thing. 
And earlier, in response to Senator Nelson, you focused on 
preempting terrorism, but the document also has preemption of 
states, as well, not just of terrorist organizations. So it 
extends to states, which is a radical change in the heretofore 
approach to dealing with states.
    If this document does not state a new preemptive doctrine 
of significance, and, therefore, it's been widely 
misinterpreted or misrepresented in the press, why hasn't the 
administration taken steps to correct that misunderstanding or 
misinterpretation?
    Secretary Powell. Because I believe the document speaks for 
itself.
    Senator Sarbanes. It's not speaking the way--everyone else 
thinks it speaks differently than the way you----
    Secretary Powell. Every time a new national security 
document comes out, which is on some regular basis, there is 
always something in it that draws attention. And in the light 
of the situation in Iraq and in light of 9/11, that particular 
section has been focused on rather extensively.
    I don't think--I don't have it in front of me, but I don't 
think it says that the doctrine of preemption substitutes or 
eliminates containment or deterrence. We still have forces in 
our structure, military structure, and we still have tools 
available to us diplomatically that go well beyond preemption 
and, frankly, go back to our tried and true doctrines of 
containment and doctrines of deterrence. It highlights the way 
it's written.
    It highlights the fact that terrorism of the kind we saw 
practiced in 9/11 presents a new threat to us and we have to 
consider the doctrine or the idea or the concept of preemption 
as a way of dealing with these. And it also puts it in a 
context that says it should not be done lightly, it should not 
be done without understanding of the consequences, and it 
should not be done in a way that people would think that we are 
just simply running around looking for wars. I think that is an 
overstatement of what the document says.
    Senator Sarbanes. Well, I think it's safe to say that it 
redefines ``imminent threat.''
    I'd just end on a sort of a--perhaps a lighter note. I 
enjoyed this cartoon by Tom Toles in the Post. It says, ``A new 
policy. The U.S. has the right to do whatever we want, whenever 
we want, wherever we want, to whomever we want regardless of 
what anyone else in the world thinks about it.'' And then he 
says, ``Did I leave anything out?'' The fellow says, ``Well, 
with rights, don't there also come responsibilities?'' He 
thinks about that and then he says, ``It is the responsibility 
of the rest of the world to help us pay for it.''
    So I just commend that to you for your attention.
    Secretary Powell. What I would commend to you, Senator, is 
the United States should have the right to defend itself----
    Senator Sarbanes. Absolutely.
    Secretary Powell [continuing]. Against terrorist threats 
that are coming our way.
    Senator Sarbanes. But you've been----
    Secretary Powell. And if a terrorist threat is coming our 
way or if there is a nation out there that we know is planning 
to conduct action against us that we could preemptively stop, 
then I see no reason why the President should not do that.
    Senator Sarbanes. Now, Secretary Kissinger this morning 
mentioned those potential candidates for that approach because 
of the presence of al-Qaeda terrorism--Somalia, Yemen, Iran, 
and Indonesia--in his testimony. What's your view of that?
    Secretary Powell. I'm not putting anybody on a candidate 
list. It depends on what the threat is, the reality of that 
threat, the proximity of that threat, the danger of that 
threat, and whether or not a President of the United States 
should take action to preempt or prevent such a threat.
    And if he has sufficient information that this threat is 
coming against the United States and he can take action to 
prevent it or preempt it, however--whichever word you prefer--I 
see no reason why we should deny a President of the United 
States the option to do that, or we should find that to be 
objectionable or somehow distasteful or somehow inconsistent--
--
    Senator Sarbanes. Is that to suggest that----
    Secretary Powell [continuing]. With our policies of long 
duration.
    Senator Sarbanes. Is that to suggest there are other 
potential candidates lined up behind Iraq?
    Secretary Powell. We're not looking at candidates. We're 
looking at national security strategy, at a strategy of dealing 
with threats that might be coming at the United States of 
America, and I believe it would be irresponsible for us not to 
consider the doctrine of preemption or prevention or concept, 
if you wish to call it that. When we see a real and present 
danger that is coming our way and we can do something about it, 
then why should not the President do something about it to 
protect the American people?
    Senator Sarbanes. Unilaterally----
    Secretary Powell. I think the American people understand 
that.
    Senator Sarbanes. Unilaterally do something about it?
    Secretary Powell. Sir?
    Senator Sarbanes. Unilaterally do something about it?
    Secretary Powell. Maybe it's unilaterally, maybe----
    Senator Sarbanes. Do other----
    Secretary Powell [continuing]. It's not unilaterally.
    Senator Sarbanes [continuing]. Do other nations----
    The Chairman. Senator?
    Senator Sarbanes [continuing]. Can other----
    The Chairman. Senator?
    Senator Sarbanes [continuing]. Do other nations have 
recourse to the same line of thinking?
    Secretary Powell. There is no nation that should not have 
recourse to a line of thinking when a threat is coming its way. 
It's inherent in the sovereignty of a nation to protect itself.
    The Chairman. One of the problems----
    Secretary Powell. If we saw--if we were able to spot--well 
I don't want to get into anecdotal stuff, the Japanese fleet 
sailing on Pearl Harbor and knew what was going to happen and 
knew what was coming our way, preemption would have been a very 
sound policy, in my judgment, if the President had enough 
information and if he could present to the world, before or 
after the fact, why he did it and make the case for it. It 
seems to me that's the kind of thing you would have done.
    Senator Sarbanes. I don't find that analogy really on all 
fours.
    The Chairman. Mr. Secretary----
    Secretary Powell. Yes?
    The Chairman. One of the problems of having a powerful 
chairman of another committee on your committee is he thinks 
he's chairman of that committee, too.
    And the only prerogative of being the chairman is you get 
to ask the last question, at least I thought it used to be. At 
any rate----
    Senator Sarbanes. I yield to the chairman.
    The Chairman. I thank you. After 20 minutes, he yields to 
me.
    But I love him, and he has good questions.
    But let me ask you a concluding question here, because we 
only have a few minutes left on this vote and I'm sure you will 
not miss being able to leave.
    I'm not looking for percentages, but can you tell us what 
the next stages in your negotiations are, in your attempt to 
get a resolution through the Security Council that has teeth in 
it on a different regime of inspection? And ancillary to that, 
are you unalterably opposed, is the President unalterably 
opposed, to a two-step process? Or need it be one-step?
    Secretary Powell. On the first question, within the last 24 
hours we came into agreement with the United Kingdom on what we 
thought a good resolution looked like and should contain. And, 
as I mentioned earlier, we are now--both the United States and 
the United Kingdom have begun consultations with the other 
permanent members of the Security Council on our idea. And we 
expect that there will be agreement on a number of elements and 
there will be disagreement on a number of elements. That's what 
a negotiation is all about.
    The press likes to portray this as being in disarray, but 
most negotiations are in disarray until you have an agreement, 
and we're working on that.
    With respect to one resolution or two resolutions and the 
distinction being that the second resolution has the trigger, 
we believe one resolution is a better solution, a better 
outcome, but we're mindful that our colleagues in the Security 
Council have other ideas. And so we have sent our 
representatives out to hear those other ideas and to begin a 
discussion, and I would not prejudge what the President might 
do after he has received the result of that consultation.
    The Chairman. I thank you very much, Mr. Secretary. I wish 
you luck in the effort, and we are adjourned.
    [Whereupon, at 5:45 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


             Response to Additional Question for the Record


  Response of Hon. Colin L. Powell, Secretary of State, to Additional 
   Question for the Record Submitted by Senator Joseph R. Biden, Jr.

               attitudes of iraqi shia towards democracy.
    Question. What are the attitudes of the Shia diaspora in Iran about 
democracy or about a united Iraq?

    Answer. The State Department regularly meets with a variety of 
Iraqi Shia opposition groups, including the Tehran-based Supreme 
Council for the Islamic Revolution in Iraq. All of the predominantly 
Shia groups that we meet with consistently express their support for a 
future democratic Iraq that has maintained its territorial integrity. 
Additionally, we recently received a letter signed by 121 prominent 
Shia independents, which highlights the historical commitment of Iraqi 
Shia to a unified Iraqi state, and details the signatories commitment 
to a democratic Iraq.

                                   - 

</pre></body></html>
